                                                                                                             sigar
   SIGAR
   Special Inspector General                                                                                                  Special Inspector General for    July 30




                                    SIGAR | Quarterly Report to the United States Congress | July 30, 2012
   for Afghanistan Reconstruction
                                                                                                                              Afghanistan Reconstruction        2012
   2530 Crystal Drive
   Arlington, VA 22202

   www.sigar.mil




                                                                                                              Quarterly Report to the United States Congress




                                    3


newJuly12Cover.indd 1                                                                                                                                              7/19/2012 2:12:58 PM
                        The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                        established the Special Inspector General for Afghanistan
                        Reconstruction (SIGAR).
                        SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                        independent and objective
                        •	 conduct and supervision of audits and investigations relating to the programs
                           and operations funded with amounts appropriated or otherwise made available
                           for the reconstruction of Afghanistan.
                        •	 leadership and coordination of, and recommendations on, policies designed
                           to promote economy, efficiency, and effectiveness in the administration of the
                           programs and operations, and to prevent and detect waste, fraud, and abuse
                           in such programs and operations.
                        •	 means of keeping the Secretary of State and the Secretary of Defense fully
                           and currently informed about problems and deficiencies relating to the
                           administration of such programs and operation and the necessity for and
                           progress on corrective action.
                        Afghanistan reconstruction includes any major contract, grant, agreement,
                        or other funding mechanism entered into by any department or agency of the
                        U.S. government that involves the use of amounts appropriated or otherwise made
                        available for the reconstruction of Afghanistan.

                        Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                        (For a list of the congressionally mandated contents of this report, see Section 3.)




                        Cover photo:                                                                                       Afghan children watch as U.S. Marines from Regimental Combat Team 6 survey the site of a future Afghan
                        A Provincial Reconstruction Team (PRT) member meets a villager in Farah province. PRTs are being   Local Police (ALP) station in Sangin, Helmand province, on May 31. The ALP, a community-watch initiative,
                        withdrawn from some provinces in anticipation of the 2014 drawdown in the U.S. and international   provides security in areas where the Afghan National Security Forces and ISAF do not have a significant presence.
                        presence. (USAF photo, SrA Rylan K. Albright)                                                      (USMC Photo, Sgt. Logan Pierce)




newJuly12Cover.indd 2                                                                                                                                                                                                                          7/19/2012 2:13:01 PM
                             SPECIAL INSPECTOR GENERAL             FOR

                            AFGHANISTAN RECONSTRUCTION




I am pleased to provide SIGAR’s quarterly report to Congress on the status of the U.S. effort
to rebuild Afghanistan. As I assume the challenging role of Special Inspector General for
Afghanistan Reconstruction, I am deeply aware that the future of Afghanistan—where we
have invested our human and financial treasure—depends to a large degree on the success-
ful execution of billions of dollars of reconstruction programs over the next two years. The
gravity of the situation demands quicker, smarter, and more aggressive oversight.
    The scheduled end of the U.S. combat presence in 2014, the handover of security
functions to the Afghan government, fiscal constraints facing donor countries, and the
persistence of the Taliban and other armed factions—all increase the pressure to com-
plete vital projects, stand up viable institutions, and otherwise help the Government of
the Islamic Republic of Afghanistan move toward sustainable self-reliance. All of us in the
oversight community must aggressively scrutinize this work to protect taxpayer dollars by
identifying problems and offering corrective action before it is too late.
    As this report to Congress illustrates, a decade of struggle and bloodshed—and more
than $89 billion of U.S. appropriations for Afghan reconstruction—has not cleared the
landscape of serious problems. For example, recent SIGAR audits have found:
 •	 A significant portion of the U.S. government’s $400 million investment in large-scale
    infrastructure projects in fiscal year 2011 may be wasted, due to weaknesses in plan-
    ning, coordination, and execution, raising sustainability concerns and risking adverse
    counter-insurgency effects.
 •	 Security costs at reconstruction sites are likely to increase as a result of the mandated tran-
    sition from private security companies to the state-owned Afghan Public Protection Force.
 •	 USAID contracts to promote district-level stabilization in eastern Afghanistan are mak-
    ing slow progress, have high operating costs, and lack a country-wide exit strategy.
 •	 The U.S. Army accepted contract construction that is so poor it prevents some multi-
    million-dollar border police bases from being used as intended. One base is unoccupied
    because it has no viable water supply. Other deficiencies included leaking fuel lines,
    unconnected drain pipes, poorly built guard towers, and improperly installed heating
    and ventilation systems.

   If Congress approves the President’s current request for new reconstruction fund-
ing, the United States will have provided nearly $100 billion to rebuilding Afghanistan
since 2002. Using that money effectively to improve security, governance, and socio-
economic development in Afghanistan poses tremendous challenges. With over $36 billion
of unexpended and proposed reconstruction funding at stake, and in the face of serious
uncertainties about project sustainability, the need for sharp and effective oversight grows
daily more critical.
   There is still time to boost efficiency, prevent waste, identify wrongdoers, suspend or
debar bad contractors, prosecute crimes, recover losses, and take other steps to improve




                           2530 CRYSTAL DRIVE   ARLINGTON, VIRGINIA 22202
program and mission outcomes. But the window of opportunity is closing. That is why,
under my leadership, SIGAR will intensify its oversight work.

Leveraging SIGAR’s unique mandate
SIGAR is unique because it is:
 •	 the only IG focused solely on the Afghanistan mission
 •	 the only IG devoted solely to reconstruction issues
 •	 the only IG mandated to look across departmental boundaries and assess multijuris-
    dictional programs
As SIGAR’s new Inspector General, and as its first permanent IG in nearly two years, I
intend to leverage SIGAR’s unique authorities to conduct aggressive oversight focusing on
the most critical issues, and to alert Congress and the implementing agencies to problems
in time to take corrective actions. This quarter we have advanced a number of new initia-
tives to meet that goal.

A new joint strategic plan for audits
Recognizing the press of time and the importance of better coordinated and more effec-
tive oversight, SIGAR recently took the lead in developing a Joint Strategic Oversight
Plan for Fiscal Year 2013 in concert with our counterparts at the Departments of
Defense and State, and at the U.S. Agency for International Development. The plan
maximizes oversight resources to scrutinize programs essential to achieving U.S. recon-
struction goals during this critical transition period. Auditors will examine the status of
and recommend improvements in vital efforts like building the capacity and capabilities
of the Afghan National Security Forces, sustaining U.S. investment in Afghan institutions
and infrastructure, expanding and sustaining the Afghan justice system, and implement-
ing anti-corruption initiatives.

More aggressive, actionable recommendations
SIGAR’s statutory mandate from Congress requires audits and investigations. But it also
directs SIGAR to lead and coordinate recommendations for policy changes, and to keep
the Secretaries of Defense and State “fully and currently informed on problems and defi-
ciencies … and the necessity for and progress on corrective action” (Public Law 110-181).
   SIGAR’s work, therefore, requires that we move beyond the granular diagnoses of par-
ticular projects to ask: What do our audit results mean? Is there a systemic or endemic
root cause behind the deficiencies? Have past recommendations been adopted, and to
what effect? What new, timely, constructive, and actionable recommendations can we
offer to salvage something from this program, or at least promote a better outcome in
others? Is there a lesson to be learned for future operations?
   Members of Congress and their staffs, as well as senior officials at executive depart-
ments, have generally welcomed SIGAR’s recommendations. But they have also
encouraged us to offer recommendations earlier in programs’ planning and execution to
maximize the opportunity for correcting shortcomings and avoiding waste. We have lis-
tened and will sharpen our attention to spotting such opportunities. We will practice more
preventive medicine while continuing to produce informative post-mortems when they are
necessary. Our recent audit of the Afghanistan Infrastructure Program is one example of
this approach. We specifically designed that audit to occur early in the program, so that
any problems or opportunities for improvement could be identified and addressed early.




                        2530 CRYSTAL DRIVE   ARLINGTON, VIRGINIA 22202
Capstone reports to address systemic problems
We are working on a new “capstone report” initiative to highlight and address systemic
challenges facing the reconstruction effort. These issues warrant special attention because
of the major and recurring deficiencies SIGAR and other IG offices have discovered. These
reports will help Congress and the Executive Branch seize opportunities to make programs
more effective.
   The first SIGAR capstone report, to be issued later this year, will be devoted to the critical
issue of sustainability. As various SIGAR reports and testimonies have cautioned, many billions
of dollars of U.S. investments in Afghanistan may be wasted without arrangements to ensure
that the Afghans have adequate personnel, skills, access to technology, funding, and planning
and oversight mechanisms to sustain them. That sustainability concern covers a vast range of
investments, from security forces and power plants, to schooling and bank regulation.
   Going forward, security and sustainability are the two biggest challenges in Afghanistan
reconstruction. Without effective security—the object of more than $50 billion in U.S. appro-
priations since 2002—governance and socioeconomic development cannot succeed. But
without sustainability, no amount of success in security can long endure.

Instituting a new financial audit program
Financial audits are an important tool for protecting taxpayer dollars. Although we have
done some work to examine vouchers of contractors operating in Afghanistan, we are
expanding this effort. This quarter, SIGAR will begin a new audit program to examine the
costs incurred under high-risk reconstruction contracts. These audits, which we are coordi-
nating with our oversight partners, will provide timely and detailed financial oversight that
is needed in Afghanistan.

Our resolve
My appointment by the President of the United States to serve as Special Inspector General
is an honor and a challenge. All the skills and insights gained in more than 30 years as a
lawyer serving as a state and federal prosecutor of organized-crime and other offenders, as a
congressional staff member and committee counsel, and as a Commerce Department official
will be devoted to carrying out my duties.
    SIGAR intends to be the U.S. government’s most independent, trusted, and helpful coun-
sel on reconstruction issues—not solely for the sake of the Afghanistan mission, but also for
the sake of other overseas or domestic operations that require reconstruction efforts and
that could benefit from the lessons learned in the harsh setting of Afghanistan.
    That aspiration would be unobtainable, however, if not for the solid work already per-
formed by SIGAR’s experienced and professional cadre of auditors, investigators, and
support personnel. I thank them all—especially Investigations Directorate leader Steven
Trent, who ably served as Acting Special Inspector General before my arrival—for their
past service and will rely on them as we increase the impact of our work in support of the
Afghanistan mission, fiscal responsibility, and U.S. policy objectives.

  Respectfully,




  John F. Sopko
  Special Inspector General for Afghanistan Reconstruction


                          2530 CRYSTAL DRIVE   ARLINGTON, VIRGINIA 22202
TABLE OF CONTENTS




     SECTION 1
     AFGHANISTAN OVERVIEW
     	3	    Strategic Partnership Agreement Signed
     	5	    NATO Endorses Accelerated Security Transition
     	7	    Donors Pledge $16 Billion at Tokyo Conference
     	9	    World Bank Assessment Looks Beyond 2014
     	10	   Oversight Concerns
     	10	   Going Forward




     SECTION 2
     SIGAR OVERSIGHT
     	15	 SIGAR Welcomes New Inspector General
     	16	 New Initiatives
     	18	Audits
     	37	Investigations
     	44	 SIGAR Staff




     SECTION 3
     RECONSTRUCTION UPDATE
     	49	Overview
     	53	 Status of Funds
     	67	Security
     	85	Governance
     	111	 Economic and Social Development
TABLE OF CONTENTS




  SECTION 4
  OTHER AGENCY OVERSIGHT
  	139	 Completed Oversight Activities
  	150	 Ongoing Oversight Activities




  APPENDICES & ENDNOTES
  	162	 Appendix A:	Cross-Reference Of Report
        	           to Statutory Requirements
  	166	 Appendix B:	U.S. Funds For Afghanistan Reconstruction
  	168	 Appendix C:	SIGAR Audits
  	171	 Appendix D:	SIGAR Investigations and Hotline
  	173	 Appendix E:	Abbreviations and Acronyms
  	177	Endnotes
                                     Working Toward Transition
 President Barack Obama speaks with U.S. troops at Bagram
    Airfield after the May 2 signing of the U.S.-Afghan strategic
      partnership agreement that provides a framework for the
bilateral relationship through the 2014 transition and beyond.
                            (U.S. Army photo, SGT Roland Hale)
1   AFGHANISTAN
    OVERVIEW




        1
          AFGHANISTAN OVERVIEW




  “There will be difficult days ahead.
   But as we move forward with our
 transition, I’m confident that Afghan
  forces will grow stronger [and] the
   Afghan people will take control of
   their future. With this agreement,
I am confident that the Afghan people
will understand that the United States
           will stand by them.”
                   —U.S. President Barack Obama




          Source: White House, “Remarks by President Obama and President Hamid Karzai of Afghanistan at
          Signing of Strategic Partnership Agreement,” 5/2/2012.




               2                          SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                      AFGHANISTAN OVERVIEW




AFGHANISTAN OVERVIEW
Since SIGAR’s last report to Congress, the United States, its coalition partners,
and the Afghan government have established a framework for reconstruction
assistance through the 2014 security transition and into what they are calling
the “transformation decade” (2015–2024). Through 2014, the international
community estimates that Afghanistan will require at least $9 billion a year to
sustain current operations and fund development. It will take about $5 billion
to cover the costs of the Afghan security forces at current levels and another
$4 billion to support the Afghan budget and provide economic assistance.
   The President’s FY 2013 budget request includes nearly $9.7 billion to
strengthen the Afghan security forces during this critical transition period
and to fund programs to build governing capacity, promote economic devel-
opment, and counter the drug trade. Funding needs are expected to decline
gradually after 2015 as Afghanistan generates increased government revenue
and becomes more self-reliant.
   Three key events this quarter—the signing of the Enduring Strategic
Partnership Agreement, the NATO Summit, and the Tokyo Donors
Conference—broadly outlined Afghanistan’s security relationship with the
United States, endorsed an accelerated timetable to transition security to
the Afghan government, and addressed key transition challenges:
•	 Assuring Afghanistan of long-term financial support to sustain and build
    on reconstruction gains as U.S. and coalition forces withdraw
•	 Establishing reconstruction priorities in the face of decreasing funding
•	 Ensuring the Afghan government institutes reforms to bolster
    accountability, tackle corruption, and improve public services
•	 Setting benchmarks so the Afghan government and the international
    community can measure progress


STRATEGIC PARTNERSHIP AGREEMENT SIGNED
On May 2, 2012, after over a year of negotiations, President Barack Obama
and President Hamid Karzai signed a new pact, laying a foundation for a
relationship between the United States and Afghanistan after the bulk of
American troops have gone home. The Enduring Strategic Partnership
Agreement signaled a long-term U.S. commitment to sustain the Afghan




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                    3
AFGHANISTAN OVERVIEW




President Barack Obama shakes hands with President Hamid Karzai on May 2, 2012,
after signing the historic Strategic Partnership Agreement between the United States and
Afghanistan to define a long-term framework for relations between the countries after the
2014 drawdown of U.S. forces. (U.S. Embassy Kabul photo)


security forces, fund economic-development programs, promote good gov-
ernance, support regional security and cooperation, and help Afghanistan
deal with its budget shortfall. The United States said it would support
efforts to build Afghan governing capacity. The Agreement was intended to
reassure Afghans and warn insurgents that the United States had learned
the lessons of the past and would not abandon Afghanistan after 2014.
President Obama said the agreement ensures that “as Afghans stand up,
they will not stand alone.”1
   The agreement also underscored the importance of fighting corruption.
Afghanistan pledged to strengthen its anti-corruption institutions, adopt
measures to protect its financial system, and take steps to increase effi-
ciency and accountability at all levels of the government. Afghanistan also
committed to protect and promote democratic values and human rights,
including “the essential role of women in society, so that they may fully
enjoy their economic, social, political, civil, and cultural rights.”2
   Afghanistan’s National Assembly ratified the agreement in early June.

Afghanistan Designated a Major Non-NATO Ally
The Enduring Strategic Partnership Agreement included a provision that
the United States would designate Afghanistan a Major Non-NATO Ally
(MNNA), thus establishing a framework for continuing security and defense




   4                    SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                     AFGHANISTAN OVERVIEW




cooperation. NATO, the North Atlantic Treaty Organization, is the major
international organization providing military assistance in Afghanistan.
MNNA countries are eligible for U.S. training, loans of equipment for
research and development, and ultimately for foreign military financing
for defense purposes. On July 6, 2012, President Obama signed the order
giving Afghanistan MNNA status and signaling the U.S. commitment to
Afghanistan after the transition. Afghanistan is the first country to be des-
ignated an MNNA since 2004, when Kuwait, Morocco, and Pakistan were
added to the list.

Provincial Reconstruction Teams to Close
The United States also committed in the Agreement to eliminate the
Provincial Reconstruction Teams (PRTs) and District Support Teams
(DSTs) that were established to support local governance and develop-
ment initiatives in Afghanistan. The United States and its coalition partners
had PRTs in 26 of Afghanistan’s 34 provinces at the beginning of 2012; the
United States was in charge of 12 of them. The Afghan government sees
PRTs as parallel structures to local governments and wants them progres-
sively disbanded as coalition forces turn over responsibility to the Afghan
security forces. The first U.S.-operated PRT was scheduled to close as
this report went to press. Transition plans call for all PRTs to be closed by
the end of 2014. The United States is planning to have a reduced civilian
presence after 2014 in Afghanistan to support a smaller development and
security assistance program.

Bilateral Security Agreement Still to Be Negotiated
The United States and Afghanistan will negotiate a new bilateral security
agreement over the next year to replace existing agreements govern-
ing deployment of U.S. military personnel in Afghanistan. The Enduring
Strategic Partnership Agreement did not address the post-2014 U.S. mili-
tary presence.


NATO ENDORSES ACCELERATED SECURITY TRANSITION
On May 21, 2012, the leaders of the 50 countries contributing to the NATO
mission in Afghanistan met in Chicago and agreed to a new transition time-
table that would put Afghan security forces in charge of security throughout
the country by the summer of 2013. The NATO-led International Security
Assistance Force (ISAF) will support the Afghan security forces as coalition
forces withdraw. In a joint communiqué issued at the end of the one-day
meeting, the leaders said that by the end of 2014, the NATO mission will
have shifted from combat to one of training, advising, and assisting. The
leaders pledged that their close partnership with Afghanistan “will continue
beyond the end of the transition period.”3




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                  5
AFGHANISTAN OVERVIEW




Afghan National Security Forces (ANSF)
to Cost $4.1 Billion Per Year After Transition
The Afghan government does not have sufficient revenue to pay for its
security forces and looks to the international community for funds to help
cover the salaries and operating costs of the Afghan National Army (ANA)
and the Afghan National Police (ANP) through 2024. The United States and
its coalition partners have been building the ANSF to a combined strength
of 352,000 soldiers and police. NATO leaders agreed to scale back the total
force to a more financially sustainable 228,500 by 2017, security conditions
permitting. They estimated it will cost $4.1 billion per year to maintain a
force of this size. NATO leaders pledged to play their part in creating fund-
ing mechanisms for these forces, but cautioned, “such mechanisms will be
flexible, transparent, accountable, cost-effective, and will include measures
against corruption.”4
    The United States is covering most of the costs of the ANA and provides
a substantial amount for the ANP. The NATO Summit joint communiqué
stipulates that the Afghan government will contribute $500 million in 2015
toward the sustainment of its security forces and gradually increase its
share of the ANSF costs until 2024, when it will have full financial responsi-
bility for its security forces.
    In the meantime, however, the United States is likely to be footing much
of the bill for the ANSF. President Obama has requested $5.7 billion for
FY 2013 to build, equip, train, and sustain the ANA and the ANP.

Transition Enters Third Phase
The week before the NATO summit, President Karzai announced that a
third group (“tranche”) of provinces, districts, and cities would begin tran-
sitioning to Afghan government control of security. After the third tranche
transition, about 75% of Afghanistan’s population will live in areas where
Afghan forces have the primary responsibility for security. Coalition forces
began transitioning areas in March 2011. The first tranche accounted for
about 25% of the Afghan population. In November 2011, the Afghans took
the security lead in a second set of areas. However, coalition forces are still
engaged in combat in many of the areas in transition. According to NATO,
the transition process in each area could take up to 18 months to complete.5

NATO Calls for Peace and Reconciliation
Participants at the NATO Summit also emphasized that reconciliation with
insurgents and reintegration of former combatants is essential to achieving
peace and stability in Afghanistan. They reiterated the long-standing inter-
national requirement that reconciliation must be based on the renunciation
of violence, the breaking of ties to international terrorism, and compliance
with the Afghan constitution, including human-rights provisions.6




   6                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                    AFGHANISTAN OVERVIEW




DONORS PLEDGE $16 BILLION AT TOKYO CONFERENCE
On July 8, 2012, representatives from 70 countries, international organi-
zations, and non-profit groups met in Tokyo to create a framework for
continued international support for Afghanistan’s economic development
from transition at the end of 2014 through the “transformation decade”
(2015–2024). At the conference, the international community offered to
provide an estimated $16 billion in aid from now through 2015, but with
conditions. In return for the assistance, the Afghan government promised
to implement political and economic reforms to improve governance, make
public institutions more accountable, and tackle pervasive corruption.
   The $16 billion does not represent firm pledges by individual countries,
but rather a general commitment to maintain current development funding
over the next four years. For example, Secretary of State Hillary Clinton
told conference delegates that the Administration would ask Congress
to continue to provide development assistance “at or near the levels of
the past decade through 2017.”7 President Obama’s FY 2013 budget for
DoS-managed reconstruction programs included a request for more than
$1.8 billion for the Economic Support Fund (ESF), which is the U.S. gov-
ernment’s primary vehicle for providing development assistance, as well
as nearly $1.5 billion for the International Narcotics Control and Law
Enforcement program.
   Afghanistan and the international community provided an annex to
the conference declaration entitled the “Tokyo Mutual Accountability
Framework” which described priority areas, provided benchmarks for the
Afghan government to meet, and clearly stated that “the international com-
munity’s ability to sustain support for Afghanistan depends upon the Afghan
government delivering on its commitments.”8

International Community Establishes
Five Reconstruction Priorities
Under the Tokyo Framework, the international community, together with
the Afghan government, agreed that international aid will focus on achiev-
ing objectives in five major areas:
 •	 Ensuring credible, inclusive, and transparent presidential elections
    in 2014 and parliamentary elections in 2015
 •	 Increasing access to justice for all, especially women, and
    combating corruption
 •	 Improving the integrity of public financial management and the
    banking sector
 •	 Improving the Afghan government’s ability to collect revenues and
    develop and execute budgets
 •	 Achieving inclusive and sustained growth through a focus on human
    development, food security, and private investment




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               7
AFGHANISTAN OVERVIEW




U.S. Secretary of State Hillary Rodham Clinton participates in the Tokyo Conference on
Afghanistan in Tokyo, Japan, on July 8, 2012. (DoS photo, William Ng)

   Under this framework, the international community once again com-
mitted to channeling at least 50% of its development assistance through
the Afghan national budget. Much of this direct assistance will go through
established funds like the Afghanistan Reconstruction Trust Fund, which is
managed by the World Bank and supports the Afghan government’s “core”
and “development” budgets.
   Under the Tokyo Framework, the Afghan government and the inter-
national community also agreed to establish a transparent and regular
monitoring process to hold the government and donors responsible for
reciprocal commitments. This process will build on the existing Joint
Monitoring Control Board, which approves major reconstruction initiatives
such as increasing the force strength of the ANSF.
   The international community and the Afghan government relied heavily
on the World Bank’s latest assessment of the Afghan economy to project
Afghanistan’s financial needs and to identify the five priority areas.




   8                   SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                    AFGHANISTAN OVERVIEW




WORLD BANK ASSESSMENT LOOKS BEYOND 2014
During this reporting period, the World Bank published a sobering assess-
ment of the challenges facing Afghanistan as coalition forces withdraw and
international development assistance decreases. In its report, “Afghanistan
in Transition: Looking Beyond 2014,” the Bank observed that Afghanistan
remains one of the world’s least developed countries and has become one
of the world’s most donor-dependent countries. Military and civilian aid in
2010/2011 totaled $15.7 billion; Afghanistan’s gross domestic product (GDP)
in 2010, excluding opium production, was $15.9 billion. International donors
cover about 48% of the country’s budget, counting operating costs, wages,
and development projects.9 The report observed that this level of assistance
cannot be sustained by the United States and other donors.10
   The World Bank report detailed the large fiscal gap between what
the Afghan government can afford to pay for itself through its own rev-
enue collection and what the international community is providing in
assistance. The Bank predicts that the fiscal gap will equal 33% of GDP
by roughly 2014/2015 and ease to 25% of GDP by around 2021/2022, pro-
vided Afghanistan can realize income from the development of natural
resources, particularly in the mining sector. By comparison, the Bank
pointed out that the financing gap that triggered Greece’s current fiscal
crisis was about 13% of GDP.11 Afghanistan’s fiscal gap cannot be financed
without a sizable infusion of international aid.
   Security costs account for about half of the anticipated fiscal gap after
2014. The Bank warned that even with significant reductions in force
size, the Afghan government will not be able to pay for ANSF salaries
and equipment. It will continue to rely on the international community to
cover most of these costs.12
   The Bank also noted that although international aid has improved
Afghans’ lives over the last decade, it has also brought problems. “These
inflows—most of them off budget—have been so high,” according to the
assessment, “that they have led to aid dependency and have increased oppor-
tunities for mismanagement, waste, and corruption.”13 The Bank suggested
that a decline to more normal levels of assistance—if managed well—would
give Afghanistan the opportunity to address these problems and transition to
a more sustainable economy. However, the Bank cautioned, “donors need to
reduce future aid flows gradually to avoid major disruptions.”14
   Nevertheless, the World Bank said the most serious threats to economic
growth would not come from declining aid but from noneconomic forces
such as political uncertainty, falling business confidence, and poor gover-
nance. It concluded: “All efforts of the government and its development
partners to stabilize economic performance over the next few years are
contingent on a stable and improving security and governance environ-
ment.”15 Section 3 of this report provides an update on U.S. reconstruction
programs to support governance and economic development.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               9
                                          AFGHANISTAN OVERVIEW




                                          OVERSIGHT CONCERNS
                                          The transition from coalition forces to Afghan troops and from private
SIGAR AUDIT
                                          security companies to the Afghan Public Protection Force (APPF) may
In a June 29, 2012, audit report,         constrain oversight of reconstruction programs. Implementing agencies
SIGAR found costs for security at         and oversight agencies alike have depended on support from U.S. forces
USAID projects could rise significantly   and private security companies to travel to the provinces to monitor proj-
because of the transition from private    ect development and conduct audit and investigative work. SIGAR has
companies to the Afghan Public            already noticed constraints on U.S. forces’ ability to facilitate these trips.
Protection Force, and that use of un-     Implementing agencies stand on the front lines of oversight. If project
licensed personnel could create risks.    managers and contracting officers cannot visit projects, it becomes very
For details, see SIGAR Audit 12-10,       difficult to exercise oversight responsibilities.
“Increases in Security Costs Are Likely      It is not yet clear how the transition to the APPF is going to affect con-
under the Afghan Public Protection        tractors’ ability to execute and monitor progress for projects in critical
Force; USAID Needs to Monitor Costs       provinces, especially in the south and the east. This quarter, SIGAR pub-
and Ensure Unlicensed Security Provid-    lished an audit raising concerns about the costs of transitioning to the APPF
ers Are Not Used,” at www.sigar.mil.      and the risk that the APPF may not be able to provide the required security.
                                          SIGAR is closely monitoring the effects of the transition to Afghan security
                                          forces and the APPF.


                                          GOING FORWARD
                                          The next two years are critical as ISAF troops transition responsibility
                                          for security to the Afghan forces. These two years will determine whether
                                          the enormous U.S. investment in the reconstruction of Afghanistan over
                                          the last decade will result in a stable country that is able to defend itself
                                          and provide essential services for its citizens. For this reason, SIGAR is
                                          intensifying its efforts to deter waste, identify program deficiencies, inves-
                                          tigate contract fraud and corruption, suspend or debar poorly performing
                                          contractors, recover losses, and take other steps to improve the U.S. recon-
                                          struction program.
                                             Other inspectors general share that realization and that commit-
                                          ment. This quarter, SIGAR and the Inspectors General for Department
                                          of Defense, Department of State, and U.S. Agency for International
                                          Development agreed to a FY 2013 strategic audit plan focused on the
                                          13 most important issues related to security, governance, development,
                                          and counter-narcotics. SIGAR led this effort to develop an integrated
                                          audit plan in order to provide Congress and implementing agencies with
                                          a more coherent picture of the reconstruction effort and with timely
                                          recommendations to improve the efficiency and effectiveness of the key
                                          reconstruction programs. Under this plan, SIGAR will focus on the U.S.
                                          reconstruction priorities and assess the capacity and capabilities of the
                                          ANSF and the degree to which the Afghan government has developed
                                          the capacity to raise, manage, and account for funds. Our audits will
                                          evaluate U.S. assistance for elections, which the United States and the




                                            10                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                    AFGHANISTAN OVERVIEW




international community have identified as fundamental to a peaceful
transition of presidential power in Afghanistan. They will also examine
such cross-cutting issues as planning and coordinating U.S. assistance
programs and whether implementing agencies are providing necessary
oversight of contracts, grants, and cooperative agreements.
   SIGAR is also working on two new initiatives to broaden and deepen
oversight: capstone reports on issues that warrant special attention and
financial audits of high-risk reconstruction contracts. Because the long-term
impact of the U.S. reconstruction effort depends on the degree to which the
Afghans can sustain reconstruction projects and programs, SIGAR’s first
capstone report will be devoted to the question of how to better ensure that
U.S.-funded programs can be sustained. The financial audits, which we are
coordinating with our oversight partners, will provide timely and detailed
assessments of the costs incurred on critical contracts.
   The U.S. reconstruction program has been an essential component of the
U.S. strategy in Afghanistan to defeat al-Qaeda and ensure that terrorists
cannot operate from Afghan territory. If Congress approves the President’s
FY 2013 budget request, the United States will have committed nearly
$100 billion over the last decade to build a stable country that can pro-
tect itself and improve the lives of its people. The United States has never
provided so much funding over a similar period of time to rebuild another
country: for example, U.S. reconstruction aid to Germany after World War II
(1946–1952) amounted to less than $35 billion in 2011 dollars.16 SIGAR is
committed to conducting aggressive oversight of these extraordinary funds
to save taxpayer dollars and improve program effectiveness to give the U.S.
reconstruction program its best chance to succeed.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               11
                                         Inspecting Infrastructure
     SIGAR auditor Anthony Warren listens to an interpreter inside
      an Afghan Border Police (ABP) compound in La’l Por district,
Nangarhar province, on February 16. The SIGAR team worked with
  U.S. soldiers, the ABP, and the U.S. Army Corps of Engineers to
  inspect two newly constructed ABP compounds for deficiencies.
                             (U.S. Army photo, SPC Amber Leach)
2   SIGAR
    OVERSIGHT




        13
          SIGAR OVERSIGHT




  “It is paramount that we respond
  to our customers—the Congress,
    the Defense Department, the
 State Department, USAID, and the
Justice Department—with timeliness
   and the utmost professionalism.
This is how we shall proceed: We will
 be aggressive. We will be accurate.
We will be fair. And we will be smart.”
   —Special Inspector General John F. Sopko




          Source: John F. Sopko, Remarks to SIGAR Staff, 7/3/2012.




              14                          SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




SIGAR OVERSIGHT                                                                COMPLETED AUDITS
                                                                               •	 Audit 12-10: USAID’s Costs for Private
                                                                                  Security Support Services
This quarter, SIGAR issued five audit and inspection reports, recovered
                                                                               •	 Audit 12-11: USAID’s Support of the
funds, protected contract monies, and supported legal actions that resulted       Afghanistan Stabilization Initiative
in the conviction, indictment, and debarment of individuals and compa-         	• Audit 12-12: Implementation of the AIP
nies found to have engaged in criminal activity. SIGAR announced five          •	 Audit 12-13: Outcomes of DoS Public-
new audits and initiated a study to assess the sustainability of U.S.-funded      Diplomacy Grants
reconstruction programs. In addition, SIGAR and the Inspectors General of      NEW AUDITS
the Departments of Defense (DoD) and State (DoS), and the U.S. Agency          •	 USAID Sustainability Planning for
for International Development (USAID) agreed to a strategic audit plan to       Development Programs
guide their work in FY 2013.                                                   •	 USAID Oversight of Non-Expendable
                                                                                  Property
    Also during this reporting period, the President of the United States
                                                                               	• Afghan Tariffs, Taxes, and Fees on U.S.
appointed John F. Sopko to serve as permanent Special Inspector General           Reconstruction Contractors
for Afghanistan Reconstruction.
                                                                               •	 Air Mobility Support for Interdiction
    SIGAR highlights this quarter include the following:                          Operations
 •	 four audit reports, including one that identified $86 million in funds     •	 U.S. Support for Commercialization of the
    potentially put to better use                                                 Afghanistan Electricity Utility
 •	 one inspection report that found the U.S. Army had accepted poorly         ONGOING AUDITS
    constructed police bases, of which one is unusable and another             •	 USACE O&M Contracts for ANSF
    threatens to become unusable                                                  Facilities
 •	 two convictions, seven indictments, and five arrests                       	• Oversight of A-TEMP for the ANP
 •	 $900,000 in recoveries                                                     •	 ANA Logistics Capability for Petroleum,
                                                                                  Oil, and Lubricants
 •	 $50 million in contract monies protected through an agressive
    termination-for-default program                                            •	 Construction of ANA Facility in
                                                                                  Badghis Province
 •	 23 finalized debarments                                                    •	 USAID’s Partnership with International
 •	 49 referrals for suspensions and debarments                                   Relief and Development, Inc.
                                                                               	• DoD Transaction Data Related to
                                                                                  Reconstruction
SIGAR WELCOMES NEW INSPECTOR GENERAL                                           •	 USAID Transaction Data Related to
                                                                                  Reconstruction
John F. Sopko was sworn in as Special Inspector General for Afghanistan
                                                                               	• DoS Transaction Data Related to
Reconstruction on July 2, 2012. During his first week, he met with SIGAR          Reconstruction
personnel and laid out mission priorities. He emphasized that SIGAR’s
mission—saving taxpayer dollars and improving vital government pro-
                                                                               COMPLETED INSPECTIONS
                                                                               •	 Construction Deficiencies at ABP Bases
grams—was extremely important as the United States and its coalition
partners transition responsibility for security from the U.S. and interna-     ONGOING INSPECTIONS
tional troops to the Afghan security forces.                                   •	 Three USACE Construction Projects



REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               15
SIGAR OVERSIGHT




Special Inspector General John F. Sopko presents Global War on Terror Medals to SIGAR
staff members Gabriele Tonsil and Angie Niblock for their service in Afghanistan.


   Sopko has more than 30 years of experience in law and government
service, most recently as a partner in an international law firm based in
Washington, D.C. He served for more than 20 years on Capitol Hill as a
staff member of the House Committee on Energy and Commerce, the
Select Committee on Homeland Security, and the Senate Permanent
Subcommittee on Investigations. In the 110th Congress, he was chief coun-
sel for oversight and investigations for the House Committee on Energy and
Commerce. Sopko has also served in two deputy assistant secretary posts
at the U.S. Department of Commerce.
   Sopko started his career as a state prosecutor in Ohio. Later, as a
trial attorney with the U.S. Department of Justice Organized Crime and
Racketeering Section, he conducted numerous long-term grand jury inves-
tigations and prosecutions against organized-crime groups. He was the
lead attorney in the first successful federal RICO (Racketeer Influenced
and Corrupt Organization Act) prosecution of the entire leadership struc-
ture of an American La Cosa Nostra crime family.
   A graduate of the University of Pennsylvania, he earned his law degree
from Case Western Reserve University.
   Sopko succeeds Acting SIGAR Steven Trent, who has returned to his for-
mer duties as director of the agency’s Investigations Directorate.


NEW INITIATIVES
During this reporting period SIGAR advanced three initiatives designed to
improve oversight and to better inform Congress, implementing agencies,




  16                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




and the American public about reconstruction issues. SIGAR and the
Inspectors General of DoD, DoS, and USAID agreed to a joint strategic
audit plan that will drive audits, inspections, and evaluations in FY 2013. In
addition, SIGAR began work on a capstone report to examine whether U.S.-
funded reconstruction programs in Afghanistan can be sustained. SIGAR is
also developing a new audit program to examine the costs incurred under
high-risk reconstruction contracts.

Joint Strategic Audit Plan
SIGAR led the effort to develop a joint audit plan to maximize oversight
resources to scrutinize programs essential to achieving U.S. reconstruction
goals during this critical transition period. The plan identifies 13 strategic
issues in security; governance and development; counter-narcotics and rule
of law; and the cross-cutting areas of planning, coordination, and contract
administration. It poses overarching questions that SIGAR and the other mem-
bers of the Joint Strategic Planning Subgroup for Oversight of Afghanistan
Reconstruction will answer through their planned work during the coming
year. Under this plan, the inspectors general will assess the following recon-
struction issues:
 •	 building the capacity and capabilities of the Afghan security forces
 •	 administering and maintaining accountability of the Afghanistan Security
    Forces Fund (ASFF)
 •	 building Afghan governance capacity
 •	 sustaining U.S. investment in Afghan institutions and infrastructure
 •	 increasing revenue generation within the Afghan government
 •	 implementing civil service and pay reforms within the Afghan government
 •	 implementing Afghan electoral reforms and preparing for upcoming
    elections
 •	 executing and sustaining counter-narcotics programs
 •	 expanding the capacity of and sustaining the Afghan justice system
 •	 implementing anti-corruption initiatives
 •	 planning and coordinating U.S. assistance programs
 •	 providing stewardship of direct assistance funds
 •	 awarding and administering reconstruction contracts

Capstone Reports—Sustainability
Sustainability is key to ensuring that the U.S. investment in Afghanistan is
not wasted. If the Afghan government cannot muster the personnel, skills,
funds, and materiel to maintain programs and facilities, then even the best-
planned and well-executed reconstruction projects are at risk of wasting
U.S. tax dollars. SIGAR’s first capstone report will therefore examine the
sustainability challenge, reviewing lessons learned since 2002, and offering
suggestions on how to make reconstruction programs sustainable through
the current transition and beyond 2014.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                17
                                               SIGAR OVERSIGHT




                                                  Audits by SIGAR and other oversight agencies have identified the need to
                                               include sustainment as part of program planning to ensure that Afghanistan
                                               can operate and maintain reconstruction programs and projects in the public
                                               and private sectors. SIGAR will assess the extent to which U.S. assistance
                                               gives proper attention to sustainability and will identify what is necessary to
                                               ensure that the U.S. investment in Afghanistan can be sustained.
                                                  SIGAR’s capstone reports will draw on a variety of sources—audits,
                                               inspections, investigations, government documents, other reports, and
                                               interviews—to identify risks to U.S. funds and objectives; challenges in
                                               planning, execution, and coordination; and difficulties that may invite
                                               reconsideration of policy and priorities.

                                               New Financial-Audit Program
                                               SIGAR is initiating a new financial-audit program to examine costs incurred
                                               under high-risk reconstruction contracts. This effort, which will be coordi-
                                               nated with SIGAR’s oversight partners, seeks to quickly identify any waste,
                                               fraud, and abuse in contracts and ensure that inappropriate payments are
                                               returned to the U.S. Treasury. Through this program, SIGAR will provide the
                                               timely and detailed financial oversight of contracts that is needed to protect
                                               taxpayer dollars in the very challenging environment of Afghanistan.


                                               AUDITS
                                               Since its last report to Congress, SIGAR has completed four audit reports
                                               and one inspection report. These reports identified several concerns related
COMPLETED AUDITS
                                               to private security contractors (PSCs) and U.S.-funded projects to improve
•	 Audit 12-10: Increases in Security Costs    governance and promote economic development:
   Are Likely under the Afghan Public Pro-     •	 The implementing partners who execute USAID-funded reconstruction
   tection Force; USAID Needs to Monitor
                                                  projects could face tens of millions of dollars in higher costs resulting
   Costs and Ensure Unlicensed Security
   Providers Are Not Used                         from the transition of security missions to the state-owned Afghan
	• Audit 12-11: Progress Made Toward              Public Protection Force (APPF). In addition, the implementing partners
   Increased Stability under USAID’s              may be receiving security services from unlicensed vendors. These
   Afghanistan Stabilization Initiative-East      findings raise concerns for costs, impacts on projects, and the quality of
   Program, but Transition to Long-Term           protection received by implementing partners.
   Development Efforts Not Yet Achieved        •	 USAID’s Afghanistan Stabilization Initiative-East (ASI-East) program
•	 Audit 12-12: Delays in Project Imple-          is a three-year effort to support the U.S. counter-insurgency (COIN)
   mentation and Insufficient Sustainment
                                                  strategy with gains in local jobs, community and government capacity,
   Planning Put Afghanistan Infrastructure
   Fund at Risk for Waste                         and infrastructure. However, after nearly three years’ effort, none of
	• Audit 12-13: Selected Public-Diplomacy         ASI-East’s projects have advanced from the “hold” to the “build” phase
   Awards Mostly Achieved Objectives, but         of that strategy, and an exit strategy remains to be developed. The slow
   Embassy Can Take Steps to Enhance              pace of progress raises concerns for ultimate program success and a
   Grant Management and Oversight                 smooth hand-off.
                                               •	 DoD and DoS use the recently created Afghanistan Infrastructure
                                                  Program to combine appropriated funds for projects linked to the




                                                 18                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




   COIN strategy. But five of seven projects surveyed are a half-year
   to a year and a quarter behind schedule, and sustainment plans are
   lacking. These facts indicate risks that achievement of full, intended
   COIN benefits may be delayed, and that Afghan public opinion may be
   adversely affected if projects lag and later fail for want of sustainment.
•	 U.S. Embassy Kabul presides over the largest DoS public-diplomacy
   effort in the world: in FYs 2010 and 2011, its 560 grants and agreements
   totaled $149 million. However, DoS did not initially have the necessary
   staffing in place as the funding and grant workload ramped up.
   Consequently, the PAS faced challenges in documenting pre-award
   procedures such as fair and open competition; SIGAR found that
   half the awards were sole source. Also, 14 of the 20 largest programs
   required some degree of sustainability funding, but none had
   sustainability plans because none were required, putting $32 million of
   investment at risk.
•	 A SIGAR inspection found construction deficiencies at three border
   police bases in Nangarhar province. These problems included the lack of
   a viable water supply, a poorly constructed septic system, and inadequate
   sewage. In addition, SIGAR found leaking fuel lines, unconnected drain
   pipes, poorly built guard towers, and improperly installed heating and
   to ventilation systems. Moreover, most of these facilities were either
   unoccupied or not used for their intended purposes.

   In these reports, SIGAR made a total of 29 recommendations to enhance
program performance, improve oversight and accountability, and recover
questionable expenditures. Recommendations included providing better
documentation and controls, conducting cost/benefit analyses for new or
follow-on contract awards, clarifying agency roles and responsibilities, and
determining popular support for infrastructure projects.

Status of SIGAR Recommendations
This quarter, SIGAR closed 35 audit recommendations contained in 10
audit reports. Since 2009, SIGAR has published 61 audits and inspec-
tions and made more than 200 recommendations to recover funds,
improve agency oversight, and increase program effectiveness. SIGAR
has closed about half of these recommendations. Closing a recom-
mendation indicates SIGAR’s assessment that the audited agency has
either implemented the recommendation or otherwise appropriately
addressed the issue.

Completed Audit Reports
This quarter, SIGAR published four audit reports that assessed projects and
program management related to PSCs, stabilization efforts, infrastructure




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               19
SIGAR OVERSIGHT




development, and public diplomacy. PDF copies of the full audit reports are
posted at SIGAR’s website (www.sigar.mil).

Audit 12-10: Private Security Contractors
Increases in Security Costs Are Likely under the Afghan Public Protection Force; USAID
Needs to Monitor Costs and Ensure Unlicensed Security Providers Are Not Used
From FY 2009 through FY 2011, USAID provided more than $4.2 billion to
its implementing partners to carry out reconstruction and development
assistance programs in Afghanistan. Implementing partners are responsible
for meeting their own security needs. Most contracted with PSCs for secu-
rity for their offices, housing, project sites, and personnel movements.
    In March 2011, the Afghan government issued its “Bridging Strategy for
Implementation of Presidential Decree 62,” which provided for the eventual
dissolution of most PSCs. Under this strategy, the Afghan government required
that security services for development programs and projects be transferred
from PSCs to the state-run APPF by March 20, 2012. In January 2012, President
Karzai approved a model allowing implementing partners to use risk-manage-
ment companies (RMCs) to advise on the security of sites, personnel, logistics,
transportation of goods and equipment, and contract management.
    SIGAR analyzed invoices and other data from 13 implementing partners
responsible for 29 of USAID’s largest projects during FY 2009–2011. SIGAR
also inquired whether USAID’s implementing partners for selected projects
were using Afghan-licensed PSCs.

OBJECTIVES
This audit sought to determine
•	 the costs and the number of personnel and vehicles associated with
   PSCs for selected USAID projects during FY 2009–2011
•	 the potential costs related to the transition of security services from
   PSCs to the APPF and the plans of implementing partners after the
   transition

FINDINGS
1.	 For the 29 USAID projects that SIGAR examined, approximately
    $300 million (or 10.4%) of the $2.9 billion expended during FY 2009–
    2011 was for security services. At least $140 million of this $300 million
    was for PSC personnel, and about $27 million was for vehicles.
    SIGAR found that some implementing partners that had purchased
    armored vehicles also leased vehicles to meet their needs, at a cost of
    $4.1 million, because they could not get the purchased vehicles through
    Afghan registration and customs in a timely manner.
2.	 Assuming security requirements for armed Afghan guards do not
    change, the transition to the APPF will likely increase the cost of hiring
    Afghans during the first year of transition to the APPF by up to 46%




  20                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




    or $3.1 million for 13 of the 29 projects SIGAR examined. In addition,
    SIGAR noted that some implementing partners indicated they may
    hire more expatriates through RMCs to facilitate the transition. By
    one implementing partner’s estimate, expatriate-labor costs during the
    first year of transition to the APPF could increase as much as 200%,
    or $52.1 million, for the 13 projects examined. Implementing partners
    identified other factors, such as increased security infrastructure,
    that may further increase costs. In April 2012, USAID provided SIGAR
    its analysis of data from implementing partners for the first month
    after the transition to the APPF. It showed that security costs had
    decreased. However, SIGAR found that the data submitted by USAID’s
    implementers was inconsistent and incomplete, which calls into
    question USAID’s overall conclusions. Finally, as of June 2012, most of
    USAID’s implementing partners had not had more than a few weeks of
    experience with the APPF. Some expressed concern about the initial
    transition, on the basis of incidents such as APPF personnel showing
    up without proper uniforms and weapons, demanding unanticipated
    material support. While the transition to the APPF is under way, the
    eventual costs of security for USAID’s ongoing and future programs and
    projects remain to be determined.
3.	 SIGAR found that implementing partners had used unlicensed PSCs
    for six projects as of December 2011. Such use is illegal, putting USAID
    projects and reconstruction funding at risk. A warning flag on this issue
    had been raised in May 2010, when a report by the USAID Office of
    Inspector General stated that USAID had not ensured that all PSCs used
    by implementing partners were licensed by the Ministry of Interior.

RECOMMENDATIONS
Given the likely increase in security costs under the APPF, SIGAR made
three recommendations to the USAID Mission Director in Kabul. Two
addressed systematically assessing security costs of ongoing, follow-on,
and new contracts:
1.	 Perform a comprehensive analysis of security costs for all ongoing
    projects that are using or plan to use APPF security services and
    determine (a) whether funding will be available to cover any additional
    security costs and (b) the effect the additional costs will have on overall
    project implementation.
2.	 Before deciding whether to award new or follow-on contracts,
    cooperative agreements, or grants for reconstruction and development
    projects, conduct a cost-benefit analysis for each award that
    methodically assesses whether U.S. funds should be spent on other
    projects if the cost of security exceeds any benefits that USAID expects
    to derive from the project.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                 21
SIGAR OVERSIGHT




One recommendation was to ensure that implementing partners use only
licensed RMCs:
3.	 Institute a formal review process to ensure implementing partners are
    using licensed RMCs.

AGENCY COMMENTS
USAID concurred with the recommendation that implementing partners be
subject to formal review to confirm their use of licensed RMCs.
   USAID did not agree that it should do any additional cost assessments.
USAID said it had done the recommended analysis for ongoing projects
and that its existing policies already require that it assess security costs
for future projects. However, because the APPF is new and unique, with
unproven capabilities, SIGAR believes its costs should be closely monitored
while USAID’s implementing partners gain more experience with it.

Audit 12-11: Governance and Economic Development
Progress Made Toward Increased Stability under USAID’s Afghanistan
Stabilization Initiative-East Program, but Transition to Long-Term Development
Efforts Not Yet Achieved
U.S. COIN strategy encompasses “clear, hold, and build” phases intended
to permanently stabilize targeted districts and communities. Supporting the
“hold” phase of COIN strategy is a key objective of USAID’s Afghanistan
Stabilization Initiative-East (ASI-East) program. ASI-East supports the
“hold” phase, with the overall goals of improving community and govern-
ment capacity as well as public support for the Afghan government by
generating employment, improving local infrastructure, and increasing
access to public services. ASI-East focuses on grants to local implementers
in 10 districts in four eastern provinces.
   In June 2009, USAID’s Office of Transition Initiatives (OTI) awarded a
three-year, $151 million task order to Development Alternatives, Inc. (DAI),
to implement the ASI-East program. After the task-order award, OTI asked
DAI to develop a more strategic approach to target specific sources of insta-
bility at the district level.
   In February 2010, DAI began to implement the new District Stability
Framework (DSF), which uses a monitor-measure-adjust approach to tai-
lor programs to district-level conditions. In February 2012, OTI awarded a
new three-year, $161.5 million follow-on task order to Creative Associates
International, Inc., to continue ASI programming efforts in eastern and
southern Afghanistan under a single implementing partner. The new task
order has an estimated completion date of February 2015.




  22                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




OBJECTIVES
The ASI-East audit assessed
•	 the extent to which expended ASI-East costs were allowable, allocable,
   and reasonable
•	 the extent of implementation of performance oversight, monitoring, and
   evaluation systems
•	 the degree to which the program has made progress toward transitioning
   districts to the “build” phase of the counter-insurgency strategy

FINDINGS
1.	 Costs incurred under the ASI-East task order were generally allowable,
    allocable, and reasonable, but certain cost-related issues need to be
    addressed. These issues include program spending marked by high
    operating costs, more than $590,000 in questionable program costs, and
    a number of timekeeping and billing deficiencies that increased the risk
    of inappropriate charges.
2.	 DAI implemented a range of program oversight, monitoring, and
    evaluation systems. However, final results remain to be determined
    and certain administrative issues relating to program oversight need
    to be addressed in the follow-on task-order award. USAID’s efforts to
    evaluate ASI-East’s final program results will be critical for deciding
    whether and how extensively the DSF methodology should be
    implemented in stabilization efforts such as USAID’s Stabilization in
    Key Areas program. Program monitoring and evaluation centered on
    the three-tier system called for by the DSF methodology. Preliminary
    results indicate that ASI-East activities have been successfully
    implemented with positive impacts on district-level stability. But overall
    stability across ASI-East’s 10 programming districts remains poor, on
    the basis of seven leading indicators of stability developed by DAI and
    its monitoring and evaluation subcontractor.
3.	 Despite nearly three years of program efforts, none of ASI-East’s target
    districts have transitioned from the “hold” to the “build” phase. OTI
    has only recently drafted district-level disengagement criteria. An exit
    strategy for OTI programming in Afghanistan remains to be developed
    under the follow-on task order for ASI. These efforts will need to be
    integrated with planned improvements and evaluations of the DSF
    methodology.

RECOMMENDATIONS
SIGAR made six recommendations to address problems identified by
the audit.
   To ensure that the ASI-East program is implemented within the terms
of the contract, SIGAR made two recommendations to USAID’s Bureau for
Democracy, Conflict, and Humanitarian Assistance (DCHA) and OTI:




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                23
SIGAR OVERSIGHT




1.	 Review the ASI-East program spending patterns to determine if the
    current spending levels represent a reasonable balance between
    program spending and operating costs.
2.	 Instruct the contractor to address and correct the identified internal
    control weaknesses and procedural shortcomings in timekeeping
    and billing.

    To ensure that ASI-East program costs are allowable, allocable, and rea-
sonable, SIGAR recommended that the Contracting Officer in Washington,
D.C., take the following action:
3.	 Review the more than $590,000 in questioned costs and recover
    these funds as deemed appropriate:
     •	 the $500,000 in potentially unallowable costs associated with
        DAI’s subcontract award to Altai Consulting for monitoring
        and evaluation services
     •	 the $3,400 in unallowable shipping costs associated with a
        different DAI contract
     •	 the $50,000 in wasteful spending on insurance costs for
        armored vehicles that it was no longer using.
     •	 the $38,500 in wasteful spending on insurance for leased
        armored vehicles

    To improve ASI-East program performance oversight, monitoring, and
evaluation systems, SIGAR made two recommendations for the USAID,
DCHA, and OTI in Washington, D.C., in conjunction with OTI Kabul mission
staff and the Stabilization Unit Chief:
4.	 Incorporate an assessment of activity outcome results into the
    monitoring and evaluation methodology, and perform a stability
    monitoring and evaluation analysis when entering new districts.
5.	 Provide input to the Stabilization Unit Chief to produce an interim
    and final summary of lessons learned from the ASI-East program’s
    implementation of the DSF to be considered by senior USAID,
    military, and DoS officials as future decisions are made regarding the
    application of the DSF methodology to other stabilization programs.

    To help ensure future progress toward transitioning districts to the
“build” phase of the COIN strategy, SIGAR made one recommendation to
USAID’s DCHA/OTI offices in Washington, D.C., to implement in conjunc-
tion with OTI Kabul mission staff:
6.	 Finalize draft disengagement criteria to facilitate programming
    decisions at the district level, and develop an exit strategy to guide
    overall OTI programming decisions at the country level.




  24                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




AGENCY COMMENTS
USAID generally concurred with SIGAR’s recommendations and noted
actions it has taken or will take to address them. Although USAID said that
$500,000 in contract costs questioned in the audit was allowable, it did not
provide SIGAR with information to substantiate this claim. The agency said
$3,400 of the questioned costs had been recovered and another $88,500 was
under review. Based on other USAID comments, SIGAR revised recom-
mendations 4 and 5 to also address the Stabilization Unit Chief in Kabul.
That unit is responsible for monitoring and evaluating USAID’s stabilization
efforts, including USAID’s implementation of the DSF.

Audit 12-12: Infrastructure
Delays in Project Implementation and Insufficient Sustainment Planning
Put Afghanistan Infrastructure Fund at Risk for Waste
Congress established the Afghanistan Infrastructure Fund (AIF) to build
infrastructure in support of the U.S. COIN effort. Congress stipulated that
DoD, which manages the AIF, together with DoS and USAID, develop an
integrated Afghanistan Infrastructure Program (AIP). The AIP was to draw
on defense and foreign-operations appropriations to fund water, power,
transportation, and other projects to achieve COIN objectives.
   Congress appropriated $400 million for DoD in FY 2011 to create the
AIF in support of the AIP and appropriated an additional $400 million in
FY 2012 to continue AIP support. DoS and USAID were to fund AIP proj-
ects using resources appropriated from Economic Support Fund (ESF)
accounts for Afghanistan. The authorizing legislation calls for AIP projects
to be jointly developed and approved by DoD and DoS, and implemented
by DoS in coordination with DoD (unless the agencies agree that DoD
should be the implementer). USAID is the implementing agency for DoS;
U.S. Forces - Afghanistan (USFOR-A) is the implementing agency for DoD.
USAID executes its projects through contracts it manages, while USFOR-A
executes projects through contracts managed by the U.S. Army Corps of
Engineers (USACE).
   Legislative provisions related to AIP require implementing agencies to
show how they will sustain projects, and to report to Congress before and
after obligating, disbursing, or transferring funds for AIP projects.

OBJECTIVES
This audit sought to determine the extent to which
•	 projects were implemented on schedule and achieved planned COIN
   effects
•	 DoD, DoS, and USAID addressed project sustainment costs and other
   sustainment challenges
•	 Agencies coordinated and jointly managed the AIP




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012              25
SIGAR OVERSIGHT




FINDINGS
1.	 Five of seven FY 2011 AIF projects are 6 to 15 months behind schedule,
    and most projects will not achieve desired COIN benefits for several
    years. Acquisition and funding delays postponed the project execution
    schedules of most FY 2011 AIF projects, including all power-sector
    projects except the Kandahar Bridging Solution, which is providing fuel.
    In some instances, projects may even result in adverse COIN effects
    because they create an expectations-versus-reality gap in the affected
    population or because they lack citizen support.
2.	 DoD and DoS did not ensure the sustainability of FY 2011 AIF projects.
    For example, DoD, DoS, and USAID did not develop sustainment plans
    that included realistic cost estimates for FY 2011 AIF projects, nor
    did agencies communicate costs to the Afghan government. In some
    cases, such as the Kandahar Bridging Solution and the Southeast Power
    System projects, project viability and sustainability depend on the
    completion of additional projects that remain unidentified or unfunded,
    or have projected completion dates well beyond 2014.
3.	 Implementing agencies are developing mechanisms for joint project
    management. However, the lack of comprehensive and shared
    project information and unclear guidance on agency roles in project
    execution limit congressional oversight and interagency coordination.
    For example, DoD plans to use $86 million of FY 2011 AIF funds to
    implement a project that already has funding from another donor.

RECOMMENDATIONS
To improve Congress’s capacity for effective oversight and enhance joint
decision making for large-scale, interdependent infrastructure projects that
effect sector-wide goals, SIGAR recommends that the U.S. Ambassador
to Afghanistan and the USAID Mission Director, in coordination with the
Commander USFOR-A:
1.	 Define and identify all infrastructure projects that compose AIP,
    including projects funded by AIF and ESF, and include this information
    in required congressional reports as part of AIP. This notification should
    illustrate the interrelationship of infrastructure projects.

    To enhance coordination and oversight between DOD (USFOR-A
and USACE), State, and USAID, SIGAR recommends that the Commander
USFOR-A, the U.S. Ambassador to Afghanistan, and the USAID
Mission Director:
2.	 Define the roles and responsibilities for lead and secondary agencies for
    the implementation and oversight of AIP projects, and
3.	 Develop a shared or web-based database, or include AIP projects
    into an existing shared or web-based database, to monitor project
    implementation and track progress. (Similar consideration should be




  26                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




   given to all development/infrastructure projects, as recommended
   previously by SIGAR and GAO.)

    To help ensure the successful and timely development of Afghanistan’s
power sector, which relies on interdependent projects implemented by
different U.S. government agencies and international donors, SIGAR recom-
mends that the Commander USFOR-A, the U.S. Ambassador to Afghanistan,
and the USAID Mission Director—in close coordination with key stakehold-
ers including the Afghan government and ADB:
4.	 Develop a project execution schedule of U.S.-funded interrelated
    infrastructure projects to determine and communicate the “critical path”
    to stakeholders and implementers, and incorporate the schedule into the
    master plan for Afghanistan’s energy sector being developed by ADB.

    To help ensure the successful and timely development of Afghanistan’s
power sector, which relies on interdependent projects implemented by dif-
ferent U.S. government agencies and international donors, and to ensure
that $101 million of fiscal year 2011 AIF funds do not expire, SIGAR recom-
mends that the Secretary of Defense and the Secretary of State:
5.	 Expedite the transfer of $101 million of fiscal year 2011 AIF funds from
    DOD to State—and ultimately to USAID—for the implementation of the
    NEPS project from Dast-i-Barchi to Ghazni.

    To help ensure AIP projects achieve COIN goals, SIGAR recommends
that the Commander USFOR-A, the U.S. Ambassador to Afghanistan, and
the USAID Mission Director:
6.	 Clearly indicate the amount of time that infrastructure projects will
    take to achieve COIN benefits identified in congressional notifications
    required by AIP authorizing legislation.
7.	 Revise AIP guidance and project selection criteria to ensure that AIP
    projects have the support of the affected population.

    To help ensure AIP projects are sustained and viable upon completion,
SIGAR recommends that the Commander USFOR-A, the U.S. Ambassador
to Afghanistan, and the USAID Mission Director:
8.	 Develop a comprehensive sustainment plan for each AIP project that, at
    a minimum, includes (a) a realistic estimate of costs necessary to sustain
    the project, the planned source of such funding, and an assessment of the
    reliability of the planned source; (b) evidence that estimated sustainment
    costs have been provided to the Afghan government and that the
    Afghan government has committed to sustain the project; and (c) a joint
    assessment of the capacity of the Afghan government entity responsible
    for sustaining the project. The sustainment plans should be included in
    required congressional notifications.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                27
SIGAR OVERSIGHT




    To help ensure the timely completion of congressional notifications and
reports for AIP projects, as well as the timely receipt of appropriated funds,
SIGAR recommends that the Secretary of Defense and the Secretary of State:
9.	 Clarify and formalize the requirements and format for AIP notification
    and reporting packages and the approval process, including expected
    timeframes, for providing notifications and reports to Congress.

AGENCY COMMENTS
SIGAR received comments from multiple agencies and offices—DoS, U.S.
Embassy Kabul, the Office of the Secretary of Defense (OSD), USFOR-A,
and USAID. Although the agencies and offices generally concurred or
partially concurred with most of the recommendations, the agencies and
offices will need to coordinate their responses and corrective actions
with each other to address the issues SIGAR identified in the report.
OSD believes the audit report is premature and strongly disagrees with
many of the findings and conclusions. SIGAR conducted the audit early
in the program’s implementation so that any problems or opportunities
for improvement could be identified and addressed prior to the impend-
ing withdrawal of U.S. and coalition troops. SIGAR also did not attempt to
interpret COIN doctrine, but rather assessed whether the COIN benefits that
DoD and DoS identified in their report to Congress were being achieved.

Audit 12-13: Governance
Selected Public-Diplomacy Awards Mostly Achieved Objectives,
but Embassy Can Take Steps to Enhance Grant Management and Oversight
During FYs 2010–2011, U.S. Embassy Kabul’s Public Affairs Section (PAS)
awarded about $149 million in 560 public-diplomacy grants and cooperative
agreements—the largest such program administered by any U.S. embassy.
The funds supported efforts to help the Afghan government communicate
a common vision of progress and to urge the Afghan people to resist insur-
gent influence and reject violent extremism.
    The PAS, primary administrator of the public-diplomacy program, com-
prises press and public-affairs offices, a strategic-communications section,
an advisory unit working at the Government Media Information Center, and a
deployed military information-support team. PAS employees may also serve as
grant officers, grant officer representatives, and members of award panels.
    SIGAR reviewed the selection and oversight of 20 of the larger PAS
public-diplomacy awards (those for more than $1 million) issued during
FYs 2010 and 2011. These awards totaled some $57 million, about 38% of
all public-diplomacy awards during that period. SIGAR also examined the
organizational status of a grant-funded media center providing direct assis-
tance to Afghan government entities.




  28                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




OBJECTIVES
This audit sought to determine
•	 the funding and staffing provided for the public-diplomacy grants
   program
•	 the extent to which the PAS followed award-selection and management
   procedures
•	 whether awards were consistent with U.S. strategic objectives and were
   achieving intended results
•	 the extent to which the PAS addressed the sustainability of grant-
   funded equipment and facilities

FINDINGS
1.	 DoS’s public-diplomacy program for Afghanistan received significant
    funding increases in 2010 and 2011. However, embassy staffing did not
    increase as the funding and grant workload ramped up, leading to some
    initial challenges in managing and documenting pre-award requirements.
2.	 Lack of documentation prevented SIGAR from determining the extent
    to which the PAS followed required pre-award activities, including
    assessing risk, recipient capacity, use of sub-awards, and costs.
    Consequently, SIGAR was unable to determine the extent to which
    the PAS ensured that risks were identified and mitigated, recipients
    were capable of managing grant funds, sub-recipients did not include
    excluded parties, and estimated costs were reasonable. Documentation
    on the use of fair and open competition was absent for several awards,
    and SIGAR found that half of the awards reviewed were sole-sourced. In
    2011, the PAS took steps to improve its award-assessment and selection
    procedures. SIGAR also found that the untimely closeout of a terminated
    grant resulted in unused cash advances totaling $253,432 that were not
    recovered or de-obligated, and that about $12 million disbursed under
    the 20 awards had not been subjected to financial audits.
3.	 The PAS awarded grants consistent with the U.S. government’s civilian-
    military campaign plan for Afghanistan. Recipients of 15 of 20 awards
    reviewed had achieved or were likely to achieve their intended results.
    SIGAR found that four grants were not likely to achieve intended results.
    One grant was terminated for lack of cooperation between Afghan
    ministry officials and the grant recipient.
4.	 Fourteen awards required some degree of sustainability funding to
    continue staffing, operations, or maintenance after the award period ended,
    but none had sustainability plans because such plans were not required
    prior to FY 2012. Consequently, up to $32 million is at risk of being wasted
    if sustainment efforts are not made. The PAS has taken some steps to
    address sustainability for these grants and began requiring sustainability
    plans before award beginning with FY 2012–funded agreements.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                  29
SIGAR OVERSIGHT




5.	 Award records were not clear about whether one of the reviewed
    recipients—the Government Media Information Center—was an
    Afghan government entity. The uncertainty affects the Embassy’s
    ability to determine whether a certification is required to provide
    direct assistance to the recipient.

RECOMMENDATIONS
SIGAR made six recommendations to improve the public-diplomacy
program.
    To provide better oversight of funds given to award recipients for public-
diplomacy programs in Afghanistan, SIGAR recommended that the U.S.
Ambassador to Afghanistan take four actions:
1.	 Take steps to ensure that the PAS documents pre-award assessments
    and selection procedures for public-diplomacy grants in accordance
    with DoS’s Grants Policy Directives.
2.	 Take steps to ensure timely close-out of completed public-diplomacy
    awards.
3.	 Recover and de-obligate $253,432 in cash advances made under a
    public-diplomacy grant that was subsequently terminated.
4.	 Re-solicit the contract for financial audits of public-diplomacy awards
    and, if necessary, coordinate with other organizations that have
    awarded audit contracts in Afghanistan.

    To provide for greater assurance of achieving award results, SIGAR
recommended that the U.S. Ambassador to Afghanistan and the Assistant
Secretary for South and Central Asian Affairs jointly take three actions:
5.	 Review the progress of the four awards facing difficulties in achieving
    their intended results to determine whether to continue, modify, or
    terminate those awards.
6.	 Determine sustainability requirements and develop sustainability plans
    for 14 grants—with a total value of $32 million—that were awarded in
    FYs 2010 and 2011 and are likely to require additional resources after
    the award period ends.

AGENCY COMMENTS
The U.S. Embassy Kabul concurred with the first five recommendations to
enhance grant management and oversight. Although it did not concur with
the recommendation to determine sustainability requirements and develop
sustainability plans for all 14 grants awarded in FY 2010 and FY 2011,
SIGAR continues to believe this recommendation has merit because sus-
tainability plans have not been developed for all of the grants.




  30                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




New Audits Announced This Quarter
During this reporting period, SIGAR initiated five audits. These audits will     NEW AUDITS
assess USAID’s sustainment planning; USAID’s oversight of non-expendable
property purchased by implementing partners to execute reconstruction            •	 USAID Planning for Sustainability of its
                                                                                  Development Programs in Afghanistan
programs; the Afghan government’s imposition of tariffs, taxes, and other
fees on U.S.-funded contractors; the capabilities of the Afghan electric util-   •	 USAID Procedures for Controlling Non-
                                                                                  expendable Property in Afghanistan
ity; and air support for the counter-narcotics effort.
                                                                                 •	 Tariffs, Taxes, or other Fees Imposed by
                                                                                    the Government of the Islamic Repub-
USAID Planning for Sustainability of Its                                            lic of Afghanistan on U.S. Contractors
Development Programs in Afghanistan                                                 Conducting Reconstruction Activities in
The United States risks wasting billions of dollars if U.S.-funded develop-         Afghanistan
ment programs cannot be sustained, either by the Afghan government or            	• Air-Mobility Support for Afghan Drug
by continued donor support. In June 2011, USAID issued guidance to better           Interdiction Operations
integrate sustainability planning into the design of its assistance programs     •	 U.S. Government Efforts to Assist in
for Afghanistan. Congress subsequently mandated that DoS, in consultation           the Commercialization of the Afghani-
                                                                                    stan Electricity Utility—Da Afghanistan
with USAID, certify that the funds would be used in accordance with this
                                                                                    Breshna Sherkat (DABS)
guidance. SIGAR is conducting this audit to assess USAID’s planning for the
sustainability of its development programs in Afghanistan.

USAID Procedures for Controlling Non-expendable
Property in Afghanistan
USAID provides its economic assistance to Afghanistan primarily through
implementing partners. This assistance includes funding for the imple-
menting partners to acquire non-expendable property, such as information
technology equipment, furniture and supplies to support staff, and heavy
equipment to build infrastructure. U.S. regulations require implementing
partners to prepare and maintain records for the receipt, use, maintenance,
protection, custody, and care of all non-expendable property. USAID, in
turn, is responsible for overseeing the implementing partners’ programs
to account for non-expendable property. SIGAR is conducting this audit to
determine the extent to which USAID is overseeing the acquisition of non-
expendable property by implementing partners. The audit will also assess
whether the property purchased by implementing partners is being properly
used in support of reconstruction activities and disposed of in accordance
with relevant regulations and contract terms.

Tariffs, Taxes, or other Fees Imposed by the Government
of the Islamic Republic of Afghanistan on U.S. Contractors
Conducting Reconstruction Activities in Afghanistan
The United States relies primarily on contractors and their subcontractors
to implement U.S. reconstruction programs in Afghanistan. The Afghan
government is reportedly charging tariffs, taxes, and other fees on materi-
als imported for U.S.-funded reconstruction programs. This audit, which
addresses congressional concerns, will determine what fees are being




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                31
SIGAR OVERSIGHT




levied and whether these fees are in accordance with applicable interna-
tional agreements. As part of this audit, SIGAR will also assess the impact
that declining coalition activity after the 2014 transition will have on the
Afghan government’s operating budget.

Air-Mobility Support for Afghan Drug Interdiction Operations
Despite efforts by the international community and the Afghan govern-
ment to reduce poppy cultivation and illicit drug trafficking, Afghanistan
still produces about 90% of the world’s opium. The illicit drug trade also
supports the insurgency. The U.S. counter-narcotics strategy strives to cut
off the flow of funds to the insurgency through interdiction operations.
These operations depend on U.S.-funded air-mobility support to U.S. and
Afghan law-enforcement officials. U.S. efforts to enhance the capabilities
of the Afghan Special Missions Wing—also known as the Air Interdiction
Unit—are critical to sustaining counter-narcotics operations. This audit
will determine the extent to which U.S. assistance provides responsive
air-mobility support to law-enforcement officials for drug-interdiction
operations, assess U.S. government agencies’ oversight of their assistance
to the Air Interdiction Unit, and evaluate the extent to which U.S. assistance
has resulted in the development of a sustainable capability to provide air-
mobility support for counter-narcotics efforts.

U.S. Government Efforts to Assist in the Commercialization
of the Afghanistan Electricity Utility—Da Afghanistan
Breshna Sherkat (DABS)
The United States has been supporting efforts to commercialize DABS, the
national power utility, as part of an overall effort to expand a self-sustaining
power network. Several USAID-funded projects have come to a close and
USAID plans to award several new contracts to continue its support of the
development of the electricity utility. This audit will identify the extent to
which the United States has funded programs to assist in the commercial-
ization of DABS and assess the outcomes of those efforts. The audit will
also evaluate the degree to which U.S. implementing agencies have coordi-
nated their efforts to develop a self-sustaining DABS.

Ongoing Audits
SIGAR has five additional ongoing audits that are examining contracts
and programs in the three major reconstruction sectors—security,
governance, and development. In addition, SIGAR continues to review
transaction data from DoD, USAID, and DoS for the three major recon-
struction funds—the Afghanistan Security Forces Fund (ASFF), the
Economic Support Fund (ESF), and the International Narcotics Control
and Law Enforcement (INCLE) account.




  32                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




USACE Operations and Maintenance Contracts
with ITT Systems Corporation for ANSF Facilities                                 ONGOING AUDITS
In July 2010, USACE awarded two firm-fixed-price contracts to ITT
Systems Corporation to provide operations and maintenance for facili-            •	 USACE Operations and Maintenance
                                                                                    Contracts with ITT Systems Corporation
ties for the Afghan National Security Forces (ANSF). Valued at a total of
                                                                                    for ANSF Facilities
$800 million, these contracts cover Afghan army and police facilities in
northern and southern Afghanistan. According to the program manager,             •	 Oversight and Costs Associated with
                                                                                    the Afghanistan-Technical Equipment
these contracts may cover more than 660 sites. The contracts consist of             Maintenance Program (A-TEMP) for
one base year plus four option years, and require that the contractor train         the ANP
Afghan workers in all aspects of operations and maintenance. SIGAR is            	• Afghan National Army (ANA) Logistics
assessing cost, schedule, compliance with contract terms, contract over-            Capability for Petroleum, Oil, and
sight, and sustainability. DoD OIG is conducting a separate audit on the            Lubricants
training aspect of the contracts.                                                	• Construction of the 3rd Brigade,
                                                                                    207th Afghan Army Corps Garrison
                                                                                    in Badghis Province
Oversight and Costs Associated with the Afghanistan -
                                                                                 	• USAID’s Southern Region Agricultural
Technical Equipment Maintenance Program (A-TEMP)                                    Development Project’s Partnership
for the ANP                                                                         with International Relief and
To support the Afghan National Police (ANP) under the A-TEMP, the                   Development, Inc.
Combined Security Transition Command - Afghanistan (CSTC-A) is fund-             •	 Forensic Reviews of DoD, DoS, and
ing contracts with Automotive Management Services and PAE Government                USAID Transaction Data Related to
Services, Inc. This audit will focus on government oversight of the prime           Afghanistan Reconstruction
contractors and any subcontractors, the costs associated with the con-
tracts, accountability for vehicle parts and maintenance supplies, and the
status of efforts to transition vehicle maintenance to the ANP.

Afghan National Army (ANA) Logistics Capability
for Petroleum, Oil, and Lubricants
The United States is working through CSTC-A to help the Afghan National
Army (ANA) build an independent and sustainable logistics capability.
This quarter, SIGAR began an audit to assess the status of CSTC-A’s efforts
to develop the ANA’s capabilities to manage and distribute petroleum
products. This audit will also determine whether the ANA has the internal
controls needed to account for petroleum products and prevent fraud,
waste, and abuse, including the unauthorized diversion or theft of fuel.

Construction of the 3rd Brigade, 207th Afghan Army Corps,
Garrison in Badghis Province
In January 2012, SIGAR received an allegation that the NATO Training
Mission - Afghanistan/CSTC-A did not consider less expensive options
before USACE awarded an $81.3 million construction contract for an ANA
garrison. After meeting with U.S. military officials and USACE to discuss
the concerns, SIGAR initiated an audit to assess the basis for the decision to
proceed with the construction contract.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                33
SIGAR OVERSIGHT




USAID’s Southern Region Agricultural Development Project’s
Partnership with International Relief and Development, Inc.
USAID is funding the Southern Region Agricultural Development Project to
combat regional instability, increase agricultural employment and income,
and assist the region’s transition from an insecure area to one with a sus-
tainable and prosperous agricultural economy. In February 2012, SIGAR
received allegations that USAID’s implementing partner—International
Relief and Development, Inc. (IRD)—had failed to coordinate sufficiently
with the local government and military officials and was spending funds on
solar panels and farm tractors without justification. SIGAR is conducting
this audit to (1) assess the basis for the acquisition and distribution of solar
panels and farm tractors, and (2) determine whether IRD’s expenditures
complied with the terms of its strategic partnership agreement and the
intended goals of the program.

Forensic Audits
Public Law 110-181, as amended, requires that before SIGAR is terminated,
it must prepare and submit to the appropriate Congressional commit-
tees a final forensic audit report on programs and operations funded with
amounts appropriated or otherwise made available for the reconstruction
of Afghanistan. To identify waste, fraud, and abuse of taxpayer dollars,
SIGAR is continuing to collect data and conduct forensic reviews of three
major reconstruction funds:
 •	 the ASFF, managed by DoD
 •	 the ESF, managed by USAID
 •	 the INCLE account, managed by DoS

   During this reporting period, SIGAR issued a formal notification let-
ter requesting information about how the Defense Security Cooperation
Agency (DSCA) tracks obligations and disbursement data for Afghanistan
reconstruction. The goal is to identify ASFF funding on a detailed level to
enhance SIGAR’s audit and forensic work, and determine (1) what ASFF
funding has purchased, (2) how much ASFF funding has been obligated and
disbursed for specific purchases, and (3) what entities used ASFF funding
to implement pseudo-Foreign Military Sales cases.

Inspections
This quarter, SIGAR completed an inspection of three Afghan Border Police
bases and found a number of construction deficiencies at all of them. This
is the first in a series of four inspections of U.S.-funded infrastructure proj-
ects being implemented by the U.S. Army Corps of Engineers-Transatlantic
Afghanistan North (USACE-TAN) to support U.S. efforts to build the Afghan
security forces.




  34                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




   SIGAR initiated its inspections program earlier this year because several
audits had identified issues that put the U.S. investment in infrastructure at
risk, including sustainability. SIGAR is examining the quality of construction   COMPLETED INSPECTIONS
and assessing whether the facilities are being operated and maintained for
the purposes intended.                                                           •	 Inspection 12-01: Construction Defi-
                                                                                  ciencies at Afghan Border Police Bases
Construction Deficiencies at Afghan Border Police Bases                           Put $19 Million Investment at Risk
Put $19 Million Investment at Risk
CSTC-A provided over $19 million from the ASFF to build four Afghan
Border Police bases in Nangarhar province on Afghanistan’s eastern border.
SIGAR conducted a physical inspection of three of them. This inspection
sought to determine
•	 whether the construction was completed in accordance with contract
   requirements and applicable construction standards
•	 whether construction deficiencies were corrected before facilities were
   turned over to CSTC-A
•	 whether the facilities are being used as intended

FINDINGS
1.	 SIGAR found construction deficiencies at all three border police bases.
    These problems included the lack of a viable water supply, a poorly
    constructed septic system, and inadequate sewage. Other deficiencies
    included leaking fuel lines, unconnected drain pipes, poorly built guard
    towers, and improperly installed heating and ventilation systems.
2.	 The problems SIGAR identified have gone uncorrected because
    neither the contractor nor USACE has effective quality assurance
    processes in place.
3.	 Most of these facilities were either unoccupied or not used for their
    intended purposes. One base is not being used at all because it has no
    viable water supply. At another base, one of the buildings, which houses
    the base’s well, is being used as a chicken coop.

RECOMMENDATIONS
To ensure that construction is completed in accordance with contract
requirements and applicable construction standards at the four border patrol
bases, SIGAR recommended that USACE-TAN take the following action:
1.	 Review the status of construction deficiencies identified as part of
    the transfer of the four bases, including the critical water supply and
    septic and sewage system deficiencies, and determine a resolution that
    is in the best interest of the U.S. government and without unnecessary
    additional government cost. Specifically, determine the method of
    repair for the deficiencies still outstanding, including:
     •	 remediation by the contractor, as part of complying with the
        contract terms




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                35
                                         SIGAR OVERSIGHT




                                             •	 recovery under warranty, as stipulated in the contract remediation
                                                timeframes and warranty terms
                                             •	 determining whether funds withheld pending project completion
                                                should be released to the contractor as part of the satisfactory
                                                closeout of the contract
                                         2.	 Based on the determination in recommendation 1, prepare a plan of
                                             action for the repairs, as previously requested, and ensure the repairs
                                             are completed, inspected, and approved as expediently as possible.
                                         3.	 For ongoing and future construction contracts, adhere to the
                                             requirements of the Federal Acquisition Regulation and USACE
                                             ER 1180‑1‑6 for effectively managing a Quality Management Program,
                                             by ensuring:
                                             •	 Each USACE Resident/Area Office is aware of and has access to the
                                                applicable Quality Assurance Surveillance Plan.
                                             •	 The contractor has developed an effective Contractor Quality
                                                Control Program, which is adequately monitored and assessed
                                                through the Quality Assurance Program.
                                             •	 Construction deficiencies are tracked and remedied in a timely
                                                manner, to ensure quality construction is delivered at completion of
                                                the project, as part of the transfer process.
                                         4.	 Per the terms of the transfer process, ensure that the Regional
                                             Response Coordination Center provides the requisite operations and
                                             maintenance manuals as well as the appropriate technical documents
                                             and supporting training required for safe and effective operation of
                                             the facilities.

                                         AGENCY COMMENTS
                                         USACE-TAN generally concurred with the recommendations and noted
                                         the steps it has taken or will take to address them. USACE-TAN noted that
                                         serious security issues in the region of these border posts hamper its abil-
                                         ity to routinely perform quality management activities. It also pointed out
                                         that these border posts are located in remote and largely inaccessible areas.
                                         SIGAR acknowledged these challenges, but also believes that USACE-TAN
                                         needs to collect more information from the contractor, such as the required
                                         quality assessment reports, before accepting completed work.

                                         Ongoing Inspections
ONGOING INSPECTIONS                      SIGAR is conducting three inspections of construction projects contracted
                                         by USACE for ANSF facilities in the provinces of Wardak, Nangarhar, and
•	 Wardak ANP Training Center (USACE))   Kunduz. SIGAR audits have found that in the security sector alone, the U.S.
•	 Jalalabad ANA Garrison (USACE)        government planned to have built at least 900 facilities—for the ANA and
•	 Kunduz ANA Facility-2/209th           the ANP—by the end of FY 2012. SIGAR is examining the quality of con-
 Headquarters (USACE)                    struction and assessing whether the ANSF facilities in Kunduz, Nangarhar,
                                         and Wardak are being operated and maintained for the purposes intended.




                                           36                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




INVESTIGATIONS
During this reporting period, SIGAR investigations resulted in arrests and
indictments in the United States and Afghanistan, more than $900,000 in
recoveries, and about $50 million in contract monies protected. SIGAR
investigations netted two convictions, five arrests, and seven indictments.
In response to previous recommendations, implementing agencies final-
ized 23 debarments. The SIGAR Hotline received 35 complaints, 4 of
which sparked new investigations. Also this quarter, SIGAR special agents
received public service awards for bringing a former U.S. Army Reserve
captain to justice in the largest bribery case to come out of Afghanistan
since the start of U.S. operations there.
   SIGAR works closely with other U.S. law-enforcement agencies in
the International Contract Corruption Task Force (ICCTF) and Afghan
law-enforcement bodies to investigate contract and procurement fraud,
corruption, and theft. SIGAR closed the quarter with 188 open crimi-
nal investigations and is lead investigative agency in 132 of them. From
March 31 to June 30, 2012, SIGAR opened 25 new investigations and closed
one. Of the 25 new investigations this quarter, SIGAR is the lead agency on
17. Fifty percent of SIGAR’s cases involve procurement fraud, as shown in
Figure 2.1; 29% involve public corruption and bribery. The remaining 21%          FIGURE 2.1
are investigations of theft and other illegal activities associated with recon-
                                                                                  SIGAR INVESTIGATIONS: NUMBER OF OPEN
struction funding.
                                                                                  INVESTIGATIONS, AS OF JUNE 30, 2012
   In addition to building criminal and civil cases, SIGAR investigators are
helping contracting officials to identify poorly performing contractors.
SIGAR also supports anti-corruption bodies such as Task Force 2010, which                                 Total: 188
was established by DoD to combat contract and procurement fraud and to
prevent U.S. funds from being used to support insurgents.

New Initiatives                                                                                    Procurement      Public
This quarter, SIGAR investigators began two new initiatives. One, in coop-                         Fraud            Corruption/
                                                                                                   94               Bribery
eration with the Department of Commerce, seeks to identify individuals and
                                                                                                                    55
companies associated with criminal networks. The other, in cooperation
with the Army Criminal Investigation Task Force (CITF), shares informa-
tion to enhance criminal investigations.
                                                                                  Civil                                    Theft of Property
   SIGAR is working with the Commerce Department to ensure that indi-             Investigations                           and Services
viduals and companies found to be associated with criminal networks are           5                                        14
placed on the Department’s list of entities with which the United States          Assessments                              Miscellaneous
cannot do business. Individuals and companies placed on this list will be         6                                        Criminal Activity
                                                                                                                           14
suspended or barred from receiving U.S.-funded reconstruction contracts
                                                                                  Source: SIGAR Investigations Directorate, 7/12/2012.
in Afghanistan.
   SIGAR has assigned a senior investigation analyst to liaise with the
CITF to facilitate information exchanges on criminal cases relating to
funds appropriated for Afghanistan’s reconstruction. The CITF has access
to sophisticated data bases with information that can augment SIGAR’s




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                 37
SIGAR OVERSIGHT




operational knowledge of criminal networks in and around Afghanistan.
The CITF has prepared and delivered to SIGAR a number of intelligence
products related to ongoing criminal investigations. SIGAR is using this
information to develop cases. SIGAR and the CITF are exploring signing a
Memorandum of Understanding to formalize the relationship.

SIGAR Agents Receive Public Service Awards
On May 11, 2012, two SIGAR special agents—Philip Cousin and Wai Man
Leung—received public-service awards for their leading roles in the
investigation of the largest bribery case to come out of Afghanistan since
the U.S. reconstruction effort began in 2002. The U.S. Attorney for the
Eastern District of Virginia presented the awards for extraordinary ser-
vice in a federal case to special agents from SIGAR, the Federal Bureau of
Investigation (FBI), Defense Criminal Investigative Service (DCIS), and the
Drug Enforcement Administration (DEA), who worked together to build
the case against Sidarth Handa, a former U.S. Army Reserve captain who
solicited millions of dollars in bribes and set up a scheme to distribute
Southeast Asian heroin in the United States. Handa is serving a 10-year
prison sentence.
   The award citation said, “Agent Philip Cousins was the man on the
ground in Afghanistan,” and described how Cousins developed an under-
cover source who knew Handa and established communications with
Handa that lasted over a year. Ultimately Handa told the source how he had




SIGAR special agents are among those who received public service awards for their
roles in investigating and successfully prosecuting the largest bribery case to come out
of Afghanistan since 2002. From left to right: Dennis Fitzpatrick (AUSA), Kosta Stojilkovic
(AUSA), E.J. Kelly (DEA), Steve Balog (DEA), Mark Bruso (DEA), Juana Cordova (DCIS),
John Goodpaster (FBI), Wai Man Leung (SIGAR), Neil H. MacBride (USA-EDVA). Not
pictured: Philip Cousin (SIGAR).




   38                    SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




solicited more than $2 million in bribes for construction contracts funded
by U.S. taxpayers during a six-month stint in Afghanistan. Working with the
FBI, DCIS, and DEA, Special Agent Wai Man Leung built a criminal case
by gathering contract documents and bank records, and by interviewing
Handa’s former Army colleagues and supervisors.

Investigative Results
This quarter, SIGAR investigations led to the recovery of more than
$900,000 and the protection of $50 million in contract monies, as well as
two convictions, six indictments, and five arrests.

Investigation Yields a $914,477 Recovery in USAF Contract
A joint investigation by SIGAR and the U.S. Air Force Office of Special
Investigations (OSI) led to the recovery of $917,477 in contract over-
charges. The investigation found that a U.S. government contractor in
Afghanistan overcharged the U.S. government by failing to provide the
number of security personnel required under the terms of a firm-fixed-price
contract with the U.S. Air Force. The security personnel were supposed
to be assigned to Bagram and Kandahar airfields. The investigation deter-
mined that the contractor’s failure to fulfill the terms of the contract
resulted in the U.S. government being improperly overcharged. As a result
of the SIGAR and OSI investigation, the U.S. government successfully
recouped the full amount of the contract overcharges through an equitable
adjustment to the contract.

$50 Million in Reconstruction Contract Monies Protected
This quarter SIGAR’s initiative to protect U.S. taxpayer dollars by helping
contracting officials to identify poorly performing contractors resulted in
several contracts being terminated for default. The terminations protected
more than $50 million that otherwise could have been paid to the contrac-
tors. The terminated contracts include the following:
•	 A $40.6 million USACE contract for construction of an ANA training
   center and ammunition supply point was terminated for unsatisfactory
   progress, resulting in a $37 million cost savings. The contractor had
   completed only 10% of the work at a point when its contract required
   87% completion.
•	 A $36.1 million U.S. Army Corps of Engineers (USACE) contract
   for a construction project was terminated for default, saving the
   U.S. government $3.8 million. A SIGAR investigation found that the
   contractor had engaged in a number of illegal activities, including
   falsifying numerous prompt-payment certificates and failing to pay
   Afghan subcontractors, suppliers, and laborers.
•	 A SIGAR review of questionable projects executed under the Com-
   mander’s Emergency Response Program (CERP) in 2011 at Forward




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               39
SIGAR OVERSIGHT




   Operating Base (FOB) Salerno prompted the command staff to conduct
   its own assessment and investigation. As of April 10, projects totaling
   $19 million had been terminated, thus protecting about $9 million from
   being spent on questionable projects.

Government Contractor Charged with Wire Fraud,
Identity Theft, and Conspiracy
On June 27, 2012, a federal grand jury charged a U.S. government contractor
who had worked in Afghanistan with wire fraud, aggravated identity theft,
and conspiracy to defraud the U.S. government. The three-count crimi-
nal indictment in the U.S. District Court for the Eastern District of North
Carolina resulted from an ongoing SIGAR and Army Criminal Investigation
Division (CID) investigation.
   According to the indictment, Lavette Domineck and others conspired
to defraud the U.S. government by telephoning the Fayetteville, North
Carolina, office of the American Red Cross to falsely report that the defen-
dant’s brother in Milwaukee, Wisconsin, had died. Domineck is alleged to
have knowingly caused the American Red Cross to transmit the false death
notification to the defendant in Afghanistan. The defendant allegedly used
this false death notification to claim and obtain advance paid leave and
travel benefits for the purpose of attending the supposed funeral at a cost
fraudulently billed to the U.S. government.

U.S. Army Sergeant and Civilian Contractor Charged with
Bribery in Connection with $1.7 Million Fuel Theft
On June 12, 2012, a U.S. Army sergeant and a military contractor were
charged in the U.S. District Court for the District of Colorado with steal-
ing an estimated $1.7 million worth of jet fuel from FOB Fenty. Sergeant
Christopher Weaver and Jonathan Hightower, an employee of Fluor Inc.,
stand accused of conspiring to defraud the U.S. government. Weaver also
faces charges of bribery. SIGAR initiated this investigation after receiving
information from two SIGAR sources.
   According to the charging documents, Weaver and Hightower worked at
the forward operating base, which serves as a distribution hub for jet fuel.
Weaver oversaw the fuel distribution; Fluor Inc. provided staffing for the
fueling station.
   The charges say Weaver and Hightower facilitated the theft of about 100
truckloads of jet fuel. They allegedly conspired with a representative of a
trucking firm to create falsified transportation-movement requests autho-
rizing the trucking company to move the fuel off the base. According to
the charging documents, Weaver, Hightower, and one other co-conspirator
received a kickback of $5,000 for the first truckload of fuel.
   The thefts occurred between January and July of 2010. No trial date had
been set at press time.




  40                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




Two U.S. Army Soldiers Plead Guilty to Bribery Charges
This quarter, two members of the U.S. Army pleaded guilty for partici-
pating in a scheme to steal jet fuel from a forward operating base in
Afghanistan. SIGAR conducted the investigation, together with other mem-
bers of the ICCTF.
   On June 8, 2012, Sergeant Reginald Dixon and Specialist Larry Emmons
each pleaded guilty to one count of bribery set forth in the charging docu-
ment before a judge of the U.S. District Court in Hawaii. According to court
documents, the two men conspired with others to steal thousands of gal-
lons of jet propellant-8 fuel from FOB Fenty, near Jalalabad, Afghanistan.
Sentencing is scheduled for October 4, 2012. Dixon and Emmons each face
up to 15 years in prison, fines, and orders to make restitution.
   The U.S. military stockpiles fuel at FOB Fenty for use on the base and
for transport to other FOBs in Afghanistan. Dixon was a petroleum opera-
tor responsible for transferring fuel from holding tanks to tanker trucks.
Court documents show that Emmons or a co-conspirator created fraudulent
transportation-movement requests, military paperwork that authorizes the
movement of fuel from the base to another location. The defendants and
their co-conspirators sold the fuel to an Afghan military trucking contrac-
tor who filled company trucks in clandestine locations at times of day least
likely to arouse suspicion. The company used the false documents to leave
the base with the fuel.
   The U.S. government estimates that Dixon, Emmons, and an unnamed
co-conspirator stole 135,000 gallons of jet fuel. They received $6,000 per
3,000-gallon truckload of jet fuel. As part of their plea agreements, Dixon
and Emmons forfeited various amounts of cash recovered by federal agents
during the investigation.
   As a result of this investigation, military officials at FOB Fenty have
redesigned the transportation movement requests to reduce the risk of
alteration or fabrication.

Afghan Contractor Charged with Bribery
During this reporting period, Mohammed Zadran, an Afghan fuel truck
contractor, was charged with attempting to bribe a U.S. soldier. SIGAR
initiated this investigation after receiving a report from a cooperating
witness that the Afghan contractor had offered to pay a U.S. soldier to
facilitate fuel theft at FOB Airborne. SIGAR and other members of the
ICCTF worked with the Afghan Attorney General’s Office to conduct visual
and electronic surveillance of Zadran. The surveillance captured Zadran
offering and then paying a bribe to the cooperating witness in exchange for
paperwork that would authorize two trucks to drive off the base carrying
800 gallons of fuel. The Afghan authorities arrested Zadran and two truck
drivers. The Anti-Corruption Unit within the Attorney General’s Office is
prosecuting the case.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012              41
SIGAR OVERSIGHT




Afghan Contractor Arrested
During this reporting period, an Afghan national, Ayoubi Muhammad
Hamed, was arrested by Afghan authorities and charged with bribery and
tax-related crimes under Afghan law, following an investigation by SIGAR
and other members of the ICCTF. On June 30, 2012, a team of SIGAR
and other ICCTF agents executed search warrants at the Humanitarian
Assistance Yard at Bagram Airfield. Members of the Anti-Corruption Unit of
the Afghan Attorney General’s Office and SIGAR agents interviewed Hamed,
who confessed to paying a $25,000 bribe to a U.S. soldier in exchange for
being given authority over the Humanitarian Assistance Yard. Hamed was
under contract with the U.S. government to maintain the yard and to dis-
tribute humanitarian relief supplies to Afghans as needed. The investigation
started because Hamed was suspected of bribing U.S. personnel, providing
inferior goods, and colluding with trucking companies, including some in
which he had an undisclosed interest, to inflate the cost of transporting the
relief supplies.

Suspensions and Debarments
During this reporting period, SIGAR referred 49 individuals and companies
for suspension or debarment, bringing the number of referrals to 146 (80
individuals and 66 companies), as shown in Figure 2.2. This quarter, imple-
menting agencies finalized 23 debarments. As of June 30, 2012, SIGAR
referrals have resulted in 35 suspensions, 38 debarments and 82 propos-
als for debarment of individuals and companies engaged in U.S.-funded
reconstruction activities. SIGAR started this aggressive suspension and
debarment program in FY 2011 to address the serious problems of fraud,
corruption, and poor performance by contractors in Afghanistan.
   This quarter’s suspension and debarment referrals included 26 for indi-
viduals and companies that had received grants under USAID’s Afghan
Small and Medium Enterprise Development Program. The referrals were
based on the accused making false statements and false claims, stealing,
and failing to pay employees and subcontractors. Another 14 individuals
and companies were referred for debarment to other agencies based on
allegations of bribery, false claims, and provision of material support to
insurgent and criminal organizations active in Afghanistan.
   SIGAR continues to use suspension and debarment in two critical areas:
to detect and deter fraud associated with Host Nation Trucking contrac-
tors, and to address the failure of contractors to pay for goods and services
received from local Afghan contractors. SIGAR investigations in these areas
serve to strengthen the Afghan contracting community’s respect for the rule
of law, provide oversight of contracting dollars’ flow into local communities,
and enable the growth of businesses that can participate in future develop-
ment and reconstruction projects funded by the international community.




  42                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       SIGAR OVERSIGHT




   SIGAR makes referrals for suspensions and debarments—actions taken
by U.S. agencies to exclude companies or individuals from receiving fed-
eral contracts or assistance because of misconduct—based on completed
investigations. SIGAR provides all documentation needed for an agency to
take action. In addition to continuing to make referrals for action by other
agencies, SIGAR has taken steps to promote suspension and debarment as
a remedy in reconstruction-related cases.
   Suspensions and debarments are an important tool for ensuring that
agencies award contracts only to responsible entities. SIGAR’s program
addresses three challenges posed by U.S. policy and the contingency con-
tracting environment in Afghanistan: the need to act quickly, the limited
U.S. jurisdiction over Afghan nationals and Afghan companies, and the vet-
ting challenges inherent in the use of multiple tiers of subcontractors.
   A complete list of suspensions and debarments prompted by SIGAR
activity as of June 30, 2012, appears in Appendix D of this report.


FIGURE 2.2


SIGAR INVESTIGATIONS: CUMULATIVE REFERRALS FOR SUSPENSION AND DEBARMENT, 
Q2 FY 2011–Q3 FY 2012

150

125

100

 75

 50

 25

   0
              Q2                 Q3                 Q4             Q1         Q2        Q3
           FY 2011            FY 2011            FY 2011        FY 2012    FY 2012   FY 2012

Source: SIGAR Investigations Directorate, 7/11/2012.




REPORT TO THE UNITED STATES CONGRESS                   I   JULY 30, 2012                 43
SIGAR OVERSIGHT




SIGAR STAFF
During this reporting period, SIGAR increased its staff from 147 to 165 fed-
eral employees. SIGAR extended offers of employment that will bring the
number of full-time staff to 175 by the end of August 2012. SIGAR is on tar-
get to reach its FY 2013 goal of 200.
   SIGAR has 33 authorized positions for personnel at the U.S. Embassy
Kabul and 16 authorized at locations outside the U.S. Embassy. SIGAR has
staff members stationed at several locations across the country, including
Kandahar and Bagram airfields, Camp Leatherneck, FOB Salerno, USFOR-A
headquarters in Kabul, and the U.S. Consulate in Herat, as shown in
Figure 2.3. SIGAR employs four local Afghans in its Kabul office to support
investigations and audits. In addition, SIGAR supports its work with staff
assigned to short-term temporary duty in Afghanistan. This quarter, SIGAR
had 8 personnel on temporary duty in Afghanistan for a total of 95 days.




  44                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                        SIGAR OVERSIGHT




FIGURE 2.3

SIGAR PRESENCE IN AFGHANISTAN




                                               JOWZJAN                         KUNDUZ              BADAKHSHAN
                                                               BALKH                      TAKHAR


                                                                    SAMANGAN
                                 FARYAB                                   BAGHLAN
                                               SAR-E PUL                         PANJSHIR
                                                                                         NURISTAN
                       BADGHIS
                                                                         PARWAN KAPISA        KUNAR
                                                              BAMYAN                  LAGHMAN
                                                                              KABUL
             HERAT                                                   WARDAK
                                                                                        NANGARHAR
                                 GHOR                                       LOGAR
                                                 DAYKUNDI                      PAKTIYA
                                                                      GHAZNI                 KHOWST

                                             URUZGAN
              FARAH
                                                                                PAKTIKA
                                                            ZABUL




             NIMROZ
                       HELMAND
                                        KANDAHAR
                                                                                                   Current SIGAR offices
                                                                                                   Provinces where SIGAR has conducted
                                                                                                   audit and investigation work




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2012                               45
                               Next Generation of Judges
  Graduates of Afghanistan’s two-year training program for
   judges listen to Afghan and U.S. officials at a ceremony
held at the Afghanistan Supreme Court on June 20. USAID
     has provided technical assistance to program staff in
     curriculum development and teaching methodologies.
                              (U.S. Embassy Kabul photo)
3   RECONSTRUCTION
    UPDATE




        47
          RECONSTRUCTION UPDATE




   “We have to ensure the strongest
     possible collaboration among
   four groups so that this decade of
transformation can produce results:
the Afghan government and people,
 first and foremost; the international
community; Afghanistan’s neighbors;
        and the private sector.”
 —Secretary of State Hillary Rodham Clinton




          Source: DoS, “Remarks of Secretary of State Hillary Rodham Clinton, Intervention at the Tokyo Conference
          on Afghanistan,” 7/8/2012.




              48                            SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                  RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents updates on accomplishments, challenges, and initiatives
in Afghanistan reconstruction to provide context for oversight. Sidebars
identify SIGAR audits, completed and ongoing, relating to those efforts.
Cross-references to Section 1 point to more detail.
    SIGAR presents the data in this section in compliance with Public Law
110-181, which mandates that each of SIGAR’s quarterly reports to Congress
on reconstruction activities in Afghanistan include, among other things:
 •	 obligations and expenditures of appropriated funds
 •	 discussions of U.S. government entities’ contracts, grants, agreements,
    or other mechanisms
 •	 funds provided by foreign nations or international organizations to
    programs and projects funded by U.S. government entities




TOPICS
This section has four subsections: Status of Funds, Security, Governance,
and Economic and Social Development.
   The Status of Funds subsection describes monies appropriated, obli-
gated, and disbursed for Afghanistan reconstruction, including U.S. funds
and international contributions.
   The organization of the other three subsections mirrors the three pillars
in the Prioritization and Implementation Plan developed in an international
conference in July 2010 and announced by the Afghan government.
   The Security subsection describes U.S. efforts to bolster the Afghan
National Security Forces (the Army and National Police), the transition away
from private security contracting, and the battle against the narcotics trade.
   The Governance subsection provides an overview of the Afghan govern-
ment’s progress toward good governance through capacity-building efforts,
rule of law initiatives, and human rights recognition. This subsection also
describes the status of reconciliation and reintegration, Afghan government
control in various provinces, and initiatives to combat corruption.
   The Economic and Social Development subsection looks at reconstruc-
tion activities by sectors like energy, mining, and health. It provides a snapshot




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                   49
RECONSTRUCTION UPDATE




of the state of the economy and updates on progress in regulating financial
networks, achieving fiscal sustainability, and delivering essential services.


METHODOLOGY
Section 3 was compiled from open-source and U.S. agency data.
Attributions appear in endnotes or notes to tables and figures. Multiple
organizations provide data, so numbers may conflict. SIGAR has not verified
data other than that in its own audits or investigations. Information from
other sources does not necessarily reflect SIGAR’s opinion. For details on
SIGAR audits and investigations this quarter, see Section 2.

Data Call
The data call is a series of questions directed to U.S. agencies about their
contributions and involvement in reconstruction programming, and the
state of affairs in Afghanistan. U.S. agencies responding to the latest data
call include the Departments of State, Defense, and Treasury, and the U.S.
Agency for International Development. Responding agencies received a
preliminary draft of this section so they could verify and comment on
specific data they provided for this quarterly report.

Open-Source Research
Open-source research draws on the most current, publicly available data
from reputable sources. Sources used include the U.S. agencies represented
in the data call, the International Security Assistance Force, the United
Nations (and relevant branches), the International Monetary Fund, the
World Bank, and Afghan ministries and other government organizations.




  50                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GRAPHICS KEY




UNDERSTANDING THE GRAPHICS AND DATA TERMS
All figures and tables report data for this quarter, except where identified in titles or notes.
         ASFF      CERP DoD CN   ESF      INCLE



BAR CHARTS
        DoD                      USAID     DoS                     UNITS IN BILLIONS AND MILLIONS
This report discusses many funds and projects with                 Because this report details funding in both billions
dollar values ranging from millions to billions. To                and millions of dollars, it uses a visual cue to distin-
provide an accurate graphical representation of these              guish the two measurement units. Dollars reported in
numbers, some bar graphs appear with a break (a                    billions are represented in blue, and dollars reported
wavy line) to indicate a jump between zero and a                   in millions are depicted in green.
larger number.
          ASFF


     $500          DoD                 $200

     $450
                                       $150
     $400
                                       $100
     $350
                   CERP
                                         $50
                                                                          Pie chart in billions        Pie chart in millions

        $0         DoD                    $0

             Bar chart with a                  Bar chart without
                                                                   CALENDAR AND SOLAR YEARS
              break in scale                   a break in scale
                                                                   Afghanistan follows the solar Hejri calendar, which
                                                                   began in 622 A.D. in the Gregorian calendar. SIGAR
                                                                   converts Hejri solar years to Gregorian equivalents.
FUNDING MARKERS
             DoD CN
                                                                   The current Afghan solar year (SY) is 1391. It began
Funding markers identify individual funds dis-                     on March 21, 2012 and ends on March 20, 2013.
cussed in the text. The agency responsible for                     The Afghan government’s fiscal year has been the
managing the fund
                DoD is listed in the tan box below                 solar year, but the current fiscal year will run only
the fund name.                                                     from March 21, 2012, to December 31, 2013. This
                                                                   one-time, nine-month fiscal year accommodates the
                                                                   Afghan government’s upcoming change to a fiscal
                                                                   year that runs from January 1 to December 31.
                                 ESF

                                                                         2012                          2013
                                 USAID                                    • • • • • • • • •
                                                                                 1391                          1392



                                          INCLE



                                           DoS
REPORT TO THE UNITED STATES CONGRESS           I   JULY 30, 2012             51
                                                          STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities
in Afghanistan. As of June 30, 2012, the United States had appropriated
nearly $89.48 billion for relief and reconstruction in Afghanistan since
FY 2002. This total has been allocated as follows:
 •	 $52.15 billion for security
 •	 $22.34 billion for governance and development
 •	 $6.00 billion for counter-narcotics efforts
 •	 $2.37 billion for humanitarian aid
 •	 $6.62 billion for oversight and operations
Figure 3.1 shows the major U.S. funds that contribute to these efforts.


FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)

                                      FUNDING SOURCES (TOTAL: $89.48)
                                                                                                                    ASFF: Afghanistan Security Forces Fund
                                                                                                                    CERP: Commander’s Emergency
    ASFF         CERP          AIF        TFBSO       DoD CN              ESF          INCLE             Other      Response Program
                                                                                                                    AIF: Afghanistan Infrastructure Fund
   $50.63        $3.44       $0.80        $0.57        $2.31             $14.95        $3.56            $13.22      TFBSO: Task Force for Business and
                                                                                                                    Stability Operations
                                                      AGENCIES
                                                                                                                    DoD CN: DoD Drug Interdiction and
                                                                                   Department of      Distributed   Counter-Drug Activities
                Department of Defense (DoD)                              USAID                        to Multiple
                         $57.75                                          $14.95
                                                                                    State (DoS)                     ESF: Economic Support Fund
                                                                                       $3.56           Agenciesa
                                                                                                        $13.22      INCLE: International Narcotics Control and
                                                                                                                    Law Enforcement
Note: Numbers affected by rounding.                                                                                 Other: Other Funding
a. Multiple agencies include DoJ, DoS, DoD, USAID, Treasury, and USDA.

Sources: DoD, responses to SIGAR data call, 7/20/2012, 7/18/2012, 7/16/2012, 7/2/2012, 6/26/2012, 10/14/2009,
and 10/1/2009; DoS, responses to SIGAR data call, 7/13/2012 and 7/6/2012 ; Treasury, response to SIGAR data call,
7/20/2012; USAID, responses to SIGAR data call, 6/28/2012, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response
to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10,
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                      I   JULY 30, 2012                               53
                                                                                                         53
                                                                                                                                                   53
                                                                   STATUS OF FUNDS




                                                                   U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
  ASFF   CERP     AIF    TFBSO DoDCN    ESF    INCLE               As of June 30, 2012, cumulative appropriations for relief and reconstruc-
                                                                   tion in Afghanistan totaled nearly $89.48 billion. This total can be divided
                                                                   into five major categories of reconstruction funding: security, governance
                 DoD                   USAID DoS
                                                                   and development, counter-narcotics, humanitarian, and oversight and
                                                                   operations. For complete information regarding U.S. appropriations, see
The amount provided to the seven major                             Appendix B.
U.S. funds represents more than 85.2%                                 As of June 30, 2012, appropriations for Afghanistan relief and recon-
(nearly $76.26 billion) of total recon-                            struction for FY 2012 amounted to nearly $16.52 billion, increasing total
struction
  ASFF    assistance in Afghanistan since                          cumulative funding nearly 18.5% over total cumulative funding through
FY 2002. Of this amount, more than 75.8%                           FY 2011. Figure 3.2 displays the increase in cumulative appropriations by
(nearly $57.84 billion) has been obligated,
                                                                   funding category from FY 2002 to FY 2012. These figures reflect amounts as
and nearly 65.40%
            DoD     (nearly $49.86 billion)
                                                                   reported by the respective agencies and amounts appropriated in legislation.
has been disbursed. The following pages
provide additional details on these funds.
                                                                      Congress appropriated more than $16 billion for relief and reconstruc-
                                                                   tion in FYs 2010, 2011, and 2012, as shown in Figure 3.3 on the facing page.

FIGURE 3.2
CUMULATIVE
    CERP APPROPRIATIONS BY FUNDING CATEGORY, AS OF MARCH 31, 2012 ($ BILLIONS)
CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF JUNE 30, 2012 ($ BILLIONS)
$100
 $95             DoD

 $90                                                                                                                                                                              $89.48

 $85
 $80
 $75                                                                                                                                                       $72.96
                             DoD CN
 $70
 $65
 $60
                 DoD                                                                                                                $56.22
 $55
 $50
 $45
 $40                                                                                                         $39.57

 $35                                   ESF
 $30                                                                                  $29.19

 $25                                                           $23.00
 $20                                   USAID
 $15                                    $12.97
 $10              $9.50

   $5
   $0                                       INCLE
                2002–2005                2006                   2007                   2008                   2009                   2010                    2011                   2012

                        Security         Governance/Development                Counter-Narcotics            Humanitarian             Oversight and Operations             Total
                                               DoS
Note: Numbers affected by rounding.
Note: Numbers affected by rounding.
Sources: DoD, responses to SIGAR data call, 7/20/2012, 7/18/2012, 7/16/2012, 7/2/2012, 6/26/2012, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 7/13/2012 and
Sources: DoD,
7/6/2012;       responses
            Treasury,      to SIGAR
                      response         datadata
                                  to SIGAR  call, call,
                                                  7/20/2012,     7/18/2012,
                                                        7/20/2012;               7/16/2012,
                                                                     USAID, responses          7/2/2012,
                                                                                          to SIGAR         and6/28/2012,
                                                                                                    data call,  6/26/2012,   10/14/2009,
                                                                                                                           10/15/2010,      and 10/1/2009;
                                                                                                                                         1/15/2010,          DoS, responses
                                                                                                                                                    and 10/9/2009;           to SIGAR
                                                                                                                                                                      DoJ, response todata call,
                                                                                                                                                                                       SIGAR data
7/13/2012
call,         andUSDA,
      7/7/2009;   7/6/2012;
                        responseTreasury, response
                                    to SIGAR           to SIGAR
                                              data call,        data
                                                          4/2009;     call,
                                                                   P.L.     7/20/2012;
                                                                        112-74,            USAID,P.L.
                                                                                  12/23/2011;     responses
                                                                                                      112-10, to SIGAR dataP.L.
                                                                                                               4/15/2011;    call, 6/28/2012,
                                                                                                                                111-212,       10/15/2010,
                                                                                                                                          10/29/2010;        1/15/2010,
                                                                                                                                                      P.L. 111-118,      and 10/9/2009;
                                                                                                                                                                    12/19/2009;            DoJ,
                                                                                                                                                                                  FY 2010 Defense
response   to SIGAR data
Explanatory Statement.    call, 7/7/2009;    USDA,    response  to SIGAR    data call, 4/2009;  P.L.  112-74,  12/23/2011;   P.L.  112-10, 4/15/2011; P.L. 111-212,  10/29/2010;   P.L. 111-118,
12/19/2009; FYAIF  2010 Defense Explanatory Statement.



                                                                        54                            SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                 DoD
                                                         STATUS OF FUNDS




Together they make up nearly 55.8% of the more than $89.48 billion appro-
priated since 2002.
   As in FY 2011, efforts to build, train, and equip the Afghan National
Security Forces (ANSF) received the majority of FY 2012 reconstruction
funding. Since FY 2006, virtually all reconstruction funding allocated for
security was appropriated for the Afghanistan Security Forces Fund (ASFF).
The $11.20 billion appropriated for the ASFF for FY 2012 is more than 67.8%
of all FY 2012 reconstruction funding. Funding for the ASFF is trending
downward as responsibility for security transitions to the ANSF. The amount
appropriated for the ASFF in FY 2012 is a decrease of more than $419.28 mil-
lion from the nearly $11.62 billion appropriated for the ASFF in FY 2011.  

FIGURE 3.3
APPROPRIATIONS BY FISCAL YEAR AND CATEGORY ($ BILLIONS AND PERCENT)
APPROPRIATIONS BY FISCAL YEAR AND FUNDING CATEGORY ($ BILLIONS AND PERCENT)
 $17                                                                                                                        $16.65                $16.74
                                                                                                                                                                          $16.52
 $16

 $15

 $14

 $13

 $12

 $11
                                                                                                      $10.38
                                                             $10.03
 $10           $9.50
  $9

  $8

  $7
                                                                                 $6.19
  $6

  $5

  $4
                                      $3.47
  $3

  $2

  $1

  $0
            2002–2005                 2006                   2007                2008                  2009                  2010                  2011                    2012




                     Security          Governance/Development              Counter-Narcotics           Humanitarian            Oversight and Operations           Total

Note: Numbers affected by rounding.

Sources: DoD, responses to SIGAR data call, 7/20/2012, 7/18/2012, 7/16/2012, 7/2/2012, 6/26/2012, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 7/13/2012 and
Note: Numbers affected by rounding.
7/6/2012; Treasury, response to SIGAR data call, 7/20/2012; USAID, responses to SIGAR data call, 6/28/2012, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data
Sources:  DoD, responses
call, 7/7/2009;           to SIGAR
                USDA, response      data call,
                                 to SIGAR data 7/20/2012,  7/18/2012,
                                                call, 4/2009; P.L. 112-74,7/16/2012, 7/2/2012,
                                                                           12/23/2011;          6/26/2012,
                                                                                       P.L. 112-10,         10/14/2009,
                                                                                                    4/15/2011;            and
                                                                                                               P.L. 111-212,   10/1/2009;P.L.
                                                                                                                             10/29/2010;   DoS, responses
                                                                                                                                              111-118,    to SIGAR data
                                                                                                                                                       12/19/2009;      call, Defense
                                                                                                                                                                   FY 2010    7/13/2012
and  7/6/2012;
Explanatory     Treasury, response to SIGAR data call, 7/20/2012; USAID, responses to SIGAR data call, 6/28/2012, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR
             Statement.
data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010
Defense Explanatory Statement.



REPORT TO THE UNITED STATES CONGRESS                     I    JULY 30, 2012                                   55
 ASFF    CERP   AIF    TFBSO DoDCN    ESF    INCLE
                                                       STATUS OF FUNDS

                DoD                  USAID DoS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to
                                                       provide the ANSF with equipment, supplies, services, and training, as well
                                                       as facility and infrastructure repair, renovation, and construction.17 The pri-
                DoD
                                                       mary organization responsible for building the ANSF is the North Atlantic
                                                       Treaty Organization (NATO) Training Mission - Afghanistan/Combined
ASFF FUNDS TERMINOLOGY                                 Security Transition Command-Afghanistan.18 
DoD reported ASFF funds as available,                     The Consolidated Appropriations Act of 2012 provided $11.20 billion
obligated, or disbursed.                               for the ASFF, bringing the total cumulative appropriations for this fund
       CERPTotal monies available for
Available:                                             to nearly $50.63 billion.19  As of June 30, 2012, nearly $37.80 billion of this
commitments                                            amount had been obligated, of which more than $33.50 billion had been dis-
Obligations:DoD
             Commitments to pay monies                 bursed.20  Figure 3.4 displays the amounts made available for the ASFF by
                                                       fiscal year.
Disbursements: Monies that have been
                                                          DoD reported that cumulative obligations as of June 30, 2012, increased
expended
                                                       by nearly $794.87 million over cumulative obligations as of March 31, 2012.
Source: DoD, response to SIGAR data call, 4/13/2010.   Cumulative disbursements as of June 30, 2012, increased by approximately
                          DoD CN
                                                       $911.93 million over cumulative disbursements as of March 31, 2012.21
                                                       Figure 3.5 provides a cumulative comparison of amounts made available,
                                                       obligated, and disbursed for the ASFF.
                DoD
                                                       FIGURE 3.4                                                      FIGURE 3.5

                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                             ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                    ($ BILLIONS)

                                                                                                                                            Available                   Available
                                     ESF               $12.0                                                           $50.0                $50.63                      $50.63



                                     USAID             $10.0                                                           $45.0



                                                        $8.0                                                           $40.0
                                                                                                                                                                         Obligated
                                                                                                                                            Obligated                    $37.80
                                             INCLE                                                                                          $37.00
                                                        $6.0                                                           $35.0
                                                                                                                                                                         Disbursed
                                                                                                                                            Disbursed                    $33.50
                                                                                                                                            $32.59
                                             DoS        $4.0                                                           $30.0



                                                        $2.0                                                           $25.0
                AIF

                                                          $0                                                             $0
                                                               2005 06        07     08    09     10     11     12             As of Mar 31, 2012           As of Jun 30, 2012
                DoD
                                                       Notes: Numbers affected by rounding. Data from DoD does         Notes: Numbers affected by rounding. Data from DoD does
                                                       not reflect the agency’s reduction of $1 billion in available   not reflect the agency’s reduction of $1 billion in available
                                                       funds for ASFF.                                                 funds for the ASFF.
                                                       Sources: DoD, response to SIGAR data call, 7/16/2012; P.L.      Sources: DoD, responses to SIGAR data call, 7/16/2012
                                                       112-74 12/23/2011; P.L. 112-10, 4/15/2011.                      and 4/11/2012; P.L. 112-74 12/23/2011; P.L. 112-10,
                      TFBSO                                                                                            4/15/2011.




                DoD
                                                           56                             SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                          STATUS OF FUNDS




ASFF Budget Activities
DoD allocates funds to three budget activity groups within the ASFF:                                                        Budget Activity Groups: categories
•	 Defense Forces (Afghan National Army, ANA)                                                                               within each appropriation or fund account
•	 Interior Forces (Afghan National Police, ANP)                                                                            that identify the purposes, projects, or
•	 Related Activities (primarily Detainee Operations)                                                                       types of activities financed by the appro-
Funds for each budget activity group are further allocated to four sub-                                                     priation or fund
activity groups: Infrastructure, Equipment and Transportation, Training and
                                                                                                                            Sub-Activity Groups: accounting groups
Operations, and Sustainment.22 
                                                                                                                            that break down the command’s disburse-
   As of June 30, 2012, DoD had disbursed more than $33.50 billion for
                                                                                                                            ments into functional areas
ANSF initiatives. Of this amount, nearly $21.70 billion was disbursed for the
ANA, and nearly $11.64 billion was disbursed for the ANP; the remaining
more than $0.17 billion was directed to related activities.23 
                                                                                                                          Sources: DoD, “Manual 7110.1-M Department of Defense
   As shown in Figure 3.6, the largest portion of the funds disbursed for                                                 Budget Guidance Manual,” accessed 9/28/2009;
                                                                                                                          Department of the Navy, “Medical Facility Manager
the ANA—nearly $9.05 billion—supported Equipment and Transportation.                                                      Handbook,” p. 5, accessed 10/2/2009.
Of the funds disbursed for the ANP, the largest portion—approximately
$3.98 billion—supported Sustainment, as shown in Figure 3.7.24 




FIGURE 3.6                                                    FIGURE 3.7
ASFF DISBURSEMENTS FOR THE ANA                                ASFF DISBURSEMENTS FOR THE ANP
ASFF  DISBURSEMENTS
BY SUB-ACTIVITY GROUP,     FOR THE ANA                        ASFF
                                                              BY    DISBURSEMENTS
                                                                 SUB-ACTIVITY GROUP,      FOR THE ANP
By  Sub-Activity
FY 2005–JUNE  30, Group,
                  2012 ($ BILLIONS)                           By2005–JUNE
                                                              FY  Sub-Activity  Group,
                                                                            30, 2012 ($ BILLIONS)
FY 2005–June 30, 2012 ($ BILLIONS)                            FY 2005–June 30, 2012 ($ BILLIONS)

                   Total: $21.70                                                 Total: $11.64


                                                              Infrastructure                               Training and
Infrastructure                                                                   Equipment and             Operations
$3.18                Equipment and                            $1.84
                                                                                 Transportation            $2.55
                     Transportation                                              $3.27
                     $9.05



                 Sustainment                                                   Sustainment
                 $7.38                                                         $3.98
                                           Training and
                                           Operations
                                           $2.09
                                                              Note: Numbers affected by rounding.

Note: Numbers affected by rounding.                           Source: DoD, response
                                                              Note: Numbers  affectedtobySIGAR data call, 7/16/2012.
                                                                                          rounding.

Source: DoD, response to SIGAR data call, 7/16/2012.          Source: DoD, response to SIGAR data call, 7/16/2012.
Note: Numbers affected by rounding.
Source: DoD, response to SIGAR data call, 7/16/2012.




REPORT TO THE UNITED STATES CONGRESS                      I   JULY 30, 2012                                     57
                                                        STATUS OF FUNDS
  ASFF



                DoD




                                                        COMMANDER’S EMERGENCY RESPONSE PROGRAM
         CERP                                           The Commander’s Emergency Response Program (CERP) enables U.S.
                                                        commanders in Afghanistan to respond to urgent humanitarian relief and
                                                        reconstruction requirements in their areas of responsibility by supporting
                DoD
                                                        programs that will immediately assist the local population. Funding under
                                                        this program is intended for small projects that are estimated to cost less than
CERP FUNDS TERMINOLOGY                                  $500,000 each.25 Projects with cost estimates exceeding $1 million are permit-
OMB reported CERP funds as appropriated.                ted, but they require approval from the Commander of U.S. Central Command;
Appropriations: TotalDoD
                      monies
                         CN available for
                                                        projects over $5 million require approval from the Deputy Secretary of
commitments                                             Defense. CERP-funded projects may not exceed $20 million.26 
                                                           As of June 30, 2012, DoD reported that the total cumulative funding for
DoD reportedDoDCERP funds as appropriated,              CERP amounted to nearly $3.44 billion.27 DoD reported that of this amount,
obligated, or disbursed.                                nearly $2.22 billion had been obligated, of which nearly $2.08 billion had
                                                        been disbursed.28 Figure 3.8 shows CERP appropriations by fiscal year.
Appropriations: Total monies available for
                                                           DoD reported that cumulative obligations as of June 30, 2012, increased
commitments
                                                        by nearly $13.05 million over cumulative obligations as of March 31,
Obligations: Commitments toESF
                            pay monies                  2012. Cumulative disbursements as of June 30, 2012, increased by nearly
Disbursements: Monies that have been                    $52.52 million over cumulative disbursements as of March 31, 2012.29
expended                                                Figure 3.9 provides a cumulative comparison of amounts appropriated, obli-
                                  USAID
Sources: OMB, response to SIGAR data call, 4/19/2010;   gated, and disbursed for CERP projects.
DoD, response to SIGAR data call, 4/14/2010.

                                                        FIGURE 3.8                                                        FIGURE 3.9


                                           INCLE        CERP APPROPRIATIONS
                                                        CERP APPROPRIATIONS BY
                                                                            BY FISCAL
                                                                               FISCAL YEAR
                                                                                      YEAR ($ MILLIONS)
                                                                                                   CERP FUNDS, CUMULATIVE COMPARISON
                                                                                                                          COMPARISON ($ BILLIONS)
                                                        ($ MILLIONS)                                                     ($ BILLIONS)


                                                        $1,000                                                            $3.5                 Appropriated                Available
                                           DoS                                                                                                 $3.44                       $3.44

                                                                                                                          $3.0
                                                          $800

                AIF                                                                                                       $2.5
                                                                                                                                              Obligated                    Obligated
                                                          $600                                                                                $2.21                        $2.22
                                                                                                                          $2.0
                DoD                                                                                                                           Disbursed                    Disbursed
                                                                                                                                              $2.03                        $2.08
                                                                                                                          $1.5
                                                          $400

                                                                                                                          $1.0
                      TFBSO
                                                          $200
                                                                                                                          $0.5
                DoD
                                                             $0                                                             $0
                                                                  2004 05 06 07 08 09 10 11 12                                   As of Mar 31, 2012           As of Jun 30, 2012
                                                        Notes: Numbers affected by rounding. Data may include inter-      Notes: Numbers affected by rounding. Data may include
                                                        agency  transfers.affected
                                                        Notes: Numbers     Data reported  as provided
                                                                                    by rounding. Data mayby DoD.
                                                                                                              include     inter-agency
                                                                                                                          Notes:       transfers.
                                                                                                                                  Numbers  affected Data
                                                                                                                                                      by reported
                                                                                                                                                          rounding.as provided
                                                                                                                                                                    Data       by DoD.
                                                                                                                                                                         may include
                                                        inter-agency transfers. Data reported as provided by DoD.         inter-agency transfers. Data reported as provided by DoD.
                                                        Sources: DoD, response to SIGAR data call, 7/16/2012; P.L.        Sources: DoD, responses to SIGAR data call, 7/16/2012
                                                        Sources:12/23/2011;
                                                        112-74,   DoD, response    to SIGAR
                                                                                OMB,         datatocall,
                                                                                       response     SIGAR7/16/2012;
                                                                                                             data call,   Sources:  DoD, responses
                                                                                                                          and 5/30/2012;               to SIGAR
                                                                                                                                            P.L. 112-74,         data call,OMB,
                                                                                                                                                           12/23/2011;      7/16/2012
                                                                                                                                                                                response
                                                        P.L. 112-74,P.L.
                                                        4/17/2012;    12/23/2011;     OMB, P.L. 112-10, 4/15/2011.
                                                                         112-10, 4/15/2011.                               and  5/30/2012;
                                                                                                                          to SIGAR  data call,P.L. 112-74, 12/23/2011;
                                                                                                                                               5/30/2011;                   OMB,
                                                                                                                                                             P.L. 112-10, 4/15/2011.
                                                                                                                          response to SIGAR data call, 5/30/2011; P.L. 112-10,
                                                                                                                          4/15/2011.




                                                            58                             SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                                USAID


                                                           STATUS OF FUNDS
                                                                                                                                                                        INCLE



                                                                                                                                                                         DoS



AFGHANISTAN INFRASTRUCTURE FUND
The Ike Skelton National Defense Authorization Act for FY 2011 established                                                                   AIF
the Afghanistan Infrastructure Fund (AIF) to pay for high-priority, large-scale
infrastructure projects that support the U.S. civilian-military effort. Thirty
                                                                                                                                            DoD
days before obligating or expending funds on an AIF project, the Secretary
of Defense is required to notify the Congress with details of the proposed
project, including a plan for its sustainment and a description of how it sup-                                                AIF FUNDS TERMINOLOGY
ports the counter-insurgency strategy in Afghanistan.30                                                                       DoD reported AIF funds as appropriated,
                                                                                                                                               TFBSO
   The Consolidated Appropriations Act of 2012 appropriated $400 mil-                                                         obligated, or disbursed.
lion for the AIF, bringing the total cumulative appropriations for this fund                                                  Appropriations: Total monies available for
to $800 million. DoD reported that as of June 30, 2012, approximately                                                         commitmentsDoD
$353.40 million of this amount had been obligated, of which more than                                                         Obligations: Commitments to pay monies
$41.28 million had been disbursed.31  Figure 3.10 shows AIF appropriations
                                                                                                                              Disbursements: Monies that have been
by fiscal year.
                                                                                                                              expended
   DoD reported that cumulative obligations as of June 30, 2012, increased
by approximately $82.20 million over cumulative obligations as of March 31,                                                   Source: DoD, response to SIGAR data call, 4/13/2010.

2012. Cumulative disbursements as of June 30, 2012, increased by approxi-
mately $13.18 million over cumulative disbursements as of March 31, 2012.32
Figure 3.11 provides a cumulative comparison of amounts appropriated,                                                             SIGAR AUDIT
obligated, and disbursed for AIF projects.
                                                                                                                                  In an audit completed this quarter,
                                                                                                                                  SIGAR focused on selection, inter-
FIGURE 3.10                                                    FIGURE 3.11
                                                                                                                                  agency coordination, and sustainability
                                            AIF FUNDS,
AIF APPROPRIATIONS BY FISCAL YEAR ($ MILLIONS)
                                            AIF FUNDS,CUMULATIVE
                                                       CUMULATIVECOMPARISON
                                                                 COMPARISON ($ MILLIONS)                                          of projects in the Afghanistan Infra-
($ MILLIONS)                                                   ($ MILLIONS)
                                                                                                                                  structure Program, which is supported
$800                                                           $800                Appropriated                Available          by the AIF. For more information, see
                                                                                   $800.00                     $800.00
                                                                                                                                  Section 2, page 25.


$600                                                           $600




$400                                                           $400
                                                                                                               Obligated
                                                                                                               $353.40
                                                                                   Obligated
                                                                                   $271.20
$200                                                           $200


                                                                                   Disbursed                   Disbursed
                                                                                   $28.10                      $41.28

   $0                                                             $0
                 2011                      2012                        As of Mar 31, 2012          As of Jun 30, 2012

Notes: Numbers affected by rounding. Data may include inter-   Notes: Numbers affected by rounding. Data may include inter-
Notes: Numbers
agency  transfers.affected by rounding. Data may include        Notes: transfers.
                                                               agency   Numbers affected by rounding. Data may include
inter-agency transfers.                                         inter-agency transfers.
Sources: P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.      Sources: DoD, responses to SIGAR data call, 7/18/2012,
Sources: P.L. 112-74, 12/23/2011; P.L. 112-10,                  Sources: DoD,
                                                               7/20/2012,   andresponses to SIGAR
                                                                                 1/17/2012;         data call,
                                                                                             P.L. 112-74,      7/18/2012,
                                                                                                          12/23/2011;
4/15/2011.                                                      7/20/2012,
                                                               P.L.           and 1/17/2012; P.L. 112-74, 12/23/2011;
                                                                    112-10, 4/15/2011.
                                                                P.L. 112-10, 4/15/2011.




REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2012                                      59
                                           DoS

                                                       STATUS OF FUNDS
               AIF



              DoD



                                                       TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS
                     TFBSO                             The Task Force for Business and Stability Operations (TFBSO) was estab-
                                                       lished in June 2006 and operated for several years in Iraq. In 2010, the
                                                       TFBSO began operations in Afghanistan aimed at stabilizing the country
              DoD
                                                       and countering economically motivated violence by decreasing unemploy-
                                                       ment and creating economic opportunities for Afghans. TFBSO projects
TFBSO FUNDS TERMINOLOGY                                include activities that facilitate private investment, industrial development,
DoD reported TFBSO funds as appropriated,              banking and financial system development, agricultural diversification and
obligated, or disbursed.                               revitalization, and energy development.33
Appropriations: Total monies available for                For FY 2012, the TFBSO received funding of nearly $257.62 million, bringing
commitments                                            the total cumulative funding for the task force to approximately $571.11 mil-
Obligations: Commitments to pay monies                 lion.34 As of June 30, 2012, approximately $429.09 million of this amount had
                                                       been obligated, of which approximately $195.97 million had been disbursed.35
Disbursements: Monies that have been
                                                       Figure 3.12 displays the amounts appropriated for TFBSO projects by fiscal year.
expended
                                                          DoD reported that cumulative obligations as of June 30, 2012,
Source: DoD, response to SIGAR data call, 4/13/2010.   increased by approximately $69.40 million over cumulative obligations
                                                       as of March 31, 2012. Cumulative disbursements as of June 30, 2012,
                                                       increased by nearly $30.52 million over cumulative disbursements as
                                                       of March 31, 2012.36 Figure 3.13 provides a cumulative comparison of
                                                       amounts made available, obligated, and disbursed for TFBSO projects.

                                                       FIGURE 3.12                                                   FIGURE 3.13
                                                       TFBSO APPROPRIATIONS BY FISCAL YEAR
                                                       ($ MILLIONS)
                                                       TFBSO    APPROPRIATIONS BY FISCAL YEAR                                                COMPARISON
                                                                                                                     TFBSO FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                  ($ MILLIONS)


                                                       $250                                                         $600
                                                                                                                                                                       Available
                                                                                                                                           Appropriated
                                                                                                                                                                       $571.11
                                                                                                                                           $559.21

                                                       $200                                                         $480
                                                                                                                                                                        Obligated
                                                                                                                                                                        $429.10
                                                       $150                                                         $360                   Obligated
                                                                                                                                           $359.69



                                                       $100                                                         $240
                                                                                                                                                                       Disbursed
                                                                                                                                           Disbursed                   $195.97
                                                                                                                                           $165.46
                                                        $50                                                         $120



                                                         $0                                                            $0
                                                                 2009         2010          2011         2012               As of Mar 31, 2012            As of Jun 30, 2012
                                                       Notes: Numbers affected by rounding. Data may include inter-        Notes: Numbers affected by rounding. Data may include
                                                       Notes: Numbers
                                                       agency  transfers.affected by rounding. Data may include            inter-agency
                                                                                                                      Notes:            transfers.
                                                                                                                             Numbers affected   by rounding. Data may include inter-agency transfers.
                                                       inter-agency transfers.
                                                       Sources: DoD, responses to SIGAR data call, 7/2/2012 and       Sources:  DoD, DoD,
                                                                                                                           Sources:  responses  to SIGAR
                                                                                                                                           response        datadata
                                                                                                                                                     to SIGAR   call,call,
                                                                                                                                                                      7/2/2012   and 3/30/2012; P.L. 112-74, 1
                                                                                                                                                                           7/2/2012;
                                                       Sources: DoD,
                                                       3/30/2012;   P.L.response
                                                                          112-74, to SIGAR data P.L.
                                                                                  12/23/2011;   call,112-10,
                                                                                                      7/2/2012;  P.L.
                                                                                                             4/15/2011.    P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.
                                                       112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                                                           60                           SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                   DoD




                                                              STATUS OF FUNDS
                                                                                                                                            CERP



                                                                                                                                                   DoD




DOD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DoD’s Drug Interdiction and Counter-Drug Activities fund (DoD CN) sup-                                                                                      DoD CN
ports efforts to stabilize Afghanistan by combating the drug trade and
related activities. DoD uses the DoD CN to provide assistance to the
counter-narcotics effort by supporting military operations against drug traf-                                                                      DoD
fickers; expanding Afghan interdiction operations; and building the capacity
of Afghan law enforcement bodies—including the Afghan Border Police—                                                               DOD CN FUNDS TERMINOLOGY
with specialized training, equipment, and facilities.37                                                                            DoD reported DoD CN funds as appropriated,
    DoD CN funds are appropriated by Congress to a single budget line for                                                          obligated, or disbursed.
                                                                                                                                                                      ESF
all military services. To allow for greater execution flexibility, funds are                                                       Appropriations: Total monies available for
reprogrammed from the Counter-narcotics Central Transfer Account to the                                                            commitments
military services and defense agencies in the year of execution. The ser-                                                          Obligations: Commitments toUSAID
                                                                                                                                                               pay monies
vices and agencies have internal accounting systems to track obligations
                                                                                                                                   Disbursements: Monies that have been
of the transferred funds. As a result, DoD reported DoD CN accounts for
                                                                                                                                   expended
Afghanistan as a single figure for all appropriated, obligated, and disbursed
amounts for each fiscal year.38                                                                                                    Source: DoD, response to SIGAR data call, 4/13/2010.
                                                                                                                                                                             INCLE
    As of June 30, 2012, DoD reported that DoD CN received nearly $424.99 mil-
lion for Afghanistan for FY 2012, bringing the total cumulative funding to
approximately $2.31 billion since FY 2004.39 Figure 3.14 shows DoD CN appro-                                                                                                  DoS
priations by fiscal year, and Figure 3.15 provides a cumulative comparison of
amounts appropriated, obligated, and disbursed for DoD CN projects.

                                                                  FIGURE 3.15                                                                      AIF
FIGURE 3.14

DOD CN APPROPRIATIONS
        APPROPRIATIONS BY                   DODCN
                         BY FISCAL YEAR ($ DOD    CNFUNDS,
                                           MILLIONS) FUNDS,CUMULATIVE
                                                            CUMULATIVE COMPARISON ($ BILLIONS)
FISCAL YEAR ($ MILLIONS)                   COMPARISON ($ BILLIONS)                                                                                 DoD
                                                                                                                  Available
$450                                                              $2.3
                                                                                      Available                   $2.31
                                                                                      $2.26                       Obligated
$400                                                              $2.2                                            $2.31
                                                                                      Obligated
                                                                                      $2.26                       Disbursed                              TFBSO
$350                                                              $2.1                Disbursed                   $2.31
                                                                                      $2.26
$300                                                              $2.0
                                                                                                                                                   DoD

$250                                                              $1.9

$200                                                              $1.8

$150                                                              $1.7

$100                                                              $1.6

 $50                                                              $1.5


   $0                                                              $0
        2004 05 06 07 08 09a 10 11                       12              As of Mar 31, 2012        As of Jun 30, 2012

Notes: Numbers affected by rounding. Data may include          Note: Numbers affected by rounding. Data may include inter-
Notes:  Numbers
inter-agency                                                    Note: transfers.
                 affected by rounding. Data may include inter-agency
             transfers.                                        agency  Numbers
                                                                       transfers.affected by rounding. Data may include inter-agency transfers.
a. Updated data resulted in a lower appropriation figure.       Source: DoD, responses to SIGAR data call, 6/26/2012 and 4/17/2012.
a. Updated data resulted in a lower appropriation figure.      Sources: DoD, responses to SIGAR data call, 6/26/2012 and
Source: DoD, response to SIGAR data call, 6/26/2012.           4/17/2012.
Source: DoD, response to SIGAR data call, 6/26/2012.



REPORT TO THE UNITED STATES CONGRESS                          I   JULY 30, 2012                                      61
              DoD




                                                        STATUS OF FUNDS
                        DoD CN



              DoD




                                                        ECONOMIC SUPPORT FUND
                                    ESF                 Economic Support Fund (ESF) programs advance U.S. interests by help-
                                                        ing countries meet short- and long-term political, economic, and security
                                                        needs. ESF programs support counter-terrorism; bolster national econo-
                                  USAID
                                                        mies; and assist in the development of effective, accessible, independent
                                                        legal systems for a more transparent and accountable government.40
ESF FUNDS TERMINOLOGY                                      As of June 30, 2012, USAID reported that the total cumulative funding
USAID reported ESF funds as appropriated,               for the ESF amounted to more than $14.95 billion. Of this amount, nearly
obligated, or disbursed.        INCLE                   $11.71 billion had been obligated, of which approximately $9.50 billion had
Appropriations: Total monies available                  been disbursed.41 Figure 3.16 shows ESF appropriations by fiscal year.
for commitments                                            USAID reported that cumulative obligations as of June 30, 2012,
                                           DoS
Obligations: Commitments to pay monies                  increased by approximately $240.70 million over cumulative obligations as
                                                        of March 31, 2012. Cumulative disbursements as of June 30, 2012, increased
Disbursements: Monies that have been
                                                        by approximately $683.75 million over cumulative disbursements as of
expended
               AIF                                      March 31, 2012.42 Figure 3.17 provides a cumulative comparison of the
Sources: OMB, response to SIGAR data call, 4/19/2010;
USAID, response to SIGAR data call, 4/15/2010.
                                                        amounts appropriated, obligated, and disbursed for ESF programs.

              DoD


                                                        FIGURE 3.16                                                    FIGURE 3.17

                                                        ESF APPROPRIATIONS
                                                        ESF APPROPRIATIONS BY
                                                                           BY FISCAL
                                                                              FISCAL YEAR          ESF FUNDS,
                                                                                     YEAR ($ BILLIONS)
                                                                                                   ESF FUNDS, CUMULATIVE
                                                                                                              CUMULATIVE COMPARISON
                                                                                                                         COMPARISON ($ BILLIONS)
                     TFBSO                              ($ BILLIONS)                                                   ($ BILLIONS)


                                                        $3.5                                                           $16
              DoD
                                                                                                                                            Available                   Available
                                                        $3.0                                                                                $14.95                      $14.95
                                                                                                                       $14
                                                        $2.5


                                                        $2.0                                                           $12                                              Obligated
                                                                                                                                            Obligated
                                                                                                                                                                        $11.71
                                                                                                                                            $11.47
                                                        $1.5
                                                                                                                       $10
                                                                                                                                                                        Disbursed
                                                        $1.0                                                                                                            $9.50
                                                                                                                                            Disbursed
                                                                                                                                            $8.82
                                                                                                                         $8
                                                        $0.5


                                                          $0                                                             $0
                                                             2002 03 04 05 06 07 08 09 10 11 12                               As of Mar 31, 2012          As of Jun 30, 2012

                                                        Notes: Numbers affected by rounding. Data may include          Notes: Numbers affected by rounding. Data may include inter-
                                                        inter-agency
                                                        Notes:       transfers.
                                                                Numbers                                                Notes: Numbers
                                                                                                                       agencytransfers.
                                                                         affected by rounding. Data may include inter-agency             affected
                                                                                                                               transfers.DoS       by rounding.
                                                                                                                                              shifted           Datafrom
                                                                                                                                                       $100 million   mayFYinclude
                                                                                                                                                                             2012 inter-agency transfers.
                                                                                                                                                                                   to FY 2011 to  increase FY 2012 f
                                                        Sources:  USAID, response  to SIGAR data  call, 6/28/2012;     Sources:
                                                                                                                    OMB,         USAID,
                                                                                                                          response   to  responses
                                                                                                                                        SIGAR  data  to SIGAR
                                                                                                                                                     call,     data call, 6/28/2012 and 4/3/2012; OMB, respons
                                                                                                                                                           4/17/2012.
                                                        Source: USAID, response to SIGAR data call, 6/28/2012.         Sources: USAID, responses to SIGAR data call, 6/28/2012
                                                                                                                       and 4/3/2012.




                                                            62                            SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                           DoD



                                                               STATUS OF FUNDS
                                                                                                                                                                                 ESF



                                                                                                                                                                                USAID




INTERNATIONAL NARCOTICS CONTROL
AND LAW ENFORCEMENT                                                                                                                                                                     INCLE

The U.S. Bureau of International Narcotics and Law Enforcement Affairs
(INL) manages an account for advancing rule of law and combating nar­                                                                                                                    DoS
cotics production and trafficking—the International Narcotics Control and
Law Enforcement (INCLE) account. INCLE supports several INL program
groups, including police, counter-narcotics, and rule of law and justice.43                                                                  INL FUNDS TERMINOLOGY
   As of June 30, 2012, DoS reported that the total cumulative funding                                                                       INL reported AIF
                                                                                                                                                            INCLE and other INL funds as
for INCLE amounted to approximately $3.56 billion. Figure 3.18 displays                                                                      allotted, obligated, or liquidated.
INCLE allotments by fiscal year. Of this amount, nearly $3.02 billion had                                                                    Allotments: Total monies available
been obligated, of which nearly $2.23 billion had been liquidated.44                                                                                     DoD
                                                                                                                                             for commitments
   DoS reported that cumulative obligations as of June 30, 2012, decreased                                                                   Obligations: Commitments to pay monies
by more than $45.12 million over cumulative obligations as of March 31.
                                                                                                                                             Liquidations: Monies that have been expended
2012. Cumulative liquidations as of June 30, 2012, increased by approxi-
                                                                                                                                                                TFBSO
mately $87.49 million over cumulative liquidations as of March 31, 2012.45                                                                   Source: DoS, response to SIGAR data call, 4/9/2010.

Figure 3.19 provides a cumulative comparison of amounts allotted, obli-
gated, and liquidated for INCLE.                                                                                                                           DoD



FIGURE 3.18                                                        FIGURE 3.19
                                             INCLE FUNDS, CUMULATIVE COMPARISON ($ BILLIONS)
INCLE ALLOTMENTS
INCLE ALLOTMENTS BY
                 BY FISCAL
                    FISCAL YEAR
                           YEAR ($ MILLIONS)INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                       ($ BILLIONS)
                                                                                           Available                      Available
$700                                                               $3.5                    $3.58                          $3.56


$600                                                                                       Obligated                      Obligated
                                                                   $3.0                    $3.06                          $3.02

$500
                                                                   $2.5
                                                                                                                          Disbursed
$400                                                                                       Disbursed                      $2.23
                                                                   $2.0                    $2.14

$300

                                                                   $1.5
$200

                                                                   $1.0
$100


   $0                                                                $0
     2002 03 04 05 06 07 08 09 10 11 12                                     As of Mar 31, 2012             As of Jun 30, 2012

Notes: Numbers affected by rounding. Data may include              Notes: Numbers affected by rounding. Data may include
Notes:  Numbers
inter-agency      affected
             transfers. INLby rounding. Data
                            reapportioned    may includethat
                                          $16.2 million            inter-agency  transfers.
                                                                    Notes: Numbers            Databyreflect
                                                                                        affected            threeData
                                                                                                      rounding.     revisions: INL reap-
                                                                                                                         may include
inter-agency
had not beentransfers.
               obligatedINL reapportioned
                         from             $16.2 million that
                              FY 2006 to FY 2009–FY 2014.          portioned  $16.2
                                                                    inter-agency       million that
                                                                                  transfers.   Datahad    not three
                                                                                                     reflect   been revisions:
                                                                                                                     obligated from
                                                                                                                                 INL
had not been obligated from FY 2006 to FY 2009–FY 2014.            FY 2006   to FY 2009–FY
                                                                    reapportioned               2014;
                                                                                     $16.2 million      INLhad
                                                                                                      that   review
                                                                                                                 not of unliquidated
                                                                                                                      been  obligated from
Source: DoS, response to SIGAR data call, 7/13/2012.               funds  resulted  in deobligation    of funds  across   multiple appro-
Source: DoS, response to SIGAR data call, 7/13/2012.                FY 2006 to FY 2009–FY 2014; INL review of unliquidated
                                                                   priations; SIGARincorrection
                                                                    funds resulted                resulted
                                                                                         deobligation         in a across
                                                                                                        of funds   reduction  in amounts
                                                                                                                           multiple
                                                                   reported  last quarter.
                                                                    appropriations;    SIGAR correction of data resulted in a
                                                                    reduction in amounts reported last quarter.
                                                                   Source: DoS, response to SIGAR data call, 7/13/2012.
                                                                    Source: DoS, response to SIGAR data call, 7/13/2012.




REPORT TO THE UNITED STATES CONGRESS                           I   JULY 30, 2012                                               63
STATUS OF FUNDS




INTERNATIONAL RECONSTRUCTION FUNDING
FOR AFGHANISTAN
In addition to assistance provided by the United States, the international
community provides a significant amount of funding to support Afghanistan
relief and reconstruction efforts. As noted in previous SIGAR quarterly
reports, most of the international funding provided is administered through
trust funds. Contributions provided through trust funds are pooled and then
distributed for reconstruction activities. The two main trust funds are the
Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order
Trust Fund for Afghanistan (LOTFA).46

Contributions to the Afghanistan Reconstruction Trust Fund
The largest share of international contributions to the Afghan operational
and development budgets comes through the ARTF. From 2002 to June 20,
2012 , the World Bank reported that 33 donors had pledged approximately
$6.10 billion, of which nearly $5.70 billion had been paid in.47 According
to the World Bank, donors have pledged approximately $930.36 million to
the ARTF for the Afghan fiscal year—solar year 1391—which runs from
March 1, 2011, to December 31, 2012 (when it will shift to a January 1 start
date).48 Figure 3.20 shows the 10 largest donors to the ARTF for SY 1391.

ARTF CONTRIUBUTIONS
FIGURE 3.20                                FOR SY 1390 BY DONOR
($ MILLIONS)

ARTF CONTRIBUTIONS FOR SY 1391 BY DONOR, AS OF JUNE 20, 2012 ($ MILLIONS)
                                                       Total Commitments: $930         Total Paid In: $526


   United States                                                                                                 371

            Japan                                                  138

United Kingdom          0
                                                               134
        Germany         0
                                                  76
          Canada            6
                                     26
          Norway        0
                                            56
           EC/EU        0
                                                 72
         Sweden         0
                                      30

        Denmark         0
                            10

          Finland               11

           Others       0
                                6

                    0                            80                160           240                320        400
                                                         Paid In                          Commitments

Notes: Numbers affected by rounding. SY 1391 = 3/1/2012–12/31/2012, when the fiscal year will shift to January–December.
Notes: Numbers affected by rounding. SY = solar year. SY 1390 runs from 3/21/2011 to 3/20/2012.
Source: World Bank, “ARTF: Administrator’s Report on Financial Status as of June 20, 2012,” p. 1.
Source: World Bank, "ARTF: Administrator's Report on Financial Status as of March 19, 2012," p. 1.




    64                                     SPECIAL INSPECTOR GENERAL         I    AFGHANISTAN RECONSTRUCTION
                                       STATUS OF FUNDS




   As of June 20, 2012, the United States had paid in approximately            FIGURE 3.21
$1.74 billion.49 The United States and the United Kingdom are the two big-
                                                                                      CONTRIBUTIONS PAID
                                                                               ARTF CONTRIUBUTIONS   PAIDININBYBYDONORS
                                                                                                                  DONORS
gest donors to the ARTF, together contributing approximately 48.1% of its
                                                                                IN SY 1381–1391, AS OF JUNE 20, 2012
                                                                               (PERCENT)
total funding, as shown in Figure 3.21.                                        (PERCENT)
   Contributions to the ARTF are divided into two funding channels—the
                                                                                                Total Paid In: $5.7 billion
Recurrent Cost (RC) Window and the Investment Window.50 As of June 20,
2012, according to the World Bank, nearly $2.50 billion of ARTF funds had
been disbursed to the Afghan government through the RC Window to assist                                   United States
with recurrent costs such as salaries of civil servants.51 The RC Window                                  30.6%
supports the operating costs of the Afghan government because the gov-                                                  United
                                                                                                Other
ernment’s domestic revenues continue to be insufficient to support its                          28.9%                   Kingdom
recurring costs. To ensure that the RC Window receives sufficient funding,                                              17.5%

donors to the ARTF may not “preference” (earmark) more than half of their
annual contributions for desired projects.52                                                                                       Canada
                                                                                                                                   9.9%
   The Investment Window supports the costs of development programs.                         EC/EU
                                                                                             6.3%                   Netherlands
As of June 20, 2012, according to the World Bank, more than $2.18 billion                                           6.8%
had been committed for projects funded through the Investment Window,
                                                                                Notes: Numbers affected by rounding. SY 1381–1391 =
of which more than $1.61 billion had been disbursed. The World Bank             3/21/2002–12/31/2012,
                                                                               Notes:  Numbers affected bywhen     the fiscal
                                                                                                              rounding.       year will shift
                                                                                                                         SY 1381–1391      = to
                                                                                run January–December. “Other”whenincludes
                                                                                                                   the fiscal18year
                                                                                                                                donors.
reported 19 active projects with a combined commitment value of more than      3/21/2002–12/31/2012,
                                                                                EC/EU
                                                                               run     = European Commission/European
                                                                                   January–December.     "Other" includes 18Union.
                                                                                                                                    will shift to
                                                                                                                                donors. EC/EU =
$1.12 billion, of which approximately $611.66 million had been disbursed.53    European Commission/European Union.
                                                                                Source: World Bank, “ARTF: Administrator’s Report on
                                                                               Source:
                                                                                FinancialWorld Bank,
                                                                                          Status as of"ARTF: Administrator's
                                                                                                       June 20,  2012,” p. 5. Report on
                                                                               Financial Status as of June 20, 2012," p. 5.
Contributions to the Law and Order Trust Fund for Afghanistan
The United Nations Development Programme administers the LOTFA to              FIGURE 3.22
pay ANP salaries and build the capacity of the Ministry of Interior.54 Since
                                                                               DONORS’
                                                                               DONORS'CONTRIBUTIONS
                                                                                       CONTRIBUTIONSTOTOTHE
                                                                                                         THELOTFA
                                                                                                             LOTFA
2002, donors have pledged nearly $2.20 billion to the LOTFA, accord-
                                                                               SINCE
                                                                               SINCE2002,
                                                                                     2002 AS  OF DECEMBER 31, 2011
                                                                                          (PERCENT)
ing to the most recent data available.55 The LOTFA’s sixth support phase       (PERCENT)
started on January 1, 2011, and runs through March 31, 2013. In the first 12
months of the program, the LOTFA had transferred nearly $546.10 million
to the Afghan government to cover ANP salaries, nearly $15.64 million for
Central Prisons Directorate staff remunerations, and an additional nearly                     United States            Japan
$12.13 million for capacity development and other LOTFA initiatives.56 As                     37.0%                    25.7%

of December 31, 2011, donors had committed more than $673.91 million to
                                                                                                     Others       EC/EU
the LOTFA for Phase VI. Of that amount, the United States had committed                              15.6%        17.6%
more than $257.07 million, and Japan had committed $240.00 million. Their
combined commitments make up nearly 74% of LOTFA Phase VI commit-
                                                                                                                   Canada
ments as of December 31, 2011.57 The United States had contributed nearly                                          4.2%
$812.74 million to the LOTFA since the fund’s inception.58 Figure 3.22
                                                                               Notes: Numbers affected by rounding. EC/EU = European
shows the four largest donors to the LOTFA since 2002, based on the latest      Notes: Numbers affected
                                                                               Commission/European      by rounding. EC/EU = European
                                                                                                     Union.
                                                                                Commission/European Union.
data available.                                                                Sources: UNDP, “LOTFA Phase VI Annual Progress Report
                                                                                Sources: UNDP, "LOTFA Phase VI Annual Progress Report
                                                                               2011,” 2/23/2012; SIGAR analysis of UNDP’s quarterly and
                                                                                2011"; SIGAR analysis of UNDP's quarterly and annual
                                                                               annual LOTFA reports.
                                                                                LOTFA reports.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012              65
                                                                SECURITY




SECURITY
As of June 30, 2012, the U.S. Congress had appropriated more than $52.1 bil-
lion to support the Afghan National Security Forces (ANSF). Most of
these funds ($50.6 billion) were appropriated through the Afghanistan
Security Forces Fund (ASFF) and provided through the Combined Security
Transition Command - Afghanistan (CSTC-A). Their purpose is to build,
equip, train, and sustain the ANSF, which comprises the Afghan National
Army (ANA) and the Afghan National Police (ANP). Of the $50.6 billion
appropriated for the ASFF, approximately $37.8 billion had been obligated
and $33.5 billion disbursed as of March 31, 2012.59
   Ensuring that Afghanistan has a stable security environment is a critical
component of U.S. reconstruction efforts there; lack of security impedes the
Afghan government’s ability to provide services to its people and to develop
the national economy. This section discusses assessments of the ANSF and
the ministries of Defense and Interior; gives an overview of U.S. funds used to
build, equip, train, and sustain the ANSF; and provides an update on efforts to
combat cultivation of and commerce in illicit narcotics in Afghanistan.


KEY EVENTS THIS QUARTER
On May 20 and 21, 2012, heads of state and government of Afghanistan and
the nations contributing to the NATO-led International Security Assistance
Force (ISAF) met in Chicago to renew their “commitment to a sovereign,
secure, and democratic Afghanistan.” Participants declared that their
nations’ commitments would continue after the ISAF mission ends in 2014,
as a partnership based on “equality and mutual interests.” Several bilateral
agreements between ISAF partner nations and Afghanistan were in various
phases of finalization as the quarter ended.60
   At the summit, NATO allies and ISAF partners also reaffirmed their com-
mitment to support the development and financial sustainment of the ANSF
beyond 2014. In consultation with the international community, the govern-
ment of Afghanistan laid out plans to gradually reduce the force strength
of the ANSF from the surge peak (352,000) to a sustainable level based on
future conditions. The current model envisages a force of 228,500 and an
estimated annual budget of $4.1 billion.61




     REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012            67
                                                                                  67
                                             SECURITY




                                                The summit participants declared that, as the Afghan economy and
                                             government revenues grow, Afghanistan’s yearly share of ANSF sustain-
                                             ment costs will increase progressively, from at least $500 million in 2015
                                             to full financial responsibility no later than 2024. International donors are
                                             expected to reduce their contributions as this process matures.62

                                             $1 Billion of ASFF Funds Reprogrammed
                                             This quarter, DoD transferred $1 billion of FY 2011/2012 ASFF funds to the
                                             Defense Working Capital Fund to help cover a $3.4 billion shortfall caused
                                             by an increase in fuel prices. The President’s FY 2012 budget had planned
                                             for a fuel cost of $115.49 per barrel; the DoD action reflected actual FY 2012
                                             costs of $152 per barrel. DoD explained that the “funds are available [for
                                             transfer] because requirements continued to change as the training and
                                             equipping of the Afghanistan Security Forces mission evolved and prior
                                             year funds became available to fund current needs.”63

                                             Transition Progress
                                             The transition of security responsibility to the ANSF by the end of 2014—
                                             reaffirmed at the NATO Conference in Chicago—remains on schedule,
                                             according to DoD. Three tranches of transition are in progress, as shown in
                                             Figure 3.23. Transition began in July 2011 with the first tranche of cities, dis-
                                             tricts, and provinces (home to 25% of the Afghan population) and continued
                                             in November 2011 with Tranche 2 (which brought the total population living
                                             in transition areas to 50%). Although transition is not complete anywhere,
                                             DoD noted that all tranches in transition had made progress in security,
                                             governance, and development.64 In areas undergoing transition, according
                                             to the UN Secretary-General, “there has been no significant deterioration of
                                             public order, nor a marked difference in seasonal security trends.”65
                                                This quarter, President Karzai announced that areas in Tranche 3 would
                                             begin transitioning in July 2012. This stage of transition (which will bring
                                             to 75% the share of the population living in areas in transition) includes all
                                             provincial capitals. DoD noted that Tranche 3 contains several contested
                                             districts, which will test the ANSF’s capabilities while sufficient ISAF per-
SIGAR AUDIT                                  sonnel still remain to support them.66

SIGAR’s audit of the impact on USAID
project costs of the transition from
                                             Afghan Public Protection Force
                                             As noted in SIGAR’s April 2012 quarterly report, the Afghan government has
PSCs to the APPF found that the transi-
                                             started the transition of responsibility for the security of development and
tion could result in an increase in the
                                             humanitarian projects from private security companies (PSCs) to the Afghan
cost of hiring Afghan guards and in the
                                             Public Protection Force (APPF). The APPF is a state-owned enterprise under
hiring of more expatriate staff to facili-
                                             the authority of the Ministry of Interior (MoI). In the first phase of the bridging
tate the transition. For more informa-
                                             strategy to implement President Karzai’s decree to disband all national and
tion, see Section 2, page 20.
                                             international PSCs, several PSCs registered with the MoI as risk-management




                                               68                  SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                                                     SECURITY




AREAS3.23
FIGURE IN TRANSITION           TO AFGHAN-LED SECURITY

AREAS IN TRANSITION TO AFGHAN-LED SECURITY




                                                                                                                                         Tranche 1
                                                                                                                                         Tranche 2
                                                                                                                                         Tranche 3




Notes: Tranches include cities, districts, and provinces (or parts thereof). Tranche 1 was announced on 3/22/2011, Tranche 2 on 11/27/2011, Tranche 3 on 5/13/2012.
Source: NATO, “Transition to Afghan Lead: Inteqal,” 5/16/2012.


Note: Tranches include cities, districts, and provinces (or parts thereof). Tranche 1 was announced on 3/22/2011, Tranche 2 on 11/27/2011, Tranche 3 on 5/13/2012.
companies       (RMCs).
Source: NATO, "Transition     RMCs
                          to Afghan    work
                                    Lead:       with
                                          Inteqal,"    and advise the APPF and their clients on
                                                    5/16/2012.
security-related issues, but do not themselves provide security.
    As of June 30, 2012, the APPF had 6,131 personnel—including 689 staff
in APPF headquarters, zone headquarters, and training units—filling 6,858
authorized positions, according to CSTC-A. CSTC-A noted progress in the
following areas:67
 •	 144 contracts signed with the APPF (including contracts for 28 USAID
    projects and 116 commercial and government customers)
 •	 19 companies licensed as RMCs
 •	 13 companies applying for RMC licenses
 •	 11 RMCs provided with interim licenses until the APPF is capable of
    providing convoy security
 •	 36 PSCs providing services to ISAF until March 2013




REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2012                                   69
                                                               SECURITY




                                                               ANSF ASSESSMENT
                                                               This quarter, the number of reporting ANA units in the field fell from 251
                                                               to 204, according to the ISAF Joint Command (IJC).68 The IJC receives
                                                               input from kandaks (battalions) and/or brigades that are assigned U.S. or
                                                               coalition trainers.69 In the highest rating categories, 20 units were rated
                                                               “independent with advisors” (compared with 15 in April 2012) and 118 were
                                                               rated “effective with advisors” (compared with 122). As a sign of progress,
                                                               notwithstanding the decrease of reporting units, the number of units rated
                                                               “independent with advisors” increased for the 201st Corps (2 more), 205th
                                                               Corps (2 more), 207th Corps (1 more), and the Headquarters Security and
                                                               Support Brigade (1 more).70
                                                                  The number of reporting ANP units in the field also fell this quarter, from
                                                               408 to 366. However, the number of units in the highest rating categories
                                                               increased in the aggregate—65 were rated “independent with advisors”
                                                               (compared with 41 in April 2012) and 168 were rated “effective with advi-
                                                               sors (compared with 174).71

                                                               Commander’s Unit Assessment Tool Ratings
                                                               In assessing the capability of ANA and ANP units, ISAF uses the
                                                               Commander’s Unit Assessment Tool (CUAT), which has five ratings:72
                                                               •	 Independent with Advisors: The unit is able to plan and execute
                                                                  its missions, maintain command and control of subordinates, call on
                                                                  and coordinate quick-reaction forces and medical evacuations, exploit
                                                                  intelligence, and operate within a wider intelligence system.
                                                               •	 Effective with Advisors: The unit conducts effective planning,
                                                                  synchronizing, directing, and reporting of operations and status.
                                                                  Coalition forces provide only limited, occasional guidance to unit
                                                                  personnel and may provide enablers as needed. Coalition forces
  enablers: specialized units that support                        augment support only on occasion.
  combat units such as engineering, civil                      •	 Effective with Partners: The unit requires routine mentoring
  affairs, military intelligence, helicopter,                     for planning, synchronizing, directing, and reporting of operations
  military police, and intelligence, surveil-                     and status; coordinating and communicating with other units; and
  lance, and reconnaissance assets.                               maintaining effective readiness reports. ANSF enablers provide
                                                                  support to the unit; however, coalition forces may provide enablers to
Source: DoD, “Mullen Tours Forward Outposts in Afghanistan,”
                                                                  augment that support.
4/22/2009, accessed 1/4/2012.                                  •	 Developing with Partners: The unit requires partnering and
                                                                  assistance for planning, synchronizing, directing, and reporting of
                                                                  operations and status; coordinating and communicating with other
                                                                  units; and maintaining effective readiness reports. Some enablers are
                                                                  present and effective, providing some of the support. Coalition forces
                                                                  provide enablers and most of the support.
                                                               •	 Established: The unit is beginning to organize but is barely capable
                                                                  of planning, synchronizing, directing, or reporting operations and
                                                                  status, even with the presence and assistance of a partner unit. The




                                                                 70                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




   unit is barely able to coordinate and communicate with other units.
   Most of the unit’s enablers are not present or are barely effective.
   Those enablers provide little or no support to the unit. Coalition forces
   provide most of the support.


AFGHAN MINISTRY ASSESSMENTS
Assessments of the Ministry of Defense (MoD) and the Ministry of Interior
(MoI) this quarter showed continued progress. To rate the operational capa-
bility of these ministries, the NATO Training Mission - Afghanistan (NTM-A)
uses the Capability Milestone (CM) rating system. This system assesses
staff sections (such as the offices headed by assistant or deputy ministers)
and cross-functional areas (such as general staff offices) using four primary
and two secondary ratings:73
•	 CM-1A: capable of autonomous operations
•	 CM-1B: capable of executing functions with coalition oversight only
•	 CM-2A: capable of executing functions with minimal coalition assistance
•	 CM-2B: can accomplish its mission but requires some coalition
    assistance
•	 CM-3: cannot accomplish its mission without significant coalition
    assistance
•	 CM-4: exists but cannot accomplish its mission

    At the MoD, 42 of 47 staff sections and cross-functional areas were
assessed this quarter. Of those, 26% were rated CM-2A (the same percent-
age as last quarter), and 36% were rated CM-2B (a 1% decrease from last
quarter), as shown in Figure 3.24 on the following page. Nine staff sections
and cross-functional areas improved (three achieved a CM-1B rating—the
second highest rating—bringing the number rated CM-1B to six), and 31
were stable. The six highest rated staff sections and cross-functional areas
consisted of the following:74
 •	 Office of the Minister of Defense
 •	 MoD Chief, Finance
 •	 MoD Chief, Parliamentary, Social & Public Affairs
 •	 ANA Recruiting Command
 •	 Acquisition Agency
 •	 Communications Support Unit
Only two sections received the lowest rating (CM-4): the Office of the Assistant
Minister of Defense for Intel Policy and the Gender Integration Office.75
    At the MoI, all 30 staff sections were assessed. Five had improved since
last quarter; none had regressed. The five that had improved were the
offices of intelligence (to CM-2B), counter-narcotics (CM-2B), and civil ser-
vice (CM-2B), the Recruiting Command (CM-2A), and the Afghan Uniform
Police (CM-2B).76




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                  71
                                                                        SECURITY




FIGURE 3.24

CAPABILITY MILESTONE RATINGS
                     RATINGS OF
                             OF MoD AND
                                MOD  ANDMMOI,
                                          oI, QUARTERLY
                                               QUARTERLYCHANGE
                                                         CHANGE

                                                                MoD                                                                                        Mol


CM-1A: capable of                          0                                                                                        0
autonomous operations          CM-1A                                                                                    CM-1A
                                           0                                                                                        0
CM-1B: capable of                                        3                                                                                    2
executing functions with       CM-1B                                                                                    CM-1B
coalition oversight only                                                 6                                                                    2
CM-2A: capable of                                                                           10                                                         4
executing functions with       CM-2A                                                                                    CM-2A
minimal coalition assistance                                                                     11                                                            5
CM-2B: can accomplish its                                                                                   14                                                       8
mission but requires some      CM-2B                                                                                    CM-2B
coalition assistance                                                                                               15                                                                   12
CM-3: cannot accomplish its                                                       8                                                                                                11
mission without significant     CM-3                                                                                    CM-3
coalition assistance                                                              8                                                                                  8

CM-4: exists but cannot                                  3                                                                                             4
accomplish its mission          CM-4                                                                                    CM-4
                                                     2                                                                                            3
                                                                                       9                                                  1
Not Assessed                     NA                                                                                      NA
                                                                    5                                                               0
                                       0                        5                          10                 15                0                          5                 10                   15

                                               Q2 2012 MoD Staff Sections             Q3 2012 MoD Staff Sections                        Q2 2012 MoI Staff Sections       Q3 2012 MoI Staff Sections


Notes: CMCSTC-A,
Sources:  = Capability Milestone.
                 responses        MoDdata
                            to SIGAR  = Ministry  of Defense.
                                          call, 7/2/2012  andMoI = Ministry of Interior.
                                                              3/27/2012.
Sources: CSTC-A, responses to SIGAR data call, 7/2/2012 and 3/27/2012.




                                                                        SECURITY ENVIRONMENT
                                                                        In his June 20, 2012, report to the UN Security Council, the UN Secretary-
                                                                        General noted that 33% fewer security incidents occurred in February,
                                                                        March, and April than in the same months in 2011. As noted in SIGAR’s
                                                                        October 2011 quarterly report, in addition to enemy-initiated attacks, the UN
                                                                        takes into account a range of events including cache finds, arrests, assas-
                                                                        sinations, and intimidation. According to the UN Secretary-General, several
                                                                        factors contributed to the decrease in the number of security incidents:77
                                                                        •	 poor weather conditions
                                                                        •	 successes of Afghan and international forces
                                                                        •	 the increasingly political posture of some Taliban leaders
                                                                        •	 the uncertainty of fighters over reports of peace talks and the
                                                                           international military drawdown




                                                                             72                          SPECIAL INSPECTOR GENERAL                     I   AFGHANISTAN RECONSTRUCTION
                                                                SECURITY




AFGHAN NATIONAL ARMY
As of June 30, 2012, the United States had appropriated approximately
$30.4 billion, obligated $24.4 billion, and disbursed $21.7 billion of ASFF
funds to build, train, and sustain the ANA.78

ANA Strength
As of May 20, 2012, the ANA’s strength was 191,592—including 5,580 in
the Afghan Air Force (AAF)—according to CSTC-A. As reported, the ANA
consists of 29,277 officers, 51,983 noncommissioned officers, and 110,332
enlisted personnel. However, SIGAR noticed anomalies in the data reported
this quarter. In addition, CSTC-A noted that civilians were counted as part
of overall force strength. As a result, SIGAR is reviewing ANA personnel
counts and the methodology used to compile ANA strength.79
   Most soldiers are assigned to the ANA’s six corps, its Special Operations
Force, its 111th Capital Division, and the AAF—constituting the ANA’s main
combat forces—as noted in SIGAR’s April 2012 quarterly report. According
to CSTC-A, 132,974 personnel were assigned to these forces as of May 20,
2012. However, the number of personnel assigned does not necessarily
equal the number of troops present for duty, as noted in previous SIGAR
reports. Of these forces, 4–11% were absent without leave (not including the
Special Operations Force, which does not report these statistics).80

ANA Sustainment
As of June 30, 2012, the United States had appropriated approximately
$9.9 billion, obligated $8.1 billion, and disbursed $7.4 billion of ASFF funds
for ANA sustainment.81




ANA soldiers graduate from Regional Military Training Center-North on July 5 in Mazar-e
Sharif. This quarter, the United States was funding 32 training programs at a cost of
$576.5 million. (Photo by Mass Communication SPC/2C Cory Rose)




REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2012                      73
                                                                  SECURITY




FIGURE 3.25                                                       ANA Salaries
                                                                  As of June 30, 2012, the U.S. government had provided $1.13 billion through
CUMULATIVE ASFF FUNDING FOR ANA
                                                                  the ASFF to pay ANA salaries, including $138.6 million this quarter, accord-
ASFF FUNDING
EQUIPMENT,   FOR1–JUNE
           APRIL ANA EQUIPMENT
                       30, 2012
(($ MILLIONS)
   $ MILLIONS)                                                    ing to CSTC-A. CSTC-A provides these funds to the Ministry of Finance,
                                                                  which counts them as part of the Afghan government’s core budget to cover
                 Total: $7,040.5
                                                                  salary expenditures. CSTC-A estimated that in addition to their salaries,
                                                                  98% to 100% of ANA personnel receive some sort of incentive (extra pay for
                                                                  personnel engaged in combat or employed in specialty fields such as special
                                                  Commo
                                                                  forces, medical, and explosive-ordnance disposal).82
                                                  $378.3
                                                                      The ANA uses a personnel roster (or tashkil) to determine annual
             Move                                 Shoot
             $4,556.4                             $407.5
                                                                  personnel costs and the number of personnel in each rank, according to
                                                  Ammo            CSTC-A. ANA disbursement officers, acting on behalf of the Ministry of
                               Fly                $642.9          Finance, process monthly reports from ANA finance officers through the
                               $1,055.4                           Afghanistan Financial Management Information System. The system is used
                                                                  to determine expenditures so that funds can be provided to banks to trans-
                                                                  fer to individual accounts. More than 98% of ANA personnel are paid by
Notes:
Notes: Numbers
         Numbers affected
                  affected by rounding. “Fly” involves aircraft
aircraft and aviation-related
and aviation-related          equipment.
                      equipment.  “Commo”“Commo”
                                            includesincludes
                                                                  electronic funds transfer to their bank accounts, according to CSTC-A.83
communications
communications equipment. “Move” includes vehicles and
vehicle-related
vehicle-related equipment. “Shoot” includes weapons and
                                                                      This quarter, CSTC-A said it is in the early stages of deploying a comput-
weapons-related
weapons-related equipment other than ammunition.                  erized pay system for the ANA that would track personnel, base pay, and
Source: CSTC-A,
        CSTC-A, response to SIGAR data call, 7/2/2012.
                                             7/2/2012.
Source:
                                                                  incentive pay, but noted that the system is months away from being fully
                                                                  capable. Once the system is completed, NTM-A will be able to perform
                                                                  detailed pay audits to better ensure that ANA personnel are paid accurately.84
                                                                      As noted in SIGAR’s April 2012 quarterly report, when the ANA reaches
                                                                  its final strength of 195,000 personnel—187,000 in the ANA and 8,000 in the
                                                                  Afghan Air Force (AAF)—it will require nearly $881.6 million per year to
                                                                  fund salaries, incentives, and bonuses. CSTC-A noted that the estimated
                                                                  U.S. contribution to that figure is $547.1 million.85

                                                                  ANA Equipment and Transportation
                                                                  As of June 30, 2012, the United States had appropriated approximately
                                                                  $11.0 billion and obligated and disbursed $9.0 billion of ASFF funds for ANA
                                                                  equipment and transportation.86 Most of these funds were used to purchase
     SIGAR AUDIT                                                  weapons and related equipment, vehicles, communications equipment,
                                                                  ammunition, and aircraft and aviation-related equipment.87 More than half
     In an ongoing audit, SIGAR is as-
                                                                  of U.S. funding in this category was for vehicles and transportation-related
     sessing CSTC-A’s efforts to develop
                                                                  equipment, as shown in Figure 3.25.
     the ANA’s capabilities to manage
                                                                     The United States has surpassed its goals for procuring equipment for
     and distribute petroleum products,
                                                                  the ANA and has delivered most of that equipment, according to CSTC-A.
     determining whether the ANA has the
                                                                  As of June 30, 2012, CSTC-A had procured 107% of weapons and weapons-
     internal controls needed to account for
                                                                  related equipment, 113% of vehicles and transportation equipment, and
     petroleum products and prevent fraud,
                                                                  107% of communications equipment.88
     waste, and abuse. For more informa-
                                                                     As noted in SIGAR’s April 2012 quarterly report, DoD’s FY 2013 bud-
     tion, see Section 2, page 34.
                                                                  get requested only $241.5 million to be allocated through the ASFF for
                                                                  ANA equipment and transportation—an 83% decrease from the amount




                                                                    74                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




authorized for this purpose in FY 2012. The request did not include amounts
for weapons or vehicles; the requested funds would support the AAF
($169.8 million), provide communications and intelligence equipment
($1.7 million), and support airlift operations ($70 million).89

ANA Infrastructure
As of June 30, 2012, the United States had appropriated approximately                  SIGAR AUDIT
$6.4 billion, obligated $5.1 billion, and disbursed $3.2 billion of ASFF funds
                                                                                       SIGAR has initiated an audit of the
for ANA infrastructure.90 As of June 30, 2012, the United States had com-
                                                                                       decision to award a contract for an
pleted 194 infrastructure projects (valued at $2.26 billion), with another 106
                                                                                       ANA garrison in Badghis, following an
projects ongoing ($2.58 billion) and 80 planned ($1.31 billion), according to
                                                                                       allegation that NTM-A/CSTC-A did not
CSTC-A.91 This quarter, four new contracts were awarded. The largest were
                                                                                       consider less expensive options before
for a detention facility in Kabul (valued at $68.9 million) and a brigade garri-
                                                                                       USACE awarded the contract. For more
son in Kandahar ($81.7 million). Five projects, valued at $88.9 million, were
                                                                                       information, see Section 2, page 34.
terminated this quarter.92
   As noted in SIGAR’s April 2012 quarterly report, DoD’s FY 2013 budget
request for ANA infrastructure was 85% less than the amount authorized
in FY 2012. The FY 2013 request is not for construction projects, but for
upgrades and modernizations of garrisons and force-protection systems,
and to prepare coalition facilities for handover to the ANSF as the U.S.
forces are drawn down.93

ANA and MoD Training and Operations
As of June 30, 2012, the United States had appropriated approximately
$3.1 billion and obligated and disbursed $2.1 billion in ASFF funds for ANA
and MoD operations and training.94                                                 FIGURE 3.26
   This quarter, the United States was funding 32 ongoing ANA and MoD
                                                                                   U.S. FUNDING FOR ANA AND MoD TRAINING,
training programs through the ASFF at a cost of $576.5 million, according to       U.S. FUNDING FOR ANA AND MoD TRAINING
                                                                                   APRIL    1–JUNE 30, 2012 ($ MILLIONS)
                                                                                   ($ MILLIONS)
CSTC-A. Most of that funding (62%) was for training the ANA in a range of
disciplines including special operations, intelligence, logistics, countering
improvised explosive devices, and vehicle maintenance.95 Nearly a quarter                              Total: $576.5
of funding in this category was for the development of the MoD, as shown
in Figure 3.26.
   The United States funds a three-year, $248.2 million contract (two-year
                                                                                                                    MoD
base and one-year option) with DynCorp International to support the MoD.                         ANA                $137.5
The contract provides trainers, mentors, subject-matter experts, and sup-                        $356.7
port staff to CSTC-A and the MoD. The purpose of the contract is to assist                                           AAF
the MoD and ANA in assuming full responsibility for their security needs,                                            $73.9
                                                                                                                                Joint ANSF
according to CSTC-A.96                                                                                                          $8.4
   CSTC-A’s program synchronizes development of MoD organizations
with development of management and operational systems, according                                  affected by
                                                                                                            by rounding.
                                                                                                               rounding. Joint
                                                                                                                         Joint ANSF
                                                                                                                               ANSF = training
                                                                                   Notes: Numbers affected
to CSTC-A. CSTC-A personnel involved in MoD development include                    programs for both ANA and ANP.
                                                                                   Source: CSTC-A, response to SIGAR data call, 7/2/2012.
traditional military personnel and special staff in development-specific           Source: CSTC-A, response to SIGAR data call, 7/2/2012.

positions. These personnel rely on contractor support to develop the core




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                  75
SECURITY




management and operational systems required for the MoD to manage
the ANA.97
   On July 5, 2012, more than 1,300 ANA personnel graduated from basic
training at the Regional Military Training Center-North in Mazar-e Sharif.
The graduation marked a transition at the center as NTM-A trainers and
advisors draw down, and Afghan leaders and instructors take the lead and
begin teaching courses.98

ANA Literacy
Low literacy rates among ANSF personnel remain a challenge. Since 2010,
the United States has funded three contracts each with a limit of five years
of service—one-year options may be exercised in August of each year—and
a maximum cost of $200 million. As of this quarter, according to CSTC-A,
three contractors were providing 1,496 literacy trainers to the ANA:99
•	 OT Training Solutions (a U.S. company) was providing 544 trainers.
•	 Insight Group (an Afghan company) was providing 312 trainers.
•	 The Higher Education Institute of Karwan (an Afghan company) was
    providing 640 trainers.

    ANA recruits receive 64 hours of literacy and arithmetic training dur-
ing their basic training. To bring these personnel to Level 3 or “functional
literacy” requires an additional 248 hours of instruction, which is pro-
vided during specialty occupational training or in the field. According to
NTM-A, 11,000 ANSF personnel are enrolled in literacy training at any
given time.100
    Determining the ANA’s current level of literacy has been difficult.
According to CSTC-A, the literacy rate of the ANSF as a whole is 11%.101
However, at the Kabul Military Training Center, approximately 13% of
recruits pass initial literacy tests before their training begins, which could
suggest a higher literacy rate among those personnel who have completed
literacy training courses.102
    NTM-A/CSTC-A works with the MoD to expand literacy programs, ensure
that literacy is valued as a force multiplier, and set conditions to transfer
responsibility for literacy training to the ANA. This quarter, CSTC-A noted
that standardized testing is used to determine the degree of functional lit-
eracy being achieved. NTM-A/CSTC-A captures that data to build a literacy
profile of the ANA, identify regional anomalies, and target areas that need
improvement. However, CSTC-A noted that “There is no test score criteria,
or improved completion time criteria that can be applied to measure suc-
cess of the program.”103

Women in the ANA
As of June 30, 2012, ANA personnel included 361 women—223 officers,
104 noncommissioned officers, 7 enlisted personnel, and 27 enrollees in




  76                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




officer candidate school—according to CSTC-A. The goal is a force that is
10% women (that is, 19,500 personnel). As noted in SIGAR’s 2012 quarterly
report, most women officers serve in medical roles and most noncommis-
sioned officers serve in logistical (50%) or medical (25%) roles. CSTC-A
noted that the recruitment of women is a low priority for the ANA and that
process problems were at least partly to blame. The ANA lacks a central-
ized and structured system for screening, testing, and processing female
applicants. In addition, there are no clear career paths for women across
the ANA.104
   According to CSTC-A, NTM-A has been focused on two priorities in
supporting the recruitment and integration of women into the ANA: the
establishment of the ANA’s Office of Human Rights, Ethnic Balancing, and
Gender Integration (HREBGI) and a program to support recruiting women
into the ANA’s Intelligence Branch. This quarter, the HREBGI Office was
recruiting women graduates of Kabul University’s Law School to fill investi-
gator positions identified by the ANA Legal Branch.105                           Officer candidates of the Female Training
                                                                                 Battalion learn self-defense techniques
                                                                                 at the Kabul Military Training Center on
                                                                                 May 28. There are 361 women in the ANA;
AFGHAN NATIONAL POLICE                                                           the goal is a force that is 10% women.
As of June 30, 2012, the United States had appropriated approximately            (NTM-A photo)
$17.0 billion, obligated $13.1 billion, and disbursed $11.6 billion of ASFF
funds to build, train, and sustain the ANP.106
   According to the UN Secretary-General, the MoI launched a national
police plan in April 2012. This plan set priorities such as focusing on
community-based policing, strengthening crime detection and prevention,
safeguarding human rights, combating violence against women and chil-
dren, and increasing the number of women in the ANP. In the same month,
the MoI launched the Democratic Policing Secretariat to “coordinate com-
munity policing initiatives and liaise with civil society to increase police
accountability and responsiveness.”107

ANP Strength
This quarter, the total strength of the ANP was 146,641, according to
ISAF’s June 2012 personnel status report. Of that number, 82,424 were
assigned to the Afghan Uniform Police, 22,057 were assigned to the
Afghan Border Police, and 14,586 were assigned to the Afghan National
Civil Order Police.108 These numbers are smaller than those reported in
SIGAR’s April 2012 quarterly report. SIGAR is reviewing the new numbers
to determine the reason for the decline.

ANP Sustainment
As of June 30, 2012, the United States had appropriated approximately
$5.8 billion, obligated $4.2 billion, and disbursed $4.0 billion of ASFF funds
for ANP sustainment.109




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                 77
                                                                     SECURITY




                                                                     ANP Salaries
FIGURE 3.27                                                          As noted in SIGAR’s April 2012 quarterly report, the United States had at
                                                                     that time provided approximately $914.0 million for ANP salaries to the Law
CUMULATIVE ASFF FUNDING FOR ANP
                                                                     and Order Trust Fund for Afghanistan, managed by the UN Development
EQUIPMENT,
  ASFF FUNDING  2002–JUNE  30, 2012
                  FOR ANP EQUIPMENT
(($$ MILLIONS)
      MILLIONS)                                                      Programme. According to CSTC-A, when the ANP reaches its final strength
                                                                     of 157,000 personnel, it will require approximately $726.9 million per year to
                       Total: $2,757.2                               fund salaries, incentives, and food:110
                                                                     •	 salaries: $471.6 million
                                                                     •	 incentives: $117.8 million
                                                        Shoot
                                                        $45.9
                                                                     •	 food: $137.5 million
                                                        Ammo
                  Move
                  $2,364.1
                                                        $199.5       ANP Equipment and Transportation
                                                        Commo        As of June 30, 2012, the United States had appropriated approximately
                                                        $147.7
                                                                     $4.2 billion and obligated and disbursed $3.3 billion of ASFF funds for
                                                                     ANP equipment and transportation.111 Most of these funds were used to
                                                                     purchase weapons and related equipment, vehicles, communications
Notes: Numbers
Notes:  Numbersaffected
                   affectedbybyrounding.
                                 rounding.“Commo”
                                             “Commo” includes
                                                        includes
                                                                     equipment, and ammunition.112 Nearly 86% of U.S. funding in this cat-
communications equipment.
communications     equipment.“Move”
vehicle-related equipment.
                                  “Move”includes  vehicles
                                           includes vehiclesandand
                                                                     egory was for vehicles and transportation-related equipment, as shown in
vehicle-related  equipment.“Shoot”
                               “Shoot”includes  weapons
                                         includes  weapons andand
weapons-related   equipment   other than   ammunition.
weapons-related equipment other than ammunition.                     Figure 3.27.
Source: CSTC-A, response to SIGAR data call, 7/2/2012.
Source: CSTC-A, response to SIGAR data call, 7/2/2012.

                                                                     ANP Infrastructure
                                                                     As of June 30, 2012, the United States had appropriated approximately
                                                                     $4.0 billion, obligated $2.9 billion, and disbursed $1.8 billion of ASFF funds
                                                                     for ANP infrastructure.113
                                                                        As of June 30, 2012, the United States had completed 422 ANP infra-
                                                                     structure projects (valued at $1.29 billion). Another 205 were ongoing
                                                                     ($1.15 billion), and 164 were planned ($1.09 billion). This quarter, 19 new
                                                                     contracts were awarded with a combined value of $54.2 million.114

                                                                     ANP Training and Operations
                                                                     As of June 30, 2012, the United States had appropriated approximately
                                                                     $3.0 billion and obligated and disbursed $2.6 billion of ASFF funds for ANP
     SIGAR AUDIT                                                     and MoI training and operations.115
                                                                        The United States funds a three-year, $1.19 billion contract (two-year
     In an ongoing audit of the Afghanistan-
                                                                     base and one-year option) with DynCorp to train and advise the MoI and
     Technical Equipment Maintenance
                                                                     the ANP. The contract provides logistical support at 14 NTM-A training
     Program for the ANP, SIGAR is looking
                                                                     sites and trainers and advisors at 18 NTM-A police training sites, according
     at oversight of contractors and contract
                                                                     to CSTC-A. Most of DynCorp’s 3,500 personnel—half of whom are Afghan
     costs, accountability for parts and sup-
                                                                     nationals—are assigned to logistical support roles.116
     plies, and the transition of responsibil-
                                                                        The police training segment of the DynCorp contract provides 139 train-
     ity for vehicle maintenance to the ANP.
                                                                     ers and advisors at police training sites. It also provides 340 mentors under
     For more information, see Section 2,
                                                                     IJC’s direction to ANP operational units, according to CSTC-A. In addition,
     page 33.
                                                                     several local contracts provide logistical services at training sites not ser-
                                                                     viced by the larger DynCorp contract.117




                                                                       78                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




   As of June 18, 2012, more than 8,600 ANP personnel had graduated
from 15 police training courses; 810 were currently enrolled. During the          SIGAR INSPECTION
quarter, the costs of the ANP training segment of the DynCorp contract
                                                                                  SIGAR’s inspection of the construction
were $10.8 million for training and mentoring and $19.7 million for logis-
                                                                                  of Afghan Border Police bases found
tical support (including life—day to day—support, health, welfare, and
                                                                                  that construction deficiencies at three
other associated costs).118
                                                                                  bases it inspected put $19 million of
                                                                                  investment at risk. For more informa-
ANP Literacy
                                                                                  tion, see Section 2, page 35.
Low literacy rates affect the ANP as well as the ANA. Since 2010, the
United States has funded three contracts for the ANP, as it has for the ANA.
Each has a limit of five years of service—as one-year options that may be
exercised in August of each year—and a maximum cost of $200 million.
According to CSTC-A, these contractors were providing 1,729 literacy train-
ers to the ANP:119
•	 OT Training Solutions (a U.S. company) was providing 470 trainers.
•	 Insight Group (an Afghan company) was providing 302 trainers.
•	 The Higher Education Institute of Karwan (an Afghan company) was
   providing 957 trainers.

   Like the ANA recruits, ANP recruits receive 64 hours of literacy and
arithmetic training during their basic training and an additional 248 hours of
instruction to bring them to Level 3 or “functional literacy.”120 CSTC-A noted
that to achieve functional literacy, ANP students are tested to determine
whether they are ready to progress to the next level of training. As of July 1,
2012, the success rate for the entire ANSF was 93.3%; a breakdown by force
was not available.121

Women in the ANP
As of June 18, 2012, ANP personnel included 1,399 women—206 officers,
609 noncommissioned officers, and 584 enlisted personnel—according to
CSTC-A. The goal for the ANP is to recruit 5,000 women by March 2014. As
noted in SIGAR’s April 2012 quarterly report, the ANP is actively recruiting
women through a campaign sponsored by the Law and Order Trust Fund
for Afghanistan. The United States has provided three gender advisors,
assigned to the MoI’s Human Rights, Gender, and Child Rights Directorate.
These advisors work with ANP leaders, promote the advantages of having
women in a police force, and visit ANP units where women are assigned to
identify and address gender-related issues.122

Afghan Local Police
The Afghan Local Police (ALP) is a MoI community-watch initiative
designed to enable communities to protect themselves where there is no
significant ISAF or ANSF presence.123 ALP members are nominated by local
councils and vetted by the Afghan intelligence service; they serve under




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                 79
                                                               SECURITY




                                                               local police chiefs, but do not have arrest authority. They are trained by the
                                                               ANP, the ANA, and U.S. Special Forces.124
                                                                   As of June 30, 2012, the ALP had 15,252 members—an increase of
                                                               2,592 since last quarter—according to the Combined Forces Special
                                                               Operations Component Command - Afghanistan (CFSOCC-A). Of those,
                                                               14,507 were fully trained, assigned, and present for duty. The goal is
                                                               30,000 members in 99 districts and at ALP headquarters in Kabul by
                                                               2014. From October 2011 through June 2012, the United States obligated
                                                               $59.7 million to support the ALP:125
                                                                •	 $44.0 million through CFSOCC-A for salary payments and operations
                                                                •	 $3.1 million through CFSOCC-A for equipment
                                                                •	 $12.6 million through NTM-A/CSTC-A (provided electronically to the
                                                                   MoI) for a salary and food stipend program


                                                               U.S. FORCES
                                                               According to U.S. Forces - Afghanistan (USFOR-A), 87,000 U.S. forces were
                                                               serving in the country as of June 30, 2012. Of those, approximately 67,000
                                                               were assigned to ISAF and 2,200 to NTM-A/CSTC-A (the joint NATO/U.S.
                                                               mission responsible for training, equipping, and sustaining the ANSF).126


                                                               REMOVING UNEXPLODED ORDNANCE
                                                               Since 2006, the Department of State has provided $206.5 million in funding
                                                               for non-proliferation, anti-terrorism, de-mining, and related programs in
                                                               Afghanistan, according to its Political-Military Affairs’ Office of Weapons
                                                               Removal and Abatement (PM/WRA).127
                                                                  As of June 30, 2012, DoS directly funds five Afghan non-governmental
                                                               organizations (NGOs), five international NGOs, and one U.S. company
                                                               (DynCorp) to carry out sustained clearance operations and remove and
                                                               mitigate risks from abandoned and at-risk weapons. DynCorp, which
                                                               has received approximately $47.7 million in such funding since 2006,

TABLE 3.1


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, APRIL 1, 2011–JUNE 30, 2012
                                                                                                                                   Estimated Contaminated Area
Date Range              AT/AP Destroyed       UXO Destroyed       SAA Destroyed      Fragments Cleared Minefields Cleared (m2)           Remaining (m2)
4/1–6/30/2011                 4,043               68,542              481,877              6,259,343            6,799,279                     612,000,000
7/1–9/30/2011                 2,071              120,616              627,656              6,258,408            7,735,897                     602,000,000
10/1–12/31/2011               2,616               88,998              449,589            13,376,738           13,097,574                      588,000,000
1/1–3/31/2012                 2,113               62,043              467,071              3,364,885          14,604,361                      585,000,000
Total                     10,843              340,199            2,026,193             29,259,374            42,237,111          (remaining) 585,000,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition.
Source: DoS, PM/WRA, response to SIGAR data call, 6/27/2012.




                                                                 80                          SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




also provides advice to and oversight of the five Afghan NGOs (which
have received $96.4 million since 2006). During the same period, inter-
national NGOs have received $54.8 million from DoS, public institutions
(such as UN and NATO program offices) have received $1.6 million, and
a U.K. university has received $0.7 million for weapons removal and de-
mining activities. According to the PM/WRA, in addition to clearance,
removal, and mitigation activities, these organizations carry out the fol-
lowing activities:128
 •	 provide stockpile management support
 •	 support the purchase of mine-detection dogs
 •	 build Afghan capacity through training programs
 •	 conduct surveys
 •	 provide services to survivors of accidents caused by land mines or
    explosive remnants of war
 •	 educate the public on the threat of mines and explosives

   From April 1, 2011 to March 31, 2012, DoS-funded implementing partners
had cleared 42.2 million square meters of minefields, according to the most
recent data available from the PM/WRA. An estimated 585.0 million square
meters of contaminated area remain to be cleared as shown in Table 3.1.
The PM/WRA defined a “minefield” as an area contaminated by landmines,
and a “contaminated area” as an area contaminated with both landmines
and explosive remnants of war.129


COUNTER-NARCOTICS
As of June 30, 2012, the United States had appropriated $6.0 billion for
counter-narcotics initiatives in Afghanistan since efforts began in 2002.
Most of these funds were appropriated through two sources: the DoS
International Narcotics Control and Law Enforcement (INCLE) account
($3.6 billion), and the DoD Drug Interdiction and Counter-Drug Activities
(DoD CN) fund ($2.3 billion).130

Poppy Eradication
Afghanistan produces approximately 90% of the world’s opium, accord-
ing to the United Nations Office of Drug Control (UNODC).131 The UNODC
Opium Risk Assessment 2012, released in April, predicts a rise in opium cul-
tivation. Increases are expected in nine provinces, largely in the west and
east: Ghor, Herat, Kapisa, Badghis, Farah, Kunar, Nangarhar, Uruzgan, and
Badakhshan. Fifteen provinces, mainly in the center, north, and southeast,
are likely to retain their poppy-free status.132 Ghor was poppy-free in 2011,
but maintenance of that status will depend on eradication efforts. Kandahar
and Helmand still account for the majority of cultivation, although a reduc-
tion is expected in Kandahar, where 27,213 hectares were cultivated in 2011.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               81
SECURITY




No major change is foreseen in Helmand, where last year 63,307 hectares—
nearly half the countrywide total—were cultivated.133
   Final production figures will depend on eradication efforts; governor-led
operations have continued since March in many provinces. Preliminary data
shows that over 10,000 hectares of poppy have been eradicated since the
last assessment, an increase of 165% over the same period in 2011.134
   In late May, the UNODC launched its 2012–2014 country program in
Afghanistan with the Ministry of Counter-Narcotics. With an estimated cost
of $117 million, the program is intended to contribute to stability and devel-
opment by strengthening criminal justice systems and counter-narcotics
efforts. The program has four subprograms: research, policy, and advocacy;
law enforcement; criminal justice; and health and livelihoods. The UNODC is
focusing on monitoring counter-narcotics efforts across the National Priority
Programs to ensure that narcotics-related issues receive attention across
sectors—not only in security and agriculture, but also in health and educa-
tion. Terms of reference have been agreed to and will be on the agenda of
the next meeting of the Joint Coordination and Monitoring Board.135

Opium Prices
According to the UNODC, 71% of poppy farmers surveyed for the 2012
report identified the “high sales price of opium” as the predominant rea-
son they grow opium (compared with 77% of respondents in 2011). Opium
became more attractive to farmers in 2011 when, after years of decline, the
price increased sharply. However, the difference in price between illicit
crops such as opium and licit crops has always been stark. The UNODC
noted that the farm-gate price of fresh or recently harvested opium was
$196.59 per kg in 2011 and $183.38 in 2012—a modest 7% decrease. For dry
opium, those figures were $256.21 in 2011 and $254.39 in 2012—a drop of
less than 1%.136
   From 2011 to 2012, prices for food grains increased between 3% and 19%
depending on type of crop. These increases, however, offer little incentive
to Afghan farmers to divert effort to crops other than opium. According to
the UNODC, in 2012, the highest-priced grain, rice, sold for just $1.17 per kg,
followed by wheat at $0.45 and maize at $0.34.137
   Poppy is sown at different times in different regions. In the fall, it is sown
in the central, eastern, southern, and western regions; propagation in the
northern and northeastern regions occurs in the spring. In irrigated areas,
Afghan farmers usually cultivate crops twice a year and will grow maize,
rice, vegetables, or cotton after the opium or wheat harvest. The UNODC
noted that some farmers will grow cannabis after the first summer harvest.138




  82                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




Afghan Counter-Narcotics Efforts
Corruption, lack of security, and the fledgling judicial system continue to       SIGAR AUDIT
undermine counter-narcotics efforts, according to DoD, contributing to a
                                                                                  SIGAR is examining air-mobility support
culture of impunity that allows narcotics trafficking to flourish. Specialized
                                                                                  for Afghan drug interdiction operations
units of the Counter-Narcotics Police of Afghanistan (CNPA) and the Afghan
                                                                                  to determine the extent to which U.S.
Special Narcotics Forces rely on ISAF for support when operating in areas
                                                                                  assistance provides responsive support
with a heavy Taliban presence, especially in the south and southwest, where
                                                                                  and has resulted in the development
the link between the insurgency and the narcotics trade is strongest.139
                                                                                  of sustainable air-mobility support for
   According to the UNODC, the Taliban receives $100 million to $400 million
                                                                                  counter-narcotics efforts. For more infor-
from the drug trade through levies on farmers and traffickers. Opium profits
                                                                                  mation, see Section 2, page 32.
from operations in Helmand are the biggest source of funding for insurgents.140
   According to DoD, the Afghan government continues to work closely
with ISAF to improve the capabilities of the CNPA and build its specialized
units that are mentored by the Drug Enforcement Administration.141
   As of June 30, 2012, the CNPA had a force strength of 2,622, accord-
ing to CSTC-A. These forces are trained and advised by military and
civilian personnel from the United States, Canada, the United Kingdom,
France, Norway, the UNODC, and the European Union Police Mission in
Afghanistan.142
   This quarter, the governments of Russia and Japan began collaborat-
ing on a one-year training program to bolster ANP counter-narcotics
capabilities, according to the UNODC. The Japanese-financed and UNODC-
coordinated program, which is expected to begin in September 2012, will
provide ANP personnel with specialized training at a Russian Ministry of
Interior center.143

Interdiction Operations
This quarter, the ANSF partnered with ISAF in conducting 112 interdic-
tion operations, according to DoD. These operations included partnered
patrols, cordon-and-search actions, detentions, and over-watch operations.
They resulted in 111 arrests and led to seizure of the following narcotics
contraband:144
•	 17,082 kg of hashish or marijuana
•	 15,727 kg of opium
•	 1,176 kg of morphine
•	 207 kg of heroin
•	 16,060 kg of narcotics-related chemicals

   However, the scale of the narcotics problem in Afghanistan is massive.
As noted in the UNODC’s December 2011 Opium Survey, the amount of
opium produced in Afghanistan increased from 3.6 million kg in 2010 to
5.8 million kg in 2011, and the total area under opium cultivation had risen
from 123,000 hectares in 2010 to 131,000 hectares in 2011.145




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                 83
                                                 GOVERNANCE




GOVERNANCE

As of June 30, 2012, the United States had provided over $22.3 billion to
support governance and economic development in Afghanistan.146 The
country’s endemic corruption, underperforming formal judicial sector,
difficulties in establishing and maintaining governmental authority, and
persistent human-rights violations continued to complicate U.S. efforts to
establish a stable and mature Afghan government.


KEY EVENTS
During this reporting period, Afghanistan made a number of commitments in
a series of bilateral and multilateral agreements. Along with other initiatives,
these commitments sought to reaffirm greater Afghanistan independence,
codify steps it needs to take for a successful transition, and solidify the inter-
national community’s future financial pledges and support.

U.S.-Afghan Strategic Partnership Agreement
On May 2, 2012, the United States and Afghanistan signed a long-term
Strategic Partnership Agreement that emphasized the need for their contin-
ued cooperation, set parameters for the transition to greater Afghan control
of its future, and imposed restrictions on U.S. operations within the coun-
try.147 The National Assembly approved the agreement on June 3, 2012.148
   Both countries made a number of commitments related to improving
governance, including the following:149
•	 The Afghan government recognized that protecting democratic and
    human rights is fundamental to the long-term partnership.
•	 The Afghan government committed to strengthen and improve its
    electoral process.
•	 The Afghan government agreed to take tangible steps to improve its
    efficiency and effectiveness and support the development of a vibrant
    civil society, including a free and open media.
•	 The Afghan government said it will protect and advance the role of
    women in society.




      REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012              85
                                                                                     85
GOVERNANCE




•	 The U.S. government pledged to continue to support efforts to strengthen
   the Afghan government’s capacity, self-reliance, and effectiveness in a
   manner consistent with Afghan priorities.
•	 The United States and Afghanistan agreed to work together to eliminate
   “parallel structures” like Provincial Reconstruction Teams (PRTs) and
   District Support Teams (DSTs).

Other Strategic Agreements
On June 8, 2012, Afghanistan and China established a strategic and coopera-
tive partnership, pledging to expand their ties. Since reconstruction began
in 2001, China’s involvement in Afghanistan has focused on investments to
develop natural resources. The two nations agreed to work on a number of
other issues such as border security, disease control, disaster prevention,
drug trafficking, education, illegal immigration, terrorism, and bilateral
trade. China also pledged to provide $23.8 million to assist the Afghan gov-
ernment in 2012.150 According to the United Nations Assistance Mission
in Afghanistan (UNAMA), the declaration could signal broader Chinese
involvement in the future of Afghanistan.151
   This quarter, Afghanistan also signed strategic-partnership agreements with
Australia and Germany. Germany committed to provide €150 million in annual
security assistance after 2014. Australia committed to contribute $100 million
per year in development aid from 2015 to 2017.152 The Afghan government also
announced its intention to enter into an agreement with Turkey.153

Tokyo Conference
On July 8, 2012, Afghanistan and a number of its international supporters,
including the United States, met in Tokyo and agreed to a number of prin-
ciples in development, governance, and security. The agreements related to
governance were similar to those made in past international conferences.
The Afghan government and the international community will monitor five
major areas of development and governance agreed to in Tokyo using a
series of metrics. The Afghan government will develop a timeline for the
metrics. The participants agreed to regular follow-up meetings, which will
take place at the ministerial level every two years, at the senior official level
in alternate years, and at more frequent intervals under the auspices of the
Afghan-UN led Joint Coordination and Monitoring Board.154


RECONCILIATION AND REINTEGRATION
As of June 30, 2012, there had been no publicly reported major break-
throughs from efforts to forge a reconciliation agreement between the
Afghan government and insurgent groups. Details of reconciliation
negotiations are classified.155 The UN Secretary-General did report that a
five-member delegation representing the Hezb-e Islami insurgent group




  86                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                  GOVERNANCE




met with the High Peace Council and President Karzai in April 2012. The
insurgent group presented a 17-point plan detailing its demands but sus-
pended its engagement on May 12, citing disagreement over the Strategic
Partnership Agreement with the United States. The Taliban also con-
demned the agreement but issued a statement that left open all military
and political options.156

High Peace Council                                                                                                 Afghan Peace and Reintegration
On April 14, 2012, President Karzai appointed Salahuddin Rabbani as chair-                                         Program: the Afghan government’s main
man of the High Peace Council, filling the void created in September 2011,                                         program for promoting and managing the
when insurgents assassinated his father, the previous chairman and for-                                            reintegration of insurgents. It provides a
mer Afghan President, Burhanuddin Rabbani.157 The Secretary-General                                                way for Taliban members and other anti-
of the United Nations noted that the appointment should reinvigorate the                                           government elements to renounce violence
                                                                                                                   and become productive members of
Council’s work.158
                                                                                                                   Afghan society. The program also attempts
   On May 13, 2012, another senior member of the Council, Mawlawi Arsala
                                                                                                                   to link peace with development opportuni-
Rahmani, was assassinated. He was a former Taliban minister who had                                                ties to enhance the attractiveness of the
joined the reconciliation process; it was not clear who was responsible for                                        program. It is administered through a Joint
the assassination.159                                                                                              Secretariat, an inter-agency body that
                                                                                                                   has representation from the International
Afghan Peace and Reintegration Program                                                                             Security Assistance Force.
The progress of reintegration slowed slightly this quarter. From April 1
to June 19, 2012, the Afghan Peace and Reintegration Program (APRP)
                                                                                                                 Sources: UNDP, “UNDP Support to Afghan Peace and
reintegrated 583 people, bringing the program total to 4,673, as shown in                                        Reintegration Program,” 5/21/2011; ISAF, “APRP,”
Figure 3.28. Last quarter, the APRP reintegrated 919 people.160                                                  accessed 7/17/2012.



FIGURE 3.28

REINTEGREES
REINTEGREES UNDER
            UNDER THE
                  THE APRP,
                      APRP, 2010–2012

5,000


4,000


3,000


2,000


1,000


     0
 As of     Dec 31         Mar 31        Jun 30           Sep 30      Dec 30       Mar 30         Jun 30
            2010          2011           2011             2011        2011        2012            2012


Sources:
Note:    DoS, responses
      Numbers  affected bytorounding.
                             SIGAR data call, 7/5/2012, 3/30/2012, 12/30/2011, 10/6/2011, 7/1/2011, 4/15/2011,
and 1/12/2011.
Sources: DoS, responses to SIGAR data call, 7/5/2012, 3/30/2012, 12/30/2011, 10/6/2011, 7/1/2011, 4/15/2011, and 1/12/2011.




REPORT TO THE UNITED STATES CONGRESS                 I    JULY 30, 2012                              87
                                                                     GOVERNANCE




FIGURE 3.29

REINTEGREES BY REGIONAL COMMAND, DECEMBER 2011–JUNE 2012
REINTEGREES BY REGIONAL COMMAND, DECEMBER 2011–JUNE 2012

2,000



                                                                                                                                                  RC-NORTH

1,500



                                                                                                                   RC-WEST
                                                                                                                                                          RC-EAST
1,000

                                                                                                                                      RC-SOUTH


                                                                                                               RC-SOUTHWEST
  500




     0
          RC-North           RC-East           RC-South       RC-Southwest         RC-West

               December 2011                    March 2012                  June 2012


Note: The decrease
Note:     decrease in
                    in RC-North
                       RC-NorthininMarch
                                   March2012
                                         2012was
                                              wasdue
                                                  duetotothe
                                                           theJoint Secretariat
                                                                Joint           disqualifying
                                                                      Secretariat             approximately
                                                                                  disqualifying             250250
                                                                                                approximately   previous enrollees
                                                                                                                   previous        fromfrom
                                                                                                                             enrollees  Sar-eSar-e
                                                                                                                                              Pul. Pul.
Sources: DoS, responses to SIGAR data call, 7/5/2012, 3/30/2012, and 12/30/2011.
Sources: DoS, responses to SIGAR data call, 7/5/2012, 3/30/2012, and 12/30/2011.



                                                                     As in previous quarters, the vast majority of this quarter’s reintegrees came
                                                                     from the north and west, as shown in Figure 3.29. Only four insurgents rein-
                                                                     tegrated in Regional Command - South. As of June 5, 2012, the APRP’s Joint
                                                                     Secretariat claimed that an additional 1,138 candidates were in negotiations
                                                                     to reintegrate.161

                                                                     Regional Reintegration Progress
                                                                     According to the Department of State (DoS), the APRP’s performance
                                                                     at the local level improved during this quarter. Enhanced training, bet-
                                                                     ter planning, improved processes, and better leadership from Kabul
                                                                     contributed to the gains. The provinces are also making progress in
                                                                     their implementation of the APRP plan for the current Afghan fiscal year
                                                                     (solar year [SY] 1391). However, DoS said the Provincial Joint Secretariat
                                                                     Team’s (PJST’s) capacity to implement the program still varied consid-
                                                                     erably by province, with problems continuing in the south and east. To
                                                                     address this continuing concern, the Joint Secretariat continues to hold
                                                                     capacity-building sessions for PJSTs.162
                                                                        On June 18, 2012, the Ministry of Defense (MoD), National Directorate
                                                                     of Security (NDS), Ministry of Interior (MoI), Independent Directorate of




                                                                         88                             SPECIAL INSPECTOR GENERAL                   I     AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




Local Governance (IDLG) and APRPs Joint Secretariat signed a joint order
requiring every province to develop its own reintegration plan. The Joint
Secretariat, the High Peace Council, the Afghan National Security Council,
and the affected provincial governor must approve each provincial plan.
Before this order, provincial planning was inconsistent.163

Southern Reintegration
In Kandahar this quarter, as a result of information regarding the activi-
ties of the Provincial Peace Council (PPC) and PJST, the Joint Secretariat
agreed to travel with the High Peace Council in the coming quarter to visit
the province’s most volatile districts of Zharay, Panjwai, and Maiwand.
DoS said these visits could energize local efforts to seek a political accom-
modation among the rival tribes and lead to a reduction in support for the
Taliban. The Joint Secretariat also committed to conducting a capacity-
building workshop for PJST development officers.164
   Reintegration in Helmand continued to proceed slowly but steadily this
quarter, according to DoS, because of the APRP’s increased capacity at the
provincial and district levels and replacement of a number of ineffective
local reintegration officials by the APRP’s national leadership.165

Eastern Reintegration
Nangarhar has not been the site of much success in reintegrating insurgents,
mostly because the provincial government does not support the APRP. The
province’s governor has publicly and repeatedly opposed reintegration.
Though he voiced less hostility to reintegration during this reporting period,
DoS noted that he still did not substantively support the APRP. It also noted
that the PPC is underperforming and has not been able to travel to the prov-
ince’s border districts because of deteriorating security. However, the PJST
has performed well and has identified community recovery projects.166
   In Khowst, the PJST and PPC are fully established. This quarter, the PJST
improved its coordination with the Afghan National Security Forces (ANSF)
by establishing regular information-exchange meetings and arranging for
security-forces escorts. This made it possible for the PJST to visit the unsta-
ble district of Terezai for an outreach event.167
   This quarter, Paktiya had its first reintegration ceremony, for nine ex-
combatants. The event was broadcast on local television. DoS noted that
the province’s reintegration system was weak and that the reintegrees had
yet to complete formal reintegration requirements, including collection of
biometric data and receipt of reintegration cards.168
   Paktika’s PPC and PJST did not improve this quarter. According to DoS,
the PPC’s leader was absent and there were difficulties in obtaining funding
from the Joint Secretariat.169




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                 89
                                             GOVERNANCE




                                             Capacity Development for Reintegration
                                             Improving the APRP’s ability to carry out national and local reintegration
                                             programs is crucial to reintegration’s success. Since the program began
                                             in 2010, it has faced difficulties in expending money, promoting reintegra-
                                             tion in volatile areas, developing structural capacity, and gaining buy-in
                                             from local officials. The Afghan government and international community
                                             have worked toward improving the APRP’s capacity to promote and man-
                                             age reintegration.

                                             Financial Management of Reintegration Programs
                                             The APRP has a budget of $123.7 million for SY 1391 (March 21, 2012, to
Former insurgents prepare to hand over       December 31, 2012—a one-time, nine-month “year” to accommodate a shift
weapons to the Afghan government during      in the Afghan fiscal year), according to DoS.170 The United States provided
a reintegration ceremony at the provincial
                                             $50 million of these funds.171 Early this quarter, on April 14, the Ministry of
governor’s compound in Ghor province.
(DoD photo, LTJG Joe Painter)                Finance’s (MoF) financial oversight committee approved the APRP’s annual
                                             budget, annual plans for three of the line ministries supporting community
                                             recovery, and funding for cell budgets for the MoI, the NDS, the MoD, and
                                             the IDLG. DoS noted that these approvals will allow the ministries to expe-
                                             dite community recovery projects.172
                                                 Better delivery of community recovery projects should entice waver-
                                             ing insurgents to join the APRP, according to the Joint Secretariat. DoS
                                             noted that the Joint Secretariat had resolved most of the funding issues
                                             that affected PJSTs in prior quarters. In addition, instances of unauthorized
                                             expenditures at the provincial level continued to decline.173
                                                 According to the Joint Secretariat, the program had spent $3.2 million
                                             or 3% of its budget as of April 30, 2012. As of June 30, 2012, it was not clear
                                             whether the pace of disbursements would accelerate. However, DoS expected
                                             expenditures to increase significantly in the coming months because nearly
                                             all the ministry budgets and action plans were approved in April, early in
                                             Afghanistan’s fiscal year. The previous year’s budgets and plans were not
                                             approved until December, three-quarters of the way through the fiscal year.174

                                             Community Recovery Programs
                                             The Joint Secretariat has reduced the lag time between an insurgent’s
                                             request to reintegrate and his receipt of transitional assistance. As of June
                                             30, 2012, safe houses intended for short-term support had been established
                                             in many provinces, and more than 1,700 reintegrees were participat-
                                             ing in community recovery projects funded through the Reintegration
                                             Trust Fund. As of April 2012, more than 47,000 community members and
                                             reintegrees had benefited from APRP-funded recovery projects. In April,
                                             reintegration donors approved a package program to provide supplemental
                                             allowances for mid-level and senior commanders, who have higher transi-
                                             tion expenses.175




                                               90                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




   Persistent insecurity in the south and east has made delivery of commu-
nity recovery projects in these areas problematic; however, line ministries
have been directed to prioritize these areas in SY 1391, according to DoS.176

Reintegration Support from the Afghan National
Security Forces
The joint order signed on June 18, 2012, that required provinces to develop
reintegration plans also increased the responsibilities of the ANSF for pro-
moting and coordinating with the APRP. The order instructed the ANSF to
work toward preserving the security and well-being of reintegrees, tribal
elders, religious scholars, and PPC members. DoS expected the order to
improve the ANSF’s support of reintegration.177
   During this reporting period, the Afghan National Army (ANA) also
issued two new orders supporting the APRP. The first mandates that the
ANA’s Religious and Cultural Affairs section train ANA personnel on the
APRP. The second requires ANA commanders to incorporate the APRP into
their planning and operations. The International Security Assistance Forece
(ISAF) supports these new orders through training events. DoS noted that
the Joint Secretariat played a key role in the development of plans for the
third tranche of provinces in which responsibility for security will be transi-
tioned to the ANSF.178

U.S. Support for Reintegration
The United States supports reintegration training efforts in Kabul and in
the provinces. This quarter, ISAF continued to examine the feasibility of
using U.S. Afghanistan Reintegration Program funds for PJST capacity-
building programs. U.S. ISAF personnel regularly help the Joint Secretariat
conduct training. In the provinces, U.S. military and civilian personnel
continued to support PJST capacity building and advise on project imple-
mentation. Also this quarter, USAID issued guidance to its personnel on
supporting the APRP.179


NATIONAL AND SUB-NATIONAL GOVERNANCE
This quarter, the Fund for Peace, an independent, non-profit research and
educational organization, released its eighth annual Failed States Index, in
which Afghanistan ranked sixth lowest of 177 countries. The index draws
on more than 110 political, social, and economic indicators. Fund for Peace
noted five factors that contribute to instability in Afghanistan: the lack of
security, the plethora of powerful political movements, the central govern-
ment’s lack of authority, its inability to provide basic services, and weak
development in rural areas.180




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                 91
                                          GOVERNANCE




                                          Elections Preparations
                                          A key objective of the U.S. strategy is to enhance the capability of the
                                          Afghan government to hold successful future elections. This quarter, DoS
                                          noted that Afghanistan’s main elections body, the Independent Elections
                                          Commission (IEC), has improved its capacity. The United States supports
                                          the development of the IEC through two main channels: programmatic sup-
                                          port from USAID, and a project of the UN Development Programme called
                                          Enhancing Legal and Electoral Capacity for Tomorrow, Phase II. To ensure
                                          a successful presidential election in 2014, according to DoS, the Afghan gov-
                                          ernment needs to adopt a number of electoral system changes:181
                                          •	 The National Assembly needs to pass new laws covering elections and
                                             the IEC that reinforce the independence of electoral institutions.
                                          •	 The counting and tabulation process needs to produce results more
                                             credibly, accurately, and quickly.
                                          •	 To improve the voter registration and identification process,
                                             a short-term solution is needed to determine fair and secure polling
                                             locations, verify identities at polling locations, and improve
                                             confidence in the system.

                                             This quarter, the IEC provided a draft electoral law to the Ministry of
                                          Justice (MoJ) for its review. According to the IEC, the draft law makes
                                          structural and procedural changes to the IEC’s authority, the technical
                                          and operational makeup of the electoral administration, and the electoral
                                          systems, and establishes a legal and effective adjudication mechanism for
                                          electoral complaints.182

                                          USAID Support to the Elections Project
                                          From June 2008 to June 28, 2012, USAID had obligated almost $71.1 mil-
SIGAR AUDITS                              lion for its Support to the Elections Process (STEP) project. The project,
                                          which is intended to improve the Afghan government’s electoral capacity
In 2009, SIGAR recommended that
                                          and administration, had fully or partially met 91% of its targets in April
the United States assist the Afghan
                                          2012, according to USAID. Project staff had trained more than 12,000 elec-
government in the development of a
                                          tion officials on such subjects as complaint handling, polling and counting
strategic plan to build a more sustain-
                                          procedures, management and leadership, procurement and logistics, asset
able and capable national electoral
                                          management, effective communications, computer skills, and call-center
system. For details, see SIGAR Audit
                                          operations. In addition, project staff trained 9,905 people, 56% of them
09-6, “Strategy and Resources Needed
                                          women, in the delivery of voter and civic education. USAID said the STEP
to Sustain Afghan Electoral Capacity,”
                                          project had increased the long-term capacity of the IEC to hold independent
at www.sigar.mil.
                                          and credible elections.183

                                          National Assembly
                                          On April 22, 2012, the Wolesi Jirga approved the fourth draft of the national
                                          budget for the fiscal year that began March 21. DoS said the most notable
                                          change in this draft was that the government’s contribution to recapitalizing




                                            92                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




the Kabul Bank was reduced from $80 million to $65 million. Among other
changes, the IDLG budget was increased by $31 million to cover procure-
ment of vehicles for district governors and the Assembly’s budget was
increased by $31.8 million.184 Laws passed by the Wolesi Jirga this quarter
addressed regulating civilian aviation and reforming the structure of the
judiciary, according to the UN Secretary-General.185

USAID Afghanistan Parliamentary Assistance Program
According to USAID, its Afghanistan Parliamentary Assistance Program
(APAP) has improved the National Assembly’s oversight, outreach,
and legislative abilities. In May 2012, with support from the APAP, the
Assembly launched an online legislative tracker. The program has also
helped the Assembly improve its oversight of budgetary matters, espe-
cially for previous years’ expenditures. In addition, it has motivated the
Assembly to begin questioning ministers who have spent less than 40% of
their budgets.186
   The APAP has also assisted the Assembly on issues of women’s rights.
On June 17, 2012, the Women’s Affairs Committee held a conference on
violence against women, with the help of the APAP. The committee dis-
cussed the increase in violence against women and the continued inability
of the government to effectively implement the law on Elimination of
Violence Against Women. The committee agreed to conduct greater over-
sight and outreach to key ministries implementing the law before the
formulation of the SY 1392 budget. The oversight will concentrate on
allocations for programs that are intended to reduce violence against
women and children.187

PRT and DST Support and Transition
The United States is drawing down its civilian staff in the provinces at the
same time as the U.S. military transitions security responsibilities to the
Afghan security forces. Coinciding with the security transition plan, a num-
ber of PRTs are scheduled to close in the coming quarters. As of June 30,
2012, DoS planned to maintain an enduring civilian presence after 2014 at
the U.S. Embassy Kabul and at four field offices in Herat, Mazar-e Sharif,
Kandahar, and Jalalabad. The Herat consulate opened in March 2012; the
other three will open toward the end of 2014.188

Provincial and District Governance
Afghan government control of the more volatile areas in the south and east
of the country continues to fluctuate. In the more stable areas, the govern-
ment has a greater degree of authority. In the more unstable areas, the
government often competes with insurgent structures or has no presence.
In those areas, the Taliban often exercises true authority over local popula-
tion. This section provides updates on the situation in several provinces.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                93
                                                                 GOVERNANCE




                                                                 Khowst Province
FIGURE 3.30                                                      Insurgent influence in Khowst varies by district, according to DoS.
PROVINCIAL CONTROL: KHOWST                                       Insurgents have significant power in western areas such as Spera, Musa
PROVINCIAL CONTROL: KHOWST
                                                                 Khel, Qalandar, Dwamanda, and northern Nadir Shah Kot, as shown in
                                                                 Figure 3.30. Elsewhere the insurgents vie with the Afghan government for
                                                                 authority in Bak, Sabari, and Tereyazi; the insurgents probably have shadow
                                                                 governors in those areas. Insurgent control is limited in the central district
                                                                 of Khowst city and its surroundings, although insurgents are still able to
                                                                 intimidate individuals there.189
                                                                    This quarter, the Khowst PRT worked to build support for the transi-
                                          Khowst
                                 Musa Khel
                                                   Sabari        tion and the Strategic Partnership Agreement. The PRT also worked to
                                Qalandar               Bak       increase budget execution by engaging provincial line directors about the
                         Nadir Shah Kot               Tereyazi
                         Dawamanda                  Khowst
                                                                 SY 1391 development budget to ensure that the provincial officials under-
        Insurgent control              Spera                     stood the budget and to motivate them to lobby their ministries in Kabul
        Contested                                                on budgetary matters. The provincial governor and key line directors
        Limited insurgent control                                have obtained information on the status of Khowst development projects
        Not specifically identified                              administered from Kabul and have achieved modest gains in improving
                                                                 the execution of those projects, according to DoS. In addition, the PRT
Source:
Source:DoS,
        DoS,response
             responsetotoSIGAR
                          SIGARdata
                                datacall, 7/5/2012.
                                      call, 7/5/2012.            assisted the provincial utility company in preparing for the delivery of
                                                                 substantially more electric power to the province through the Naghlu
                                                                 transmission line.190

                                                                 Nangarhar Province
FIGURE 3.31                                                      The government controls the majority of Nangarhar, although significant
 PROVINCIAL CONTROL: NANGARHAR
                                                                 pockets of Taliban shadow government control can be found in small,
PROVINCIAL CONTROL: NANGARHAR
                                                                 isolated villages throughout the province and in remote border regions,
                                                                 according to DoS. Taliban control is concentrated in the western districts
                                                                 of Hesarak, Sherzad, and much of Khogyani, as shown in Figure 3.31. The
                                                                 Taliban also operates a shadow government along the southern and eastern
                                                                 borders with Pakistan.191
                                                                    Nangarhar’s governor reshuffled the posts of nine district governors this
                                         Nangarhar               quarter. According to DoS, district-governor reshuffling has become a fix-
                                                                 ture of Nangarhar politics. The reshuffling prevents district governors from
                             Heserak
                               Sherzad
                                                                 establishing significant power bases, but also destabilizes the government
                               Khogyani               Pakistan   and negates the PRT’s mentoring and advising work. In addition, insurgent
        Insurgent control                                        assassinations have undermined governance. Three judges were assas-
        Not specifically identified                              sinated between March and June 2012, and insurgents have continued to
                                                                 attempt to assassinate district governors in unstable areas.192
Source: DoS, response to SIGAR data call, 7/5/2012.

                                                                 Paktika Province
 Source: DoS, response to SIGAR data call, 7/5/2012.
                                                                 The Afghan government has at least some control over most districts in
                                                                 Paktika, according to DoS. However, insurgents continue to intimidate
                                                                 citizens and there is little government presence in several districts near
                                                                 the borders with the Pakistani regions of North and South Waziristan and




                                                                   94                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




Baluchistan, as shown in Figure 3.32. Insurgents have complete control in at       FIGURE 3.32
                                                                                   PROVINCIAL CONTROL: PAKTIKA
least two districts in this part of the province. Insurgents continue to deliver
                                                                                   PROVINCIAL CONTROL: PAKTIKA
“night letters” to Afghan officials throughout the province, warning them
not to work for the government.193
    Afghan Local Police (ALP) efforts in the province have improved security
in the east and west, DoS said, enabling local officials to travel more freely
and engage the population in those areas. Although the improved security
situation allowed education officials to reopen several schools, particularly
in districts where the ALP operates, subsequent travels by those officials
were marred by lethal attacks on their convoys. Before April 2012, judges                                            Paktika
were present only in the capital of Sharana. Since then, in contrast, six
judges traveled to two other districts. However, those districts have no
                                                                                                                                        Waziristan
defense attorneys and few prosecutors—key elements of a functioning jus-
tice system—making the judges’ presence alone inadequate.194                               Insurgent control

    This quarter, the Paktika PRT increased its efforts to link tribal lead-               Not specifically identified
                                                                                                                          Baluchistan
ers with the government. The PRT successfully persuaded the province’s
justice director to travel outside the provincial capital and engage with          Source: DoS, response to SIGAR data call, 7/5/2012.

tribal leaders. The interaction led to the appointment of two new huquqs
                                                                                   Source: DoS, response to SIGAR data call, 7/5/2012.
(provincial civil law offices), helping to create links to mechanisms of
traditional dispute resolution. The PRT also worked with local officials to
conduct greater outreach, creating initial improvements in the delivery of
public-health services. DoS noted that the province’s director of agriculture
is in jail. The PRT and DSTs have therefore focused on working with dis-
trict agricultural representatives.195

Paktiya Province
In districts scattered throughout Paktiya, the Taliban’s shadow government         FIGURE 3.33 CONTROL: PAKTIYA
                                                                                   PROVINCIAL
has considerable influence in Zormat, Jaji, Jani Kheyl, and Ahmed Kheyl, as
                                                                                   PROVINCIAL CONTROL: PAKTIYA
shown in Figure 3.33. In Zormat, Taliban courts operate throughout the dis-
trict. Provincial leadership has been mostly unwilling to travel to outlying
districts without ISAF protection.196
   The Paktiya PRT has developed solid relationships with key provincial
officials through regular meetings, according to DoS. This quarter, the PRT
worked with local officials on a jointly created provincial strategy focused
on enabling key line directors and officials to manage governance and                                                       Paktiya
                                                                                                                                            Jaji
development efforts with limited outside assistance.197
                                                                                                                                          Amend
                                                                                                                 Zormat                   Khyel
Helmand Province                                                                                                                   Jani Khel
The Afghan government is generally effective in Helmand, according to                     Insurgent control

DoD.198 Nevertheless, according to DoS, the northern districts of Nar-e                   Not specifically identified

Saraj, Musa Qala, and Now Zad continue to experience nationwide highs
of violent attacks. U.S.-Afghan military operations have had an impact. For        Source: DoS, response to SIGAR data call, 7/5/2012.

example, following a recent military operation, village elders in Kajaki to
                                                                                   Source: DoS, response to SIGAR data call, 7/5/2012.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                 95
GOVERNANCE




the northeast were able to travel to the district’s center to meet with the dis-
trict governor for the first time in years.199
   One measure of improved stability is that district officials travel more
often by road. This quarter, government officials were able to travel safely
throughout the center of the province, even at night. Governing capacity has
also improved. According to DoD, the authorities in the Central Helmand
River Valley demonstrated autonomy in budgeting and successful represen-
tative governance.200 In addition, the IDLG successfully organized elections
for the Nahr-e Saraj District Community Council on May 8, 2012. More than
4,000 votes were cast, a participation rate of over 90% in what had been one
of Helmand’s most violent districts.201

Kandahar Province
Kandahar has an adequate level of governance, according to DoD. Kandahar
City has seen an expansion in governing capacity; the judicial sector is
expanding rapidly, with more trials taking place, and evidentiary procedures
are improving. The local government has had success in identifying needs
and developing budgets, but its ability to execute the budget remains prob-
lematic, according to DoD.202 DoS noted that Kandahar officials now are
able to travel throughout the province and more often use security person-
nel from the ANSF than from ISAF.203

U.S. Capacity-Building Programs for Public Administration
The United States is developing capacity in the Afghan government through
a number of programs to improve the work of ministries, local and provin-
cial governments, and the civil service. This sub-section reviews some of
those efforts.

USAID Sub-National Governance Program
As of June 28, 2012, USAID had obligated almost $12 million from the
Economic Support Fund for its Sub-National Governance Program. USAID
stated that although the program has helped improve the capacity of
Provincial Councils, these councils would not yet be able to operate or
reach constituents at an effective level without USAID support. The Afghan
government also needs to pass and enact the Provincial Council law. The
program has been successful in helping the councils consistently conduct
citizen outreach, plan provincial development, conduct oversight, and
promote government accountability. However, lack of security, poor regula-
tory frameworks, a lack of resources, and a highly centralized governing
structure have all hampered the ability of program staff to help develop
fully functioning, self-sustaining councils. The program was supposed to
end on July 31, 2012, but at press time USAID was working to extend it until
September 30, 2013.204




  96                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




USAID Afghanistan Civil Service Support
This quarter, USAID stated that its Afghan Civil Service Support (ACSS) proj-
ect has helped improve the functioning of the Independent Administrative
Reform and Civil Service Commission (IARCSC). As of the end of the
quarter, the ACSS had developed a standard curriculum in five common
functions and trained more than 16,000 civil servants at the national and
sub-national levels in those functions. With assistance from the ACSS, the
IARCSC had achieved a number of improvements:205
•	 made more than 108,000 merit-based appointments
•	 recruited over 88,000 civil servants under the pay and grading system
•	 conducted performance evaluations for more than 11,000 junior and 200
   senior civil servants
•	 completed technical capacity assessments in eight ministries, in Kabul
   and three provinces

   These achievements notwithstanding, the program faces serious chal-
lenges, according to USAID. Lack of security continues to make it difficult
to recruit Afghans into the civil service. Also, restrictions on women’s
mobility and the low levels of women’s education prevent robust recruit-
ment of qualified women.206
   As of March 20, 2012, USAID had obligated almost $237.1 million for the
ACSS project. On March 20, 2012, the project was transitioned to an Afghan-
owned on-budget program that uses USAID funds. The Afghan government
will need to meet 23 benchmarks to continue to receive assistance.207

Financial Management and Budgeting
Afghanistan’s ability to conduct proper financial management remains lim-
ited. As of June 30, 2012, financial reports were provided ad hoc. Treasury
was working with the MoF to assist it in standardizing reporting formats
for line directors and PRTs, and making greater use of the Afghan Financial
Management Information System.208
    Afghanistan continued to have difficulty in executing its development
budget. For SY 1390, it executed only 53% of its development budget, as
compared with 96% of its operating budget.209 As noted in previous SIGAR
quarterly reports, budget-execution difficulties stem from a number of prob-
lems, including three major ones:210
 •	 lack of technical capacity to manage and implement projects
 •	 long and arduous procurement processes
 •	 unrealistic and exaggerated budgets for development projects

  Treasury continued to assist Afghan budget officials in improving the
capacity of the government to plan and execute its budget effectively. Its
support includes the following:211




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               97
                                                      GOVERNANCE




                                                      •	 working with the Budget Directorate and external donors to include in the
                                                         national budget those projects that donors manage externally
                                                      •	 strengthening the MoF’s capacity to manage the formulation and execution
                                                         of the development budget and improving estimates of sustainability
                                                      •	 improving the degree to which the annual budget for provinces reflects the
                                                         preferences of provincial officials
                                                      •	 developing programs for capacity building for financial managers in line
                                                         ministries
                                                      •	 developing strategies to reduce the Budget Directorate’s reliance on donor-
                                                         funded staff for operational tasks
                                                      •	 establishing consensus with the Budget Directorate on policies for issuing
                                                         allotments and for cash availability

                                                         Treasury is also focusing on improving the government’s ability to con-
                                                      duct internal audits of its ministries. Treasury has been working with the
                                                      MoF’s internal-audit department to build an effective internal structure and
                                                      establish standardized auditing processes. This quarter, assessment and
                                                      revenue-process audits were finalized at four ministries. Follow-up audits
                                                      and exit conferences were completed at an additional five ministries.212
                                                         This quarter, the ministries of Public Works and Interior temporarily
                                                      stopped their assessments and revenue-process audits. However, after
                                                      being notified that non-compliance reports would be issued, they resumed
                                                      work on the audits and eventually finished them.213


                                                      JUDICIAL REFORM AND RULE OF LAW
  informal justice system: local mecha-               The ability of the Afghan government to effectively and reliably deliver jus-
  nisms dominated almost exclusively by               tice varies wildly throughout the country. Rural and unstable areas suffer
  men that apply traditional practices of             from a generally weak formal justice system that is unable to arbitrate and
  dispute resolution, including the tradi-            adjudicate local civil and criminal disputes. Officials in the formal justice
  tional Pashtun code of conduct known as             system occasionally defer to the informal justice system by sending cases
  Pashtunwali.
                                                      for adjudication. The Asia Foundation found in its most recent survey that a
                                                      narrow majority of Afghans take their cases to a local jirga or shura instead
  jirga or shura: terms used by Pashtuns
                                                      of a state court, and are more satisfied with the verdicts handed down by
  (jirga) and others (shura) for traditional
  assemblies or consultative councils that
                                                      those traditional authorities. However, those authorities do not always
  make or endorse decisions or dispense               respect and sometimes even violate the constitutional rights of women
  justice. These informal bodies, made up             and minorities.214 The U.S. Bureau of International Narcotics and Law
  of designated community members, have               Enforcement Affairs (INL) recently began funding a U.S. Institute of Peace
  participatory and representative elements           project to build more solid relationships between the formal and informal
  but do not approximate Western-style                justice systems so that all Afghans, men and women, can have access to
  democracy.                                          justice. In particular, through the new program INL will attempt to better
                                                      understand how women navigate the justice landscape so that it can pro-
                                                      mote increased access. The program will use Islamic principles to defend
Source: CRS, “Afghanistan: Politics, Elections, and
Government Performance,” 6/5/2012, pp. 2, 49.         and promote women’s interests.215




                                                        98                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




   The skill and education levels of judges, attorneys, and court officials
vary widely throughout the country. All attorneys are expected to have at
least a bachelor’s degree. Judges are supposed to have a degree and two
years of post-degree training. In practice, lawyers and judges do not always
meet those standards. Some are illiterate; many officials are either unaware
or unsupportive of the right of the accused to a defense attorney.216
   Corruption and criminal patronage networks have negatively affected the
judicial system. Afghan officials’ commitment and ability to address such
issues varies by jurisdiction. Some prosecutors and judges have reportedly
demanded payment of bribes from those who are accused.217
   Insurgents, criminals, and others have targeted judicial officials. Because
of the threat of assassination, INL supports the U.S. Marshals Service’s           SIGAR AUDITS
Judicial Security Unit, which provides security for key judicial officials at
                                                                                   In a 2009 audit, SIGAR found that
high-profile institutions, both on site and on travel. Although the recruits for
                                                                                   U.S. assistance for Afghan judicial
the new positions had not yet been identified or trained as of June 30, 2012,
                                                                                   security was at times uncoordinated
the unit’s number of authorized staff was recently increased so that it could
                                                                                   and lacked a strategic approach. U.S.
expand its work into Parwan and Kandahar.218
                                                                                   Embassy Kabul now has a coordinator
                                                                                   for U.S. programming related to rule of
Due Process and the Afghan Case Management System                                  law. For details, see SIGAR Audit 10-3,
The implementation of the Afghan Case Management System (CMS) demon-
                                                                                   “Actions Needed For a More Strategic
strated the difficulties practitioners face in the judicial system’s due-process
                                                                                   Approach to U.S. Judicial Security As-
record. The CMS is a database that tracks criminal cases from investigation
                                                                                   sistance,” at www.sigar.mil.
through sentencing and appeal. The United States supports the Afghan imple-
mentation of the CMS. From March 2011 to March 2012, the CMS recorded
5,540 new criminal cases in Kabul. A review found that 20% of those cases
had due-process violations, including cases that did not go to trial within
legal time limits and defendants who were kept in custody without formal
charges. The JSSP will work to address the case-flow problems and develop
a plan to bring late cases to the attention of judicial institutions for immedi-
ate resolution. INL’s Justice Sector Support Program (JSSP) is working with
Afghan officials to use the findings of the CMS data to improve the transpar-
ency and management of cases, which could assist in deterring corruption. In
June 2012, the JSSP began expanding the CMS in Herat and Balkh.219

Attorney General’s Office
On May 8, 2012, the Afghan Attorney General officially approved the
long-term strategy for the Attorney General’s Office (AGO)—a major
achievement for the Office, according to DoS. The document covers
2012–2016 and is designed to facilitate major performance objectives.
The AGO also began an initiative aimed at standardizing the AGO’s inter-
nal case-filing system. DoS noted that the system is based on accepted
legal forms already in use at the AGO and that its implementation would
make file quality more consistent across the country.220




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                 99
                                                     GOVERNANCE




                                                     National Priority Program
                                                     The Afghan government and international community continued to revise
                                                     portions of the National Priority Programs related to law and justice this
                                                     quarter. The Afghan government and its international supporters agreed
                                                     to these programs at the Kabul Conference in 2010. The programs cover
                                                     key areas in governance, development, and security. The law and justice
                                                     revisions have focused on management structures and access to justice.
                                                     According to the UN Secretary-General, UNAMA and the international com-
                                                     munity will work to develop a strategy to enhance cooperation between the
                                                     police and the justice sector, in particular the AGO.221

                                                     Criminal Procedure Code
                                                     As of June 30, 2012, the National Assembly had not approved the updated
  Taqnin: The legislative drafting unit in the       Criminal Procedure Code. Last quarter, the Taqnin department of the
  MoJ that is tasked with scrutinizing draft         Ministry of Justice (MoJ) sent a modified draft of the Criminal Procedure
  laws. According to the MoJ, all draft laws in      Code to the Ministry of Parliamentary Affairs, which is charged with sub-
  Afghanistan must be vetted by the Taqnin           mitting the draft to the National Assembly, according to DoS. The code has
  for such things as compliance with the             been scheduled for revision since 2009 and covers justice issues like deten-
  Constitution, Islamic law, and international
                                                     tion procedures, investigation measures, witness protection, the handling
  agreements that Afghanistan has ratified.
                                                     of cooperative suspects and alternatives to detention, both prior to trial and
                                                     after conviction.222
Source: MoJ, “Department of Legislative Drafting,”
accessed online 7/17/2012.
                                                     U.S. Rule of Law Programming
                                                     Developing a competent justice sector in Afghanistan has been a major
                                                     component of U.S. reconstruction efforts. Between 2006 and July 8, 2012,
                                                     the United States had funded about $1.8 billion in rule of law and counter-
                                                     narcotics programs. INL’s main justice program is the JSSP. The program,
                                                     which began in 2004, had trained over 14,000 Afghan investigators, prosecu-
                                                     tors, defense attorneys, and judges, as of July 8, 2012.223

                                                     U.S. Justice Sector Support Program
                                                     This quarter, the JSSP trained more than 1,400 defense attorneys, prosecu-
                                                     tors, judges, and members of civil society. Topics included gender justice,
                                                     defense representation of indigent and vulnerable clients, procurement,
                                                     management, and human rights. The JSSP also hosted a workshop with the
                                                     MoJ on developing and drafting human-rights treaties. In addition, the JSSP
                                                     provided the MoJ with technical assistance in evaluating its property and
                                                     licensing records. As of June 30, 2012, attorneys for the JSSP included 149
                                                     U.S., Afghan, and third-country nationals.224

                                                     USAID Rule of Law Stabilization Program
                                                     As of the end of this quarter, USAID’s Rule of Law Stabilization Program
                                                     had supported the following capacity-building efforts for the judiciary and
                                                     law schools:225




                                                      100                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




•	 353 judges were trained; the goal was 300.                                    Afghanistan’s Judicial Stage program
•	 1,292 (80%) of the nation’s 1,607 civilian judges completed the               qualifies graduates to work as judges.
   traditional Judicial Stage program.                                           Established by the country’s Supreme Court
•	 52 students participated in moot court activities; the goal was 45.           in 1968, the program provides advanced
•	 27% of Afghans have been reached by the program’s public awareness            training modeled on the French system of
                                                                                 judicial training. In 2010, the program was
   campaigns; the goal was 35%.
                                                                                 expanded from one year to two to provide
                                                                                 increased substantive training and practical
   Notwithstanding these achievements, USAID noted that security is a            skills to its graduates.
continuing issue for the program’s informal component in the east. In the
                                                                                 Source: USAID/Afghanistan, “Women Take Center Stage,”
north, the security situation has deteriorated, limiting the program’s ability   8/22/2011.

to conduct events and Afghans’ ability to attend them. In addition, in May
2012, the governor of Kandahar declined the offer by the program’s informal
component to hold a regional network meeting.226
   As of June 28, 2012, USAID had obligated over $32 million for the formal
component and almost $11 million for the informal component. The agency
had not yet fully approved the informal component’s follow-on contract.227
   USAID noted that the judicial sector’s paper-based version of the case
management system had been integrated into 485 of the country’s 551
courts and dewans (the Supreme Court’s sub-courts) (88%) and has been an
effective means of tracking cases through the courts.228


ANTI-CORRUPTION
Corruption is one of the most persistent and significant problems facing
Afghanistan. This quarter, efforts to conduct effective investigations and
prosecutions related to corruption and fraud continued to face many of the
same problems that have plagued the country throughout its reconstruc-
tion. However, the Afghan government did show some signs of progress,
such as moving forward with a long-stalled high-profile case, an increased
willingness to adopt anti-corruption recommendations, and more aggres-
sive ANSF anti-corruption measures.

Special Cases Committee
This quarter, the joint Afghan-international Special Cases Committee made
slow but steady progress in investigating and prosecuting individuals
associated with the corruption scandal at the Dawood National Military
Hospital, according to DoD. As of June 30, 2012 it was reviewing five cases,
three of which were referred to the MoD’s legal department for formal
investigation. The cases focus on senior-level military officers and primarily
deal with fuel theft and pharmaceutical irregularities at the Kabul facil-
ity. The United States continued to work with Afghan officials to progress
the investigation, prosecution, and conviction of Major General Yaftali
and members of his criminal network that operated the hospital, accord-
ing to DoD.229 DoS noted that the Afghan High Office of Oversight and




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               101
                                                      GOVERNANCE




The Special Cases Committee (SCC) was                 Anti-corruption (HOOAC) has sent cases related to Yaftali’s network to the
formed in January 2012 as a joint Afghan              AGO.230 DoD noted that the cases are taking longer than desired, but that
and international mechanism for guiding               Yaftali and others had at least been removed from the hospital staff.
the efforts of the AGO in significant public             The investigation of Yaftali is particularly noteworthy because of his
corruption cases after the AGO failed to              mujahadeen-era ties and his links to key power brokers who have pres-
adequately prosecute many previous cases.
                                                      sured the government to discontinue the investigation.231 According to
The role of the international advisors (in-
                                                      DoS, without the SCC’s involvement, it is doubtful that the Afghan govern-
cluding U.S. personnel) is to help the AGO
decide which cases the AGO ought to pay
                                                      ment would have accomplished much in this case.232
special attention to and devote resources                This quarter, the SCC also began its investigation of the former governor
to investigating and prosecuting if there is          of Kapisa. However, DoS noted that the evidence for that case is likely no
evidence to support prosecution. In addi-             longer available, in part because two essential witnesses for the prosecu-
tion, the international advisors help the AGO         tion have been murdered.233
design its investigations and prosecution
strategies. The purpose of international par-         Monitoring and Evaluation Committee
ticipation is also to help the AGO acquire            The joint Afghan-international Monitoring and Evaluation
information and evidence in the possession            Committee (MEC), which is tasked with developing anti-corruption
of the international community.                       benchmarks for the Afghan government, has established more than 50
Source: DoS, response to SIGAR data call, 7/5/2012.   benchmarks related to accountability and transparency, according to
                                                      DoS. As of May 13, 2012, the government had implemented 40% of the
                                                      recommended changes and made important progress on another 40%,
                                                      according to the UN Secretary-General, who noted that real success in
                                                      these areas will ultimately depend on strong political will.234
                                                         DoS said that it considers the number of benchmarks excessive and a
                                                      dilution of the effect of the MEC. The international community has urged
                                                      the MEC to consolidate the benchmarks into a manageable number. DoS
                                                      did laud the progress the MEC has made in a difficult environment and
                                                      noted that its work is receiving proper attention from the Afghan gov-
                                                      ernment and international community. It pointed out that much of the
                                                      government has agreed with most of the MEC’s benchmarks. Notable
                                                      exceptions were the AGO and the HOO; the HOO has also continued to
                                                      interfere with the MEC’s work, although with diminishing effect. The
                                                      Ministry of Mines and the Ministry of Finance’s Customs Department have
                                                      been particularly receptive to implementing changes to meet the MEC’s
                                                      benchmarks. Although President Karzai had attempted to limit the scope of
                                                      the MEC in February 2012, the Afghan government did not prevent the MEC
                                                      from conducting its work this quarter. USAID is planning to provide techni-
                                                      cal assistance and possibly a small amount of funding for the MEC.235

                                                      Afghan Attorney General’s Office
                                                      This quarter, the AGO made some progress in addressing corruption,
                                                      although many issues remain. In addition to the AGO’s relatively productive
                                                      work with the SCC, the AGO’s Anti-Corruption Unit made gains in two sig-
                                                      nificant cases: a bank official at Pashtany Bank was charged and convicted
                                                      for embezzlement, and a prominent businessman was charged with fraud




                                                       102                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




and forgery. DoS noted that these cases moved forward despite protests
from some high-level officials in the executive branch. The AGO did, how-
ever, continue to balk at acting on referrals from the U.S.-assisted Major
Crimes Task Force (MCTF), according to DoS.236

Control and Audit Office
The draft audit law intended to improve the Afghan Control and Audit
Office’s ability to conduct independent oversight remained in limbo this
quarter. In May 2012, the Wolesi Jirga restored key provisions in the law
that had been weakened by the Cabinet last quarter. The Wolesi Jirga
broke for recess this quarter, so the law was not expected to pass until
September 2012 at the earliest. Even then, DoS said it did not expect
President Karzai to sign the bill with the restored provisions. The Wolesi
Jirga would need a two-thirds vote to override a presidential veto.237

Corruption in Customs Collections
As of June 30, 2012, President Karzai had not yet approved the establish-
ment of a Presidential Executive Commission that is intended to stem the
large amount of corruption in customs collections. The problem has signifi-
cant impacts: From March 2011 to March 2012, customs revenue accounted
for 48% of Afghan government revenue.238 But as SIGAR reported last quar-
ter, staff members at inland customs depots estimate that some depots lose
up to 70% of potential border revenue because of corruption.

U.S. and International Assistance for Anti-Corruption Efforts
The United States and the international community have developed a
number of programs and committees to help officials counter government
corruption. These efforts have faced a fair amount of resistance from some
high-level officials, although this quarter there was some improvement in
the government’s actions.

Task Force Shafafiyat
DoD told SIGAR that the Combined Joint Interagency Task Force
(CJIATF)-Shafafiyat has helped the MoD and MoI make significant progress
in counter-corruption efforts. Both ministries have established internal
anti-corruption groups. Senior MoD officials have developed 54 targets for
transparency reforms within the ministry and made progress on 49 of them
as of June 30, 2012. Political will within the MoI has grown, as demon-
strated by the removal this spring of close to 70 police officers in western
Afghanistan on corruption and abuse charges. The MoI has also responded
to requests from the CJIATF-Shafafiyat and ISAF to stop “recycling” offi-
cials who have been removed for corruption; there were 19 egregious
cases of such reassignments in 2011, but only one in the first half of 2012.
In addition, the MoI opened four new regional Shafafiyat commissions this




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012              103
GOVERNANCE




quarter, which will help in addressing regional corruption issues, according
to DoD.239
   The CJIATF-Shafafiyat has deepened its partnership with the various
Afghan agencies responsible for anti-corruption efforts, including the SCC,
the MCTF, and the HOO, according to DoD. The CJIATF-Shafafiyat has also
been successful in focusing greater attention on corruption and organized
crime in the transition process—which was not a topic in early transition
discussions. For the third tranche of provinces transitioning to Afghan
responsibility for security, ISAF and Afghan security leaders from the MoD,
MoI, and NDS formed anti-corruption boards. The boards assess corruption
in candidate provinces and districts, identify anti-corruption measures appli-
cable to specific provinces and districts, and apply sanctions on corrupt actors
in positions that are critical to successful transition. According to DoD, the
efforts of these boards have helped ensure that security and governance insti-
tutions in transition areas are less subject to criminal subversion.240

U.S. Support for Financial System Transparency
U.S. agencies and task forces, including the CJIATF-Shafafiyat, have
improved visibility into the links between Afghan criminal networks and the
international financial system and have nominated candidates for interna-
tional financial sanctions. DoD noted that the implementation of the Illicit
Activities Initiative for Afghanistan would accelerate and expand targeted
financial sanctions and international law-enforcement actions against crimi-
nal networks. The initiative would establish a U.S.-based inter-agency body
intended to develop cases as well as manage the application of targeted
sanctions and international law-enforcement actions against the national
and international elements of Afghan criminal networks. The initiative was
endorsed this quarter by then-Ambassador Ryan Crocker, General James
Mattis of U.S. Central Command, and Secretary of Defense Leon Panetta.241
   Treasury mentors the MoI and NDS on techniques for investigating finan-
cial crimes, focused on investigations into money laundering, bribery, fraud, and
counterfeiting U.S. currency. Treasury has developed a course for undercover
officers that covers planning, preparing, and implementing undercover opera-
tions. This quarter, Treasury also mentored the MCTF’s investigations group
on public corruption, tax evasion, customs fraud, kidnapping, and organized
crimes activities. In addition, Treasury worked with the MCTF on an investiga-
tion of suspicious large cash transfers from a non-governmental organization
(NGO) to an apparent Afghan government employee’s personal account.242

USAID’s Assistance to Anti-Corruption Authority (4A)
USAID’s Assistance to Anti-Corruption Authority (4A) program aims to miti-
gate corruption by working to help develop a well-functioning HOO and a
robust civil society. As of June 28, 2012, USAID had obligated $6 million for
the project, $5 million of which had been expended.243




 104                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




   As noted in previous SIGAR quarterly reports, the HOO has had little suc-
cess in implementing an asset-verification process for government officials.    SIGAR AUDITS
Allegations continue to be made about verifiers extorting bribes from offi-
                                                                                In a 2009 audit, SIGAR found that the
cials they are investigating, according to USAID. To counteract such efforts,
                                                                                HOO suffered from significant gaps
the 4A drafted a non-disclosure agreement to protect officials who submit
                                                                                in operational capacity, insufficient
declarations, plus a series of responses to common questions that officials
                                                                                authority or enforcement power, and a
have about the verification policy and the publication of asset information.
                                                                                lack of independence. For details, see
The HOO approved these documents.244
                                                                                SIGAR Audit 10-2 “Afghanistan’s High
   The 4A has worked with the HOO to develop memorandums of under-
                                                                                Office of Oversight Needs Significantly
standing (MOUs) between the HOO and ministries on asset investigation,
                                                                                Strengthened Authority, Independence,
but only two of the nine MOUs drafted have been signed by both parties.
                                                                                and Donor Support to Become an
The 4A will continue to work with the HOO to establish MOUs with the
                                                                                Effective Anti-Corruption Institution,” at
ministries and government agencies that are the most essential for verifica-
                                                                                www.sigar.mil.
tion work.245
   Better processes within ministries are also important for improving
transparency and accountability. The 4A program has identified four minis-
tries for business-process redesigns. The Strategy and Planning Department
and the Prevention Department have approved a standard process devel-
oped by the 4A. Implementation of the process changes is moving steadily
but slowly, according to USAID, which noted that ministerial, operational,
and logistical issues remain to be addressed.246
   The 4A program also assisted the HOO’s Asset Registration and
Verification Department in conducting workshops and printing revised
asset-registration documents. This quarter, the HOO held verification
workshops for ministries and agencies in Kabul and Jalalabad; as of June
28, workshops had been held in 53 government bodies. In addition, the 4A
program worked with the HOO this quarter to merge its two databases,
held capacity trainings on complaints-related issues, and established an
online complaint registration form on the HOO’s website.247
   A number of challenges continue to hamper USAID-funded anti-cor-
ruption efforts. They include a persistent lack of political will and a legal
department with insufficient and unqualified staff. Inadequate support
from counterpart ministries like the AGO and the MoJ have also thwarted
anti-corruption efforts. At the end of the quarter, USAID was considering
funding the second option year of the program, with a shift to focus more
focus on civil-society engagement and further engagement of the MEC.248


HUMAN RIGHTS
The Afghan government’s record in protecting human rights continued to
be inconsistent. Although improvements have been made, women, children,
ethnic minorities, detainees, and others experience numerous abuses by
various actors. As of June 30, 2012, three commission appointments were
still unfilled in the Afghanistan Independent Human Rights Commission




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012              105
                                             GOVERNANCE




                                             (AIHRC). In December 2011, President Karzai decided to not renew the
                                             expired terms of three commissioners.249

                                             Gender Equity
                                             UNAMA expressed increased concerns about women’s rights this quarter.
                                             Violence against women remains endemic, and women face challenges to
                                             exercising their economic, social, and cultural rights. Judicial officials have
                                             continued to treat running away from home (often to flee mistreatment and
                                             abuse) as an adulterous crime, despite the fact there is no law against this
                                             “offense” in the criminal code, according to the UN Secretary-General.250 In
                                             April 2012, the Attorney General released a letter to prosecution offices in
                                             which he directed prosecutors not to prepare “unjustifiable” cases related
                                             to running away.251
                                                In July 2012, a video was released of a man publicly executing a woman
                                             in Parwan as a crowd cheered the murder. The Afghan government and the
                                             United States immediately condemned the killing, which reportedly was
                                             carried out by the Taliban. The Afghan government directed the provincial
Afghan boys learn about other countries      police to identify and arrest those responsible for the killing.252
during a cultural-diversity youth shura on
June 23 at a combat outpost in Kunar         Human Trafficking
province. (RC-East photo)
                                             Human trafficking continues to be a major problem. This quarter,
                                             DoS released its 2012 Trafficking in Persons Report, which identified
                                             Afghanistan as a source as well as a transit and destination country for
                                             men, women, and children subjected to forced labor and sex trafficking.
                                             For the third consecutive year, the report placed Afghanistan on DoS’s Tier
                                             2 Watch List, the second-lowest possible ranking.253
                                                According to the DoS report, the Afghan government does not yet com-
                                             ply with the minimum standards for the elimination of trafficking in persons
                                             and showed no progress between June 2011 and June 2012 in reaching the
                                             standards. Although the Afghan government approved an anti-trafficking
                                             law in 2008, it has not used this law to prosecute or convict traffickers.
                                             The government has even punished victims for offenses they committed
                                             as a result of being trafficked. DoS said that based on Afghanistan’s record
                                             alone, it would have been downgraded to Tier 3, the lowest ranking in the
                                             report. However, DoS granted the government a waiver because it had a
                                             written plan that—if implemented—would make significant progress to
                                             curb human trafficking.254
                                                The DoS report said most of the victims of human trafficking are children
                                             and their numbers are increasing. Afghan children are subject to forced
                                             labor and domestic servitude, commercial sexual exploitation, forced beg-
                                             ging, and international drug trafficking within Afghanistan as well as in
                                             Pakistan, Iran, and Saudi Arabia. Some families knowingly sell their chil-
                                             dren into forced prostitution practices like bacha baazi, in which wealthy
                                             men use groups of young boys for social and sexual entertainment. Families




                                              106                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                          GOVERNANCE




FIGURE 3.34

                          AFGHANISTAN
TRAFFICKING IN AND OUT OF AFGHANISTAN



                                                                          KYRGYZSTAN
 GREECE                                                                  TAJIKISTAN
                                                                                                CHINA
                                               IRAN

                                                                 PAKISTAN                   NEPAL
                                 SAUDI
                                 ARABIA
                                                                                    INDIA



                                                                                                                                                PHILIPPINES

                                                                                             SRI LANKA

                                                            Foreigners trafficked
                                                            Afghans trafficked




Note:
Note: Afghans
      Afghans were
              werealso
                   alsotrafficked
                        traffickedinto
                                   intounspecified areasand
                                        the Gulf States  in the Gulf States
                                                             possible       and Southeast
                                                                       Southeast          Asia. but the exact countries were not specified in the report.
                                                                                 Asian countries
Source: DoS, “2012 Trafficking in Persons Report,” 6/19/2012, p. 62.
Source: DoS, “2012 Trafficking in Persons Report,” 6/19/2012, p. 62.



that farm opium fields sometimes sell their children—particularly their
daughters—to settle debts with drug traffickers.255
   Levels of forced prostitution and labor trafficking into and out of
Afghanistan remained high, affecting many countries, as shown in
Figure 3.34. Afghan women and girls are forced into prostitution and
domestic servitude in Pakistan, Iran, and India. Women and girls from the
Philippines, Kyrgyzstan, Pakistan, Sri Lanka, Iran, Tajikistan, and China
have reportedly been coerced into prostitution within Afghanistan. Labor
recruiting agencies have lured foreign workers from a number of countries
in the region, under the pretext of high-paying jobs. Traffickers also lure
Afghan villagers to Afghan cities or to India and Pakistan, where they are
sometimes forced into labor or prostitution.256
   The Afghan government has sometimes been an enabler or a culprit in
human trafficking. DoS noted that traffickers are known to bribe govern-
ment officials for their complicity. Members of the ANSF have sometimes
sexually abused boys. The living conditions in government-run orphan-
ages are very poor, and officials running the orphanages may have sexually
abused orphans or forced them into prostitution.257




REPORT TO THE UNITED STATES CONGRESS                         I   JULY 30, 2012                                     107
GOVERNANCE




Detention Center Operations
This quarter, the AIHRC reported that conditions had improved in NDS
detention centers. In the six provincial detention centers that the AIHRC
monitored this quarter, only the one in Kandahar did not improve.
According to the AIHRC, detainees were treated better and outside moni-
tors were given more access to them.258 In the original report, released in
March 2012, the AIHRC and the Open Society Foundation described wide-
spread instances of abuse and torture at NDS facilities.259

Refugees
As of May 2012, 1.7 million registered Afghans refugees were living in
Pakistan and almost a million were registered in Iran, according to DoS.
Although exact figures of undocumented Afghans in each country are dif-
ficult to establish, Pakistani officials assume there are 400,000 to 1 million
unregistered Afghans within its borders, and Iran estimates that a million
undocumented Afghans live within its borders.260
    Both countries have been generous hosts to Afghan refugees since 1979.
However, in recent months, the Pakistani and Iranian governments have
expressed increasing frustration with the number of refugees and floated
policy proposals aimed at deporting undocumented Afghans more read-
ily than in the past.261 Pakistan’s proof-of-registration cards for refugees
are set to expire on December 31, 2012; as of June 30, the government had
not announced its intentions about their renewal. Because of the effect of
sanctions and a weak economy, Iran has eliminated subsidies for refugee assis-
tance, although it continued to provide access to health care and education.262
    Representatives of Afghanistan, Iran, and Pakistan met in Geneva on
May 2 and 3, 2012, and presented a three-year strategy to the international
community that would offer a range of solutions for Afghan refugees and
returnees in the region, according to DoS.263 The meeting participants rec-
ognized the need to provide basic shelter, essential services, and economic
opportunity to refugees who have returned to Afghanistan, thereby creating
more viable long-term communities.264
    The Geneva conference concluded that returnees are more likely to
remain in Afghanistan if they can be integrated into viable communities.
These communities, in turn, will attract other refugees to return home.
Successful efforts should also help to reduce the pressure on Afghans to
leave the country in search of work opportunities. The United Nations High
Commissioner for Refugees (UNHCR) noted that assistance to host coun-
tries requires coordinated engagement of governments and humanitarian
organizations as well as sustained and tangible support from the interna-
tional community.265
    Returnees face a number of difficulties in reintegrating into Afghan soci-
ety and finding a consistent means of support after years, if not decades,
living abroad. A recent DoS-commissioned evaluation found that it takes




 108                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




about seven to nine years before a returnee attains a standard of living
comparable to that of Afghans who have not left. International refugee
assistance has been helpful, but it still falls short of demand, particularly
in assistance with food and livelihoods. DoS funds 10 NGO programs that
assist Afghan returnees with protection, basic services, and economic
opportunities. In addition, the United States provides funding to the
UNHCR and the International Committee of the Red Cross.266
   All levels of the Afghan government will need to improve their protec-
tion of and assistance to refugees and IDPs, according to DoS. The Afghan
government and the Ministry of Refugees and Repatriation (MoRR) have
had difficulty in managing refugee and IDP assistance and returnee reinte-
gration needs, although their capacity did improve from January to June
2012. This quarter, the MoRR signed three MOUs with line ministries to
support returning refugees and integrate refugee needs into the National
Priority Programs.267

Freedom of the Press
This quarter, the Ministry of Information and Culture proposed a draft
media law that would expand governmental control over the media by
modifying numerous elements of the 2009 media law. According to Human
Rights Watch, the proposed control would chill the exercise of free speech.
It would make the Minister of Information and Culture the leader of a High
Media Council with expanded powers to set policies and implement laws
that govern the media, and to influence the composition and budgets of
all media oversight bodies. The law would also reduce the authority of the
Mass Media Commission and the presence of journalists on its staff, mak-
ing it more difficult to conduct fair oversight.268 The proposed law would
restrict broadcasts of foreign programming. It would also establish a special
prosecutor and court to monitor the media and create civil penalties for vio-
lations of security, religion, and morality, according to UNAMA.269
    Nai, an Afghan independent media organization that USAID supports,
convened a national conference on June 27, 2012, with representatives of
media associations, journalist unions, and media outlets to discuss revisions
to the media law. On the basis of these consultations, Nai developed a set of
recommendations for the Ministry of Information and Culture to consider in
its revision of the law.270
    Violence against members of Afghanistan’s media continues to hinder
freedom of the press. This quarter, Afghanistan had the seventh-lowest
score on the annual survey conducted by the Committee to Protect
Journalists. The committee calculates unsolved murders of journalists as a
percentage of a country’s population.271




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               109
110
ECONOMIC AND SOCIAL DEVELOPMENT




  ECONOMIC AND SOCIAL DEVELOPMENT
  As of June 30, 2012, the U.S. government had provided over $22.3 billion         “We know Afghanistan’s
  to support governance and economic development in Afghanistan (see                 security cannot only
  Appendix B). Concerns remained about Afghanistan’s economic growth and
  sustainability in light of the planned drawdown of U.S. troops in 2014, and
                                                                                     be measured by the
  the expected accompanying reduction in international-donor assistance.           absence of war; it has to
     This quarter, efforts continued to help prepare Afghanistan to transi-       be measured by whether
  tion successfully to full control of its national security and to minimize        people have jobs and
  economic contraction in the coming Decade of Transformation. Several
                                                                                  economic opportunity ...”
  high-level meetings of regional and international stakeholders took place,
  including the Chicago NATO Summit in May and the Tokyo Donors’                                         —Secretary of State
  Conference in July.                                                                               Hillary Rodham Clinton


  KEY EVENTS                                                                    Source: DoS, Secretary of State Hillary Rodham Clinton
                                                                                Intervention at the Tokyo Conference on Afghanistan,
                                                                                7/8/2012.
  The Afghan government and its international partners met on July 8 in
  Tokyo, where donors pledged $16 billion through 2015 to help Afghanistan
  meet its immediate fiscal needs, which cannot be financed by current
  domestic revenue levels. The participants underscored that good gover-
  nance is essential for long-term, sustainable economic development.
     The International Monetary Fund (IMF) completed its first review of
  Afghanistan’s economic performance under the Extended Credit Facility
  (ECF) arrangement reached last November. It determined that in a difficult
  and challenging environment, Afghanistan has made some, albeit weak,
  progress toward achieving the IMF’s reform criteria.
     In a move to help instill consumer and investor confidence in
  Afghanistan’s financial sector, a Special Tribunal to prosecute those
  accused of economic crimes against Kabul Bank was set up through the
  Attorney General’s Office. Modest cash and asset recovery was reported.
  At the time this report went to press, criminal indictments and other
  charges have been brought to the tribunal, including against the two main
  architects of the theft.




       REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012       111
                                                                                                                           111
ECONOMIC AND SOCIAL DEVELOPMENT




ECONOMIC IMPACT OF DECLINING DONOR ASSISTANCE
SIGAR has consistently noted challenges to assessing the economic
impact of U.S. and coalition activity on the Afghan economy. The dif-
ficulties include data inadequacy and lack of a standardized process for
tracking donor funds to the external budget (outside the Afghan govern-
ment’s control). These challenges become more acute when trying to
determine the effect of the drawdown of the U.S. and coalition presence
and forecasting Afghanistan’s ability to become self-reliant. Afghanistan’s
economy is heavily dependent on foreign assistance. The World Bank has
warned that sharp, unexpected drops in foreign aid could be destabiliz-
ing, risking the government’s legitimacy and strengthening challenges to
its authority. It can also jeopardize the economy by fueling corruption
and other illegal activity.272


ECONOMIC ASSESSMENT
This quarter, a draft report from the Center for Strategic & International
Studies (CSIS) called into question the integrity of all official sources of
economic data because they do not adequately account for the economic
uncertainties related to security, peace, and transition throughout the
country. The report pointed out that both the GDP and population data is
mostly consistent across the sources, yet inaccurate. Most are based on
Afghanistan’s Central Statistics Organization (CSO) figures, the accuracy of
which generally suffer from government capacity and access issues, espe-
cially in remote regions of the country. The CSIS report also found flaws
in the statistical base points on Taliban control that are generally relied
upon for estimates and comparisons. GDP figures do not take into account
the economic contributions of illicit activities or informal household-level
income activities, which the report cites as significant. Although tangible
economic progress has been made in the past decade, the report noted that
it was based on war and aid spending, skewing a true reflection of sustain-
able economic growth.273
   While noting the difficulty of collecting reliable data, in May the World
Bank released the analytic and quantitative basis of its late-2011 presenta-
tion on Afghanistan transition. Despite gains in economic growth and basic
health and education, the Bank notes, Afghanistan remains one of the
world’s least developed countries.274 More than 33% of Afghans live below
the poverty line ($1.25 a day), more than 50% are vulnerable to or at serious
risk of falling into poverty, and 75% are illiterate.275
   Most of the economic gains have been bolstered by donor assistance,
reaching an estimated $15.7 billion in FY 2011—almost equal to
Afghanistan’s GDP. The vast majority—88% ($13.8 billion)—of that assis-
tance was executed through the external budget. The World Bank estimated
that only 10–25% of the external budget assistance affects the Afghan




 112                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  economy (much of it is actually spent outside Afghanistan), versus 70–95%
  of the on-budget assistance.276
     Despite sometimes large fluctuations in real GDP growth over the years
  caused by changes in agricultural yields, real GDP growth rose by an aver-
  age annual rate of approximately 9% since FY 2004. The services sector
  continues to contribute most to GDP, driven by consumption stemming
  from donor assistance. Within this sector, communications, transporta-
  tion, construction, and government services have seen strong growth.
  Agriculture is the second leading contributor to GDP, providing jobs for
  most of Afghanistan’s rural population. The contributions of private invest-
  ment and mining have been marginal.277
     The World Bank predicts that the transition will have a large impact on
  the Afghan economy. Economic growth will likely slow, weakening labor
  markets and resulting in higher unemployment and increased poverty. The
  Bank noted that revenues have grown 20% over the last four years, reaching
  11% of GDP in FY 2011, as compared with 3% in FY 2003. It acknowledged
  that revenue growth of more than 0.5% of GDP a year over an extended
  period of time is impressive.278
     Offsetting this revenue, however, are Afghanistan’s spending obligations,
  which the Bank projects will reach 43% of GDP in 10 years. Most of the
  increase will be due to spending on security—for operations and mainte-
  nance (O&M) and for wages for the army and police. The government will
  also have to cover the O&M costs of donor-built infrastructure as well as
  rising government wages. The resulting fiscal gap, between expenditures
  and revenues, is unsustainable because the government cannot finance it.
  The Bank concluded, as have other observers, that Afghanistan will require
  considerable amounts of aid for the foreseeable future.279

  U.S. Economic Support Strategy
  One of the long-term U.S. development strategies for Afghanistan is the
  “New Silk Road.” This vision seeks greater regional economic integration
  with the country’s neighbors, including the free movement of goods, ser-
  vices, capital, and people. According to the Department of State (DoS),
  the New Silk Road initiative is an organizing principle for use in broader
  decisions about U.S. assistance made by the U.S. Embassy Kabul and the
  inter-agency Afghanistan Infrastructure Program. SIGAR’s audit of the
  Afghanistan Infrastructure Program found there is no master plan for the
  energy sector (see Section 2).280


  ECONOMIC INDICATORS
  As a land-locked economy, Afghanistan is highly dependent on coopera-
  tion from regional countries for its trade, transit, security and stability.
  Afghanistan’s economy has improved significantly since 2002. Its growth,




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                113
ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.35

REGIONAL
REGIONAL COMPARISON
         COMPARISONOF
                    OFECONOMIC
                      ECONOMICINDICATORS
                               INDICATORS(2011
                                          (2011EST.)
                                                EST.)

GDP Per Capita PPP ($ Thousands)                                          GDP Real Growth Rate (%)

                                                           Afghanistan


                                                            Tajikistan

                                                             Pakistan


                                                            Uzbekistan


                                                              India

                                                           Turkmenistan


                                                              China


                                                               Iran

 $15       $12         $9        $6         $3        $0                  0         2          4         6          8        10

Note:
 Notes:Numbers
        Numbers affected
                  affectedbyby
                             rounding. 2011
                                rounding.    data
                                          2011    is in
                                               data   is 2011 U.S.
                                                         in 2011    dollars.
                                                                 U.S.        PPP = purchasing power parity, a measure for per
                                                                       dollars.
capita comparisons. GDP at PPP exchange rates is the value of goods and services produced in a country, at prices prevailing
 Source: CIA, World  Factbook,   accessed  7/5/2012.
in the United States. It requires assigning U.S. dollar values to all goods and services even if they have no equivalent in the
United States (for example, an oxcart).

Source: CIA, World Factbook, accessed 7/5/2012.


as a percentage of GDP, is on par with or exceeds that in many neighboring
countries, but still lags behind in per capita GDP, as shown in Figure 3.35.

Revenue Collection
The Afghan government continued to improve its ability to collect revenue,
according to Afghanistan Customs Department statistics provided by the
U.S. Agency for International Development (USAID).281 This quarter, the
U.S. Department of Treasury’s (Treasury) Office of Technical Assistance
(OTA) participated in efforts to improve Afghanistan’s generation and col-
lection of non-tax revenue, abilities that will be critical as foreign-donor
contributions decline. OTA assisted the Ministry of Transport and Civil
Aviation (MoTCA) in several areas:282
 •	 OTA helped review an application bid for a new revenue-management
    system for the MoTCA. The system would allow a third party to obtain
    data, bill, collect fees, and deposit revenue directly to the central bank.
    This automated, web-based revenue-management system will improve
    transparency by permitting its users to access their accounts online, by




   114                             SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     reducing opportunities for corruption in fee assessment and revenue
     collection, and by making auditing easier.
  •	 OTA helped review 17 solicitation statements of interest from the
     private sector to perform ground handling operations (plane servicing,
     ground-power provision, cleaning, baggage handling) at Afghanistan’s
     four international airports. The winning bidder will also take over
     building maintenance and ticketing services. The winner will make an
     initial investment in equipment, staff, and management, and be required
     to participate in a revenue-sharing program with the government.
  •	 OTA helped implement an aviation security fee to start in August 2012—
     $25 per flight for international travel, and $10 per flight for domestic, as
     noted in SIGAR’s April 2012 quarterly report. This fee will be collected
     by the International Air Transport Association, not the airlines, and paid
     directly to the Ministry of Finance (MoF) and the MoTCA. OTA noted
     that this will prevent those airlines that have not been handing over
     collected security fees from receiving any security-fee revenue.

  Customs Revenue Tracking
  Afghanistan uses the Automated System for Customs Data (ASYCUDA) at               The ASYCUDA software is used in more than
  certain customs points. The version that it uses tracks duty and tax revenue      80 countries as the basis of a compre-
  collected at the point of import or export declaration. The taxes collected       hensive, integrated customs information
  through ASYCUDA, which are paid to Da Afghanistan Bank (DAB, the cen-             system. Computerization strengthens
  tral bank), include the following:283                                             customs administration by accelerating cus-
                                                                                    toms clearance and simplifying procedures,
  •	 customs duties
                                                                                    helping countries facilitate trade.
  •	 business-receipts taxes (2% value of goods for business license holders;
      3% for others)                                                                Source: UNCTAD, “What Is ASYCUDA,” accessed 7/9/2012.

  •	 fixed taxes (2% value of goods)
  •	 Afghanistan Red Crescent Society (2% value of customs duties)
  As of June 28, 2012, ASYCUDA is used at five border crossing points, to permit
  movement of goods to another customs location, and eight inland clearing
  depots, to enter goods for customs clearance, as shown in Figure 3.36 on the
  following page.

  Land Reform
  This quarter, USAID continued to promote land reform, underscoring the
  economic importance of legally recognized and enforceable property rights
  as a fundamental prerequisite for private-sector investment and job cre-
  ation. To help move toward such rights, USAID launched the Land Reform
  in Afghanistan (LARA) project in March 2011. At that time, USAID signed an
  implementation letter with the Jalalabad municipality to design title-deed
  and property-registration systems.284
     As of June 28, 2012, LARA staff members were helping build capacity
  at the Jalalabad municipality and the Supreme Court, where USAID had
  approved procuring an IT system for property registration. LARA staff were




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                115
ECONOMIC AND SOCIAL DEVELOPMENT




CUSTOMS COLLECTION POINTS THAT USE ASYCUDA
FIGURE 3.36

CUSTOMS COLLECTION POINTS THAT USE ASYCUDA


                                                         Hairatan
                                                                     Kunduz




                    Torghundi                                                   Kabul
    Islam Qala
                   Herat                                                                         Torkham Gate
                                                                                               Jalalabad
                                                                               Kabul
                                                                               International
                                                                               Airport




                                           Kandahar
                 Zaranj                          Weish
                                                                           Border crossing point
                                                                           Inland clearing depot




Source: USAID,
Source: USAID, response
                response to
                          toSIGAR
                            SIGARdata
                                  datacall,
                                       call,6/28/2012.
                                             6/28/2012. |E076-D02|


also building capacity at the Afghanistan Land Authority (part of the Ministry
of Agriculture, Irrigation and Livestock), where they will install a new IT sys-
tem to streamline the land-leasing process. Revenue from leased government
land was not available and LARA staff members were not tracking economic
growth or private investment metrics resulting from the program.285
   To improve public awareness, especially among women, of citizens’ abil-
ity to exercise property rights, the LARA staff organized two conferences on
women’s inheritance and land rights in Afghanistan. The first one was held
on May 8 in Kabul to explain Afghan constitutional and civil-code protection
of those rights.286 On July 5, a second conference on women’s inheritance
and land rights was held in Jalalabad.287 Additionally, the Women’s Land
Rights Task Force, created in 2011 with USAID support, regularly meets
with non-governmental organizations and government entities to inform
them of women’s land rights. The LARA program has held about 10 training
events for its Afghan government partners.288 According to USAID, a public
awareness campaign is expected to begin in August 2012.289
   To date, LARA completed four regional consultation workshops on pro-
posed amendments to the Land Management Law, and USAID anticipates
two additional workshops to be completed next quarter. LARA also pro-
vided management and IT training to regional government employees and
related private sector entities. Finally, LARA worked with local communi-
ties to identify infrastructure and essential services priorities for informal
settlements in their areas.290




  116                           SPECIAL INSPECTOR GENERAL              I      AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  BANKING AND FINANCE
  This quarter, Afghanistan continued to reform its banking and finance
  sectors in line with the requirements set out under its donor assistance
  agreement with the IMF. Improving accountability, transparency, and effi-
  ciency in banking and finance was seen as crucial to instilling international
  donor confidence ahead of the Tokyo summit. U.S. assistance towards this
  effort focused on training and capacity building for banking and micro-
  finance institutions.

  IMF Extended Credit Facility Agreement
  On June 29, 2012, the IMF announced it had completed its first review
  of Afghanistan’s implementation of the Extended Credit Facility (ECF)
  approved on November 14, 2011. The three-year, $129 million loan to
  Afghanistan is part of the IMF’s conditions-based financial assistance to coun-
  tries that have protracted balance-of-payments problems. The IMF released its
  first disbursement of $18.2 million in November 2011, with further disburse-
  ments requiring Afghan progress toward structural changes in its banking and
  finance sectors. In its review, the IMF declared that Afghanistan has begun
  moving toward macroeconomic stability and economic self-reliance, and suf-
  ficiently made progress toward several structural benchmarks:291
   •	 a draft law to implement a value-added tax in 2014
   •	 a strategy to combat economic crimes
   •	 an improved capitalization framework for the central bank
   •	 greater cash and asset recovery from the 2010 Kabul Bank scandal
   •	 progress toward holding accountable those accused of economic
      crimes in the scandal

     IMF staff nonetheless characterized the implementation of changes as
  weak and attributed the slow pace of reform to limited technical capacity,
  the heavy workload of preparing for the Tokyo Conference, lack of owner-
  ship by the government, and opposition from vested interests. Treasury,
  which concurred with this assessment, added that these obstacles will
  remain a challenge to meeting future IMF benchmarks, such as developing
  and implementing a new or amended banking law, devising and enforcing a
  strategy for banks that fail to meet minimum capital requirements, restruc-
  turing the Financial Supervision Department, and enacting measures to
  deter and punish economic crime.292
     On June 29, the IMF Board accepted the staff recommendation to release
  the second disbursement of $18.2 million and grant a waiver of nonobser-
  vance of a performance criterion and modification of other performance
  criteria. However, the IMF warned that continued Afghan government com-
  mitment to the ECF is essential, as are the needs for the government to
  improve its budget implementation capacity, address critical governance
  issues, and improve accountability.293




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                117
ECONOMIC AND SOCIAL DEVELOPMENT




Recapitalization of DAB
The 2010 near-collapse of the bank brought to light the loss of nearly $1 bil-
lion in stolen funds. The Attorney General’s Office (AGO) noted that since
President Karzai’s April announcement of the June loan repayment dead-
line, $108 million in assets had been recovered, including $26 million in
cash. This included the sale of Pamir Airline, Bakhtar TV, the Gas Group,
147 apartments in the Istiqlal Township in Kabul, 19 apartments in Dubai,
and 150 container rooms. An unspecified amount of land was also trans-
ferred to government ownership. The AGO did not provide data on the sales
prices of these assets—important details because the IMF does not count
recoveries of non-cash assets until they are liquidated.294
   The Afghan government reported somewhat different numbers than
the IMF. As of June 4, 2012, the government claimed $128 million in total
cash recoveries (of the $935 million stolen). Of the $128 million, $54 mil-
lion was recovered since the ECF Agreement was signed in November
2011, and an additional $30 million was recovered since President Karzai’s
announcement of the loan repayment deadline. However, no one identified
in the forensic audit of the Kabul Bank conducted by the U.S. firm Kroll
Associates has repaid his debts in full.295

Update: Special Tribunal
According to DoS, a Special Tribunal was set up by the Supreme Court
on April 18, 2012, to investigate and prosecute economic crimes at the
bank. Although President Karzai’s official website declared that a Special
Prosecutor’s Office was to be established, the president’s April 4 decree that
set up the Special Tribunal did not call for the establishment of a Special
Prosecutor’s Office.296 At a June 2 meeting, President Karzai and government
officials decided to officially refer the Kabul Bank loan-recovery case to the
Special Tribunal.297
   This quarter, the AGO issued criminal indictments and charges in the
Special Tribunal. According to Treasury, those charged included Kabul
Bank’s former Chairman Sherkhan Farnood and former CEO Khalilullah
Ferozi, as well as several former employees, in addition to current or
former DAB officials.298 The MoF announced that the AGO based the indict-
ments, in part, on the forensic-audit report conducted by Kroll Associates
to determine the amounts and responsibility associated with the bank’s col-
lapse, as well as other documents turned over to the tribunal. According to
the information provided to Treasury, however, the indictments were not
fully in line with the findings of the forensic audit.299
   On June 9, the relevant government stakeholders met at the MoF to dis-
cuss the legal issues surrounding asset recovery. They determined that the
Kabul Bank receivers would refer the civil cases to the Financial Disputes
Resolution Commission (FDRC) and that if criminal components were




 118                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  found, the cases would be transferred to the tribunal through the AGO.
  Disagreements with FDRC rulings can be appealed to the tribunal.300
     According to Treasury, the Afghan government confirmed that one group
  loan case had been referred to the AGO as a criminal case after the FDRC
  was unable to resolve it as a civil case. Treasury believes that two additional
  civil cases were referred to the FDRC this quarter, and that the Kabul Bank
  receiver is preparing to forward additional civil cases to the FDRC next
  quarter.301 As of June 7, 2012, DoS’s tally showed that 21 cases had been
  referred for prosecution.302 No new prosecutions or updates on existing
  prosecutions were identified this quarter.
     On May 23, the Wolesi Jirga, the lower house of the National Assembly,
  held a plenary session with officials from the MoF, DAB, and Kabul Bank’s
  audit committee to discuss the status of loan recovery. In addition to being
  briefed on the loan amounts still owed, assembly members insisted on
  learning the identities of those accused of economic crimes.303 Afghan news
  organizations published a partial list of 22 names, with amounts owed rang-
  ing from $1 million to $279 million—collectively totaling $779.4 million.
  This list, consisting of individuals, companies, and account holder groups,
  includes Kabul Bank’s founder and chairman and its CEO, as well as
  President Karzai’s brother and the brother of the First Vice President.304

  Update: Sale of NKB to Private Investors
  The New Kabul Bank (NKB) is a temporary “bridge bank” containing the
  good assets, loans, and deposits from Kabul Bank. It cannot extend new
  loans. Last quarter, SIGAR reported the MoF’s intention to sell NKB to
  private investors by June 30, 2012, or if a buyer is not found, to liquidate it
  by March 2013. According to the IMF, these deadlines have been pushed
  out. An advisor began developing a privatization plan this quarter, which
  is expected to be completed in August. If that schedule is maintained, the
  IMF said that NKB could be offered for sale by September 30, and if it is not
  sold, liquidated by the end of 2013.305

  Prudential and Other Audits
  The Kabul Bank scandal led to donor-funded forensic audits of Kabul Bank
  and Azizi Bank and World Bank–funded prudential audits of 10 unnamed
  commercial banks. The United States was not involved in these audits, and
  DAB has not given Treasury the reports; however, Treasury has received
  information on the general findings through the IMF, the World Bank, and
  U.S. allies.306 According to DoS, donors were briefed on the findings of five
  of the World Bank–funded audits on June 12, and the remaining five on
  July 1.307 Treasury stated that it does not expect that the results will be made
  public, although it does expect that a discussion of the general findings will
  be posted on the IMF website as part of its Afghanistan program review.308




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                 119
ECONOMIC AND SOCIAL DEVELOPMENT




U.S. Assistance Programs
This quarter, USAID provided a $1.2 million grant to the Afghanistan
Institute of Banking and Finance (AIBF) for operating expenses in 2012
and 2013, through the Financial Access for Investing in the Development of
Afghanistan program. The AIBF, a public-private partnership with DAB, the
Afghanistan Bankers Association, and the Microfinance Investment Support
Facility for Afghanistan, provides long- and short-term training, and capac-
ity-building programs to banking and micro-finance institutions, with plans
to reach out to the finance sector at the provincial level.309 With this grant,
the AIBF aims to accomplish several tasks:310
 •	 encourage financial institutions to base career placement and
    advancement decisions on merit
 •	 provide professional mentoring to government employees
 •	 develop specialist-specific certificate training programs in commercial
    banking, Islamic finance, and microfinance
 •	 develop academic degree and professional diploma programs in
    conjunction with international universities and academic centers of
    excellence
 •	 provide professional development through workshops and seminars
 •	 promote professional symposiums, conferences, and gatherings
 •	 improve the capacity of AIBF faculty and administration
 •	 establish a library and research facility with online accessibility at the AIBF

   This quarter, OTA helped finalize a banking request for proposal for
the ministries of Interior and Defense that sought financing from NATO to
reduce the transaction costs of paying ministry salaries. OTA stated that
this effort helped obtain NATO buy-in for other key OTA mentoring initia-
tives such as banking agreements and mobile money programs.311
   OTA also is helping Afghanistan to achieve certain ECF benchmarks
and instilling international donor confidence by helping it deter economic
crimes. This quarter, OTA helped build the capacity of investigators at the
Major Crimes Task Force (MCTF) to conduct financial crimes investiga-
tions, and to develop financial analysts from within the MCTF Intelligence
Unit. OTA provides weekly training and mentoring focused on money laun-
dering, bribery, fraud, and counterfeiting of U.S. currency.312
   According to DoS, the Afghan government has requested U.S. techni-
cal assistance for DAB to help stabilize the finance sector. That request is
under review.313

USAID Development Priorities
According to USAID, its FY 2012 and FY 2013 budgets reflect current U.S.
strategy­—that is, a strong emphasis on economic growth and broad support
for initiatives in democracy, governance, health, and education. The agen-
cy’s FY 2013 budget request includes an additional $28 million over FY 2012




  120                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  levels for elections preparation, in anticipation of the presidential elections
  scheduled for 2014.314

  Mobile Money
  In May 2011, USAID helped four major telecommunications companies
  that offer mobile money services form the Association of Mobile Money
  Operators of Afghanistan (AMMOA). Initial members consist of Afghan
  Wireless Communications (AWCC), Etisalat, MTN, and Roshan.315 In April,
  the AMMOA and USAID launched a nationwide university-student contest
  seeking innovative money applications and on July 9 announced eight win-
  ners (of more than 5,000 entrants). The students received a cash prize, and
  their universities will receive five desktop computers with Internet access
  for their libraries. AMMOA members will offer two new mobile money
  applications based on the winning concepts.316

  Infrastructure Turnover
  Almost all USAID-funded projects in Afghanistan, including capital proj-
  ects, are governed by bilateral Strategic Objective Grant Agreements
  (SOAGs) between the United States, represented by USAID, and the
  Afghan government. To help ensure that projects fulfill their intended
  purposes, SOAGs contain provisions that define the agreements’ pur-
  pose, objective, and expected results, as well as a description of activities
  to be undertaken and the parties’ roles and responsibilities. They also
  include clauses related to sustainability, results orientation, collaboration,




  A USACE officer makes a symbolic hand-off of keys as the Corps of Engineers transfers
  responsibility for property operations and maintenance to Afghan counterparts. (USACE
  photo by Joe Marek)




  REPORT TO THE UNITED STATES CONGRESS     I   JULY 30, 2012                    121
ECONOMIC AND SOCIAL DEVELOPMENT




transparency, and accountability. Finally, they include provisions that
address documentation (reports and information, agreement books, and
records), oversight (audits and inspections), and completeness.317
   According to USAID, at the end of a capital project, project implemen-
tation letters signed by U.S. and Afghan officials are standard to officially
inform the Afghan government of the project’s completion, summarize
results, and formally transfer responsibility for and ownership of the
project. Implementation letters make clear that the Afghan government
assumes custody and full responsibility for the facility and equipment, as
well as security, proper O&M services, and when possible, O&M costs.318
   If the Afghan government does not use a USAID-funded capital project
for its intended purpose, USAID uses the SOAG to determine the appropri-
ate legal recourse. USAID may choose, at its discretion, to address and
resolve the issue through political or other means.319


AGRICULTURE
Agriculture plays a dominant role in the Afghan economy. Only 12% of the
land is arable and less than 6% is cultivated, yet 80% of Afghans directly and
indirectly earn a living from agriculture.320

Drought and the Harvest
The Famine Early Warning Systems Network (FEWS Net) forecasted the
2012 national cereal harvest to be above average and regional imports of
wheat and wheat flour—which constitute more than 70% of the Afghan
diet—to decline by up to half.321 However, some areas—in the northeast, at
higher elevation levels in the central highlands, and in spring-flood regions—
will not benefit from the above-average harvest and will face food insecurity.
FEWS Net noted that this year most rivers and reservoirs have above-average
water levels for irrigation, making possible a second crop on irrigated land,
particularly for rice and cotton. Although the dry season, which began in
June, is expected to last until August, FEWS Net warned that eastern por-
tions of Afghanistan (primarily Kunar, Nangarhar, Paktiya, and Laghman
provinces) may flood this summer due to the annual Indian monsoon.322

Food Prices
Food prices continued to decline but remained above the average levels
seen before the last severe drought of 2008. The World Food Program
(WFP) reported that wheat prices decreased in May, continuing the trend
since January 2012. In the main cities, prices in May were 4.1% lower than in
April and 6.9% lower than a year earlier. Wheat flour prices also decreased
in May, dropping 2.5% from April.323
   Those prices remain well above levels from January through October 2007,
before the 2008 drought and consequent import restrictions sent food prices




 122                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  soaring.324 Wheat prices were 20.6% and wheat flour prices 33% higher than
  the pre-crisis levels.325


  ESSENTIAL SERVICES
  Improving the Afghan government’s ability to deliver public services will
  help contribute to long-term stability and sustainable economic growth.
  This quarter, the United States continued to prioritize its assistance pro-
  grams in essential areas to best mitigate the economic impact of transition.
  This section addresses key developments in U.S. efforts to improve govern-
  ment capacity and services.

  Energy
  The energy sector is considered a priority for the country’s core infrastruc-
  ture by the Afghan government and international donors. This quarter, DoS,
  USAID, the Department of Defense (DoD), and other partners continued
  to support numerous projects for additional power generation, increased
  power-transmission capacity, and upgraded electric distribution grids.326

  Energy Sector Development
  This quarter, the compressed natural gas (CNG) station in Sheberghan was
  handed over to the Ministry of Mines (MoM). It began commercial opera-
  tions in May. Construction of the station had been funded by DoD’s Task
  Force for Business and Stability Operations (TFBSO). Because CNG is 50%
  cheaper than gasoline, as well as cleaner, the TFBSO said that the CNG sta-
  tion should reduce fuel imports and provide greater energy security.327
      In addition, USAID signed an implementation letter to provide $90 million
  in on-budget assistance to the MoM to strengthen the gas sector and enhance
  energy security by producing enough energy from the Sheberghan gas fields
  to fuel a 200 MW power plant, with the goal of reducing Afghanistan’s reli-
  ance on imported energy. As of June 28, USAID had committed $30 million
  of that $90 million.328
      USAID has three ongoing energy contracts:329
   •	 Sheberghan Gas Development Program: The goal is to strengthen
      government capacity to manage the gas industry by providing off-
      budget technical assistance. Total estimated cost: $35 million.
   •	 Tarakhil Power Plant Operation and Maintenance: The goal is to build
      the capacity of Da Afghanistan Breshna Sherkat (DABS)—the national
      electric utility—to operate and maintain the Tarakhil power plant. Total
      estimated cost: $30.5 million.
   •	 Kandahar-Helmand Power Project: The goal is to improve the supply of
      electricity in Kandahar and Helmand provinces. Total estimated cost:
      $266 million.




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               123
                                           ECONOMIC AND SOCIAL DEVELOPMENT




                                           Afghan electrical power receive on-the-job training from U.S. Army Corps of Engineers
                                           soldiers on safely setting power poles and replacing power lines. SIGAR’s audit of the
                                           Afghanistan Infrastructure Program looked at U.S. efforts to help modernize infrastructure,
                                           including power generation, transmission, and distribution. (USACE photo, Karla Marshall)


                                              Regular communication and coordination is necessary to make the most
                                           effective, efficient use of U.S. and other donor support for Afghanistan’s
SIGAR AUDIT                                energy infrastructure. According to USAID, U.S.-funded energy projects
                                           are discussed jointly with U.S. military and civilian leadership. U.S. imple-
In its audit of the Afghanistan Infra-
                                           menting agencies such as U.S. Forces - Afghanistan, the U.S. Army Corps of
structure Program, SIGAR evaluated
                                           Engineers, DoS, and USAID coordinate regularly through the Infrastructure
project selection, outcomes, and
                                           Working Group and Afghanistan Infrastructure Program meetings.330
fulfillment of legislative requirements.
                                              This quarter, USAID participated in two regional conferences sponsored
For more information, see Section 2,
                                           by the Asian Development Bank (ADB)—in Istanbul and in Manila—to
page 25.
                                           discuss the development of a regional energy master plan. USAID gathers
                                           regularly with international partners such as the World Bank and ADB at
                                           the Inter-ministerial Commission on Energy meetings, as well as other bilat-
                                           eral and multilateral meetings and conferences.331

                                           Public Utilities
                                           The Power Transmission Expansion and Connectivity (PTEC) program
                                           is a U.S.-funded program designed in collaboration with the MoF, the
                                           Ministry of Energy and Water, and DABS to modernize Afghanistan’s
                                           power generation, transmission, and distribution systems. As part of the
                                           PTEC, USAID has been working to help commercialize DABS and improve
                                           its revenue collection.
                                               According to USAID, the 27-month Kabul Electricity Services Improvement
                                           Project (KESIP), improved revenue collection by DABS-Kabul by 59% (from




                                             124                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  $53.8 million to $85.5 million), and decreased technical and commercial losses   Under the Afghanistan Infrastructure and
  by 12% (from 50% to 38%). USAID said the KESIP created a sustainable model       Rehabilitation Program, quick-response task
  that could be expanded to DABS distribution centers in other provinces.332       orders are used to address infrastructure
     As of May 2012, of USAID’s $140 million commercialization budget under        project needs that are of short duration and
  the PTEC, $53.0 million had been committed and obligated, and $49.1 mil-         limited scope, and that require immediate
                                                                                   action. The program is intended to cover
  lion disbursed for DABS-Kabul under the KESIP. Since 2010, USAID has
                                                                                   small-scale, unforeseen, recurring technical
  been working with DABS-Kandahar to improve revenue collection, reduce
                                                                                   support activities that need to be conduct-
  operating losses, and improve capacity and sustainability. As of May 2012,       ed quickly in order to keep larger efforts
  USAID had committed $7 million, obligated $6.9 million, and disbursed            moving forward.
  $5.8 million under its Afghanistan Infrastructure Rehabilitation Program.333
                                                                                   Source: USAID, “Afghanistan Infrastructure and Rehabilitation
                                                                                   Program (IRP) – Quick Response General Services,” accessed
  Natural Resource Tenders                                                         7/11/2012.

  As noted in SIGAR’s last quarterly report, the MoM opened a tender in early
  March for the exploration, development, and production of hydrocarbons
  in six blocks (defined areas of exploration) in the western portion of the
  Afghan-Tajik Basin. The TFBSO assisted the MoM in this effort. The six
  blocks contain an estimated 700–900 million barrels in reserves, according
  to the TFBSO. Expressions of interest were due at the close of this quarter,
  on June 30, 2012.334 On July 4, the MoM announced the names of 8 qualified
  bidders from the 20 companies that had submitted expressions of interest:
  U.S.-based ExxonMobil, Dubai-based Dragon Oil, Kuwait Energy, India’s
  ONGC Videsh, Brazil’s Petra Energia, Pakistan Petroleum, Thailand’s PTT,
  and Turkey’s TPAO.335
     According to the MoM, 60 geological structures that may contain oil or
  gas were identified through gravity and magnetic surveys. Of those, 25 were
  mapped using two-dimensional seismic data collection this quarter. That data
  will be made available to the bidders as part of the tender process.336 Bids
  are due in October 2012. After they are received and analyzed by the MoM
  in December, the TFBSO will know the monetary value of the tender. The
  TFBSO expects that third-party estimates to be made in August will show
  the estimated quantities of hydrocarbons, but not their monetary value.337
     This quarter, the TFBSO continued to advise the MoM on tendering
  hydrocarbons in the Tirpul Basin, in western Afghanistan. The official ten-
  der announcement is expected in August 2012, although the timeline is not
  yet confirmed.338

  TAPI Pricing Agreement
  On May 23, India, Pakistan, and Turkmenistan signed gas pricing agreements,
  and Afghanistan and Turkmenistan signed a memorandum of understanding
  on long-term gas cooperation, as part of the Turkmenistan-Afghanistan-
  Pakistan-India (TAPI) pipeline.339 Negotiations over TAPI have long been
  hampered by delays, spanning more than 20 years. The project is designed to
  deliver gas from Turkmenistan through Afghanistan to Pakistan and India. If
  fully realized, it could bring transit revenue to Afghanistan, improve energy




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               125
                                                             ECONOMIC AND SOCIAL DEVELOPMENT




                                                             security, and become an example of the New Silk Road model of regional
                                                             integration the United States has been advocating.340 A commercial frame-
                                                             work and technical assistance to operate the pipeline is still needed, as is
                                                             international financing at an estimated cost of about $7.6 billion.341

FIGURE 3.37                                                  Education
               ALLOCATED FOR
USAID FUNDING ALLOCATED  FOR EDUCATION
                             EDUCATION                       Fewer than a million Afghan children were in school under Taliban rule.
(($
   $ MILLIONS)                                               Since 2002, however, more than 8 million youths and more than 63,000 uni-
                                                             versity students have attended school, and 614 schools have been built.342
$150                                                         As of May 2012, USAID is managing six contracts in the education sector
                    136                                      valued at a total of $195.3 million.343 From FY 2009 through FY 2012, USAID
                                                             had allocated $416 million for education programs through the Economic
$120                                                         Support Fund, as shown in Figure 3.37. The agency requested $95 million
                                                             in its FY 2013 budget justification to Congress.344 USAID hopes that invest-
                               100
                                          96        95       ments in education will make Afghanistan more attractive for private-sector
 $90      84                                                 development.345

                                                             Aligning Education Goals with Industry Needs
 $60                                                         Despite the investment and gains made so far, USAID stated that neither the
                                                             quality of higher education curricula nor the quality of graduates meets the
                                                             needs of sectors that are vital to the growth of the country. Graduates have
 $30                                                         a difficult time gaining employment, and private-sector companies prefer to
                                                             import skilled labor from Turkey, India, and other countries.346
                                                                According to USAID, the quality of public higher education is generally
  $0                                                         poor—school curricula are old, the professors’ knowledge base is generally
         2009        10         11         12        13a
                                                             limited and dated (only about 35% of professors have graduate degrees),
a. FY
a. FY 2013
      2013 Congressional
           CongressionalBudget
                         BudgetJustification.
                                Justification.
                                                             and laboratory facilities are inadequate. Moreover, the numbers of students
Sources: USAID, response to SIGAR data call, 6/28/2012;      seeking entry into higher-education programs far outpace what the system
Sources:“Partnership,
USAID,   USAID, response  to SIGAR
                      Progress,    data call, 6/28/2012;
                                Perseverance,”  3/29/2012,
USAID, “Partnership,
accessed  7/5/2012.Progress,  Perseverance,”
                       |E049-D01| |E052-S03|3/29/2012,       can handle.347
accessed 7/5/2012.
                                                                Afghanistan’s public-sector technical schools and vocational educa-
                                                             tion and training providers tend to be supply-driven, USAID said. They do
                                                             not have career-specific goals or targets for numbers of students to meet
                                                             a business or industry requirement. They also have only a limited number
                                                             of career-specific study tracks, and in many they teach students outdated
                                                             skills. In contrast, private-sector technical schools tend to be more busi-
                                                             ness-oriented and offer courses that are more demand-driven. Realizing
                                                             this discrepancy, the government’s National Priority Program 1 identified
                                                             the need for public-sector technical and vocational education providers to
                                                             become labor-market oriented.348
                                                                Information on labor-market needs, however, is not readily available.
                                                             USAID noted that for several years, the International Labor Organization
                                                             has sought donor support to conduct a national labor market survey. Last
                                                             year, the U.K. Department for International Development agreed to help
                                                             fund a three-year, $5 million study in collaboration with Afghanistan’s




                                                              126                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  CSO. However, the study was postponed indefinitely because the CSO was
  over-extended.349
     To help focus its two-year Afghanistan Workforce Development Program
  (AWDP), which began in April 2012, USAID conducted surveys of the
  labor market and of small and medium enterprises in the six cities pro-
  posed for the AWDP. Similar surveys will be conducted throughout the life
  of the program—four over a two-year period, at six-month intervals—to
  monitor and evaluate progress.350 The AWDP offers access to labor-market-
  driven vocational education and training, business-development support,
  business-management training programs, financial credit, and job-
  placement services.351 As of this quarter, 10 master’s degree programs oper-
  ate in Afghanistan. Two were developed with USAID support: teaching
  English as a second language, and public policy and administration. The
  others are in Dari, Pashtu, sciences, religious studies (Sharia law), educa-
  tion, construction engineering, hydrology, and business administration.
  There were no PhD programs as of this quarter.352

  Update: USAID Higher Education Project
  This quarter, the Masters of Education Program (a component of USAID’s
  Higher Education Project) graduated its third cohort of 22 students, bring-
  ing the total number of graduates to 65. Two additional cohorts of 22
  students are in session. All graduates of the first three cohorts are educa-
  tion faculty members in the country who have returned to their institutions.
  USAID said at least 17 of the graduates have been promoted into positions
  of authority in their universities.353

  Health
  Afghanistan is working closely with the international community to
  improve key social and economic indicators. According to a report from
  the Afghan Central Statistics Organization (CSO) and UNICEF released
  this quarter, among women aged 20–24, 25% have given birth by age 18.
  Almost 80% of Afghan women do not use any form of birth control, and
  the report points to the strong correlation between early childbearing and
  mothers’ education levels. Nutritionally, the results show about one third
  of Afghan children under five are moderately and severely underweight,
  about one half are moderately stunted, and about one fifth are moderately
  or severely wasted.354
     Despite poor statistical reporting and tracking, HIV rates in Afghanistan
  are believed to be currently low, but the country is high risk for an out-
  break. Intravenous drug use is spreading across the country; there is low
  HIV awareness amongst women generally and sex workers in particular,
  as well as a high rate of migration in and out of the country. The CSO/
  UNICEF report found that only 26% of women aged 15-49 had heard of
  AIDS, but only 2% have an accurate understanding of HIV prevention and




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012              127
ECONOMIC AND SOCIAL DEVELOPMENT




transmission. Authorities believe improving women’s HIV awareness and
understanding is key to curbing the threat.355 The CSO and UNICEF did not
survey men, nor did it report on men’s awareness and understanding of HIV
or their role in prevention and transmission.

Immunization Rates
The CSO report reiterated the Afghan government’s concern about inade-
quate vaccination coverage. Only 25% of children receive vaccination before
age 1, only 18% aged 12–23 months are fully vaccinated, and just 31% of all
children had vaccination cards. For vaccines with multiple dosages, the
highest coverage is at the first dosage and declines thereafter. From 2010 to
2011, 66% of children received the first dose of the polio vaccine by age 1,
and this declines to 42% by the third dose.356

Polio Eradication
In the first six months of 2012, 10 cases of polio were reported, according
to statistics from the World Health Organization.357 The Minister of Public
Health said Afghanistan was among three countries where polio is still
prevalent because polio eradication campaigns are not taking place in inse-
cure provinces and because of an absence of healthy environments in some
areas. The minister urged parents to vaccinate their children under 5 and
asked media outlets to create public awareness campaigns.358 The ministry
is working to create permanent polio vaccination teams in southern prov-
inces; a measles and polio campaign was scheduled for 15 provinces on
July 7, and in parts of Kandahar and Helmand from July 14 to 19.359

Trade
This quarter, USAID teamed up with the Afghanistan Customs Department
and the Afghan Border Police to improve trade and prevent illegal activ-
ity at Hairatan, on the border with Uzbekistan. Through this partnership,
known as the Border Management Model, USAID is training these Afghan
agencies in international best practices, and establishing clear roles and
responsibilities for stemming corruption, smuggling, infiltration, and
drug trafficking. Under this ongoing pilot program, customs operations
have been expanded to 24 hours a day, allowing for more licit trade and
a stronger economy. The program itself meets an IMF requirement, and
if successful it will meet another by being replicated at two other border
crossings—one at Sherkhan Bandar, on the border with Tajikistan, and the
other at Islam Qala, on the border with Iran.360
    On June 18, the World Trade Organization (WTO) expressed support
for Afghanistan’s early accession to the WTO. Afghanistan applied for
membership in November 2004 with the goal of joining by the end of 2014.
Its membership still hinges on Afghanistan implementing reforms, adher-
ing to WTO rules, and entering into separate negotiated agreements with




 128                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  individual member countries and with the organization as a whole.361 USAID
  is assisting Afghanistan in this effort through its Trade and Accession
  Facilitation program.362

  Regional Cooperation
  As noted earlier, a key goal of the U.S. reconstruction strategy in Afghanistan
  is to promote greater regional economic integration through the New Silk
  Road initiative. One way the United States advances this initiative is by
  participating in conferences with the Afghan government, as well as with
  regional and international partners, to identify and prioritize infrastructure
  and policy-reform requirements.363
      This quarter, Afghanistan participated in a number of regional meetings
  to improve trade relations and enhance economic cooperation including,
  the “Heart of Asia” Ministerial Conference,364 the Shanghai Cooperation             Heart of Asia: a ministerial conference
  Organization Summit in Beijing, where Afghanistan was granted observer              held with the aim of enhancing regional
  status,365 the Delhi Investment Summit on Afghanistan, which showcased              cooperation in commerce, trade, de-
  foreign investment opportunities in Afghanistan,366 and one in which                velopment, and education. Countries
  the Turkish Foreign Minister pledged to dismantle Turkish Provincial                participating were Afghanistan, Azerbaijan,
                                                                                      China, India, Iran, Kazakhstan, the
  Reconstruction Teams operating in Afghanistan and transfer their infra-
                                                                                      Kyrgyz Republic, Pakistan, the Russian
  structure to the government.367
                                                                                      Federation, Saudi Arabia, Tajikistan, Turkey,
      Additionally, Afghanistan and Germany entered into a bilateral agreement        Turkmenistan, the United Arab Emirates
  to cooperate on sustainable economic development, education, health, energy,        and Uzbekistan. The United States is a
  water and civil aviation.368 Afghanistan and Australia signed a comprehensive       supporting country.
  long-term partnership agreement, outlining long-term development assis-
  tance, government capacity assistance, and support for Afghanistan’s natural
  resources and agriculture sectors.369 Afghanistan and Kazakhstan signed
                                                                                    Source: Embassy of Afghanistan, “Heart of Asia Ministerial
  several agreements, including one to expand investment cooperation while          Conference Declaration,” 6/14/2012, accessed 6/25/2012.

  seeking future collaboration in the rail transportation, mining, agriculture,
  telecommunications, and energy sectors.370 Afghanistan and China signed a
  strategic cooperative partnership agreement, which included a $23.8 million
  grant to Afghanistan during 2012 and reaffirmed a commitment to expand
  bilateral trade, investment, and economic cooperation.371

  Other Meetings
  Other meetings this quarter also addressed Afghanistan’s future economic
  viability. Leaders of the Group of Eight (G-8) met in Camp David, Maryland,
  on May 18–19 to discuss major global economic, political, and security chal-
  lenges, including Afghanistan’s economic transition.372 The G-8 countries
  pledged to support Afghanistan’s efforts to increase domestic revenues,
  improve government capacity, better manage spending in order to reduce
  its reliance on international donor funding, and bolster Afghanistan’s pri-
  vate sector.373
      At the NATO summit in Chicago on May 20–21, participants reaffirmed
  their commitment to Afghanistan’s security, governance, and economic and




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                129
ECONOMIC AND SOCIAL DEVELOPMENT




social development. They emphasized the need for regional cooperation
and support for Afghan stability.374
   At the Tokyo conference on July 8, donors reaffirmed the goals of long-
term economic growth and fiscal self-reliance for Afghanistan. Donors
committed to align 80% of their foreign aid with Afghanistan’s National
Priority Programs, which focus on economic growth, revenue generation,
jobs, and human development. At least 50% of development assistance will
be on-budget. The international community pledged $16 billion through
2015 and sustaining support through 2017.375

Transportation
Afghanistan’s lack of overall transportation infrastructure continues to
hamper trade and economic growth by restricting market access across
industries.376 This shortcoming is especially problematic for the agriculture
and service sectors, which currently contribute the most to GDP, but will also
be imperative for the mining sector in years to come, according to DoS.377 For
example, Afghanistan’s mining sector requires roads and rail connections to
neighboring countries.378 Inadequate transportation networks also affect costs
and employment opportunities, as well as domestic and international devel-
opment assistance, and the delivery of humanitarian aid. This quarter, the
United States continued its efforts to strengthen Afghanistan’s transportation
sector by helping develop transportation laws, administrative strategy, minis-
try capacity, and compliance with international standards.379

Rail
The United States and its international partners have been helping
Afghanistan develop its rail sector, with the goal of building a profitable and
sustainable system. Central to this effort is establishing a rail authority to
set and regulate construction standards and safety operations. Afghanistan
has no meaningful railroad development, operational experience, or capac-
ity of its own, nor has it come to a consensus about which government
ministries should have control and oversight of its railway. Therefore, the
U.S. Department of Transportation (DoT) has identified the establishment
of the national railway authority as a priority.380
   Since September 2011, a DoT rail advisor has been embedded in the
MoM, serving as a rail expert to the minister. Last quarter, the framework
for the new rail authority was presented to the MoM and the ministries of
Transportation and Civil Aviation, Public Works, and Finance, as well as the
Senior Economic Advisor to the President. Approval for the formation of
the authority rests with the Council of Ministers. DoT warned that funding
from the Asian Development Bank (ADB) and European Union (EU) ear-
marked for the development of the rail authority is at risk unless approval
occurs soon.381




 130                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     Upon cabinet approval, U.S. Embassy Kabul and DoT’s Federal Railroad
  Administration official in Kabul will continue working with other U.S.
  entities and coalition partners to support development of the authority’s
  requirements—from developing strategic planning and core competen-
  cies to staffing. This quarter, U.S. Embassy Kabul continued to generate
  minimum rail development standards and safety requirements for dissemi-
  nation. It also trained and mentored Afghan government staff in regulatory
  formulation, enforcement, and operational oversight.382

  RAIL LINES
  As of June 27, Afghanistan has one completed rail line, from Hairatan
  to Mazar-e Sharif. As noted in SIGAR’s January 2012 quarterly report,
  Uzbekistan’s national railway has begun operating this 75-km freight rail
  line, from the Hairatan freight terminal by the Uzbek border to Mazar-e
  Sharif.383 It cost $170 million.384
      The Afghan government, its extractive industries partners, and the
  international donor community are considering three proposals for addi-
  tional rail corridors:385
   •	 East-West Corridor. This 1,094-km line would run from Herat to
      Sherkhan Bandar, with spurs from Herat to Iran and Torghundi, and
      from Sheberghan to Andkhoy and Aqina, which would open a trading
      route into Turkmenistan. ADB estimates that it would cost $7 billion
      to complete the corridor, not including the Herat-to-Iran spur. ADB
      has pledged to fund the Sheberghan to Andkhoy segment, according to
      DoT, although no schedules have been set. ADB has conducted a pre-
      feasibility study for the Herat to Sherkhan Bandar segment, including
      the spurs from Herat to Torghundi and from Sheberghan to Aqina.
   •	 North-South Corridor. This 500-km line would stretch from Kunduz to
      Kabul, passing through Bamiyan, allowing access to the Hajigak iron
      ore mine. One spur would run from Kabul to Aynak, allowing access
      to the Aynak copper mine, and a second from Kabul to Torkham,
      connecting with the Pakistani railway system. ADB estimates that
      the Jalalabad to Torkham segment will cost $196 million, according
      to DoT. As part of its winning bid for the Hajigak mine, the Steel
      Authority of India committed $1 billion to help build this corridor. As
      part of the winning bid by the China Metallurgical Group Corporation
      (MCC) for the Aynak copper mine, MCC is required to conduct a pre-
      feasibility study of the Kabul to Mazar-e Sharif line by 2013. It is also
      doing a similar study encompassing the full corridor. MCC has not yet
      committed to funding the cost of the line.
   •	 Southern Corridor. This 1,200-km line would run from Herat and
      Kabul to Kandahar, and from Kandahar to Chaman, which would also
      connect to the Pakistani railway system. ADB estimates the Kandahar
      to Chaman segment will cost $204 million, according to DoT.




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012              131
ECONOMIC AND SOCIAL DEVELOPMENT




FREIGHT RAIL
SIGAR’s January 2012 quarterly report noted that the Hairatan freight termi-
nal near the Uzbekistan border was already operating at its peak capacity of
4,000 tons of cargo per month. The World Bank estimated that the volume
of traffic could likely increase six- to ten-fold because of rising imports from
Central Asia.386 To help meet this demand, DoT evaluated terminal opera-
tions and found that capacity improvements were needed in efficiency,
equipment, and personnel:387
•	 Efficiency: Trains originating from Uzbekistan contain mixed freight,
    which is transported over the Freedom Bridge to the Hairatan Customs
    Yard. After clearing Afghan customs, the train moves on to the Hairatan
    Classification Yard, where it is reorganized into trains that carry only
    fuel and trains that carry wood, steel, or wheat. This slows down
    operations. DoT recommended that Uzbekistan assemble the cargo-
    specific trains before trains depart, allowing for more efficient handling
    after clearing Afghan customs.
•	 Equipment: There is only one switching locomotive (which
    disassembles and reassembles trains for regular locomotives to pull) in
    Hairatan. DoT recommended that switching locomotives and crews be
    provided to meet demand as needed.
•	 Personnel: Afghanistan has never operated a rail line and has limited
    technical capacity to do so. DoT recommended that a railway training
    program be developed, including classroom instruction and on-the-job
    training in all railway disciplines, to promote uniformity of standards
    and practices.

   DoT also assessed several railroad “ports” (cargo-handling areas with
roads, ramps, equipment, and structures). Its detailed assessment, the first
of its kind, covered Hairatan Ports 2 and 3 (Port 1 handles only barges, so
was not assessed), Niababad Port 4, and Mazar-e Sharif Port 5. DoT found
that a variety of minor and major improvements at the sites would make
them adequate by correcting outdated equipment, rail and road traffic con-
gestion, deteriorated roads and ramps, insufficient security, limited lighting,
and undersized staging areas. Shortcomings occurred in varying combina-
tions and degrees across the locations studied.388

Commercial Aviation
This quarter, the United States continued to provide assistance and train-
ing to support Afghanistan’s efforts to bring its civil-aviation capacity up
to international standards. DoT helped develop Afghanistan’s Aviation
Security Directorate and continued to build capacity in the Flight Safety
Oversight department. It also worked on updating the civil aviation regula-
tions and designing an organizational structure that will be incorporated
into the Civil Aviation Authority (CAA). The CAA’s main goals are to attain




 132                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  full compliance with international standards and provide regulatory over-
  sight of aviation. The CAA will be established as part of the Civil Aviation
  Law, which was approved this quarter by the Cabinet, passed by the Lower
  House, and ratified with changes by the Upper House.389 The two versions
  must be reconciled by the National Assembly before going to the president
  for signature into law.390
      This quarter, DoT announced a three-year, $10.6 million USAID-funded
  program to train 70–75 air traffic controllers, 16 technicians, and 6–8 addi-
  tional flight safety inspectors in the fundamentals of air traffic control and
  flight safety at regional aviation academies. The program will comply with
  the requirements of the International Civil Aviation Organization; Federal
  Aviation Administration personnel will provide oversight.391

  Mining
  USAID has $15 million in its FY 2012 operational plan to support the             The MIDAS program supports private-sector
  extractive industries through the Mining Investment and Development for          development by advancing the following
  Afghan Sustainability (MIDAS) program. No disbursements were made                Afghan government objectives:
  this quarter.392                                                                 -- boost economic activity
     This quarter, USAID’s Engineering Quality Assurance and Logistical            -- enhance revenue generation for the
                                                                                      government
  Support program helped the MoM address technical issues related to the           -- increase jobs
  Aynak Cultural Resource Recovery Program, Aynak copper mines, and                -- diversification through the inclusion of
  Hajigak iron tender. USAID also trained eight MoM and Afghan Geological             women 
  Survey staff in data collection, digitization, and mapping to create a data-     Source: DoS, response to SIGAR data call, 7/5/2012.
  base of mineral resources and assets.393
     For its part, TFBSO has allocated approximately $15.45 million through
  the first three quarters in FY 2012. This included $1.37 million to support
  tenders and a virtual data room; $5 million for a TFBSO–U.S. Geological
  Survey Interagency Agreement for sampling mission personnel and analy-
  sis; $29,950 in equipment for a Village Stability Operations project in Kas
  Konar; and $9.05 million for an extension of commercial, technical, and
  legal support to the MoM to execute existing and prepare future tenders.394

  U.S. ASSISTANCE
  On May 22, 2012, the TFBSO, the Afghan Investment Support Agency, and
  the MoM hosted a business match-making event in Kabul for mining firms
  and Afghan businesses. Over 45 Afghan businesses participated. Also this
  quarter, the Principal Deputy Director of the TFBSO attended a confer-
  ence to discuss the future of Afghanistan’s construction industry. The event
  brought together Afghan government officials, U.S. government representa-
  tives, ISAF officials, and Afghan and international business people. Many
  of the companies in attendance were adapting their businesses to become
  more competitive in the mining and energy sectors.395




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                133
                                                        ECONOMIC AND SOCIAL DEVELOPMENT




                                                        PRIVATE-SECTOR INVESTMENT
The TFBSO helped the MoM tender the                     This quarter, the TFBSO helped the MoM arrange site visits for represen-
exploration packages for these sites. The               tatives of 16 companies to the areas for four major tenders—Zarkashan,
tenders were offered on December 6,                     a copper porphyry deposit; Badakhshan, a gold-quartz vein; Balkhab, a
2011, at the London Mines and Ministry                  copper deposit; and Shaida, a copper deposit. The companies gave pre-
Conference, as noted in SIGAR’s January                 sentations to the ministers of Mines and Finance, and met with local and
2012 quarterly report.
                                                        regional officials as well as staff members of the Afghan Geological Survey
Source: TFBSO, response to SIGAR data call, 1/2/2012.   and the MoM.396
                                                           As of June 1, 2012, 16 companies had paid the required bidding fees for
                                                        the deposits. Official bids for the four mineral deposits are due next quarter.
                                                        The total value of the deposits was not yet known, but the TFBSO estimates
                                                        that the Afghan government could take in as much as $6 billion in revenue
                                                        from each of the three copper mines. In the more immediate future, the
                                                        government may collect some payroll-tax revenues during the explora-
                                                        tion phase from the hiring of surveyors, engineers, and geologists. In the
                                                        meantime, the TFBSO is planning for the next four mineral tenders—North
                                                        Aynak (copper), Khanneshin (rare-earth elements), Dudkash (industrial
                                                        minerals), and Dusar (copper). Sampling and evaluation work is to begin by
                                                        the end of this summer.397

                                                        Communications
                                                        Like energy, communications is considered a core infrastructure priority by
                                                        the Afghan government and international donors. This quarter, DoS, USAID,
                                                        DoD, and other partners continued to support numerous projects in the sec-
                                                        tor, including the establishment of cellular communication and fiber-optic
                                                        infrastructure, and construction of broadcast towers.398
                                                            Also this quarter, the Minister of Communications and Information
                                                        Technology led a delegation in May to the World Summit on the Information
                                                        Society (WSIS) Forum 2012 in Geneva. The annual summit is a platform for
                                                        addressing evolving information and communication technologies (ICT),
                                                        which play an increasing role in sustainable development. The goal of the
                                                        WSIS is to achieve an open, inclusive and people-centric information soci-
                                                        ety.399 In an Afghanistan Country Workshop, the National ICT Alliance of
                                                        Afghanistan highlighted the following attainments:400
                                                         •	 four major telecommunications companies and numerous private
                                                            IT companies
                                                         •	 over 100 Internet service providers
                                                         •	 an estimated 2 million Internet users
                                                         •	 growing numbers of ICT educational courses and advanced degrees
                                                         •	 several national and international associations and organizations
                                                            representing Afghanistan’s ICT sector




                                                         134                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     Other highlights:401
  •	 70% of all phones are mobile phones
  •	 Internet access costs of approximately $60 per month for fiber-optic
     connections, down from $3,000 per month for satellite connections
  •	 Over 100,000 ICT sector jobs created

      On a June 11–12 visit to the United States, the minister of Communications
  and Information Technology met with several organizations, U.S. government
  officials, and industry representatives to discuss progress in and development
  of the telecommunications sector. He discussed Afghanistan’s cybersecu-
  rity strategy with U.S. officials and conferred with industry representatives
  about investment opportunities in Afghanistan’s burgeoning technology
  infrastructure and satellite industry.402
      On June 20, 2012, the ministry signed the country’s second $25 million,
  3G license agreement with telecommunications provider MTN Afghanistan.
  MTN Afghanistan expected its 3G services to be operational by mid-July.403
  The ministry issued the first 3G license to Etisalat on March 18, 2012 (also
  valued at $25 million).404 On June 12, communications provider Roshan
  announced that it had more than 6 million active subscribers. Roshan said
  it has spent over $550 million on network infrastructure since 2003, con-
  tributes about 5% to the government’s overall domestic revenue, employs
  over 1,300 people, and provides indirect employment for approximately
  30,000 others.405
      As noted last quarter, Roshan has teamed up with Western Union to pro-
  vide international mobile money remittances directly through their phones
  with the M-Paisa service, which makes possible money transfers, bill pay-
  ments, and airtime purchases. The international mobile money transfer
  service was officially launched on May 21.406




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               135
                      On Watch
ISAF personnel operate in the
    skies over Logar province.
The cultivated fields exemplify
 the centrality of agriculture in
          the Afghan economy.
              (U.S. Army photo)
4   OTHER AGENCY
    OVERSIGHT




        137
                   OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State
and the Secretary of Defense fully informed about problems relating to
the administration of reconstruction programs and to submit a report to
Congress on SIGAR’s oversight work and on the status of the U.S. recon-
struction effort no later than 30 days after the end of each fiscal quarter.
Each quarter, SIGAR requests updates from other agencies on completed
and ongoing oversight activities. This section contains these updates.
   The descriptions appear as they were submitted, with certain changes
for consistency with other sections of this report: acronyms and abbre-
viations in place of full names; standardized capitalization, hyphenation,
punctuation, and preferred spellings; and third-person instead of first-
person construction.
   These agencies are performing oversight activities in Afghanistan and
providing results to SIGAR:
•	 Department of Defense Office of Inspector General (DoD OIG)
•	 Department of State Office of Inspector General (DoS OIG)
•	 Government Accountability Office (GAO)
•	 U.S. Army Audit Agency (USAAA)
•	 U.S. Agency for International Development Office of Inspector General
   (USAID OIG)


COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists the 18 oversight projects related to reconstruction that the
participating agencies reported were completed this quarter.

TABLE 4.1	


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2012
Agency       Report Number   Date Issued   Project Title
                                           DoD Needs to Improve Vocational Training Efforts to Develop the Afghan National Security Forces Infrastructure
DoD OIG      D-2012-104      6/18/2012
                                           Maintenance Capabilities
DoD OIG      D-2012-103      6/18/2012     Accountability of Night Vision Devices Procured for the Afghan National Security Forces Needs Improvement
DoD OIG      D-2012-094      5/30/2012     Afghan National Police Contract Requirements Were Not Clearly Defined but Contract Administration Improved
DoD OIG      D-2012-093      5/30/2012     Improving Army Contract Award and Management for Small Arms Acquired Using Afghanistan Security Forces Funds
DoD OIG      D-2012-092      5/25/2012     Development of Individual Equipment Requirements for the Afghan National Army Needs Improvement
DoD OIG      D-2012-089      5/17/2012     Better Contract Oversight Could Have Prevented Deficiencies in the Detention Facility in Parwan, Afghanistan
DoD OIG      D-2012-083      5/7/2012      Additional Guidance and Training Needed to Improve Afghan National Army Pharmaceutical Distribution
DoD OIG      D-2012-074      4/11/2012     Investigation of a USCENTCOM Referral: Non-compliance with Interrogation Policy
                                           Defense Management: Steps Taken to Better Manage Fuel Demand but Additional Information Sharing Mechanisms are
GAO          GAO-12-619      6/28/2012
                                           Needed
GAO          GAO-12-607C     5/18/2012     Interim Results on U.S.-NATO Efforts to Transition Lead Security Responsibility to Afghan Forces




REPORT TO THE UNITED STATES CONGRESS           I   JULY 30, 2012                                139
                                                                                                                                                     139
                                                               OTHER AGENCY OVERSIGHT




TABLE 4.1	 (CONTINUED)


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2012
Agency         Report Number        Date Issued     Project Title
                                                    Army Has Taken Steps to Improve Reset Process, but More Complete Reporting of Equipment and Future Costs Is
GAO            GAO-12-133           5/15/2012
                                                    Needed
GAO            GAO-12-534           5/9/2012        Foreign Police Assistance: Defined Roles and Improved Information Sharing Could Enhance Interagency Collaboration
                                                    Afghanistan Security: Estimated Costs to Support Afghan National Security Forces Underscore Concerns about
GAO            GAO-12-438SU         4/26/2012
                                                    Sustainability
                                                    Defense Biometrics: Additional Training for Leaders and More Timely Transmission of Data Could Enhance the Use of
GAO            GAO-12-442           4/23/2012
                                                    Biometrics in Afghanistan
                                                    Afghan Security: Renewed Sharing of Biometric Data Could Strengthen U.S. Efforts to Protect U.S. Personnel from
GAO            GAO-12-471SU         4/20/2012
                                                    Afghan Security Force Attacks
                                                    Intelligence, Surveillance, and Reconnaissance: Actions Needed to Improve DOD Guidance, Tools, and Training for
GAO            GAO-12-396C          4/5/2012
                                                    Managing Collection Capabilities
USAID OIG      F-306-12-004-P       6/29/2012       Audit of USAID/Afghanistan’s Incentives Driving Economic Alternatives for the North, East, and West Program
                                                    Audit of USAID/Afghanistan’s Internal Controls in the Administration of the Involuntary Separate Maintenance
USAID OIG      F-306-12-003-P       6/25/2012
                                                    Allowance
Sources: DoD OIG, response to SIGAR data call, 6/21/2012; DoS OIG response to SIGAR data call, 6/22/2012; GAO, response to SIGAR data call, 6/25/2012; USAID OIG, response to SIGAR
data call, 6/19/2012.



                                                               U.S. Department of Defense Office of Inspector General
                                                               During this quarter, DoD OIG issued eight reports related to Afghanistan
                                                               reconstruction.

                                                               DoD Needs to Improve Vocational Training Efforts to
                                                               Develop the Afghan National Security Forces Infrastructure
                                                               Maintenance Capabilities
                                                               (Report No. D-2012-104, Issued June 18, 2012)
                                                               Vocational training provided under the operations and maintenance con-
                                                               tracts did not effectively develop Afghan National Security Forces (ANSF)
                                                               infrastructure-maintenance capabilities. Specifically, the U.S. Army Corps
                                                               of Engineers (USACE) and Combined Security Transition Command-
                                                               Afghanistan (CSTC-A) officials did not require the contractor to implement
                                                               vocational training at 9 of the 18 ANSF sites required by the contracts. This
                                                               occurred because CSTC-A Infrastructure Training Advisory Group officials
                                                               were still developing their transition strategy and assessing the feasibility of
                                                               implementing training at additional sites.
                                                                  In addition, USACE officials did not incorporate measurable perfor-
                                                               mance standards in the contracts or conduct sufficient quality-assurance
                                                               activities because officials considered the vocational training portion of the
                                                               contracts to be negligible in relation to the value of operations and mainte-
                                                               nance services to be performed.
                                                                  As a result, CSTC-A will continue to be at an increased risk for not meet-
                                                               ing its goal to transition facility operations and maintenance responsibilities
                                                               to the ANSF by the end of 2014. In addition, the approximately $10.3 billion




                                                                    140                        SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




planned U.S. investment in facilities may be diminished if the ANSF are
unable to maintain their infrastructure.

Accountability of Night Vision Devices Procured for the
Afghan National Security Forces Needs Improvement
(Report No. D-2012-103, Issued June 18, 2012)
Defense Security Cooperation Agency (DSCA) officials, North Atlantic
Treaty Organization Training Mission - Afghanistan/Combined Security
Transition Command - Afghanistan (NTM-A/CSTC-A) officials, ANSF offi-
cials, and DoD contractors did not maintain complete accountability for
night vision devices (NVDs) and associated spare tubes procured for the
ANSF. Specifically, DoD IG found
•	 342 NVD serial numbers were missing from the Security Cooperation
   Information Portal (SCIP) and 88 NVD serial numbers were miss-
   ing from the Operational Verification of Reliable Logistics Oversight
   Database (OVERLORD) during shipping-document reconciliations
•	 113 NVD serial numbers were missing from SCIP and 40 NVD serial
   numbers were missing from OVERLORD in SCIP and OVERLORD
   comparisons
•	 75 NVDs were unaccounted for during physical inventory
•	 397 discrepancies existed in the contractor’s database
•	 518 discrepancies existed across four units’ property books during
   accountable-record reconciliations

   This occurred because DSCA officials did not provide adequate oversight
to verify that U.S. Army Communications - Electronics Command (CECOM)
and NTM-A/CSTC-A officials properly implemented procedures. In addition,
NTM-A/CSTC-A officials did not always reconcile the NVDs received to the
shipping documents, use SCIP for NVD accountability, perform complete
physical inventories, and provide adequate oversight of DoD contractors
and ANSF officials. Further, CECOM officials did not provide adequate
oversight of DoD contractors. As a result, NVDs and associated spare tubes
are more vulnerable to theft or loss, officials cannot rely on the data as a
tool to determine NVD requirements, and officials cannot perform effective
end-use monitoring.

Afghan National Police Contract Requirements Were Not
Clearly Defined but Contract Administration Improved
(Report No. D-2012-094, Issued May 30, 2012)
Army contracting officials at Army Contracting Command‑Aberdeen
Proving Ground did not appropriately award and administer the Afghan
National Police (ANP) contract in accordance with Federal and DoD guid-
ance. CSTC-A personnel made substantial changes to the statement of work
immediately after contract award and the contractor more than doubled




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2012            141
OTHER AGENCY OVERSIGHT




the size and cost of its program management office. CSTC-A, International
Security Assistance Force Joint Command, and Army contracting offi-
cials did not adequately define contract requirements or identify that the
contractor omitted key program office positions from its proposal during
the source-selection process. As a result, the cost of the ANP contract
increased by $145.3 million in the first four months of the contractor’s per-
formance, and contractor officials still had not reached the staffing levels
required in the contract at the time of this review.
   The Defense Contract Management Agency (DCMA)-Afghanistan
administrative contracting officer inappropriately authorized the prime con-
tractor to award a subcontract for a power-plant upgrade that was outside
the prime contract’s scope of work. As a result, the Army did not receive
potential cost savings by competing the contract. The Army Contracting
Command-Rock Island procuring contracting officer made several improve-
ments to the management of the ANP contract.

Improving Army Contract Award and Management for Small
Arms Acquired Using Afghanistan Security Forces Funds
(Report No. D-2012-093, Issued May 30, 2012)
Army Contracting Command officials did not properly award or manage 19
contract actions in accordance with regulations and did not include specific
quality requirements in the contract for 13 contract actions because they
did not perform all necessary contracting procedures when accelerating
procurements. Specifically, Army Contracting Command contracting offi-
cials did not:
•	 properly compete or adequately justify sole-source awards for 6 actions
•	 adequately determine foreign subcontractor qualifications for 13 actions
•	 adequately address contractor nonperformance for 2 actions
•	 require anything other than a visual inspection to verify the correct
   quantity and weapon type before accepting 13 actions

   As a result, Army Contracting Command contracting centers may
have overpaid on six contract actions, and foreign-manufactured small
arms may be of lower quality or delivered late or not at all. In addition,
Army Contracting Command contracting officials did not document the
requirement for 25 contract actions and the use of commercial acquisition
procedures for 10 contract actions. This occurred because contracting
officials did not maintain a letter of offer and acceptance and documenta-
tion to support the commerciality of the small arms in the contract file. As
a result, the Army Contracting Command contracting officials may procure
the incorrect item or quantity, and may be using acquisition procedures that
limit the government’s ability to monitor and inspect the small arms.




  142                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




Development of Individual Equipment Requirements for
the Afghan National Army Needs Improvement
(Report No. D-2012-092, Issued May 25, 2012)
NTM-A/CSTC-A officials did not develop adequate sustainment requirements
for the 15 types of Afghan National Army (ANA) individual equipment items.
Specifically, officials did not develop supportable recapitalization and main-
tenance requirements. This occurred because NTM-A/CSTC-A
•	 relied on anecdotal evidence, experience, and professional judgment to
   develop the recapitalization rates
•	 could not determine the items identified for recapitalization or the pro-
   cess used to develop the requirements in FY 2007 through FY 2011
•	 did not request all necessary maintenance data from contractors
•	 did not request subject-matter expertise from the Life Cycle
   Management Commands in developing sustainment requirements

   As a result, NTM-A/CSTC-A had no assurance that 2,613 individual equip-
ment items, costing $5.6 million and planned for recapitalization in FY 2012,
were sufficient to replace irreparably damaged or lost items. In addition,
NTM-A/CSTC-A had no assurance that items would be available to replace
a potential 29,569 irreparably damaged or lost ANA individual equipment
items, valued at approximately $49 million, acquired before FY 2012. Also,
NTM-A/CSTC-A did not have information to make informed decisions on
ANA individual-equipment sustainment requirements.

Better Contract Oversight Could Have Prevented Deficiencies
in the Detention Facility in Parwan, Afghanistan
(Report No. D-2012-089, Issued May 17, 2012)
USACE Afghanistan Engineer District‑North officials accepted the
detention facility from the contractor in September 2009, despite major
deficiencies. Specifically, the contractor used materials in major infra-
structure systems that did not conform to contract specifications. This
occurred because USACE Afghanistan Engineer District‑North officials
did not provide adequate oversight over construction of the detention
facility and did not comply with their internal policies regarding oversight
of the contractor’s warranty. As a result, major infrastructure systems had
recurring deficiencies requiring replacement or repair. These deficiencies
increased safety and security risks to DoD personnel and detainees.
   The Commander, Combined Joint Interagency Task Force-435, stated
the sewage system and the fire-suppression system have not been a prob-
lem since the 43rd Military Police Brigade took command in April 2011.
However, he also stated that access doors are in disrepair and will be
replaced as soon as new, prison-grade doors arrive from the United States;
and that a change order is pending to have the operation and maintenance
contractor upgrade the electrical system to U.S. electrical-code standards.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012               143
OTHER AGENCY OVERSIGHT




Additional Guidance and Training Needed to Improve
Afghan National Army Pharmaceutical Distribution
(Report No. D-2012-083, Issued May 7, 2012)
Although the ANA pharmaceutical distribution process improved since
February 2011, the procurement, delivery, and inventory-control processes
for pharmaceuticals at medical facilities and depots could be improved.
Specifically, Afghan Logistics Command officials effectively received,
accounted for, and prepared pharmaceuticals for issuance to the forward
supply depots and National Military Hospital. However, of the six supply
depots and medical facilities reviewed:
•	 Four did not have or maintain pharmaceutical accountability controls.
•	 None properly used or completed all Ministry of Defense forms.

   This occurred because the new distribution process was still in early
implementation. Specifically, ANA officials, in coordination with CSTC-A,
did not effectively communicate or train all ANA personnel. In addition,
Afghan Medical Command officials, in coordination with CSTC-A, did
not develop procedures instructing medical facility personnel how to
implement logistics guidance and how to collect and accurately report on
pharmaceutical usage data.
   In addition, none of the 11 vendors that Afghan Acquisition, Technology,
and Logistics officials selected for a $4.7 million contract to procure phar-
maceuticals and medical supplies delivered all of the pharmaceuticals in
accordance with contract requirements. This occurred because officials did
not fully document vendor evaluations during source selection.
   As a result, ANA is at an increased risk that the usage data cannot be relied
upon to develop pharmaceutical requirements, and of mismanagement, theft,
and waste of U.S.-funded pharmaceuticals. In addition, CSTC-A is at risk of not
being able to transition the distribution process to full ANA control.
   CSTC-A and ANA officials have taken or planned corrective actions
in response to preliminary concerns identified during the audit, such as
improving access controls, providing training, and issuing guidance.

Investigation of a USCENTCOM Referral: Non-compliance
with Interrogation Policy
(Report No. D-2012-074, Issued April 11, 2012)
The results of this report are classified.


U.S. Department of State Office of Inspector
General–Middle East Regional Office
During this quarter, DoS OIG issued no reports related to Afghanistan
reconstruction.




  144                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




Government Accountability Office
During this quarter, GAO issued eight reports related to Afghanistan
reconstruction.

Defense Management: Steps Taken to Better Manage
Fuel Demand but Additional Information Sharing
Mechanisms Are Needed
(Report No. GAO-12-619, Issued June 28, 2012)
According to DoD, the U.S. military’s dependence on liquid fuel in countries
like Afghanistan creates an enormous logistics burden that exposes forces
to enemy attack and diverts operational resources from other mission
areas to support delivery of this critical resource. In 2011, DoD consumed
almost 5 billion gallons of fuel in military operations worldwide, at a cost of
approximately $17.3 billion.
   GAO was asked to (1) assess DoD’s approach for fuel demand manage-
ment, including at forward-deployed locations in Afghanistan, (2) determine
the extent to which DoD has initiatives to promote fuel efficiency at
forward-deployed locations in Afghanistan and efforts to coordinate and
collaborate on such initiatives, and (3) assess efforts to measure the results
of its fuel demand management initiatives and establish a baseline measure
of fuel consumption in Afghanistan.
   GAO found that DoD has taken steps to establish an approach for
managing its overall fuel demand, but is still developing comprehensive
guidance to address fuel demand management, including at forward-
deployed locations in countries such as Afghanistan. Additionally, multiple
DoD organizations are developing initiatives to decrease fuel demand at
forward-deployed locations, including in Afghanistan, and the department
has worked to facilitate some coordination and collaboration among the
services on fuel demand management efforts. However, it is still develop-
ing an approach to systematically identify and track all of the fuel demand
management initiatives that have been fielded, or are in the research and
development phase throughout DoD.
   Finally, DoD has started to measure the results of some of the fuel
demand management initiatives used in Afghanistan, but is still in the pro-
cess of collecting and assessing comprehensive baseline data needed to
measure current fuel consumption at forward-deployed locations. GAO
recommends that DoD finalize and implement a systematic approach
that includes establishing a mechanism to identify and track fuel demand
management initiatives that have been fielded, or are in the research and
development phase.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                145
OTHER AGENCY OVERSIGHT




Interim Results on U.S.-NATO Efforts to Transition
Lead Security Responsibility to Afghan Forces
(Report No. GAO-12-607C, Issued May 18, 2012)
This report is classified and is restricted to those with the appropriate level
of security clearance and a need to know its content.

Army Has Taken Steps to Improve Reset Process, but More
Complete Reporting of Equipment and Future Costs Is Needed
(Report No. GAO-12-133, Issued May 15, 2012)
From 2007 to 2012, the Army received about $42 billion to fund its
expenses for the reset of equipment—including more than $21 billion for
depot maintenance—in support of continuing overseas contingency opera-
tions (OCO) in Southwest Asia. Reset is intended to mitigate the effects of
combat stress on equipment by repairing, rebuilding, upgrading, or procur-
ing replacement equipment.
    In 2007, GAO reported that the Army’s reset strategy did not target
equipment shortages for units deploying to theater. For this report, GAO
(1) examined steps the Army has taken to improve its equipment reset
strategy since 2007, and (2) determined the extent to which the Army’s reset
reports to Congress provide visibility over reset costs and execution.
    Since GAO’s 2007 review, the Army has taken steps to improve its use of
reset in targeting equipment shortages. In 2008, the Army issued its Depot
Maintenance Enterprise Strategic Plan, noted that filling materiel shortages
within warfighting units is a key challenge facing the depot maintenance
enterprise, and called for changes in programs and policies to address those
shortages. Additionally, GAO found that the Army’s monthly reports to
Congress do not include expected future reset costs, or distinguish between
planned and unplanned reset of equipment. GAO has reported that agencies
and decision makers need visibility into the accuracy of program execution
to ensure basic accountability and to anticipate future costs.
    To address these concerns, GAO recommends that the Army revise its
monthly congressional reset reports to include its future reset liability and
status information on equipment reset according to the initial reset plan by
vehicle type. DoD did not concur, and said the Army would report its reset
liability annually instead of monthly. Because DoD did not agree to report
its reset status by vehicle type, GAO included a matter for congressional
consideration to direct the Army to report this information.

Foreign Police Assistance: Defined Roles and Improved
Information Sharing Could Enhance Interagency Collaboration
(Report No. GAO-12-534, Issued May 9, 2012)
In April 2011, GAO reported that the United States provided an estimated
$3.5 billion for foreign police assistance to 107 countries during FY 2009.
GAO agreed to follow that report with a review of the extent to which




 146                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




U.S. agencies evaluated and coordinated their foreign police assistance
activities. This report (1) updates GAO’s analysis of U.S. agencies’ fund-
ing of foreign police assistance during fiscal years 2009 through 2011,
(2) examines the extent to which DoD and DoS and the U.S. Bureau of
International Narcotics and Law Enforcement Affairs (INL) assess or
evaluate their activities for countries with the largest programs, and
(3) examines the mechanisms U.S. agencies use to coordinate foreign
police assistance activities.
   GAO found that the United States provided an estimated $13.9 billion
for foreign police assistance during FYs 2009 through 2011. Funds provided
by U.S. agencies rose and then fell between FYs 2009 and 2011. During
FYs 2009 through 2011, the United States provided the greatest amount
of its foreign police assistance to Afghanistan, Iraq, Pakistan, Colombia,
Mexico, and the Palestinian Territories. DoD and DoS funds constituted
about 97% of U.S. funds for police assistance in FY 2009 and 98% in
FYs 2010 and 2011. DoD and INL have acknowledged limitations in their
procedures to assess and evaluate their foreign police assistance activities
and are taking steps to address them.
   GAO also found that U.S. agencies have implemented various mecha-
nisms to coordinate their foreign police assistance activities as part of
wider foreign assistance activities, such as the National Security Council
(NSC)-led interagency policy committees that coordinate policies at a
high level and various working groups at the overseas posts; however,
some areas for improvement were noted. GAO recommended that (1) NSC
complete its efforts to define agency roles and responsibilities, and (2) the
Secretaries of Defense and State establish mechanisms to better share and
document information among various U.S. agencies.

Afghanistan Security: Estimated Costs to Support
Afghan National Security Forces Underscore Concerns
about Sustainability
(Report No. GAO-12-438SU, Issued April 26, 2012)
This report is sensitive but unclassified and is restricted to those with a
need to know its content.

Defense Biometrics: Additional Training for Leaders and
More Timely Transmission of Data Could Enhance the
Use of Biometrics in Afghanistan
(Report No. GAO-12-442, Issued April 23, 2012)
The collection of biometrics data, including fingerprints and iris patterns,
enables U.S. counterinsurgency operations to identify enemy combatants
and link individuals to events such as improvised explosive device detona-
tions. GAO was asked to examine the extent to which (1) DoD’s biometrics
training supports warfighter use of biometrics, (2) DoD is effectively




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2012                147
OTHER AGENCY OVERSIGHT




collecting and transmitting biometrics data, and (3) DoD has developed a
process to collect and disseminate biometrics lessons learned. GAO found
that DoD has trained thousands of personnel on the use of biometrics
since 2004, but biometrics training for leaders does not provide detailed
instructions on how to effectively use and manage biometrics collection
tools. Also, several factors during the transmission process limit the use
of biometrics in Afghanistan. Among them is unclear responsibility for the
completeness and accuracy of biometrics data during their transmission. As
a result, DoD cannot expeditiously correct data transmission issues as they
arise. Finally, GAO found that lessons learned from U.S. military forces’
experiences with biometrics in Afghanistan are collected and used by each
of the military services and U.S. Special Operations Command. Military
services emphasize the importance of using lessons learned to sustain,
enhance, and increase preparedness to conduct future operations, but no
requirements exist for DoD to disseminate existing biometrics lessons
learned across the department.
   GAO recommended that DOD take several actions to expand leadership
training to improve employment of biometrics collection, help ensure the
completeness and accuracy of transmitted biometrics data, determine the
viability and cost-effectiveness of reducing transmission times, and assess
the merits of disseminating biometrics lessons learned across DoD for the
purposes of informing relevant policies and practices.

Afghan Security: Renewed Sharing of Biometric Data
Could Strengthen U.S. Efforts to Protect U.S. Personnel from
Afghan Security Force Attacks
(Report No. GAO-12-471SU, Issued April 20, 2012)
This report is sensitive but unclassified and is restricted to those with a
need to know its content.

Intelligence, Surveillance, and Reconnaissance:
Actions Needed to Improve DoD Guidance, Tools, and
Training for Managing Collection Capabilities
(Report No. GAO-12-396C, Issued April 5, 2012)
This report is classified and is restricted to those with the appropriate level
of security clearance and a need to know its content.


U.S. Army Audit Agency
The USAAA did not complete any new audits related to Afghanistan recon-
struction this quarter.




  148                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




U.S. Agency for International Development
Office of Inspector General
During this quarter, USAID OIG issued two reports related to Afghanistan
reconstruction.

Audit of USAID/Afghanistan’s Incentives Driving
Economic Alternatives for the North, East, and West
(IDEA-NEW) Program
(Report No. F-306-12-004-P, Issued June 29, 2012)
USAID/OIG conducted this audit to determine whether USAID/
Afghanistan had appropriate internal controls to prevent improper use
of involuntary separate maintenance allowance. The final report includes
these issues:
•	 The project’s strategic focus and staffing have not been consistent.
    Although IDEA-NEW was designed for the purpose of dissuading
    Afghans from growing poppy by increasing access to licit, commercially
    viable, alternative sources, USAID/Afghanistan reportedly directed the
    contractor to reorient its program to focus only on expanding the licit
    economy. In addition, the project experienced frequent turnover of
    vital personnel. Project monitoring needs to be strengthened. Neither
    USAID/Afghanistan nor its implementing partner adequately monitored
    this project.
•	 Plans for sustainability are needed. The sustainability of the IDEA-NEW
    project is questionable. The participation of women should be increased.
    Although the cooperative agreement specifically addresses the need to
    maintain gender integration and balance in all activities, the participation
    of women in the project has been low. Additional guidance on cash-for-
    work projects is needed. Although infrastructure projects have been the
    major focus of IDEA-NEW’s cash-for-work activities, the mission has no
    standard policies and procedures for these activities.
   The report included 18 recommendations to address these issues.

Audit of USAID/Afghanistan’s Internal Controls
in the Administration of the Involuntary Separate
Maintenance Allowance
(Report No. F-306-12-003-P, Issued June 25, 2012)
USAID/OIG conducted this audit to determine whether USAID/Afghanistan
had appropriate internal controls to prevent improper use of the involun-
tary separate maintenance allowance (ISMA). The final report includes the
following issues:
•	 The mission lacked internal controls over the approval of applications.
    Although the mission was responsible for establishing internal controls
    over the processing and approval of ISMA applications for U.S. and




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2012                149
                                                     OTHER AGENCY OVERSIGHT




                                                        third-country national personal-services contractors, it had not estab-
                                                        lished such controls.
                                                     •	 Employees signed for their spouses on applications claiming ISMA
                                                        benefits for the spouse, even though required to obtain the spouse’s sig-
                                                        nature. These employees were U.S. direct-hire employees whose ISMA
                                                        applications were approved in USAID/Washington.
                                                     •	 Controls over allowance payments were insufficient. USAID/Afghanistan
                                                        had established internal controls to prevent improper ISMA payments,
                                                        but those controls did not always work.
                                                     •	 No controls covered approval of home-leave travel. Home-leave travel
                                                        is not authorized for family members already on ISMA, but the mis-
                                                        sion approved and made improper payments for home-leave travel
                                                        for dependent family members of at least two employees, when those
                                                        family members had been authorized for and were already receiving
                                                        ISMA benefits.
                                                     The report included 10 recommendations to address these issues.


                                                     ONGOING OVERSIGHT ACTIVITIES
                                                     As of June 30, 2012, the participating agencies reported 29 ongoing oversight
                                                     activities related to reconstruction in Afghanistan. The activities reported
                                                     are listed in Table 4.2 and described in the following sections by agency.

TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2012
Agency      Project Number          Date Initiated     Project Title
DoD OIG     D2012-D000AT-0170.000   5/11/2012          Availability of Spare Parts for the C-27A/G222
                                                       Oversight Processes and Procedures for the Afghan National Police Mentoring/Training and Logistics
DoD OIG     D2012-D000AS-0137.000   3/9/2012
                                                       Support Contract
DoD OIG     D2012-D000AT-0129.000   3/8/2012           Datron Radio Contracts To Support the Afghan National Security Forces
                                                       Air Force Center for Engineering and the Environment’s Contract Management and Oversight of Military
DoD OIG     D2012-D000JB-0126.000   3/8/2012
                                                       Construction Projects in Afghanistan
DoD OIG     D2012-D00SPO-0090.000   2/28/2012          U.S. and Coalition Efforts To Develop Leaders in the Afghan National Army
                                                       Technical Assessment of Military Construction Compliance with Fire Suppression Standards at Select
DoD OIG     D2012-DT0TAD-0002.000   2/14/2012
                                                       Facilities in Afghanistan
                                                       Technical Assessment of Military Construction Compliance with Electrical Standards at Select Facilities in
DoD OIG     D2012-DT0TAD-0001.000   2/14/2012
                                                       Afghanistan
DoD OIG     D2012-D000JB-0093.000   1/11/2012          Building Institutional Capacity Through the Ministry of Defense Advisors Program
DoD OIG     D2012-D00SPO-0085.000   1/6/2012           U.S. Efforts to Develop the Afghan National Security Forces Command and Control System
DoD OIG     D2012-D000JB-0071.000   12/16/2011         Contract Management and Oversight of Military Construction Projects in Afghanistan
DoD OIG     D2012-D000AS-0075.000   12/7/2011          Task Orders for Mi-17 Overhauls and Cockpit Modifications
DoD OIG     D2012-D000AS-0031.000   11/17/2011         Afghanistan Rotary Wing Transport Contracts for the U.S. Transportation Command
DoD OIG     D2011-D00SPO-0234.000   5/20/2011          Assessment of U.S. and Coalition Plans To Train, Equip, and Field the Afghan Air Force
                                                       Fees and Surcharges on Intragovernmental Orders Funded by Afghanistan Security Forces Fund
DoD OIG     D2011-D000FD-0121.000   3/30/2011
                                                       Appropriations




                                                      150                         SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




TABLE 4.2	 (CONTINUED)


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2012
Agency         Project Number                   Date Initiated     Project Title
DoS                                                                Audit of the Bureau of International Narcotics and Law Enforcement Affairs’ Correction System Support
               12AUD30                          12/2011
OIG-MERO                                                           Program in Afghanistan
GAO            351747                           6/11/2012          DoD’s Transition to the Afghan Public Protection Force
GAO            351742                           5/11/2012          Security Force Assistance Roles for DoD Forces
GAO            351743                           5/11/2012          Advisory Teams in Afghanistan
GAO            121049                           3/29/2012          Assessment of Joint Report on Contracting in Iraq and Afghanistan
GAO            121042                           2/2/2012           Recommendations of the Commission on Wartime Contracting
GAO            320889                           2/2/2012           Streamlining Aid to Afghanistan
GAO            351708                           2/1/2012           U.S. Capabilities to Support Afghanistan Security Transition
GAO            351688                           11/19/2011         DoD’s Preparations for Drawdown of Forces in Afghanistan
GAO            320856                           9/26/2011          Security Transition in Afghanistan
GAO            120976                           3/31/2011          State Contracting for Conflicted Countries
USAID OIG      FF101112                         5/1/2012           Audit of USAID/Afghanistan’s Kandahar Power Initiative
USAID OIG      FF100312                         5/1/2012           Audit of USAID/Afghanistan’s Performance-Based Governor’s Fund
USAID OIG      FF101812                         12/1/2011          Review of USAID/Afghanistan’s Monitoring and Evaluation System
                                                                   Review of USAID/Afghanistan’s Use of the Commander’s Emergency Response Program Funds for
USAID OIG      FF101712                         10/25/2011
                                                                   Selected Projects
Sources: DoD OIG, response to SIGAR data call, 6/21/2012; DoS OIG, response to SIGAR data call, 6/22/2012; GAO, response to SIGAR data call, 6/25/2012; USAAA, response to SIGAR data
call, 6/21/2012; USAID OIG, response to SIGAR data call, 6/19/2012.




Department of Defense Office of Inspector General
DoD continues to face many challenges in executing its OCO. DoD OIG
has identified priorities based on those challenges and high risks. In
FY 2012, DoD OIG continues to focus oversight on OCO with a majority
of its resources supporting operations in Afghanistan. The DoD OIG focus
in Afghanistan continues in the areas of the management and execution
of the Afghanistan Security Forces Fund, military construction, safety of
personnel, and the administration and oversight of contracts supporting
coalition forces.
   As billions of dollars continue to be spent in Afghanistan, a top prior-
ity will continue to be the monitoring and oversight of acquisition and
contracting processes focused on training, equipping, and sustaining the
ANSF. DoD OIG planned oversight efforts address the administration and
oversight of contracts for equipping the ANSF, such as rotary-wing aircraft,
airplanes, ammunition, radios, and night-vision devices. DoD OIG will also
continue to review and assess the Department’s efforts in managing and
executing contracts to train the ANP.
   As military construction continues in Afghanistan to build or renovate
new living areas, dining and recreation facilities, medical clinics, base
expansions, and police stations, DoD OIG will continue to provide aggres-
sive oversight of contract administration and military construction projects.




REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2012                                  151
OTHER AGENCY OVERSIGHT




DoD OIG will also continue to focus on the accountability of property,
such as contractor-managed, government-owned property and Army high-
demand items; the Department’s efforts to strengthen institutional capacity
at the Afghan Ministry of Defense; and financial management controls.
   DoD OIG–led Southwest Asia Joint Planning Group coordinates and
deconflicts Federal and DoD OCO–related oversight activities. DoD OIG
continues to work with the SIGAR as well as fellow Inspectors General and
Defense oversight community members to develop an FY 2013 strategic
audit plan for the entire IG community working in Afghanistan. This SIGAR-
led effort provides the Congress and key stakeholders with more effective
oversight of reconstruction programs.


Office of the Deputy Inspector General for Auditing
Ongoing Operation Enduring Freedom-related oversight addresses the
safety of personnel with regard to construction efforts; force protection
programs for U.S. personnel; accountability of property; improper pay-
ments; contract administration and management including construction;
oversight of the contract for training the Afghan police; logistical distribu-
tion within Afghanistan; health care; and acquisition planning and controls
over funding for Afghan security forces.

Availability of Spare Parts for the C-27A/G222
(Project No. D2012-D000AT-0170.000, Initiated May 11, 2012)
DoD OIG is determining whether the cost and availability of spare parts for
the C-27A/G222 will allow for continued sustainability of the aircraft for the
Afghan Air Force.

Oversight Processes and Procedures for the Afghan National
Police Mentoring/Training and Logistics Support Contract
(Project No. D2012-D000AS-0137.000, Initiated March 9, 2012)
DoD OIG is conducting the second in a series of audits on the ANP
Mentoring/Training and Logistics support contract. The overall objective
for the series of audits is to determine whether DoD officials are using
appropriate contracting processes to satisfy mission requirements and are
conducting appropriate oversight of the contract in accordance with federal
and DoD policies.
   For this audit DoD OIG will determine whether the Army, NTM-A/
CSTC-A, and DCMA had adequate oversight processes and procedures
for the contract. Additionally, DoD OIG will determine whether the Army,
NTM-A/CSTC-A, and DCMA conducted adequate contractor surveillance.
The first audit in this series is “Afghan National Police Mentoring/Training
and Logistics Support Contract,” Project Number D2011-D000AS-0271.000.




  152                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




Datron Radio Contracts To Support the
Afghan National Security Forces
(Project No. D2012-D000AT-0129.000, Initiated March 8, 2012)
DoD OIG is determining whether the U.S. Army Communications-
Electronics Command implemented effective policies and procedures for
awarding Datron radio contracts, negotiating fair and reasonable prices,
verifying timely deliveries, and establishing quality assurance measures in
accordance with applicable requirements.

Air Force Center for Engineering and the Environment’s
Contract Management and Oversight of Military
Construction Projects in Afghanistan
(Project No. D2012-D000JB-0126.000, Initiated March 8, 2012)
DoD OIG is determining whether Air Force Center for Engineering and
the Environment officials are providing effective oversight of construction
projects in Afghanistan. This is the second in a series of audits on contract
management and oversight of military construction projects in Afghanistan.
The first project, D2012-D000JB-0071.000, focuses on U.S. Army Corps of
Engineers contract management and oversight of military construction proj-
ects in Afghanistan.

U.S. and Coalition Efforts To Develop Leaders in the
Afghan National Army
(Project No. D2012-D00SPO-0090.000, Initiated February 28, 2012)
DoD OIG is assessing the sufficiency and effectiveness of the coalition’s
leader programs for developing ANA officers and non-commissioned
officers.

Technical Assessment of Military Construction
Compliance with Fire Suppression Standards at
Select Facilities in Afghanistan
(Project No. D2012-DT0TAD-0002.000, Initiated February 14, 2012)
DoD OIG is determining whether fire-suppression systems built by mili-
tary construction in selected U.S.-occupied facilities in Afghanistan are in
compliance with the U.S. Central Command Unified Facilities Criteria and
National Fire Protection Association standards. DoD OIG will assess U.S.-
occupied facilities at Kandahar Airfield, Bagram Airfield, Camp Eggers, and
other locations as necessary. The assessment will also report the status of
DoD OIG recommended corrective actions from previous fire-suppression
system assessments.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012              153
OTHER AGENCY OVERSIGHT




Technical Assessment of Military Construction Compliance
with Electrical Standards at Select Facilities in Afghanistan
(Project No. D2012-DT0TAD-0001.000, Initiated February 14, 2012)
DoD OIG is determining whether electrical systems built by military
construction in selected U.S.-occupied facilities in Afghanistan are in
compliance with United States Central Command Unified Facilities
Criteria and National Electrical Code standards. DoD OIG will assess
U.S.-occupied facilities at Kandahar Airfield, Bagram Airfield, Camp
Eggers, and other locations as necessary. DoD OIG will also assess the
status of DoD OIG–recommended corrective actions from previous elec-
trical system assessments.

Building Institutional Capacity Through the
Ministry of Defense Advisors Program
(Project No. D2012-D000JB-0093.000, Initiated January 11, 2012)
DoD OIG is determining whether the Ministry of Defense Advisors Program
is achieving its intended purpose. Specifically, DoD OIG will determine
whether the program’s goals, objectives, and resources are being managed
effectively and efficiently to achieve its intended results.

U.S. Efforts To Develop the Afghan National
Security Forces Command and Control System
(Project No. D2012-D00SPO-0085.000, Initiated January 6, 2012)
DoD OIG is determining whether DoD will complete development of
the ANSF Command and Control System by established end-state dates.
Specifically, DoD OIG will assess whether U.S. government and coalition
strategy, guidance, plans, and resources are adequate for the develop-
ment and operational implementation of an effective ANSF Command and
Control System.

Contract Management and Oversight of Military
Construction Projects in Afghanistan
(Project No. D2012-D000JB-0071.000, Initiated December 16, 2011)
DoD OIG is determining whether DoD is providing effective oversight of
military construction projects in Afghanistan. Specifically, DoD OIG will
determine whether DoD is properly monitoring contractor performance
during construction and adequately performing quality-assurance oversight
responsibilities.
   To provide command with timely and focused reports, this project has
been separated into two projects. The original project will focus on USACE
contract management and oversight of military construction projects in
Afghanistan. The second project, D2012-D000JB-0126.000, focuses on Air
Force Center of Environmental Excellence contract management and over-
sight of military construction projects in Afghanistan.




  154                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




Task Orders for Mi-17 Overhauls and Cockpit Modifications
(Project No. D2012-D000AS-0075.000, Initiated December 7, 2011)
DoD OIG is determining whether DoD officials properly awarded and
administered task orders for the overhaul and modification of Mi-17 aircraft
in accordance with federal and DoD regulations and policies. Contracting
officers issued the task orders under indefinite-delivery, indefinite-quantity
contract number W58RGZ-09-D-0130.

Afghanistan Rotary Wing Transport
Contracts for the U.S. Transportation Command
(Project No. D2012-D000AS-0031.000, Initiated November 17, 2011)
DoD OIG plans to conduct a series of audits relating to Afghanistan
rotary-wing transportation contracts to determine whether Transportation
Command officials are properly managing and administering the contracts
in accordance with Federal Acquisition Regulation and DoD guidance while
contracting for services performed in a contingency environment. For this
first audit in the planned series, DoD OIG will determine whether contract-
ing officials have adequate controls over the transportation of supplies,
mail, and passengers in Afghanistan.

Assessment of U.S. and Coalition Plans To Train,
Equip, and Field the Afghan Air Force
(Project No. D2011-D00SPO-0234.000, Initiated May 20, 2011)
DoD OIG is determining whether U.S. government and coalition forces’
goals, objectives, plans, and guidance to train, equip, and field a viable and
sustainable Afghan Air Force are prepared, issued, operative, and relevant.

Fees and Surcharges on Intragovernmental Orders
Funded by Afghanistan Security Forces Fund Appropriations
(Project No. D2011-D000FD-0121.000, Initiated March 30, 2011)
DoD OIG is determining what fees and surcharges DoD components charge
on intragovernmental orders funded by Afghanistan Security Forces Fund
appropriations. DoD OIG will also evaluate whether the cost data exists to
support those charges.


Department of State Office of Inspector
General–Middle East Regional Office
DoS OIG did not initiate any new projects this quarter related to
Afghanistan reconstruction.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                155
OTHER AGENCY OVERSIGHT




Audit of the Bureau of International Narcotics and
Law Enforcement Affairs’ Correction System Support
Program in Afghanistan
(Project No. 12AUD30, Initiated December 2011)
The audit objective is to evaluate the effectiveness of the INL Correction
System Support Program (CSSP) in building a safe, secure, and humane prison
system that meets international standards and Afghan cultural requirements.
Specifically, OIG will evaluate whether INL is achieving intended and sustain-
able results through the following CSSP components: training and mentoring;
capacity building; Counter-Narcotics Justice Center and Judicial Security Unit
compound operations and maintenance; Pol-i-Charkhi management and stabi-
lization team; Central Prison Directorate engagement and reintegration team;
and Kandahar expansion and support team.


Government Accountability Office
DoD’s Transition to the Afghan Public Protection Force
(Project No. 351747, Initiated June 11, 2012)
The Afghan Public Protection Force (APPF) began assuming security
responsibilities in March 2012. Key questions: (1) To what extent has DoD
developed cost estimates related to the transition to the APPF and what
actions are being taken to minimize costs? (2) To what extent has DoD iden-
tified and implemented oversight and management mechanisms to ensure
that the APPF and risk management companies are providing services
as agreed upon? (3) What impact(s) has the transition of convoy security
from private security contractors to the APPF had on DoD operations in
Afghanistan, and what actions, if any, has DoD taken to mitigate any nega-
tive impacts? (4) To what extent has DoD planned for the transition of static
security from private security contractors to the APPF, including the degree
to which DoD has developed base-security contingency plans?

Security Force Assistance Roles for DoD Forces
(Project No. 351742, Initiated May 11, 2012)
DoD plans to rely on special-operations forces to conduct security-force
assistance activities, while continuing to institutionalize these capabilities
within the general-purpose force. Objectives are to determine the extent
to which DoD has (1) delineated the roles and responsibilities of general-
purpose and special-operations forces; (2) distinguished between the types
of situations or environments where the respective types of forces would
be used to conduct security-force assistance activities; and (3) identified,




  156                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




synchronized, and prioritized the respective requirements and resource
needs for building the capabilities of both types of forces.

Advisory Teams in Afghanistan
(Project No. 351743, Initiated May 11, 2012)
Regarding the use of security-force assistance advisory teams in
Afghanistan, GAO is to determine the extent to which (1) DoD has defined
intended roles, missions, and command relationships for the advisory
teams; (2) the Marine Corps and Army have defined personnel, equip-
ment, and training requirements; (3) DoD plans to adjust its current use
of augmented brigade/regimental combat teams for advisory missions;
and (4) the Marine Corps and Army have been able to fill personnel and
equipment requirements for the advisory teams, including any impacts on
reported readiness.

Assessment of Joint Report on Contracting
in Iraq and Afghanistan
(Project No. 121049, Initiated March 29, 2012)
In response to a mandate in the National Defense Authorization Act for
Fiscal Year 2011, Section 835, GAO will (1) assess the data and data sources
used by DoD, DoS, and USAID to develop their annual joint report on
contracting in Iraq and Afghanistan; (2) review how DoD, DoS, and USAID
are using the data and data sources to manage, oversee, and coordinate
contracting in Iraq and Afghanistan; and (3) assess the departments’ and
agency’s plans for strengthening or improving common databases for track-
ing statutorily required information on contracts and associated personnel
with performance in Iraq and Afghanistan.

Recommendations of the Commission on Wartime Contracting
(Project No. 121042, Initiated February 2, 2012)
Key question: What actions have DoD, DoS, and USAID taken or planned to
address the final and special-report recommendations of the Commission
on Wartime Contracting in Iraq and Afghanistan?

Streamlining Aid to Afghanistan
(Project No. 320889, Initiated February 2, 2012)
Key questions: (1) To what extent do the development projects administered
by U.S. agencies in Afghanistan address similar objectives? (2) What mecha-
nisms do U.S. agencies use to coordinate planning and implementation of
these projects? (3) To what extent is there duplication in these projects?




REPORT TO THE UNITED STATES CONGRESS     I   JULY 30, 2012           157
OTHER AGENCY OVERSIGHT




U.S. Capabilities To Support Afghanistan Security Transition
(Project No, 351708, Initiated February 1, 2012)
Key questions: (1) What is the process for transitioning operational lead
security responsibility to the ANSF? (2) To what extent has DoD identified
the enabling capabilities that it will need to support the transition? (3) What
factors, if any, may affect DoD’s ability to provide these capabilities?

DoD’s Preparations for Drawdown of Forces in Afghanistan
(Project No. 351688, Initiated November 19, 2011)
Key questions: To what extent is DoD (1) prepared to execute drawdown of
forces and materiel in Afghanistan and (2) implement lessons learned from
Iraq as it prepares for the Afghanistan drawdown?

Security Transition in Afghanistan
(Project No. 320856, Initiated September 26, 2011)
Key questions: (1) What are the key elements of the framework established
to transition lead security responsibility to the Afghan National Security
Force (ANSF)? (2) What progress has been made in achieving the transition
of security responsibility to the ANSF?

State Contracting for Conflicted Countries
(Project No. 120976, Initiated March 31, 2011)
Key questions: (1) What is the extent and nature of DoS’s reliance on DoD
for acquisition support for Iraq and Afghanistan? (2) What factors led to this
reliance? (3) What efforts are under way to determine whether to continue
this reliance?


U.S. Army Audit Agency
This quarter, the USAAA has no ongoing audits related to reconstruction
initiatives.


U.S. Agency for International Development
Office of Inspector General
Audit of USAID/Afghanistan’s Kandahar Power Initiative
(Project No. FF10112, Initiated May 1, 2012)
Is the Kandahar Power Initiative meeting its main goals to increase the
supply and distribution of electrical power from Afghanistan’s South East
Power System, with particular emphasis given to the city of Kandahar, in
support of the U.S. government’s counterinsurgency strategy?




  158                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




Audit of USAID/Afghanistan’s Performance-Based
Governor’s Fund
(Project No. FF100312, Initiated May 1, 2012)
Objective: Did the design and implementation of the Performance Based
Governors’ Fund provide for capacity improvements so that governors and
their teams are better able to (1) meet operational and community outreach
needs, (2) enhance relationships with citizens, and (3) improve overall
management capacity?
   Note: USAID OIG has decided to scope back this audit, and plans in July
to issue a memorandum report that identifies the issues identified during
their preliminary field work.

Review of USAID/Afghanistan’s Monitoring
and Evaluation System
(Project No. FF101812, Initiated December 1, 2011)
Objective: to determine whether USAID/Afghanistan has a monitoring and
evaluation system to effectively manage selected program activities.

Review of USAID/Afghanistan’s Use of the Commander’s
Emergency Response Program Funds for Selected Projects
(Project No. FF101712, Initiated October 25, 2011)
Objective: To determine whether the Commander’s Emergency Response
Program (CERP) funds distributed by U.S. Forces - Afghanistan to USAID
for specific projects were used for their intended purposes, were in compli-
ance with applicable laws and regulations, and whether the costs charged
to CERP-funded projects were reasonable, allowable, and allocable.


U.S. Department of Defense Office
of Inspector General (DCIS)
The DCIS continues to conduct significant fraud and corruption investiga-
tions in Afghanistan and Southwest Asia. Currently, there are six DCIS
agents assigned to the International Contract Corruption Task Force in
three Afghanistan locations: Kabul, Bagram, and Kandahar airfields. The
DCIS continues to assign one special agent to Task Force 2010. The DCIS
and SIGAR are partnering with seven other agencies to conduct major fraud
and corruption investigations that affect DoD and Afghanistan recon-
struction programs. In addition to these forward-deployed special agents,
110 DCIS agents based in the United States and Europe are currently con-
ducting investigations related to fraud and corruption in Southwest Asia.
   As of June 30, 2012, DCIS has 118 open OCO investigations involving
Afghanistan. Of these open investigations, 26 are joint with SIGAR.
   As of June 30, 2012, DCIS has closed 130 OCO investigations involving
Afghanistan.




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2012             159
                                       The Official Seal of SIGAR
The Official Seal of SIGAR represents the coordination of efforts
 between the United States and Afghanistan to provide account-
    ability and oversight of reconstruction activities. The phrase
    along the top side of the seal’s center is in Dari and means
 “SIGAR.” The phrase along the bottom side of the seal’s center
                        is in Pashtu and has the same meaning.




                                                160                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       161
                                   APPENDICES




                                   APPENDIX A
                                   CROSS-REFERENCE OF REPORT TO
                                   STATUTORY REQUIREMENTS
                                   This appendix cross-references the pages of this report to the quarterly
                                   reporting and related requirements under SIGAR’s enabling legislation, the
                                   National Defense Authorization Act for Fiscal Year 2008, P.L. No. 110-181,
                                   § 1229 (Table A.1).

TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                SIGAR Action                       Report Section
Purpose
Section 1229(a)(3)      To provide for an independent and objective means of keeping           Ongoing; quarterly report          Full report
                        the Secretary of State and the Secretary of Defense fully and
                        currently informed about problems and deficiencies relating to the
                        administration of such programs and operations and the necessity
                        for and progress on corrective action.
Supervision
Section 1229(e)(1)      The Inspector General shall report directly                            Report to the Secretary of State   Full report
                        to, and be under the general supervision                               and the Secretary of Defense
                        of, the Secretary of State and the Secretary of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                              Review appropriated/               Full report
                        It shall be the duty of the Inspector General to conduct, supervise,   available funds
                        and coordinate audits and investigations of the treatment,
                        handling, and expenditure of amounts appropriated or otherwise         Review programs, operations,
                        made available for the reconstruction of Afghanistan, and of the       contracts using appropriated/
                        programs, operations, and contracts carried out utilizing such         available funds
                        funds, including subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expenditure of      Review obligations and             SIGAR Oversight
                        such funds                                                             expenditures of appropriated/      Funding
                                                                                               available funds
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded by       Review reconstruction activities   SIGAR Oversight
                        such funds                                                             funded by appropriations and
                                                                                               donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds            Review contracts using             Note 1
                                                                                               appropriated and available
                                                                                               funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and            Review internal and external       Appendix B
                        associated information between and among departments,                  transfers of appropriated/
                        agencies, and entities of the United States, and private and           available funds
                        nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facilitate      Maintain audit records             SIGAR Oversight
                        future audits and investigations of the use of such fund[s]                                               Appendix C
                                                                                                                                  Appendix D




                                      162                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section              SIGAR Enabling Language                                                 SIGAR Action                       Report Section
Section 1229(f)(1)(F)           The monitoring and review of the effectiveness of United States         Monitoring and review              Audits
                                coordination with the Governments of Afghanistan and other donor        as described
                                countries in the implementation of the Afghanistan Compact and
                                the Afghanistan National Development Strategy
Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate payments            Conduct and reporting of           Investigations
                                or duplicate billing and any potential unethical or illegal actions     investigations as described
                                of Federal employees, contractors, or affiliated entities, and the
                                referral of such reports, as necessary, to the Department of Justice
                                to ensure further investigations, prosecutions, recovery of further
                                funds, or other remedies.
Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                     Establish, maintain, and           Full report
                                The Inspector General shall establish, maintain, and oversee            oversee systems, procedures,
                                such systems, procedures, and controls as the Inspector General         and controls
                                considers appropriate to discharge the duties under paragraph (1)
Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL ACT                 Duties as specified in Inspector   Full report
                                OF 1978 —                                                               General Act
                                In addition,. . .the Inspector General shall also have the duties and
                                responsibilities of inspectors general under the Inspector General
                                Act of 1978
Section 1229(f)(4)              COORDINATION OF EFFORTS —                                               Coordination with the              Other Agency
                                The Inspector General shall coordinate with, and receive the            inspectors general of              Oversight
                                cooperation of, each of the following: (A) the Inspector General        DoD, DoS, and USAID
                                of the Department of Defense, (B) the Inspector General of the
                                Department of State, and (C) the Inspector General of the United
                                States Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                      Expect support as                  Full report
                                Upon request of the Inspector General for information or                requested
                                assistance from any department, agency, or other entity of the
                                Federal Government, the head of such entity shall, insofar as is
                                practicable and not in contravention of any existing law, furnish
                                such information or assistance to the Inspector General, or an
                                authorized designee
Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                       None reported                      N/A
                                Whenever information or assistance requested by the Inspector
                                General is, in the judgment of the Inspector General, unreasonably
                                refused or not provided, the Inspector General shall report the
                                circumstances to the Secretary of State or the Secretary of
                                Defense, as appropriate, and to the appropriate congressional
                                committees without delay.
Reports




REPORT TO THE UNITED STATES CONGRESS              I   JULY 30, 2012                                    163
                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                  SIGAR Action                     Report Section
Section 1229(i)(1)      QUARTERLY REPORTS —                                                      Report – 30 days after the       Full report
                        Not later than 30 days after the end of each fiscal-year quarter,        end of each calendar quarter     Appendix B
                        the Inspector General shall submit to the appropriate commit-
                        tees of Congress a report summarizing, for the period of that            Summarize activities of the
                        quarter and, to the extent possible, the period from the end of          Inspector General
                        such quarter to the time of the submission of the report, the
                        activities during such period of the Inspector General and the           Detailed statement of all
                        activities under programs and operations funded with amounts             obligations, expenditures, and
                        appropriated or otherwise made available for the reconstruction of       revenues
                        Afghanistan. Each report shall include, for the period covered by
                        such report, a detailed statement of all obligations, expenditures,
                        and revenues associated with reconstruction and rehabilitation
                        activities in Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds               Obligations and expenditures     Appendix B
                                                                                                 of appropriated/donated
                                                                                                 funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program accounting of the            Project-by-project and           Funding
                        costs incurred to date for the reconstruction of Afghanistan,            program-by-program account-      Note 1
                        together with the estimate of the Department of Defense,                 ing of costs. List unexpended
                        the Department of State, and the United States Agency for                funds for each project or
                        International Development, as applicable, of the costs to com-           program
                        plete each project and each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by              Revenues, obligations, and       Funding
                        foreign nations or international organizations to programs and           expenditures of donor funds
                        projects funded by any department or agency of the United States
                        Government, and any obligations or expenditures of
                        such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized or       Revenues, obligations, and       Funding
                        frozen that contribute to programs and projects funded by any            expenditures of funds from
                        U.S. government department or agency, and any obligations or             seized or frozen assets
                        expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts             Operating expenses of            Funding
                        appropriated or otherwise made available for the reconstruction          agencies or any organization     Appendix B
                        of Afghanistan                                                           receiving appropriated funds
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or other funding          Describe contract details        Note 1
                        mechanism described in paragraph (2)* —
                        (i) The amount of the contract or other funding mechanism;
                        (ii) A brief discussion of the scope of the contract or other funding
                        mechanism;
                        (iii) A discussion of how the department or agency of the United
                        States Government involved in the contract, grant, agreement,
                        or other funding mechanism identified and solicited offers from
                        potential contractors to perform the contract, grant, agreement, or
                        other funding mechanism, together with a list of the potential indi-
                        viduals or entities that were issued solicitations for the offers; and
                        (iv) The justification and approval documents on which was based
                        the determination to use procedures other than procedures that
                        provide for full and open competition




                                       164                          SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                  APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section                       SIGAR Enabling Language                                                    SIGAR Action                          Report Section
Section 1229(i)(3)                       PUBLIC AVAILABILITY —                                                      Publish report as directed at         Full report
                                         The Inspector General shall publish on a publically-available              www.sigar.mil
                                         Internet website each report under paragraph (1) of this subsec-
                                                                                                                    Dari and Pashtu translation
                                         tion in English and other languages that the Inspector General
                                                                                                                    in process
                                         determines are widely used and understood in Afghanistan
Section 1229(i)(4)                       FORM —                                                                     Publish report as directed            Full report
                                         Each report required under this subsection shall be submitted
                                         in unclassified form, but may include a classified annex if the
                                         Inspector General considers it necessary
Section 1229(j)(1)                       Inspector General shall also submit each report required under             Submit quarterly report               Full report
                                         subsection (i) to the Secretary of State and the Secretary of
                                         Defense.
Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being
reviewed, analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use
of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes: To build
or rebuild physical infrastructure of Afghanistan.

To establish or reestablish a political or societal institution of Afghanistan.

To provide products or services to the people of Afghanistan.”




REPORT TO THE UNITED STATES CONGRESS                         I   JULY 30, 2012                                  165
                                                            APPENDICES



                                                            APPENDIX B
                                                            U.S. FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
                                                            Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                            per year, as of June 30, 2012.
                                                            TABLE B.1

                                                             U.S. FUNDING SOURCES                                                AGENCY          TOTAL
                                                             SECURITY
                                                               Afghanistan Security Forces Fund (ASFF)                           DoD           50,625.70
                                                               Train & Equip (DoD)                                               DoD              440.00
                                                               Foreign Military Financing (FMF)                                  DoS            1,059.14
                                                               International Military Education and Training (IMET)              DoS               12.68
                                                               NDAA Section 1207 Transfer                                        Other              9.90
                                                             Total - Security                                                                 52,147.42
                                                             GOVERNANCE & DEVELOPMENT
                                                               Commander's Emergency Response Program (CERP)                     DoD            3,439.00
                                                               Afghanistan Infrastructure Fund (AIF)                             DoD              800.00
                                                               Task Force for Business and Stability Operations (TFBSO)          DoD              571.12
                                                               Economic Support Fund (ESF)                                       USAID         14,953.44
                                                               Development Assistance (DA)                                       USAID            883.65
                                                               Afghanistan Freedom Support Act (AFSA)                            DoD              550.00
                                                               Child Survival & Health (CSH + GHAI)                              USAID            554.28
                                                               Commodity Credit Corp (CCC)                                       USAID             31.65
                                                               USAID (other)                                                     USAID             45.75
                                                               Non-Proliferation, Antiterrorism, Demining & Related (NADR)       DoS              505.51
                                                               Provincial Reconstruction Team Advisors                           USDA               5.70
                                                               Treasury Technical Assistance                                     Treasury           4.45
                                                             Total - Governance & Development                                                 22,344.54
                                                             COUNTER-NARCOTICS
                                                               International Narcotics Control & Law Enforcement (INCLE)         DoS            3,561.56
                                                               Drug Interdiction & Counter-Drug Activities (DoD CN)              DoD            2,312.02
                                                               Drug Enforcement Administration (DEA)                             DoJ              127.37
                                                             Total - Counter-Narcotics                                                         6,000.95
                                                             HUMANITARIAN
                                                               P.L. 480 Title I                                                  USDA               5.00
                                                               P.L. 480 Title II                                                 USAID            716.71
                                                               Disaster Assistance (IDA)                                         USAID            487.83
                                                               Transition Initiatives (TI)                                       USAID             36.02
                                                               Migration & Refugee Assistance (MRA)                              DoS              754.05
                                                               Voluntary Peacekeeping (PKO)                                      DoS               69.33
                                                               Emergency Refugee & Migration Assistance (ERMA)                   DoS               25.20
Note: Numbers affected by rounding. Updated data from          Food for Progress                                                 USDA             109.49
responding agencies resulted in changes to amounts previ-
ously reported for FY 2006 and the prior quarter.
                                                               416(b) Food Aid                                                   USDA              95.18
                                                               Food for Education                                                USDA              50.49
Sources: DoD, responses to SIGAR data call, 7/20/2012,         Emerson Trust                                                     USDA              22.40
7/18/2012, 7/16/2012, 7/2/2012, 6/26/2012,
10/14/2009, and 10/1/2009; DoS, responses to SIGAR           Total - Humanitarian                                                              2,371.70
data call, 7/13/2012, 7/6/2012, and 6/27/2012;
Treasury, response to SIGAR data call, 7/20/2012;            INTERNATIONAL AFFAIRS OPERATIONS
OMB, response to SIGAR data call, 4/17/2012; USAID,          Oversight                                                                            172.60
responses to SIGAR data call, 6/28/2012, 10/15/2010,
1/15/2010, and 10/9/2009; DoJ, response to SIGAR             Other                                                                              6,442.40
data call, 7/7/2009; USDA, response to SIGAR data
call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10,
                                                             Total - International Affairs Operations                                          6,615.00
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,           TOTAL FUNDING                                                                    89,479.61
12/19/2009; FY 2010 Defense Explanatory Statement.




                                                              166                        SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                       APPENDICES




  FY 2002     FY 2003    FY 2004     FY 2005       FY 2006     FY 2007 FY 2008          FY 2009      FY 2010      FY 2011      FY 2012

       0.00       0.00       0.00       968.18      1,908.13     7,406.40    2,750.00     5,606.94     9,166.77    11,619.28 11,200.00
       0.00       0.00     150.00       290.00          0.00         0.00        0.00         0.00         0.00         0.00      0.00
      57.26     191.00     414.08       396.80          0.00         0.00        0.00         0.00         0.00         0.00      0.00
       0.18       0.39       0.67         0.95          0.98         1.19        1.66         1.40         1.76         1.56      1.95
       0.00       0.00       0.00         0.00          0.00         0.00        9.90         0.00         0.00         0.00      0.00
     57.44     191.39     564.75     1,655.93      1,909.11     7,407.59    2,761.56     5,608.34     9,168.53    11,620.84 11,201.95

       0.00       0.00       40.00      136.00        215.00       209.00      488.33       550.67     1,000.00       400.00       400.00
       0.00       0.00        0.00        0.00          0.00         0.00        0.00         0.00         0.00       400.00       400.00
       0.00       0.00        0.00        0.00          0.00         0.00        0.00        15.00        59.26       239.24       257.62
     117.51     239.29      893.87    1,280.56        473.39     1,210.71    1,399.51     2,088.32     3,346.00     2,067.51     1,836.76
      18.30      42.54      153.14      169.56        183.96       166.81      148.65         0.40         0.30         0.00         0.00
       0.00     165.00      135.00      250.00          0.00         0.00        0.00         0.00         0.00         0.00         0.00
       7.52      49.68       33.40       38.00         41.45       100.77       63.02        58.23        92.30        69.91         0.00
       7.48       1.33        0.00        0.00          0.00         0.00       10.77         4.22         4.22         3.09         0.55
       0.00       0.50        5.00        0.00          0.00         0.00       20.37         3.55         2.90         6.25         7.18
      44.00      34.70       66.90       38.20         18.20        36.60       26.60        48.60        57.66        69.30        64.75
       0.00       0.00        0.00        0.00          0.00         0.00        0.00         5.70         0.00         0.00         0.00
       0.90       1.00        0.06        0.95          0.19         0.13        0.75         0.47         0.00         0.00         0.00
    195.71     534.04    1,327.37    1,913.27        932.19     1,724.02    2,158.00     2,775.16     4,562.63     3,255.29     2,966.86

      60.00      0.00      220.00       709.28        215.97      251.74      307.57       484.00       589.00       400.00       324.00
       0.00      0.00       71.80       224.54        108.05      290.97      192.81       230.06       392.27       376.53       424.99
       0.58      2.87        3.72        16.77         23.66       20.38       40.59        18.80         0.00         0.00         0.00
     60.58       2.87     295.52       950.59        347.68      563.09      540.97       732.86       981.27       776.53       748.99

       0.00       5.00       0.00         0.00          0.00        0.00        0.00         0.00         0.00         0.00         0.00
     159.50      46.10      49.20        56.60         60.00       60.00      177.00        65.41        27.40        15.50         0.00
     197.09      85.52      11.16         4.22          0.04        0.03       16.90        27.16        29.84        66.74        49.12
       8.07      11.69      11.22         1.60          0.00        0.00        0.00         0.75         0.89         1.13         0.67
     135.47      61.50      63.30        47.10         41.80       53.80       44.25        76.79        81.48        65.00        83.56
      23.93       9.90      20.00        15.50          0.00        0.00        0.00         0.00         0.00         0.00         0.00
      25.00       0.00       0.00         0.00          0.00        0.00        0.00         0.20         0.00         0.00         0.00
       0.00       4.96       9.08        30.10         23.24        9.47       20.55        12.09         0.00         0.00         0.00
      46.46      14.14      34.58         0.00          0.00        0.00        0.00         0.00         0.00         0.00         0.00
       0.00       9.27       6.12        10.02         25.08        0.00        0.00         0.00         0.00         0.00         0.00
       0.00       0.00       0.00         0.00          0.00        0.00       22.40         0.00         0.00         0.00         0.00
    595.52     248.08     204.66       165.14        150.16      123.30      281.10       182.40       139.61       148.37       133.35

       0.00       0.00       0.00         0.00          0.00        2.50       14.30         25.20        34.40       37.20        59.00
     155.60      35.30     207.60       136.10        131.90      207.80      434.40      1,060.70     1,761.70      905.10     1,406.20
    155.60      35.30     207.60       136.10        131.90      210.30      448.70      1,085.90     1,796.10      942.30     1,465.20
   1,064.85   1,011.68   2,599.90    4,821.03      3,471.04    10,028.31    6,190.33    10,384.66    16,648.14    16,743.32    16,516.35




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2012                        167
APPENDICES




APPENDIX C
SIGAR AUDITS
Completed Audits
SIGAR completed four audits during this reporting period, as listed in
Table C.1.

TABLE C.1


COMPLETED SIGAR AUDITS AS OF JULY 30, 2012
Report Identifier    Report Title                                                              Date Issued
SIGAR Audit 12-13 Selected Public-Diplomacy Awards Mostly Achieved Objectives, but                7/2012
                  Embassy Can Take Steps to Enhance Grant Management and Oversight
SIGAR Audit 12-12 Delays in Project Implementation and Insufficient Sustainment Planning          7/2012
                  Put Afghanistan Infrastructure Fund at Risk for Waste
SIGAR Audit 12-11 Progress Made Toward Increased Stability under USAID’s Afghanistan              6/2012
                  Stabilization Initiative-East Program, but Transition to Long-Term
                  Development Efforts Not Yet Achieved
SIGAR Audit 12-10 Increases in Security Costs Are Likely under the Afghan Public Protection       6/2012
                  Force; USAID Needs to Monitor Costs and Ensure Unlicensed Security
                  Providers Are Not Used




New Audits
SIGAR initiated five audits during this reporting period, as listed in
Table C.2.

TABLE C.2


NEW SIGAR AUDITS AS OF JULY 30, 2012
Audit Identifier     Project Title                                                             Date Initiated
                     U.S. Government Efforts to Assist in the Commercialization of the
SIGAR 063A                                                                                        7/2012
                     Afghanistan Electricity Utility—Da Afghanistan Breshna Sherkat (DABS)
SIGAR 064A           Air-Mobility Support for Afghan Drug Interdiction Operations                 7/2012
                     Tariffs, Taxes, or other Fees Imposed by the Government of the Islamic
SIGAR 060A           Republic of Afghanistan on U.S. Contractors Conducting Reconstruction        6/2012
                     Activities in Afghanistan
SIGAR 057A           USAID Procedures for Controlling Non-expendable Property in Afghanistan      5/2012
                     USAID Planning for Sustainability of its Development Programs in
SIGAR 056A                                                                                        5/2012
                     Afghanistan




  168                        SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                     APPENDICES




Ongoing Audits
SIGAR had five audits in progress during this reporting period, as listed in
Table C.3.

TABLE C.3


ONGOING SIGAR AUDITS AS OF JULY 30, 2012
Audit Identifier    Project Title                                                             Date Initiated
                    USAID’s Southern Region Agricultural Development Project’s Partnership
SIGAR 058A                                                                                        4/2012
                    with International Relief and Development, Inc.
                    Construction of the 3rd Brigade, 207th Afghan Army Corps Garrison in
SIGAR 055A                                                                                        3/2012
                    Badghis Province
                    Afghan National Army (ANA) Logistics Capability for Petroleum, Oil, and
SIGAR 054A                                                                                        2/2012
                    Lubricants
                    Oversight and Costs Associated with the Afghan-Technical Equipment
SIGAR 052A                                                                                        1/2012
                    Maintenance Program (A-TEMP) for the ANP
                    USACE Operations and Maintenance Contracts with ITT Systems
SIGAR 049A                                                                                        7/2011
                    Corporation for ANSF Facilities




Forensic Audits
SIGAR continued work on three forensic audits during this reporting
period, as listed in Table C.4.

TABLE C.4


SIGAR FORENSIC AUDITS AS OF JULY 30, 2012
Audit Identifier   Project Title                                                              Date Initiated
SIGAR-027A         Forensic Review of DoS Transaction Data Related to Afghanistan
                                                                                                  6/2010
                   Reconstruction
SIGAR-026A         Forensic Review of USAID Transaction Data Related to Afghanistan
                                                                                                  6/2010
                   Reconstruction
SIGAR-022A         Forensic Review of DoD Transaction Data Related to Afghanistan
                                                                                                  2/2010
                   Reconstruction




REPORT TO THE UNITED STATES CONGRESS               I   JULY 30, 2012                                169
APPENDICES




SIGAR INSPECTIONS
Completed Inspections
SIGAR completed one inspection during this reporting period, as listed in
Table C.5.

TABLE C.5


COMPLETED SIGAR INSPECTIONS AS OF JULY 30, 2012
Report
Identifier         Report Title                                                            Date Issued
SIGAR Inspection Construction Deficiencies at Afghan Border Police Bases Put $19 Million     7/2012
12-01            Investment at Risk




Ongoing Inspections
SIGAR continued work on three inspections during this reporting period, as
listed in Table C.6.

TABLE C.6


ONGOING SIGAR INSPECTIONS AS OF JULY 30, 2012
Inspection
Identifier         Project Title                                                           Date Initiated
SIGAR 1004         Wardak ANP Training Center (USACE)                                         1/2012
SIGAR 1002         Jalalabad ANA Garrison (USACE)                                             1/2012
SIGAR 1001         Kunduz ANA Facility−2/209th Headquarters (USACE)                           1/2012




  170                        SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                                                                            APPENDICES




APPENDIX D                                                                                              FIGURE D.1

                                                                                                       SIGAR INVESTIGATIONS: NEW INVESTIGATIONS,
SIGAR INVESTIGATIONS AND HOTLINE                                                                       SIGAR1–JUNE
                                                                                                       APRIL  INVESTIGATIONS:
                                                                                                                    30, 2012 NEW INVESTIGATIONS,
                                                                                                        APRIL 1–JUNE 30, 2012
SIGAR Investigations                                                                                                            Total: 25
This quarter, SIGAR opened 25 new investigations and closed 1, bringing
the total number of open investigations to 188. Of the new investigations,
most involved procurement fraud, public corruption, and bribery, as shown                                                       Public
                                                                                                                                Corruption/
in Figure D.1. The case that was closed was merged with an existing                                                             Bribery
                                                                                                                    Procurement
investigation.                                                                                                                  7
                                                                                                                    Fraud
                                                                                                                    10

                                                                                                                                                     Miscellaneous
SIGAR Hotline                                                                                                                                        Criminal Activity
                                                                                                                                                     3
                                                                                                        Assessments
Of the 35 Hotline complaints received this quarter, most were received by                               1                                        Civil Investigations
email, web, or fax, as shown in Figure D.2. Of these complaints, most were                                  Theft of Property                    2
                                                                                                            and Services
closed, as shown in Figure D.3.                                                                             2

                                                                                                       Source: SIGAR Investigations Directorate, 7/10/2012.
                                                                                                        Source: SIGAR Investigations Directorate, 7/10/2012.

SIGAR Suspensions and Debarments
As of June 30, 2012, SIGAR’s referrals for suspension and debarment had
resulted in 35 suspensions and 38 debarments, as shown in Table D.1 on the
following page.
                                                                                                        FIGURE D.2

                                                                                                       SOURCE OF SIGAR HOTLINE COMPLAINTS,
FIGURE D.3                                                                                              SOURCE OF SIGAR HOTLINE COMPLAINTS,
STATUS OF SIGAR HOTLINE COMPLAINTS,                                                                    APRIL  1–JUNE 30, 2012
APRIL 1–JUNE 30, 2012                                                                                   APRIL 1–JUNE 30, 2012
STATUS OF SIGAR HOTLINE COMPLAINTS, APRIL 1–JUNE 30, 2012
                                                                                                                                  Total: 35
                                                                          Total: 35


                           Closed                                                                 25
                                                                                                                             Electronic
                                                                                                                             (email, web, or fax)
         Opened as Investigation                    4                                                                        32

                    Under Review                3


                     Referred Out           2
                                                                                                              Written                               Phone
                                        1                                                                     (not email)                           2
Opened as Complaint Assistance
                                                                                                              1
                                    0                   5            10           15   20     25
                                                                                                       Source:
                                                                                                        Source:SIGAR
                                                                                                                SIGARInvestigations
                                                                                                                      InvestigationsDirectorate,
                                                                                                                                     Directorate,7/10/12.
                                                                                                                                                  7/10/2012.
Source: SIGAR Investigations Directorate, 7/5/2012.
Source: SIGAR Investigations Directorate, 7/5/2012.




REPORT TO THE UNITED STATES CONGRESS                        I   JULY 30, 2012               171
APPENDICES




TABLE D.1


SUSPENSIONS AND DEBARMENTS AS OF JUNE 30, 2012
 Suspensions                                         Debarments
 Al-Watan Construction Company                       Farooqi, Hashmatullah
 Basirat Construction Firm                           Hamid Lais Construction Company
 Brophy, Kenneth                                     Hamid Lais Group
 Naqibullah, Nadeem                                  Lodin, Rohullah Farooqi
 Rahman, Obaidur                                     Bennett & Fouch Associates, LLC
 Campbell, Neil Patrick                              Brandon, Gary
 Borcata, Raul A.                                    K5 Global
 Close, Jarred Lee                                   Ahmad, Noor
 Logistical Operations Worldwide                     Noor Ahmad Yousufzai Construction Company
 Robinson, Franz Martin                              Ayeni, Sheryl Adenike
 Taylor, Zachery Dustin                              Cannon, Justin
 Aaria Group Construction Company                    Constantino, April Anne
 Aaria Group                                         Constantino, Dee
 Aaria Herai General Trading                         Constantino, Ramil Palmes
 Aaria M.E. General Trading LLC                      Crilly, Braam
 Aaria Middle East                                   Drotleff, Christopher
 Aaria Middle East Company LLC                       Fil-Tech Engineering and Construction Company
 Aaria Middle East Company Ltd. – Heart              Handa, Sidharth
 Aaria Supplies Company LTD                          Jabak, Imad
 Aaria Supply Services and Consultancy               Jamally, Rohullah
 Aftech International                                Khalid, Mohammad
 Aftech International Pvt., Ltd.                     Khan, Daro
 Alam, Ahmed Farzad                                  Mariano, April Anne Perez
 Albahar Logistics                                   McCabe, Elton Maurice
 American Aaria Company LLC                          Mihalczo, John
 American Aaria LLC                                  Qasimi, Mohammed Indress
 Barakzai, Nangialai                                 Radhi, Mohammad Khalid
 Formid Supply and Services                          Safi, Fazal Ahmed
 Greenlight General Trading                          Shin Gul Shaheen, a.k.a. “Sheen Gul Shaheen”
 Kabul Hackle Logistics Company                      Espinoza-Loor, Pedro Alfredo
 Sharpway Logistics                                  Campbell, Neil Patrick
 United States California Logistics Company          Hazrati, Arash
 Yousef, Najeebullah                                 Midfield International
 Rahimi, Mohammad Edris                              Moore, Robert G.
 Wooten, Philip Steven                               Noori, Noor Alam, a.k.a. “Noor Alam"
                                                     Northern Reconstruction Organization
                                                     Shamal Pamir Building and Road Construction
                                                     Company
                                                     Wade, Desi D.




  172                              SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                                  APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS
ACRONYM OR
ABBREVIATION      DEFINITION
AAF               Afghan Air Force
ABP               Afghan Border Police
ACSS              Afghanistan Civil Service Support
ADB               Asian Development Bank
AGO               Attorney General’s Office
AIF               Afghanistan Infrastructure Fund
AIHRC             Afghanistan Independent Human Rights Commission
AIP               Afghanistan Infrastructure Program
ALP               Afghan Local Police
AMMOA             Association of Mobile Money Operators of Afghanistan
ANA               Afghan National Army
ANP               Afghan National Police
ANSF              Afghan National Security Forces
APAP              Afghanistan Parliamentary Assistance Program
APPF              Afghan Public Protection Force
APRP              Afghan Peace and Reintegration Plan
ARTF              Afghanistan Reconstruction Trust Fund
ASFF              Afghanistan Security Forces Fund
ASI               Afghanistan Stabilization Initiative
ASYCUDA           Automated System for Customs Data
A-TEMP            Afghanistan-Technical Equipment Maintenance Program
AWCC              Afghan Wireless Communications Co.
AWDP              Afghanistan Workforce Development Program
CAA               Civil Aviation Authority (Afghan)
CECOM             U.S. Army Communications – Electronics Command
CERP              Commander’s Emergency Response Program
CFSOCC-A          Combined Forces Special Operations Component Command - Afghanistan
CIA               Central Intelligence Agency (U.S.)
CID               Criminal Investigative Command (formerly Division) (U.S. Army)
CITF              Criminal Investigation Task Force (U.S. Army)
CJIATF            Combined Joint Interagency Task Force
CM                Capability Milestone
CMS               Case Management System
CNG               compressed natural gas
CNPA              Counter-Narcotics Police - Afghanistan
COIN              counter-insurgency
CSIS              Center for Strategic and International Studies
CSO               Central Statistics Organization (Afghan)
CSSP              Correctional System Support Program




REPORT TO THE UNITED STATES CONGRESS           I   JULY 30, 2012                       173
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
CSTC-A         Combined Security Transition Command - Afghanistan
CUAT           Commander’s Unit Assessment Tool
DAB            Da Afghanistan Bank
DABS           Afghan national utility company
DAI            Development Alternatives Inc.
DCHA           Bureau for Democracy, Conflict, and Humanitarian Assistance (U.S.)
DCMA           Defense Contract Management Agency
DCIS           Defense Criminal Investigative Service
DEA            Drug Enforcement Administration (U.S.)
DoD            Department of Defense (U.S.)
DoD CN         Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S)
DoD OIG        Department of Defense Office of Inspector General
DoS            Department of State (U.S.)
DoS OIG        DoS Office of Inspector General
DoT            Department of Transportation (U.S.)
DSCA           Defense Security Cooperation Agency
DSF            District Stability Framework
DST            District Support Team
ECF            Extended Credit Facility
ESF            Economic Support Fund
EU             European Union
FBI            Federal Bureau of Investigation (U.S)
FDRC           Financial Disputes Resolution Commission
FEWS Net       Famine Early Warning Systems Network
FOB            Forward Operating Base
G-8            Group of Eight
GAO            Government Accountability Office (U.S.)
GDP            gross domestic product
HOO            High Office of Oversight for Anti-Corruption (Afghan)
HREBGI         Human Rights, Ethnic Balancing, and Gender Integration (ANA Office)
IARCSC         Independent Administrative Reform and Civil Service Commission
ICAO           International Civil Aviation Organization
ICCTF          International Contract Corruption Task Force
ICT            information and communication technologies
IDEA-NEW       Incentives Driving Economic Alternatives for North, East, and West
IDLG           Independent Directorate of Local Governance (Afghan)
IEC            Independent Election Commission (Afghan)
IG             inspector general
IJC            International Security Assistance Force Joint Command
IMF            International Monetary Fund
INCLE          International Narcotics Control and Law Enforcement (U.S)
INL            Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
IRD            International Reconstruction and Development Inc.




  174              SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                    APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
ISAF              International Security Assistance Force
ISMA              involuntary separate maintenance allowance
JSSP              Justice Sector Support Program
KESIP             Kabul Electricity Services Improvement Project
LARA              Land Reform in Afghanistan
LOTFA             Law and Order Trust Fund for Afghanistan
MCC               China Metallurgical Group Corporation
MCIT              Ministry of Communications and Information Technology (Afghan)
MCTF              Major Crimes Task Force (Afghan)
MIDAS             Mining Investment and Development for Afghan Sustainability
MNNA              Major Non-NATO Ally
MoD               Ministry of Defense (Afghan)
MoF               Ministry of Finance (Afghan)
MoI               Ministry of Interior (Afghan)
MoJ               Ministry of Justice (Afghan)
MoM               Ministry of Mines
MoRR              Ministry of Refugees and Repatriation
MoTCA             Ministry of Transportation and Civil Aviation (Afghan)
MOU               memorandum of understanding
MRRD              Ministry of Rural Rehabilitation and Development (Afghan)
NATO              North Atlantic Treaty Organization
NDS               National Directorate of Security
NGO               non-governmental organization
NKB               New Kabul Bank
NMAA              National Military Academy of Afghanistan
NSC               National Security Council
NTM-A             NATO Training Mission - Afghanistan
NVD               night-vision device
O&M               operations and maintenance
OCO               Overseas Contingency Operations
OSI               U.S. Air Force Office of Special Investigations
OTA               Office of Technical Assistance (U.S. Treasury)
OTI               Office of Transition Initiatives
OVERLORD          Operational Verification of Reliable Logistics Oversight Database
P.L.              Public Law
PAS               Public Affairs Section (U.S. Embassy Kabul)
PJST              Provincial Joint Secretariat Team (Afghan)
PM/WRA            Bureau of Political-Military Affairs - Office of Weapons Removal and Abatement (Afghan)
PPC               Provincial Peace Council
PRT               Provincial Reconstruction Team
PSC               private security contractor
PTEC              Power Transmission Expansion and Connectivity
RC                Regional Command (ISAF)




REPORT TO THE UNITED STATES CONGRESS              I   JULY 30, 2012                            175
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
RC Window      Recurrent Cost Window
RICO           Racketeer Influenced and Corrupt Organizations Act
RMC            risk-management company
SIGAR          Special Inspector General for Afghanistan Reconstruction
SOAG           Strategic Objective Grant Agreement
USACE          U.S. Army Corps of Engineers
SCIP           Security Cooperation Information Portal
STEP           Support to the Elections Process
SY             solar year
TFBSO          Task Force for Business and Stability Operations in Afghanistan
UN             United Nations
UNHCR          UN High Commissioner for Refugees
UNODC          UN Office on Drugs and Crime
USAAA          U.S. Army Audit Agency
USACE          U.S. Army Corps of Engineers
USACE-TAN      U.S. Army Corps of Engineers-Transatlantic Afghanistan North
USAID          U.S. Agency for International Development
USAID OIG      USAID Office of Inspector General
USDA           U.S. Department of Agriculture
USFOR-A        U.S. Forces - Afghanistan
UXO            unexploded ordnance
WFP            World Food Program
WSIS           World Summit on the Information Society
WTO            World Trade Organization




 176              SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




1.	    Remarks by President Obama at the ISAF Meeting on                   30.	 U.S. Senate Committee on Armed Services, press release,
       Afghanistan, 5/21/2012.                                                  “Senate Passes Ike Skelton National Defense Authorization
2.	    “Enduring Strategic Partnership Agreement Between                        Act for Fiscal Year 2011,” 12/22/2010.
       the United States of America and the Islamic Republic of            31.	 DoD, response to SIGAR data call, 7/18/2012 and 7/20/2012;
       Afghanistan,” 5/1/2012.                                                  P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.
3.	    Chicago Summit Declaration on Afghanistan, 5/21/2012.               32.	 DoD, responses to SIGAR data call, 7/18/2012 and 4/19/2012.
4.	    Chicago Summit Declaration on Afghanistan, 5/ 21/2012.              33.	 TFBSO, “About TFBSO,” accessed 10/20/2011; DoD, response
5.	    NATO, “Transition to Afghan Lead: Inteqal,” 5/16/2012.                   to SIGAR data call, 7/22/2011.
6.	    Chicago Summit Declaration on Afghanistan, 5/ 21/2012.              34.	 See Appendix B of this report.
7.	    DoS, Remarks by Secretary of State Hillary Clinton,                 35.	 DoD, response to SIGAR data call, 7/2/2012.
       “Intervention at the Tokyo Conference on Afghanistan,”              36.	 DoD, responses to SIGAR data call, 7/2/2012 and 3/30/2012.
       7/8/2012.                                                           37.	 DoD, “Drug Interdiction and Counter-Drug Activities, Defense
8.	    Tokyo Mutual Accountability Framework, 7/8/2012.                         FY 2009 Supplemental Request Drug Interdiction and
9.	    World Bank, “Afghanistan in Transition: Looking Beyond                   Counterdrug Activities,” accessed 4/13/2010.
       2014,” 5/2012, p. 49.                                               38.	 DoD OIG, “Independent Auditor’s Report on the DoD
10.	   World Bank, “Afghanistan in Transition: Looking Beyond                   FY 2011 Detailed Accounting Report of the Funds Obligated
       2014,” 5/2012, pp. 22, 47.                                               for National Drug Control Program Activities,” Report No.
11.	   World Bank, “Afghanistan in Transition: Looking Beyond                   DODIG-2012-04, 1/30/2012.
       2014,” p. 57.                                                       39.	 DoD, response to SIGAR data call, 6/26/2012.
12.	   World Bank, “Afghanistan in Transition: Looking Beyond              40.	 OMB, response to SIGAR vetting, 7/16/2009.
       2014,” 5/2012, p. 61.                                               41.	 USAID, response to SIGAR data call,6/28/2012.
13.	   World Bank, “Afghanistan in Transition: Looking Beyond              42.	 USAID, responses to SIGAR data call, 6/28/2012 and 4/3/2012.
       2014,” 5/2012, p. 47.                                               43.	 DoS, response to SIGAR data call, 10/13/2009.
14.	   World Bank, “Afghanistan in Transition: Looking Beyond              44.	 DoS, response to SIGAR data call, 7/13/2012.
       2014,” 5/2012, p. 49.                                               45.	 DoS, responses to SIGAR data call, 7/13/2012 and 4/6/2012.
15.	   World Bank, “Afghanistan in Transition: Looking Beyond              46.	 SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.
       2014,” p. 44.                                                       47.	 World Bank, “ARTF: Administrator’s Report on Financial
16.	   CRS, Report for Congress, “U.S. Occupation Assistance: Iraq,             Status as of June 20, 2012,” p. 4.
       Germany, and Japan Compared,” Report RL3331, 3/23/2006,             48.	 World Bank, “ARTF: Administrator’s Report on Financial
       p. 1, accessed 7/15/2012. The CRS reported that post-war aid             Status as of June 20, 2012,” p. 1.
       to West Germany totaled $29.3 billion, expressed in 2005 dol-       49.	 World Bank, “ARTF: Administrator’s Report on Financial
       lars (the most recent year preceding its report). Applying a             Status as of June 20, 2012,” p. 4.
       purchasing-power conversion factor to that figure, the total        50.	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,
       1946–1952 postwar aid to West Germany was still equivalent               p. 16.
       to less than $35 billion in 2011 dollars. See http://oregonstate.   51.	 World Bank, “ARTF: Administrator’s Report on Financial
       edu/cla/polisci/sites/default/files/faculty-research/sahr/infla-         Status as of June 20, 2012,” p. 6.
       tion-conversion/pdf/cv2011.pdf.                                     52.	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,
17.	   P.L. 111-32, “Supplemental Appropriations Act 2009,”                     p. 16.
       6/24/2009.                                                          53.	 World Bank, “ARTF: Administrator’s Report on Financial
18.	   DoD, response to SIGAR vetting, 7/20/2009.                               Status as of June 20, 2012,” p. 6.
19.	   See Appendix B of this report.                                      54.	 EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.
20.	   DoD, response to SIGAR data call, 7/16/2012.                        55.	 UNDP, “LOTFA Phase VI Annual Progress Report 2011,” Table
21.	   DoD, responses to SIGAR data call, 7/16/2012 and 4/11/2012.              1; SIGAR analysis of UNDP’s quarterly and annual LOTFA
22.	   DoD OIG, “Distribution of Funds and the Validity of                      reports, 7/20/2012.
       Obligations for the Management of the Afghanistan Security          56.	 UNDP, “LOTFA Phase VI Annual Progress Report 2011,”
       Forces Fund - Phase I,” 11/5/2007, p. 2.                                 Table 2.
23.	   DoD, response to SIGAR data call, 7/16/2012.                        57.	 UNDP, “LOTFA Phase VI Annual Progress Report 2011,”
24.	   DoD, response to SIGAR data call, 7/16/2012.                             Table 1; SIGAR analysis of UNDP’s quarterly and annual
25.	   DoD, Financial Management Regulation, “Commander’s                       LOTFA reports, 7/20/2012.
       Emergency Response Program: Vol. 12, Ch. 27,” 1/2009,               58.	 UNDP, “LOTFA Phase VI Annual Progress Report 2011,”
       p. 27-3.                                                                 Table 1; SIGAR analysis of UNDP’s quarterly and annual
26.	   USFOR-A, “Commander’s Emergency Response Program                         LOTFA reports, 7/20/2012.
       (CERP) SOP,” USFOR-A Pub 1-06, 2/2011, p. 35; P.L. 112-74,          59.	 See Appendix B; DoD, response to SIGAR data call, 7/16/2012.
       12/23/2011.                                                         60.	 NATO, “Chicago Summit Declaration on Afghanistan,”
27.	   See Appendix B of this report.                                           5/21/2012.
28.	   DoD, response to SIGAR data call, 7/16/2012.                        61.	 NATO, “Chicago Summit Declaration on Afghanistan,”
29.	   DoD, responses to SIGAR data call, 7/16/2012 and 4/18/2012.              5/21/2012.




REPORT TO THE UNITED STATES CONGRESS            I   MONTH 30, 2012                      177
                                                       ENDNOTES




62.	 NATO, “Chicago Summit Declaration on Afghanistan,”                103.	 CSTC-A, response to SIGAR data call, 7/2/2012.
      5/21/2012.                                                       104.	 CSTC-A, response to SIGAR data call, 7/2/2012; CSTC-A,
63.	 DoD, Reprogramming Action, DoD Serial Number FY 12-17                   response to SIGAR vetting, 7/16/2012.
      PA, 5/30/2012, accessed 7/10/2012.                               105.	 CSTC-A, response to SIGAR data call, 7/2/2012.
64.	 DoD, response to SIGAR data call, 7/5/2012.                       106.	 DoD, response to SIGAR data call, 7/16/2012.
65.	 UN Secretary-General, “The Situation in Afghanistan and Its       107.	 UN Secretary-General, “The Situation in Afghanistan and Its
      Implications for International Peace and Security,” 6/20/2012,         Implications for International Peace and Security,” 6/20/2012,
      p. 4.                                                                  p. 6.
66.	 DoD, response to SIGAR data call, 7/5/2012.                       108.	 ISAF, ANP PERSTAT, 6/21/2012.
67.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    109.	 DoD, response to SIGAR data call, 7/16/2012.
68.	 IJC, response to SIGAR data call, 7/2/2012.                       110.	 CSTC-A, response to SIGAR data call, 7/2/2012.
69.	 DoD OIG, “Assessment of U.S. Government and Coalition             111.	 DoD, response to SIGAR data call, 7/16/2012.
      Efforts to Develop the Logistics Sustainment Capability of the   112.	 CSTC-A, response to SIGAR data call, 7/2/2012.
      Afghan National Army,” DODIG-2012-028, 12/9/2011, p. 139.        113.	 DoD, response to SIGAR data call, 7/16/2012.
70.	 IJC, response to SIGAR data call, 7/2/2012.                       114.	 CSTC-A, response to SIGAR data call, 7/2/2012.
71.	 IJC, response to SIGAR data call, 7/2/2012.                       115.	 DoD, response to SIGAR data call, 7/16/2012.
72.	 CENTCOM, response to SIGAR data call, 7/1/2012.                   116.	 CSTC-A, response to SIGAR data call, 7/2/2012; Federal
73.	 NTM-A, “MoD/GS Assessment ACG-AD Jan–Mar 2012,” p. 3.                   Procurement Database System, Award W91CRB11C0053,
74.	 CSTC-A, response to SIGAR data call, 7/2/2012.                          accessed 7/5/2012.
75.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    117.	 CSTC-A, response to SIGAR data call, 7/2/2012.
76.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    118.	 CSTC-A, response to SIGAR data call, 7/2/2012.
77.	 UN Secretary-General, “The Situation in Afghanistan and Its       119.	 CSTC-A, response to SIGAR data call, 7/2/2012; CSTC-A,
      Implications for International Peace and Security,” 6/20/2012,         response to SIGAR vetting, 7/16/2012.
      pp. 4–5.                                                         120.	 NTM-A, “ANSF Literacy Nearly Tripled Since 2011,” 5/18/2012,
78.	 DoD, response to SIGAR data call, 7/16/2012.                            accessed 7/7/2012.
79.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    121.	 CSTC-A, response to SIGAR data call, 7/2/2012; CSTC-A,
80.	 CSTC-A, response to SIGAR data call, 7/2/2012.                          response to SIGAR vetting, 7/16/2012.
81.	 DoD, response to SIGAR data call, 7/16/2012.                      122.	 CSTC-A, response to SIGAR data call, 7/2/2012.
82.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    123.	 OSD, response to SIGAR data call, 4/3/2011.
83.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    124.	 DoD, “Department of Defense Budget, Fiscal Year 2012,”
84.	 CSTC-A, response to SIGAR data call, 7/2/2012.                          2/2011, p. 82; OSD, response to SIGAR data call, 4/3/2011.
85.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    125.	 CENTCOM, response to SIGAR data call, 7/2/2012.
86.	 DoD, response to SIGAR data call, 7/16/2012.                      126.	 CENTCOM, response to SIGAR data call, 7/2/2012.
87.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    127.	 DoS, PM/WRA, response to SIGAR data call, 6/27/2012.
88.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    128.	 DoS, PM/WRA, response to SIGAR data call, 6/27/2012.
89.	 DoD, “Justification for FY 2013 Overseas Contingency              129.	 DoS, PM/WRA, response to SIGAR data call, 6/27/2012.
      Operations, Afghanistan Security Forces Fund (ASFF),”            130.	 See Appendix B.
      2/2012, pp. 8­–17.                                               131.	 UNODC, “Afghan Opium Prices Soar as Production Rises,”
90.	 DoD, response to SIGAR data call, 7/16/2012.                            1/12/2012, accessed 6/25/2012.
91.	 CSTC-A, response to SIGAR data call, 7/2/2012; CSTC-A,            132.	 UNODC, “Afghanistan Opium Survey 2012,” 4/2012, p. 1.
      response to SIGAR vetting, 7/16/2012.                            133.	 UNODC, “Afghanistan Opium Survey 2012,” 4/2012, p. 7.
92.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    134.	 UNODC, “Afghanistan Opium Survey 2012,” 4/2012, p. 13.
93.	 DoD, “Justification for FY 2013 Overseas Contingency              135.	 UN Secretary-General, “The Situation in Afghanistan and Its
      Operations, Afghanistan Security Forces Fund (ASFF),”                  Implications for International Peace and Security,” 6/20/2012,
      2/2012, pp. 5­–6.                                                      p. 13.
94.	 DoD, response to SIGAR data call, 7/16/2012.                      136.	 UNODC, “Afghanistan Opium Survey 2012,” 4/2012, p. 8.
95.	 CSTC-A, response to SIGAR data call, 6/26/2012.                   137.	 UNODC, “Afghanistan Opium Survey 2012,” 4/2012, p. 13.
96.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    138.	 UNODC, “Afghanistan Opium Survey 2012,” 4/2012, pp. 1, 12.
97.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    139.	 CSTC-A, response to SIGAR data call, 6/26/2012.
98.	 NTM-A, “Regional Military Training Center transitions to ANA      140.	 UNODC, “Opium Eradication Programme Trims Production in
      hands,” 7/5/2012, accessed 7/20/2012.                                  Helmand, Kandahar,” 5/8/2012, accessed 7/12/2012.
99.	 CSTC-A, response to SIGAR data call, 7/2/2012.                    141.	 CSTC-A, response to SIGAR data call, 6/26/2012.
100.	 NTM-A, “ANSF literacy nearly tripled since 2011,” 5/18/2012,     142.	 CSTC-A, response to SIGAR data call, 7/2/2012.
      accessed 7/7/2012.                                               143.	 UNODC, “UNODC, Japan, and the Russian Federation
101.	 CSTC-A, response to SIGAR data call, 7/2/2012.                         Launch Joint Project To Assist Afghanistan in Tackling Drug
102.	 NTM-A, “ANSF literacy nearly tripled since 2011,” 5/18/2012,           Trafficking,” 6/18/2012, accessed 6/22/2012.
      accessed 7/7/2012.                                               144.	 DoD, response to SIGAR data call, 6/26/2012.




                                                 178                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                          ENDNOTES




145.	 UNODC, “Afghanistan Opium Survey 2011,” 12/2011, p. 1.              181.	 DoS, response to SIGAR data call, 7/5/2012.
146.	 See Appendix B.                                                     182.	 IEC, “Press Release on Completion of Electoral Law Draft,”
147.	 “Enduring Strategic Partnership Agreement Between                         6/19/2012.
      the United States of America and the Islamic Republic of            183.	 USAID, response to SIGAR data call, 6/28/2012.
      Afghanistan,” 5/2/2012, pp. 1, 2, 8.                                184.	 DoS, response to SIGAR data call, 7/5/2012.
148.	 UN Secretary-General, “The Situation in Afghanistan and its         185.	 UN Secretary-General, “The Situation in Afghanistan and its
      Implications for International Peace and Security,” p. 4.                 Implications for International Peace and Security,” p. 2.
149.	 White House, “Enduring Strategic Partnership Agreement              186.	 USAID, response to SIGAR data call, 6/28/2012.
      Between the United States of America and the Islamic                187.	 USAID, response to SIGAR data call, 6/28/2012.
      Republic of Afghanistan,” 5/2/2012, pp. 1, 2, 8.                    188.	 DoS, response to SIGAR data call, 7/5/2012.
150.	 UNAMA, “Afghanistan, China Strengthen Bilateral Ties,”              189.	 DoS, response to SIGAR data call, 7/5/2012.
      6/12/2012; UN Secretary-General, “The Situation in Afghanistan      190.	 DoS, response to SIGAR data call, 7/5/2012.
      and its Implications for International Peace and Security,” p. 4.   191.	 DoS, response to SIGAR data call, 7/5/2012.
151.	 UNAMA, “Afghanistan, China Strengthen Bilateral Ties,”              192.	 DoS, response to SIGAR data call, 7/5/2012.
      6/12/2012.                                                          193.	 DoS, response to SIGAR data call, 7/5/2012.
152.	 Office of the President, GIRoA, “Afghanistan Welcomes               194.	 DoS, response to SIGAR data call, 7/5/2012.
      Financial Pledges by Germany and Australia,” 5/16/2012;             195.	 DoS, responses to SIGAR data call, 7/5/2012, 7/12/2012.
      Office of the President, “Afghanistan, Australia Sign Long-         196.	 DoS, response to SIGAR data call, 7/5/2012.
      Term Partnership Agreement, 5/21/2012.                              197.	 DoS, response to SIGAR data call, 7/5/2012.
153.	 Office of the President, GIRoA, “Afghanistan and Turkey to          198.	 DoD, response to SIGAR data call, 7/6/2012.
      Sign Strategic Partnership Deal,” 6/15/2012.                        199.	 DoS, response to SIGAR data call, 7/5/2012.
154.	 USAID, “The Tokyo Declaration Partnership for Self-Reliance         200.	 DoD, response to SIGAR data call, 7/6/2012.
      in Afghanistan, From Transition to Transformation,” 7/8/2012.       201.	 DoS, response to SIGAR data call, 7/5/2012.
155.	 DoS, response to SIGAR data call, 7/5/2012.                         202.	 DoD, response to SIGAR data call, 7/6/2012.
156.	 UN Secretary-General, “The Situation in Afghanistan and its         203.	 DoS, response to SIGAR data call, 7/5/2012.
      Implications for International Peace and Security,” p. 2.           204.	 USAID, response to SIGAR data call, 6/28/2012;USAID,
157.	 UNAMA, “UNAMA Welcomes Appointment of New High                            response to SIGAR vetting, 7/16/2012.
      Peace Council Chairman,” 4/14/2012; UN Secretary-General,           205.	 USAID, response to SIGAR data call, 6/28/2012; USAID,
      “The Situation in Afghanistan and its Implications for                    response to SIGAR vetting, 7/16/2012.
      International Peace and Security,” p. 2.                            206.	 USAID, response to SIGAR data call, 6/28/2012.
158.	 UN Secretary-General, “The Situation in Afghanistan and its         207.	 USAID, response to SIGAR data call, 6/28/2012; USAID,
      Implications for International Peace and Security,” p. 2.                 response to SIGAR vetting, 7/16/2012.
159.	 UN Secretary-General, “The Situation in Afghanistan and its         208.	 Treasury, response to SIGAR data call, 7/2/2012.
      Implications for International Peace and Security,” p. 2.           209.	 Treasury, response to SIGAR data call, 7/2/2012.
160.	 DoS, responses to SIGAR data call, 7/5/2012 and 3/30/2012.          210.	 Treasury, response to SIGAR data call, 12/30/2011.
161.	 DoS, response to SIGAR data call, 7/5/2012.                         211.	 Treasury, response to SIGAR data call, 7/2/2012.
162.	 DoS, response to SIGAR data call, 7/5/2012.                         212.	 Treasury, response to SIGAR data call, 7/2/2012.
163.	 DoS, response to SIGAR data call, 7/5/2012.                         213.	 Treasury, response to SIGAR data call, 7/2/2012.
164.	 DoS, response to SIGAR data call, 7/5/2012.                         214.	 DoS/INL, response to SIGAR data call, 7/6/2012.
165.	 DoS, response to SIGAR data call, 7/5/2012.                         215.	 DoS/INL, response to SIGAR data call, 7/6/2012.
166.	 DoS, response to SIGAR data call, 7/5/2012.                         216.	 DoS/INL, response to SIGAR data call, 7/6/2012.
167.	 DoS, response to SIGAR data call, 7/5/2012.                         217.	 DoS/INL, response to SIGAR data call, 7/6/2012.
168.	 DoS, response to SIGAR data call, 7/5/2012.                         218.	 DoS/INL, response to SIGAR data call, 7/6/2012.
169.	 DoS, response to SIGAR data call, 7/5/2012.                         219.	 DoS/INL, response to SIGAR data call, 7/6/2012.
170.	 DoS, response to SIGAR data call, 7/5/2012.                         220.	 DoS/INL, response to SIGAR data call, 7/6/2012.
171.	 ISAF, “In Focus-Afghan Peace and Reintegration Program,”            221.	 UN Secretary-General, “The Situation in Afghanistan and its
      6/2012.                                                                   Implications for International Peace and Security,” p. 11.
172.	 DoS, response to SIGAR data call, 7/5/2012.                         222.	 DoS/INL, responses to SIGAR data call, 7/6/2012, 4/6/2012,
173.	 DoS, response to SIGAR data call, 7/5/2012.                               4/17/2012, and 7/19/2012; UNODC, “Afghanistan: UNODC
174.	 DoS, response to SIGAR data call, 7/5/2012.                               Helps Improve Justice System,” 12/17/2009.
175.	 DoS, response to SIGAR data call, 7/5/2012.                         223.	 DoS, “July 7-9 Tokyo Conference on Afghanistan,” 7/8/2012.
176.	 DoS, response to SIGAR data call, 7/5/2012.                         224.	 DoS/INL, response to SIGAR data call, 7/7/2012.
177.	 DoS, response to SIGAR data call, 7/5/2012.                         225.	 USAID, response to SIGAR data call, 6/28/2012.
178.	 DoS, response to SIGAR data call, 7/5/2012.                         226.	 USAID, response to SIGAR data call, 6/28/2012.
179.	 DoS, response to SIGAR data call, 7/5/2012.                         227.	 USAID, response to SIGAR data call, 6/28/2012.
180.	 Fund for Peace, “Failed States Index, 2012,” 6/18/2012,             228.	 USAID, response to SIGAR data call, 6/28/2012.
      pp. 3, 4, 17.                                                       229.	 DoD, response to SIGAR data call, 7/2/2012.




REPORT TO THE UNITED STATES CONGRESS           I   MONTH 30, 2012                      179
                                                             ENDNOTES




230.	   DoS, response to SIGAR data call, 7/5/2012.                           271.	 Committee to Protect Journalists, “Getting Away with
231.	   DoD, response to SIGAR data call, 7/2/2012.                                 Murder,” 4/17/2012.
232.	   DoS, response to SIGAR data call, 7/5/2012.                           272.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
233.	   DoS, response to SIGAR data call, 7/5/2012.                                 Volume 1,” 5/2012, accessed 7/12/2012.
234.	   DoS, response to SIGAR data call, 7/5/2012; UN Secretary-             273.	 CSIS, “Afghanistan: The Failing Economics of Transition,”
        General, “The Situation in Afghanistan and its Implications for             6/26/2012, accessed 7/18/2012.
        International Peace and Security,” p. 11.                             274.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
235.	   DoS, response to SIGAR data call, 7/5/2012.                                 Volume 1,” 5/2012, accessed 7/12/2012.
236.	   DoS, response to SIGAR data call, 7/5/2012.                           275.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
237.	   DoS, response to SIGAR data call, 7/5/2012.                                 Volume 1,” 5/2012, accessed 7/12/2012;World Bank, “World
238.	   DoS, response to SIGAR data call, 7/5/2012.                                 Bank Development Indicators 2012 Now Available,” 4/19/2012,
239.	   DoD, response to SIGAR data call, 7/2/2012.                                 accessed 7/13/2012.
240.	   DoD, response to SIGAR data call, 7/2/2012.                           276.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
241.	   DoD, response to SIGAR data call, 7/2/2012.                                 Volume 1,” 5/2012, accessed 7/12/2012.
242.	   Treasury, response to SIGAR data call, 7/2/2012.                      277.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
243.	   USAID, response to SIGAR data call, 6/28/2012.                              Volume 1,” 5/2012, accessed 7/12/2012.
244.	   USAID, response to SIGAR data call, 6/28/2012.                        278.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
245.	   USAID, response to SIGAR data call, 6/28/2012.                              Volume 1,” 5/2012, accessed 7/12/2012.
246.	   USAID, response to SIGAR data call, 6/28/2012.                        279.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
247.	   USAID, response to SIGAR data call, 6/28/2012.                              Volume 1,” 5/2012, accessed 7/12/2012.
248.	   USAID, response to SIGAR data call, 6/28/2012.                        280.	 DoS, response to SIGAR data call, 7/5/2012.
249.	   DoS, response to SIGAR data call, 7/5/2012.                           281.	 USAID, response to SIGAR data call, 6/28/2012.
250.	   UN Secretary-General, “The Situation in Afghanistan and its           282.	 Treasury, response to SIGAR data call, 7/2/2012.
        Implications for International Peace and Security,” p. 9.             283.	 USAID, response to SIGAR data call, 6/28/2012.
251.	   DoS/INL, response to SIGAR vetting, 7/16/2012.                        284.	 USAID, “Fact Sheet: Land Reform in Afghanistan,” 6/2011,
252.	   U.S. Embassy Kabul, “The United States Condemns the Public                  accessed 7/8/2012.
        Execution of a Woman by the Taliban in Parwan,” 7/8/2012.             285.	 USAID, response to SIGAR data call, 6/28/2012.
253.	   DoS, “2012 Trafficking in Persons Report,” 6/19/2012, p. 62.          286.	 USAID, “USAID Holds First National Conference on Women’s
254.	   DoS, “2012 Trafficking in Persons Report,” 6/19/2012, p. 62.                Inheritance and Land Rights in Afghanistan,” 5/8/2012,
255.	   DoS, “2012 Trafficking in Persons Report,” 6/19/2012, p. 62.                accessed 7/8/2012.
256.	   DoS, “2012 Trafficking in Persons Report,” 6/19/2012, p. 62.          287.	 USAID, “Second Regional Conference on Women’s
257.	   DoS, “2012 Trafficking in Persons Report,” 6/19/2012, p. 62.                Inheritance and Land Rights Held in Jalalabad,” 7/5/2012,
258.	   AIHRC, “Update to the Report of AIHRC and Open Society on                   accessed 7/8/2012.
        Monitoring NDS Facilities”                                            288.	 USAID, “Task Force Formed to Address Land Rights for
259.	   AIHRC, “Torture, Transfers, and Denial of Due Process: The                  Women,” 12/11/2011, accessed 7/8/2012; USAID, response to
        Treatment of Conflict-Related Detainees in Afghanistan,” 3/17/2012,         SIGAR data call, 6/28/2012.
        p. 2.                                                                 289.	 USAID, response to SIGAR data call, 6/28/2012.
260.	   DoS, response to SIGAR data call, 7/5/2012.                           290.	 USAID, response to SIGAR data call, 6/28/2012.
261.	   UNHCR, “Afghan Conference: Delegates Endorse Solutions                291.	 IMF, Press Release 12/245, “IMF Executive Board Completes
        Strategy for Refugees,” 5/3/2012; DoS/PRM, response to                      First Review Under the Extended Credit Facility Arrangement
        SIGAR vetting, 7/13/2012.                                                   for the Islamic Republic of Afghanistan, Approves US$18.2
262.	   DoS, response to SIGAR data call, 7/5/2012.                                 Million Disbursement,” 6/29/2012, accessed 7/3/2012.
263.	   DoS, response to SIGAR data call, 7/5/2012; DoS/PRM,                  292.	 Treasury, response to SIGAR data call, 7/2/2012.
        response to SIGAR vetting, 7/13/2012.                                 293.	 IMF, Press Release 12/245, “IMF Executive Board Completes
264.	   UNHCR, “Afghan Conference: Delegates Endorse Solutions                      First Review Under the Extended Credit Facility Arrangement
        Strategy for Refugees,” 5/3/2012.                                           for the Islamic Republic of Afghanistan, Approves US$18.2
265.	   UNHCR, “Afghan Conference: Delegates Endorse Solutions                      Million Disbursement,” 6/29/2012, accessed 7/3/2012.
        Strategy for Refugees,” 5/3/2012.                                     294.	 GIRoA, “Kabul Bank Case Referred to Court,” 6/2/2012,
266.	   DoS, response to SIGAR data call, 7/5/2012; DoS/PRM,                        accessed 6/20/2012.
        response to SIGAR vetting, 7/13/2012.                                 295.	 Treasury, response to SIGAR data call, 7/2/2012; IMF, “First
267.	   DoS, response to SIGAR data call, 7/5/2012; DoS/PRM,                        Review Under the Extended Credit Facility Arrangement,
        response to SIGAR vetting, 7/13/2012.                                       Request for Waiver of Nonobservance of a Performance
268.	   HRW, “Afghanistan: Draft Law Threatens Media Freedom,”                      Criterion, Modification of Performance Criteria, and
        7/2/2012.                                                                   Rephasing of Disbursements,” 6/19/2012, accessed 7/12/2012.
269.	   UNAMA, “Afghan Journalists Discuss Media Law and Prepare              296.	 DoS, response to SIGAR data call, 7/5/2012; GIRoA, Office of
        Consolidated Comments for Amendments,” 6/27/2012.                           the President, “Economic Meeting Assesses Kabul Bank Loan
270.	   USAID, response to SIGAR vetting, 7/16/2012.                                Recovery Progress,” 4/3/2012, accessed 7/5/2012.




                                                      180                     SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                      ENDNOTES




297.	 Treasury, response to SIGAR data call, 7/2/2012.                327.	   TFBSO, response to SIGAR data call, 7/2/2012.
298.	 Treasury, response to SIGAR data call, 7/2/2012.                328.	   USAID, response to SIGAR data call, 6/28/2012.
299.	 MoF, “Meeting Regarding Kabul Bank Issue,” 6/9/2012,            329.	   USAID, response to SIGAR data call, 6/28/2012.
      accessed 6/20/2012; Treasury, response to SIGAR data call,      330.	   USAID, response to SIGAR data call, 6/28/2012.
      7/2/2012.                                                       331.	   USAID, response to SIGAR data call, 6/28/2012.
300.	 MoF, “Meeting Regarding Kabul Bank Issue,” 6/9/2012,            332.	   USAID, response to SIGAR data call, 6/28/2012.
      accessed 6/20/2012.                                             333.	   USAID, response to SIGAR data call, 6/28/2012.
301.	 Treasury, response to SIGAR data call, 7/2/2012.                334.	   SIGAR, “Quarterly Report to the Congress,” 4/2012, p. 120.
302.	 DoS, response to SIGAR data call, 7/5/2012.                     335.	   MoM, “Afghanistan Announces Qualification of Eight Bidders
303.	 Wolesi Jirga, “The Lower House Hears the Finance Minister;              for Oil and Gas Tender,” 7/4/2012, accessed 7/6/2012.
      Central Bank’s Director, and Kabul Bank’s Settle Director       336.	   MoM, “Afghanistan Announces Qualification of Eight Bidders for
      About the Kabul Bank’s Loans,” 5/23/2012, accessed 6/21/2012.           Oil and Gas Tender,” 7/4/2012, accessed 7/6/2012; MoM, “Seismic
304.	 Pajhwok, “Kabul Bank Stakeholders’ Properties in UAE Up                 Data Acquisition Completed in Afghanistan,” 5/8/2012, accessed
      for Sale,” 5/23/2012, accessed 6/21/2012; Tolo TV, “Names of            7/6/2012.
      Major Afghan Bank Debtors Made Public,” 5/23/2012, accessed     337.	   TFBSO, response to SIGAR data call, 7/2/2012.
      7/11/2012.                                                      338.	   TFBSO, response to SIGAR data call, 7/2/2012.
305.	 IMF, “First Review Under the Extended Credit Facility           339.	   ADB, “Historic Agreement Brings Long-Awaited TAPI Pipeline
      Arrangement, Request for Waiver of Nonobservance of a                   Closer to Reality,” 5/23/2012, accessed 7/14/2012.
      Performance Criterion, Modification of Performance Criteria,    340.	   DoS, “State Department Holds Regular News Briefing, as
      and Rephasing of Disbursements,” 6/19/2012, accessed                    Released by the State Department,” 5/23/2012, accessed
      7/12/2012.                                                              7/12/2012; SIGAR’s April 2012 QR, pg. 118.
306.	 Treasury, response to SIGAR data call, 7/2/2012.                341.	   ADB, “Historic Agreement Brings Long-Awaited TAPI Pipeline
307.	 DoS, response to SIGAR data call, 7/5/2012.                             Closer to Reality,” 5/23/2012, accessed 7/14/2012; SIGAR’s
308.	 Treasury, response to SIGAR data call, 7/2/2012.                        April 2012 QR, pg. 118.
309.	 DAB, “Afghanistan Institute of Banking and Finance Received     342.	   SIGAR, “Quarterly Report to the Congress,” 1/2012,
      a Grant Amount of 1.2 Million USD from USAID/FAIDA,”                    pp. 124–125.
      accessed 6/21/2012; DAB, “Project Proposal for Afghanistan      343.	   USAID, response to SIGAR data call, 6/28/2012.
      Institute of Banking and Finance,” 3/29/2009, accessed          344.	   USAID, response to SIGAR data call, 6/28/2012; USAID,
      6/21/2012.                                                              “Partnership, Progress, Perseverance,” 3/29/2012, accessed
310.	 DAB, “Afghanistan Institute of Banking and Finance Received             7/5/2012.
      a Grant Amount of 1.2 million USD from USAID/FAIDA,”            345.	   USAID, “Partnership, Progress, Perseverance,” 3/29/2012,
      accessed 6/21/2012;                                                     accessed 7/5/2012.
311.	 Treasury, response to SIGAR data call, 7/2/2012.                346.	   USAID, response to SIGAR data call, 6/28/2012.
312.	 Treasury, response to SIGAR data call, 7/2/2012.                347.	   USAID, response to SIGAR data call, 6/28/2012.
313.	 DoS, response to SIGAR data call, 7/5/2012.                     348.	   USAID, response to SIGAR data call, 6/28/2012.
314.	 USAID, response to SIGAR data call, 6/28/2012.                  349.	   USAID, response to SIGAR data call, 6/28/2012.
315.	 USAID, “The Mobile Money Contest to Tap into Afghan             350.	   USAID, response to SIGAR data call, 6/28/2012.
      Students’ Talents,” 4/22/2012, accessed 6/18/2012.              351.	   USAID, “Afghanistan Workforce Development Program
316.	 USAID, “Mobile Money Contest Rewards Afghan Students                    (AWDP),” accessed 7/5/2012.
      Talents,” 7/9/2012, accessed 7/10/2012.                         352.	   USAID, response to SIGAR data call, 6/28/2012.
317.	 USAID, response to SIGAR data call, 6/28/2012.                  353.	   USAID, response to SIGAR data call, 6/28/2012.
318.	 USAID, response to SIGAR data call, 6/28/2012.                  354.	   CSO, “Afghanistan Multiple Indicator Cluster Survey
319.	 USAID, response to SIGAR data call, 6/28/2012.                          2011/2011,” 6/2012, accessed 7/10/2012.
320.	 USDA, “Agriculture in Afghanistan Overview,” accessed           355.	   CSO, “Afghanistan Multiple Indicator Cluster Survey
      7/17/2012.                                                              2011/2011,” 6/2012, accessed 7/10/2012.
321.	 FEWS Net, “Afghanistan Food Security Outlook Update,”           356.	   CSO, “Afghanistan Multiple Indicator Cluster Survey
      6/2012, accessed 7/13/2012; FEWS Net, “Afghanistan Price                2011/2011,” 6/2012, accessed 7/10/2012.
      Bulletin,” 7/2012, accessed 7/13/2012.                          357.	   Polio Global Eradication Initiative, “Polio This Week,”
322.	 FEWS Net, “Afghanistan Food Security Outlook Update,”                   7/4/2012, accessed 7/11/2012.
      6/2012, accessed 7/13/2012.                                     358.	   MoPH, “Dr. Dalil Elected as Vice President of World Health
323.	 WFP, “Afghanistan Market Price Bulletin Supplement to June              Assembly,” 5/27/2012, accessed 7/11/2012.
      2012 Issue,” 6/2012, accessed 7/13/2012.                        359.	   MoPH, “Dr. Dalil Elected as Vice President of World Health
324.	 WFP, “Afghanistan Market Price Bulletin Supplement to June              Assembly,” 5/27/2012, accessed 7/11/2012; Polio Global
      2012 Issue,” 6/2012, accessed 7/13/2012.                                Eradication Initiative, “Polio This Week,” 7/4/2012, accessed
325.	 USDA, “Rising Food Prices and Declining Food Security:                  7/11/2012.
      Evidence From Afghanistan,” 9/2011, accessed 7/19/2012.         360.	   USAID, “Partnership Eases Transit and Trade,” 5/13/2012,
326.	 DoS, response to SIGAR data call, 7/5/2012.                             accessed 7/13/2012.




REPORT TO THE UNITED STATES CONGRESS       I   MONTH 30, 2012                        181
                                                       ENDNOTES




361.	 WTO, “WTO Members Review Afghanistan’s Trade Regime,”             382.	 DoT, response to SIGAR data call, 6/27/2012.
      6/18/2012, accessed 7/13/2012.                                    383.	 DoT, response to SIGAR data call, 6/27/2012.
362.	 USAID, “Afghanistan on Fast Trade Track,” 6/26/2012,              384.	 U.S. Embassy Kabul, “U.S. Ambassador Karl Eikenberry
      accessed 7/13/2012.                                                     Remarks at Hairatan Rail Line Ceremony,” 5/25/2010, accessed
363.	 DoS, response to SIGAR data call, 7/5/2012.                             6/29/2012.
364.	 USIP, “Propping Up Confidence-Building: Today’s ‘Heart of Asia’   385.	 DoT, response to SIGAR data call, 6/27/2012.
      Kabul Conference,” 6/14/2012, accessed 6/25/2012; Embassy         386.	 SIGAR, “Quarterly Report to the Congress,” 1/2012, p. 127.
      of Afghanistan, Washington DC, “Heart of Asia Ministerial         387.	 DoT, response to SIGAR data call, 6/27/2012.
      Conference Declaration,” 6/14/2012, accessed 6/25/2012.           388.	 DoT, response to SIGAR data call, 6/27/2012.
365.	 Ministry of Foreign Affairs, People’s Republic of China,          389.	 DoT, response to SIGAR data call, 6/27/2012; USAID, “
      “Press Communiqué of the Meeting of the Council of the                  Afghanistan Parliamentary Assistance Program, Legislative
      Heads of the Member States of the Shanghai Cooperation                  Newsletter,” 5/7/2012, accessed 7/2/2012; UN Secretary-
      Organization,” 6/7/2012, accessed 6/25/2012.                            General, “The Situation in Afghanistan and Its Implications
366.	 Confederation of Indian Industry, “Delhi Investment Summit              for International Peace and Security,” 6/20/2012, p. 2, accessed
      on Afghanistan: About the Summit” accessed 6/25/2012.                   7/2/2012.
367.	 GIRoA, “Afghanistan and Turkey To Sign Strategic Partnership      390.	 DoT, response to SIGAR data call, 6/27/2012.
      Deal,” 6/15/2012, accessed 6/25/2012.                             391.	 DoT, response to SIGAR data call, 6/27/2012.
368.	 GIRoA, “Agreement Between the Government of the Islamic           392.	 DoS, response to SIGAR data call, 7/5/2012.
      Republic of Afghanistan and the Government of the Federal         393.	 USAID, response to SIGAR data call, 6/28/2012.
      Republic of Germany Concerning Bilateral Cooperation,”            394.	 TFBSO, response to SIGAR data call, 7/2/2012.
      5/16/2012, accessed 7/14/2012.                                    395.	 TFBSO, response to SIGAR data call, 7/2/2012.
369.	 GIRoA, “Comprehensive Long-term Partnership Between the           396.	 TFBSO, response to SIGAR data call, 7/2/2012.
      Islamic Republic of Afghanistan and Australia,” 5/20/2012,        397.	 TFBSO, response to SIGAR data call, 7/2/2012.
      accessed 7/14/2012.                                               398.	 DoS, response to SIGAR data call, 7/5/2012.
370.	 Kazakhstan Ministry of Foreign Affairs, “Kazakhstan and           399.	 WSIS Forum 2012, “WSIS Overview,” accessed 6/18/2012;
      Afghanistan Sign a Package of Agreements to Promote                     WSIS Forum 2012, “Invitation to the World Summit on
      Cooperation,” 6/15/2012, accessed 6/25/2012.                            the Information Society Forum 2012,” 3/20/2012, accessed
371.	 SCO, “China to Provide 150-mln-yuan Grant to Afghanistan                6/19/2012.
      during 2012,” 6/8/2012, accessed 6/25/2012.                       400.	 MCIT, “H.E. Amirzai Sangin Heads Afghan Delegation at WSIS
372.	 DoS, “G8 Summit 2012,” accessed 6/25/2012.                              Forum 2012 in Geneva,” 6/10/2012, accessed 6/19/2012;WSIS
373.	 White House, “Camp David Declaration,” 5/19/2012, accessed              Forum 2012, “Afghanistan Country Workshop,” 5/17/2012,
      6/25/2012.                                                              accessed 6/19/2012.
374.	 NATO, “Chicago Summit Declaration on Afghanistan,”                401.	 WSIS Forum 2012, “Afghanistan Country Workshop Outcome
      5/21/2012, accessed 7/14/2012.                                          Document,” 5/16/2012, accessed 6/19/2012.
375.	 GIRoA, “The Tokyo Declaration, Partnership for Self-Reliance      402.	 MCIT, “H.E Minister of Communications and Information
      in Afghanistan, From Transition to Transformation,” 7/8/2012,           Technology Visits Washington, D.C.,” 6/17/2012, accessed 6/18,
      accessed 7/14/2012.                                                     2012.
376.	 SIGAR, “Quarterly Report to the Congress, 1/2011, p. 94;          403.	 MCIT, “MCIT Signs 3G License Agreements with MTN,”
      SIGAR, “Quarterly Report to the Congress,” 4/2012, p. 124.              6/20/2012, accessed 6/20/2012.
377.	 DoS, response to SIGAR data call, 7/5/2012; SIGAR, “Quarterly     404.	 SIGAR, “Quarterly Report to the Congress,” 4/2012, p. 127.
      Report to the Congress,” 10/2011, p. 102.                         405.	 Roshan, “Roshan the First Operator to Reach 6 Million
378.	 DoS, response to SIGAR data call, 7/5/2012.                             Customers in Afghanistan,” 6/12/2012, accessed 6/19/2012.
379.	 DoT, response to SIGAR data call, 6/27/2012.                      406.	 Roshan, “Roshan and Western Union Launch International
380.	 DoT, response to SIGAR data call, 6/27/2012.                            Mobile Money Transfer Service in Afghanistan,” 5/21/2012;
381.	 DoT, response to SIGAR data call, 6/27/2012.                            accessed 6/19/2012.




                                                 182                    SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                        The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                        established the Special Inspector General for Afghanistan
                        Reconstruction (SIGAR).
                        SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                        independent and objective
                        •	 conduct and supervision of audits and investigations relating to the programs
                           and operations funded with amounts appropriated or otherwise made available
                           for the reconstruction of Afghanistan.
                        •	 leadership and coordination of, and recommendations on, policies designed
                           to promote economy, efficiency, and effectiveness in the administration of the
                           programs and operations, and to prevent and detect waste, fraud, and abuse
                           in such programs and operations.
                        •	 means of keeping the Secretary of State and the Secretary of Defense fully
                           and currently informed about problems and deficiencies relating to the
                           administration of such programs and operation and the necessity for and
                           progress on corrective action.
                        Afghanistan reconstruction includes any major contract, grant, agreement,
                        or other funding mechanism entered into by any department or agency of the
                        U.S. government that involves the use of amounts appropriated or otherwise made
                        available for the reconstruction of Afghanistan.

                        Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                        (For a list of the congressionally mandated contents of this report, see Section 3.)




                        Cover photo:                                                                                       Afghan children watch as U.S. Marines from Regimental Combat Team 6 survey the site of a future Afghan
                        A Provincial Reconstruction Team (PRT) member meets a villager in Farah province. PRTs are being   Local Police (ALP) station in Sangin, Helmand province, on May 31. The ALP, a community-watch initiative,
                        withdrawn from some provinces in anticipation of the 2014 drawdown in the U.S. and international   provides security in areas where the Afghan National Security Forces and ISAF do not have a significant presence.
                        presence. (USAF photo, SrA Rylan K. Albright)                                                      (USMC Photo, Sgt. Logan Pierce)




newJuly12Cover.indd 2                                                                                                                                                                                                                          7/19/2012 2:13:01 PM
                                                                                                             sigar
   SIGAR
   Special Inspector General                                                                                                  Special Inspector General for    July 30




                                    SIGAR | Quarterly Report to the United States Congress | July 30, 2012
   for Afghanistan Reconstruction
                                                                                                                              Afghanistan Reconstruction        2012
   2530 Crystal Drive
   Arlington, VA 22202

   www.sigar.mil




                                                                                                              Quarterly Report to the United States Congress




                                    3


newJuly12Cover.indd 1                                                                                                                                              7/19/2012 2:12:58 PM
